<html>
<title> - IMPLICATIONS FOR THE DEPARTMENT OF DEFENSE AND MILITARY OPERATIONS OF PROPOSALS TO REORGANIZE THE UNITED STATES INTELLIGENCE COMMUNITY</title>
<body><pre>[Senate Hearing 108-875]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-875
 
                   IMPLICATIONS FOR THE DEPARTMENT OF 
                   DEFENSE AND MILITARY OPERATIONS OF 
   PROPOSALS TO REORGANIZE THE UNITED STATES  INTELLIGENCE  COMMUNITY 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                         AUGUST 16 AND 17, 2004

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

24-495 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  





















                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  













                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Implications for the Department of Defense and Military Operations of 
    Proposals to Reorganize the United States Intelligence Community

                            august 16, 2004

                                                                   Page

Schlesinger, Dr. James R., Former Secretary of Defense, Chairman, 
  The Mitre Corporation..........................................     8
Carlucci, Frank C., Former Secretary of Defense, Chairman 
  Emeritus, The Carlyle Group....................................    17
Hamre, Dr. John J., Former Deputy Secretary of Defense, President 
  and Chief Executive Officer, Center for Strategic and 
  International Studies..........................................    20

 Implications for the Department of Defense and Military Operations of 
    Proposals to Reorganize the United States Intelligence Community

                            august 17, 2004

Rumsfeld, Hon. Donald H., Secretary of Defense; Accompanied by 
  Dr. Stephen A. Cambone, Under Secretary of Defense for 
  Intelligence...................................................    91
McLaughlin, Hon. John E., Acting Director of Central Intelligence   101
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....   107

                                 (iii)


 IMPLICATIONS FOR THE DEPARTMENT OF DEFENSE AND MILITARY OPERATIONS OF 
    PROPOSALS TO REORGANIZE THE UNITED STATES INTELLIGENCE COMMUNITY

                              ----------                              


                        MONDAY, AUGUST 16, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Sessions, Collins, Talent, Chambliss, Dole, Cornyn, 
Levin, Kennedy, Lieberman, Reed, Bill Nelson, E. Benjamin 
Nelson, Dayton, and Clinton.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Brian R. Green, professional staff 
member; Thomas L. MacKenzie, professional staff member; Paula 
J. Philbin, professional staff member; and Richard F. Walsh, 
counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; and Creighton Greene, professional 
staff member.
    Staff assistants present: Alison E. Brill, Andrew W. 
Florell, and Bridget E. Ward.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Darren M. Dick, assistant to 
Senator Roberts; Lindsey R. Neas, assistant to Senator Talent; 
Russell J. Thomasson, assistant to Senator Cornyn; Sharon L. 
Waxman, Mieke Y. Eoyang, and Jarret A. Wright, assistants to 
Senator Kennedy; Frederick M. Downey, assistant to Senator 
Lieberman; William K. Sutey, assistant to Senator Bill Nelson; 
Eric Pierce, assistant to Senator E. Benjamin Nelson; Mark 
Phillip Jones, assistant to Senator Dayton; and Andrew Shapiro, 
assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this afternoon to 
receive testimony from three very distinguished former public 
officeholders, all of whom have performed service that 
eminently qualifies them to provide to the committee, and to 
the Senate as a whole--indeed Congress--their views. Former 
Secretaries of Defense (SECDEF) James Schlesinger and Frank C. 
Carlucci, and former Deputy Secretary of Defense John Hamre are 
with us today. We welcome each of you back before this 
committee.
    Your views on the various recommendations for reform of the 
U.S. Intelligence Community, particularly the recommendations 
of the 9/11 Commission and the proposals of President Bush, are 
critical to this committee's understanding of how those 
recommended changes will impact the Department of Defense (DOD) 
and future military operations.
    I note that the committee also invited former SECDEF Harold 
Brown to testify. He was unable to join us today, but, without 
objection, I shall place his statment in this record. It is a 
very interesting letter. I'm not sure but I think it was 
provided to each of you.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. The findings and recommendations of the
9/11 Commission have captured the interest of our President, 
Congress, and perhaps most important, the American people. We 
are privileged to have with us today three individuals who have 
been attending a number of the hearings on behalf of the 
families, and, indeed, one who was a survivor of the attack. 
Mrs. Loreen Sellitto, of Families United to Bankrupt Terrorism, 
you lost your 23-year-old son in Tower 1; Mary Fletchet, Voices 
of September 11, you lost your 24-year-old son in Tower 2; and 
Rosemary Dillard, a critically-injured Pentagon survivor.
    The Commission has given the Nation--and, indeed Congress--
a roadmap, a series of recommendations to move forward. It's 
now the responsibility of Congress, working with the 
administration, to thoroughly examine and evaluate these 
recommendations and to enact those changes which will 
strengthen--and I emphasize ``strengthen''--our Intelligence 
Community (IC).
    The hearings we are conducting this week, together with the 
many hearings that other committees in both the Senate and the 
House have conducted or are conducting during the recess 
period, are an important part of this process. I commend the 
President, both for the swift action he has taken to embrace 
certain elements of the Commission's recommendation, and also 
for the many things he has done to make our Nation safer since 
the fateful day in September 2001.
    Of the 41 recommendations made by the Commission, some have 
already been enacted over the past several years, more will be 
done through executive order. As the Commission noted: ``in the 
nearly 3 years since September 11, Americans have been better 
protected against terrorist attack.'' But we must constantly, 
Congress and the administration, work to improve it. It's not 
going to stop. Such legislation as we may enact will have to 
continue year after year to work on it.
    Our focus, however, today is on the DOD. As our witnesses 
know, the DOD is home to the largest portion of the IC, and DOD 
is second only to the President as the largest consumer of the 
intelligence produced by the IC. We must not lose sight of 
these facts as we consider the way ahead. My overriding 
concern, as I examine changes to our IC, is, what changes will 
best help the warfighter--the soldier, the sailor, the airman, 
and the marine--who is fighting today and tomorrow and in the 
future to keep the terrorist threat far from our shores? How 
can we better provide the necessary intelligence to these 
warfighters?
    I think we can all agree that the U.S. Armed Forces are the 
finest in the world. One of the reasons for that is, we have a 
very professional military intelligence organization. An 
organization starts with the combat support agencies (CSA), the 
Defense Intelligence Agency (DIA), the National Security Agency 
(NSA), and the National Geospatial-Intelligence Agency (NGA), 
which feed through the regional joint intelligence centers to 
the unified commanders, and then to the lowest-level tactical 
unit on the ground. This intelligence structure is an essential 
part of our military operations.
    This has not always been the case. This committee was very 
deeply involved in overseeing the military actions in Iraq. It 
was not that long ago when national-level intelligence support 
to the warfighter was deemed by many of the professionals as 
somewhat inadequate. The military's experience during Operation 
Desert Storm was a watershed event. General Schwarzkopf 
testified before this committee, in June 1991, and told 
Congress that responsive national-level intelligence support 
for his mission in the first Persian Gulf War was 
``unsatisfactory.''
    Since then, the Department, together with other elements of 
the IC, has painstakingly built the intelligence and 
operational capabilities that we saw so convincingly 
demonstrated on the battlefields of Afghanistan and Iraq. As we 
examine ways to reform our IC in this process we're in now, we 
must ensure that we do nothing to break or degrade those 
aspects of the IC that are working well now.
    We simply must not make any changes which could, despite 
the best of intentions, hinder the ability of our troops to 
successfully fulfill their missions. As members of this 
committee, it is our responsibility to ensure that the quality 
and timeliness of intelligence support to our regional 
combatant commanders and our deployed forces, as well as our 
Nation's leaders, is in no way degraded. We, in this mission 
here, seek to make it better.
    The commissioners correctly pointed out that our 
intelligence structure failed to connect the dots, in terms of 
observing and then fusing together the indicators of the 
significant threat from al Qaeda in the recent years and months 
leading up to the actual attack on our Nation on September 11, 
2001. Most agree that the most significant problems were an 
unwillingness to share information, on the part of some 
agencies, and a structural inability to combine domestic and 
foreign intelligence. The recommended solution, however, is to 
recognize the entire community, not just to focus on parts that 
were unsatisfactory. We must examine the reasons for these 
dramatic proposals by the 9/11 Commission, and understand how 
the recommended solutions do or do not address the problems 
identified in the Commission's report.
    As I've considered the recommendations of the Commission 
and the unique challenges for our military forces in fighting 
the global war on terrorism, a number of questions come to 
mind. What is the essence of the problem: organization, budget 
authority, effective leadership, or the appointment authority? 
How can the National Intelligence Director (NID) and the SECDEF 
establish a more effective partnership to achieve success at 
all levels--national, regional, and tactical military 
operations?
    Under current law, the Director of Central Intelligence 
(DCI), certainly on paper, in the statute, has significant 
budgetary authority over all elements of the IC. How has this 
authority been exercised, or not been exercised, in the past? 
Is there a view that that current statutory authority is 
inadequate? What should be the role of the SECDEF, in the 
budgets and operations, as he now performs them, on behalf of 
the agencies which consume constantly about 85 percent of the 
National Foreign Intelligence Program? Were the SECDEF to be 
excluded in some means, how can we assure that the requirements 
of the Department, the combatant commanders, and the warfighter 
be addressed?
    These are sobering questions, and they're questions that 
require careful consideration. Clearly, we must seize this 
opportunity to act if we deem it necessary, but we also have a 
responsibility to ensure our actions are prudent, carefully 
analyzed, and thoroughly debated. Legislation of a similar 
importance to our national security structure, such as the 
National Security Act of 1947 and Goldwater-Nichols Act of 
1986, were considered very carefully over a period of time 
before Congress acted. I am confident that we, Congress, can 
act, if we deem it necessary, during this session of Congress.
    I have committed publicly that I, personally, am not 
engaged in a turf war with any other committee or any other 
part of this system. I, personally, will do everything I can, 
working with my colleagues here in the Senate, most 
particularly on this committee and the Intelligence Committee 
on which I am serving, to try and strengthen and to pass such 
legislation as we deem essential to achieve that strengthening.
    Thank you.
    Senator Levin?

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    First, let me join you in welcoming our witnesses today. 
They are very important witnesses. They've made major 
contributions to the security of this Nation. We're grateful to 
them for that service, as well as for being here.
    This is the first hearing of the Armed Services Committee 
on the recommendations of the 9/11 Commission and the 
implications of those recommendations for the DOD and military 
operations.
    We have suffered from massive intelligence failures in the 
last several years. First, as reported by the 9/11 Commission, 
the IC failed to share information necessary to connect the 
dots in a manner that might have warned us of the coming 
terrorist attacks. Second, as reported by the Intelligence 
Committee, much of the intelligence analysis and the evidence 
in the possession of the Central Intelligence Agency (CIA) 
leading up to the war in Iraq was overstated, or unsupported, 
or exaggerated, or mischaracterized.
    The 9/11 Commission performed a valuable service to the 
Nation in evaluating the intelligence problems preceding the 
attacks and recommending changes intended to improve our future 
intelligence and national security. Its identification of the 
huge failures of the intelligence agencies to share information 
with each other before September 11 is very similar to the 
findings of the joint investigation of the Senate and House 
Intelligence Committees that was released in July 2003. Those 
findings led to significant reform of the IC, including the 
creation of a new Terrorist Threat Integration Center (TTIC).
    The 9/11 Commission recommends the creation of a similar 
National Counterterrorism Center (NCTC) which, like the TTIC, 
would be responsible for the fusion and analysis of terrorist 
intelligence. The main difference between the proposed NCTC and 
the recently established TTIC would be the NCTC's additional 
duty of joint planning, including operational tasking of 
counterterrorist operations, including, apparently, those 
conducted by military forces under the DOD.
    The 9/11 Commission also recommended that we create the 
position of an NID within the Executive Office of the 
President, with authority over the national intelligence budget 
and the hiring and firing power over the leader of the national 
intelligence agencies, including agencies that reside within 
the DOD.
    Although the President has agreed to the establishment of 
an NID, he apparently does not support placing the proposed 
director in the Executive Office of the President, or giving 
him control over the national intelligence budget, or the 
hiring and firing power over the leader of the national 
intelligence agencies. Without such authority, the 9/11 
Commission argues that the new NID would not have the power 
needed to manage and oversee the IC effectively.
    Similarly, while the President has agreed to the 
establishment of the NCTC, he apparently does not support the 
Commission's recommendation that the head of the NCTC ``must 
have the right to concur in the choices of personnel to lead 
the operating entities,'' and that he should have the authority 
to jointly plan for and assign operational responsibilities to 
other agencies, and should be subject to Senate confirmation.
    The DOD has expressed concern that some of the proposals of 
the 9/11 Commission could make us less secure by confusing the 
chain of command for military operations and by separating 
warfighters from the tactical intelligence that they need on an 
urgent basis. Our committee has a special responsibility to 
weigh the impact of these proposals on the DOD and its military 
operations in light of these concerns. While we are clearly 
involved in a different kind of war than the Cold War, the 
lines between what might have been characterized in previous 
times as national or strategic intelligence and intelligence 
that is more tactical have become much less clear and distinct.
    In trying to draw such lines, we should not overlook the 
fact that the military is involved directly in the war on 
terrorism. Tactical intelligence requirements of the combatant 
commanders include having information on al Qaeda and Osama bin 
Laden and the Taliban. That intelligence is essential in the 
war on terrorism. Indeed, combatant commanders are heavily 
engaged in the part of the war on terrorism, and that 
intelligence, therefore, is not just ``national intelligence,'' 
it is clearly tactical, critically-needed-urgently 
intelligence.
    Regardless of what responsibilities that we choose to give 
to the proposed NID and the NCTC, and wherever we decide to 
place these offices on the organization chart, we must take 
steps to avoid the shaping and exaggeration of intelligence 
information to support the policies of an administration. 
Independent and objective intelligence is a matter of vital 
national importance. Objective, unvarnished intelligence should 
inform policy choices.
    Policy should not drive intelligence assessments. We must 
take steps in any reorganization to minimize the potential for 
politicizing intelligence. In that regard, placing the NID in 
the White House may be problematic, because this placement 
would seem to increase the likelihood of politicization rather 
than to decrease it.
    I look forward, Mr. Chairman, as I know all of us do, to 
hearing the witnesses' testimony. Again, we're very grateful to 
them.
    Chairman Warner. Thank you very much.
    Dr. Schlesinger, we invite you to lead off. I'd like to say 
to the committee that I had the privilege of knowing Dr. 
Schlesinger for many years. We served together in the DOD in 
1972, 1973, and 1974. I was fortunate to work with you when you 
were in DCI. In all these many years, we have maintained a 
close personal and professional contact, so it's particularly 
enjoyable to see you here today, and you have extraordinary 
experience on which to address these issues.

  STATEMENT OF DR. JAMES R. SCHLESINGER, FORMER SECRETARY OF 
            DEFENSE, CHAIRMAN, THE MITRE CORPORATION

    Dr. Schlesinger. Thank you very much, Mr. Chairman.
    Mr. Chairman, members of the committee, I am grateful to 
this committee for providing this opportunity to comment on the 
nature of intelligence and on the reforms proposed by the 9/11 
Commission.
    The 9/11 Commission has given us a detailed and revealing 
narrative of events leading up to September 11. It has also 
proposed a substantial reorganization of the IC, changes that 
do not logically flow from the problems that the Commission 
identified in its narrative. It is, therefore, incumbent upon 
us to examine the Commission's proposals with care, lest in our 
haste, we do more harm than good.
    The Commission has rightly observed that the events leading 
up to September 11 represented a failure of imagination, yet 
one should not assume that changing wiring diagrams is a sure-
fire way to stimulate imagination. Imagination always has an 
uphill fight in bureaucratic organizations. Creating an 
additional bureaucratic layer scarcely leads to bringing 
imagination to the top.
    Mr. Chairman, in these brief remarks I shall attempt to 
discuss the issue of intelligence reform under three headings. 
First, the inherent problems of intelligence. Second, why 
control of intelligence from outside of the DOD is a 
particularly bad idea. Given the evolution of U.S. technology 
and military strategy, it would not, following your remarks, 
Mr. Chairman, be of help to the warfighter. Third, to draw some 
implications for intelligence reform.
    First, intelligence is inherently a difficult business. 
Intelligence targets naturally seek to conceal what they are 
doing, and have a strong tendency to mislead you. A central 
problem in intelligence is to discern the true signals amidst 
the noise. The relevant signals may be very weak. Without 
question, there is a great deal of noise.
    Countless events are being recorded each day, and countless 
events are failing to be recorded, or are deliberately hidden. 
Moreover, false signals are deliberately planted. We may talk 
glibly about ``connecting the dots,'' but that is far easier ex 
post than ex ante. It is only in retrospect that one knows 
which dots were the relevant dots among the countless 
observations and the unobserved phenomena, and how those 
relevant dots should be connected. Prior to that, one has only 
a mass of observations and possible evidence subject to a 
variety of hypotheses and interpretations.
    Mr. Chairman, if I may?
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Dr. Schlesinger. These are the dots that we can observe in 
advance. They are of different phenomena, they are of different 
size. There are hidden dots amongst them. After the event, 
certain dots stand out, as would be these four dots. But not in 
advance. Then when we look back, we can easily see, there is 
Mohammed Atta, and here are one-way tickets, and there are four 
Arab-looking men in aisle seats, and here they paid cash. After 
the event, we can see that very clearly.
    I'll slip this up there for now. I'll come back to that 
later.
    Mr. Chairman, even if there are no preconceptions or 
initial biases, organizations will drift toward a structured 
theory of an issue under study. Thus, an organization, any 
organization, develops a concept of reality. Over time, that 
concept likely will harden into a conviction or mindset that 
discounts observations or evidence in conflict with the 
prevailing concept, and highlights observations that seem to be 
supportive as evidence. Evidence to the contrary is regularly 
shaken off. Thus, the quality of analysis becomes critical in 
providing good intelligence. That is why reducing competition 
in analysis is the wrong way to go, especially in quest of the 
false goal of eliminating duplication. Centralization of 
intelligence analysis is inherently a dubious objective when 
there is a wide range of consumers of intelligence with a 
variety of interests, responsibilities, and needs.
    Second, intelligence is increasingly interwoven with 
military operations. The advance of military technology and its 
embodiment in our military forces have made intelligence ever-
more integral to our military strategy and battlefield tactics 
and to this country's immense military advantage. That military 
advantage is reflected in such rubrics as information 
superiority, information dominance, battlefield awareness, and 
net-centric warfare. In brief, it relies upon rapid detection 
of targets through sensors, the rapid communication of those 
target locations to command centers, the assignment of 
precisely guided weapons to those targets at the discerned 
locations, and damage assessment, again communicated to command 
centers, to determine whether additional weapons delivered are 
necessary. In all of this, the accuracy, the immediacy, and the 
believability of intelligence are crucial.
    Thus, in recent decades, intelligence, when wedded to 
command, control, and communications (C\3\), has become the 
core of America's battlefield dominance and military 
superiority. In short, C-cubed-I (C\3\I) has, in itself, become 
almost a powerful weapons system. But commanders in the field 
must have confidence that the intelligence assets will be 
available with certainty and that information will be reliably 
and quickly disseminated. It is for this reason that plucking 
intelligence away from C\3\ has become increasingly unwise. 
C\3\ and intelligence should be designed and operated as an 
integrated whole.
    It has taken many years to persuade our military commanders 
that national assets will reliably be available to them in the 
event of conflict. This started in the 1970s, but did not 
really reach fruition until the Gulf War, in 1990-1991. 
Following your comments, Mr. Chairman, on that Gulf War, if one 
talks to those who participated, like General Horner, he is 
still irate about the failures of the national assets to be 
delivered to him in a timely way.
    Sustaining that confidence of our military commanders that 
national assets will be designed and exercised with their 
wartime needs in mind remains crucial. In the absence of such 
confidence, the temptation for our combatant commanders will be 
to try to develop intelligence assets under their own control, 
even if those assets are inferior.
    To possess intelligence assets of one's own is a time-
honored goal for virtually all major decisionmakers. That is 
why intelligence assets are so widely distributed. That is why 
the perennial quest for greater centralization has been both 
delusory and invariably negated.
    To shift control over crucial intelligence assets outside 
the DOD risks weakening the relative military advantage of the 
United States, and, at the same time, creates the incentive to 
divert resources into likely inferior intelligence capabilities 
which would further reduce the available forces.
    But that is not the end, Mr. Chairman. The question would 
be, where does one draw the line? Take one critical example: 
Now central to information dominance and to our military 
operations is the Global Positioning System (GPS). It is an 
information system not normally regarded as part of the IC. 
Nevertheless, it is critical for effective intelligence 
operations and, thus, to the effectiveness of our military 
forces. Does budget control over GPS also pass to an NID?
    In a complex system of systems, the perceived need to move 
further, beyond what historically has been defined as 
intelligence, will not cease. Historic intelligence and non-
intelligence systems are now siamese twins. King Solomon had a 
comparatively easy task in proposing to split the baby in half.
    Third, intelligence management, like intelligence, itself, 
is an inherently difficult business. There are countless 
questions. Which are the ones to bring to the attention of the 
decisionmakers? There are countless observations. Some are 
relevant signals, most are noise. Where are the missing 
signals? Only in retrospect can one be sure of the answer. 
Regrettably, we are not clairvoyant. Predicting the future is 
especially fraught with difficulty.
    To speak of the failure of imagination is really to 
acknowledge the limitations of the human intellect. Individual 
analysts will all have their slightly different interpretations 
of what is going on. Their views must be selected and combined. 
Though we regularly urge ourselves to think outside of the box, 
that is mostly an exhortation. The problem with thinking the 
unthinkable is that nobody believes you. Analysts will temper 
their views within the range of acceptability. Those who 
stretch receptivity likely will be viewed, or dismissed, as 
worrywarts, zealots, or, even worse, oddballs. That does little 
to enhance one's status in the organization, or one's career.
    As mentioned earlier, organizations also have their 
inherent limits. Different organizations will gravitate towards 
different ways of organizing reality, based upon their range of 
responsibilities and also on their interests, in a narrower 
sense.
    Most individuals make themselves comfortable in their own 
organizations by not challenging a prevailing consensus. It 
would be an immense help if management were to encourage 
criticism, contrarian views that challenge the prevailing 
orthodoxy. One way of doing this is to establish a devil's 
advocacy organization within the larger organization to 
challenge the predominant beliefs. But it is an imperfect 
solution; at best, an ameliorative. The individuals assigned to 
such an organization will have to be protected, at the top, 
from subsequent retribution.
    Mr. Chairman, we should always bear in mind that 
intelligence assessments, hopefully objective, will then rise 
through the political hierarchy to inform the judgments of 
decisionmakers. Politics, under normal conditions, is typically 
an engine to soothe and to reassure. It reflects that political 
imperative known as optimism. Until the Nation is aroused, 
alarmist views are treated with disbelief.
    I recall an episode in 1950 when an intelligence analyst, 
examining the indicators, had concluded that Chinese troops had 
already been introduced, in large numbers, into North Korea, as 
the United Nations command advanced towards the Yalu. The 
recipient--he was peddling this tale around Washington, and 
ultimately reached high into the Department of State--of his 
briefing listened very politely. When it was over, he responded 
as follows, ``Young man, they wouldn't dare.''
    Moreover, national perspectives frequently are dominated by 
political axioms, and intelligence failures--so-called--are 
quite frequently the failures of prevailing political axioms. 
In 1990, Iraq's neighbors reassured themselves that, ``An Arab 
state would never attack another Arab state.'' In 1973, a 
prevailing political axiom in Israel, an axiom which affected 
the intelligence, was that their Arab neighbors would never 
dare attack, as long as Israel had air superiority. Of course, 
I should mention the conviction--international, as well as 
national--that, without question, Saddam Hussein has weapons of 
mass destruction.
    The process of fashioning such a political axiom is 
strongly abetted that, over time, any caveat coming up from 
lower levels in the IC gets stripped away as information moves 
up the political hierarchy.
    Mr. Chairman, I trust that Congress will remember 
Hippocrates' injunction, ``First do no harm.'' In altering the 
structure of the IC, it is essential to deliberate long and 
hard, and not to be stampeded into doing harm.
    On page 339 of the report of the 9/11 Commission, the 
commissioners wisely state, ``In composing this narrative, we 
have tried to remember that we write with the benefit and the 
handicap of hindsight. Hindsight can sometimes see the past 
clearly, with 20-20 vision, but the path of what happens is so 
brightly lit that it places everything else more deeply into 
shadow.''
    Mr. Chairman, our understanding of past events becomes 
perfect only in hindsight, if then. There will never be any 
corresponding perfection in intelligence organizations, which 
necessarily must operate with foresight. Reform may now be 
necessary. Yet in the vain pursuit of a perfect intelligence 
organizations, do not shake up intelligence in a way that does 
do harm and, in pursuit of this will-of-the-wisp perfection, 
damage, in particular, those military capabilities that we 
alone possess.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Schlesinger follows:]
             Prepared Statement by Dr. James R. Schlesinger
    Mr. Chairman, members of the committee: I am grateful to the 
committee for providing this opportunity to comment on the nature of 
intelligence and the reforms suggested by the 9/11 Commission. The 9/11 
Commission has given us a detailed and revealing narrative of events 
leading up to September 11. It has also proposed a substantial 
reorganization of the Intelligence Community (IC)--changes that do not 
logically flow from the problems that the commission identified in its 
narrative. It is, therefore, incumbent upon us to examine the 
commission's proposals with care, lest in our haste we do more harm 
than good. The commission has rightly observed that the events leading 
up to September 11 represent ``a failure of imagination.'' Yet, one 
should not assume that changing wiring diagrams is a sure fire way to 
stimulate imagination. Imagination always has an up-hill fight in 
bureaucratic organizations. Creating an additional bureaucratic layer 
scarcely leads to bringing imagination to the top.
    Mr. Chairman, in these brief remarks, I shall attempt to discuss 
the issue of intelligence reform under three headings: first, the 
inherent problems of intelligence; second, why control of intelligence 
from outside of the Department of Defense is a particularly bad idea, 
given the evolution of U.S. technology and military strategy; and, 
third, to draw some implications for intelligence reform.
    1. Intelligence is inherently a difficult business. Intelligence 
targets naturally seek to conceal what they are doing--and have a 
strong tendency to mislead you. The central problem in intelligence is 
to discern the true signals amidst the noise. The relevant signals may 
be very weak and, without question, there is a great deal of noise. 
Countless events are being recorded each day--and countless events are 
failing to be recorded or are deliberately hidden. Moreover, false 
signals are deliberately planted. We talk glibly about ``connecting the 
dots,'' but that is far easier ex-post than ex-ante. It is only in 
retrospect that one knows which dots were the relevant dots, among the 
countless observations and unobserved phenomena--and how those relevant 
dots should be connected. Prior to that, one has only a mass of 
observations and possible evidence--subject to a variety of hypotheses 
and interpretations.
    Even if there are no preconceptions, or initial biases, 
organizations will drift toward a structured theory of an issue under 
study. Thus, an organization--any organization--develops a concept of 
reality. Over time, that concept likely will harden into a conviction 
or mindset that discounts observations or evidence in conflict with the 
prevailing concept and highlights observations that seem to be 
supportive as evidence. Evidence to the contrary is regularly shaken 
off.
    Thus, the quality of analysis becomes critical in providing good 
intelligence. That is why reducing competition in analysis is the wrong 
way to go--especially in quest of the false goal of eliminating 
duplication. Centralization of intelligence is inherently a dubious 
objective, when there is a wide range of consumers of intelligence--
with a variety of interests, responsibilities, and needs.
    2. Intelligence is increasingly interwoven with military 
operations. The advance of military technology and its embodiment in 
our military forces have made intelligence ever more integral to our 
military strategy and battlefield tactics and to this country's immense 
military advantage. That military advantage is reflected in such 
rubrics as ``information superiority,'' ``information dominance,'' 
``battlefield awareness,'' and ``net-centric warfare.'' In brief, it 
relies upon rapid detection of targets through sensors, the rapid 
communication of those target locations to command centers, the 
assignment of precisely-guided weapons to those targets at the 
discerned locations, and damage assessment, again communicated to 
command centers, to determine whether additional weapons are necessary. 
In all of this, the accuracy, the immediacy, and the believability of 
intelligence is crucial.
    Thus, in recent decades, intelligence, when wedded to command, 
control, and communications, has become the core of America's 
battlefield dominance and military superiority. In short, C\3\I has in 
itself almost become a powerful weapon-system. But commanders in the 
field must have confidence that the intelligence assets will be 
available with certainty and that information will be reliably and 
quickly disseminated. It is for this reason that plucking intelligence 
away from command, control, and communications has become increasingly 
unwise. They should be designed and operated as an integrated whole.
    To illustrate the now-enhanced role of intelligence in the system-
of-systems that under girds U.S. military advantage, I have included as 
a backup an illustration from Vision 2020, with which you likely are 
familiar. It illustrates the crucial role of information superiority in 
binding together the several aspects of military engagement to achieve 
battlefield dominance.
    It has taken many years to persuade military commanders that 
national assets will reliably be available to them in the event of 
conflict. This started in the 1970s, but did not really reach fruition 
until the Gulf War in 1990-1991. Sustaining that confidence of our 
military commanders that national assets will be designed and exercised 
with their wartime needs in mind remains crucial. In the absence of 
such confidence, the temptation for our combatant commanders will be to 
try to develop intelligence assets under their own control, even if 
they are inferior. To possess intelligence assets of one's own is time-
honored for virtually all major decision-makers. That is why 
intelligence assets are so widely distributed. That is why the 
perennial quest for greater centralization has been both delusory and 
invariably negated.
    To shift control over crucial intelligence assets outside the 
Department of Defense risks weakening the relative military advantage 
of the United States--and at the same time creates the incentive to 
divert resources into (likely inferior) intelligence capabilities, 
which would further reduce the available forces.
    But that is not the end. The question is: where does one draw the 
line? Take one critical example. Now central to information dominance 
and to our military operations is the Global Positioning System (GPS). 
It is an information system, not normally regarded as part of the IC. 
Nevertheless, it is critical for effective intelligence operations--and 
thus to the effectiveness of our military forces. Does budget control 
over GPS also pass to a Director of National Intelligence? In a complex 
system-of-systems, the perceived need to move further beyond what 
historically has been defined as intelligence--will not cease. Historic 
intelligence and non-intelligence systems are now Siamese twins. King 
Solomon had a comparatively easy task in proposing to split the baby in 
half.
    3. Intelligence management, like intelligence itself, is an 
inherently difficult business. There are countless questions. Which are 
the important ones to bring to the attention of the decisionmakers? 
There are countless observations. Some are relevant signals; most are 
noise. Where are the missing signals? Only in retrospect can one be 
sure of the answer. Regrettably, we are not clairvoyant. Predicting the 
future is especially fraught with difficulty.
    To speak of the ``failure of imagination'' is really to acknowledge 
the limitations of the human intellect. Individual analysts will all 
have their slightly different interpretations of what is going on. 
Their views must be selected and combined. Though we regularly are 
urged to ``think outside the box,'' that is mostly an exhortation. The 
problem with ``thinking the unthinkable'' is that--nobody believes you! 
Analysts will temper their views within the range of acceptability. 
Those who stretch receptivity likely will be viewed--or dismissed--as 
``worrywarts, zealots, or even worse, oddballs.'' That does little to 
enhance one's status in the organization or one's career.
    As mentioned earlier, organizations also have their inherent 
limits. Different organizations will gravitate towards different ways 
of organizing reality--based upon their range of responsibilities and, 
also, their interests in a narrower sense. Most individuals make 
themselves comfortable in their own organizations by not challenging a 
prevailing consensus. The only solution within an organization is to 
establish a Devil's Advocacy organization to challenge the prevailing 
beliefs. But, it is an imperfect solution, at best an ameliorative, and 
the individuals assigned to such an organization will have to be 
protected at the top from subsequent retribution.
    Mr. Chairman, we should always bear in mind that intelligence 
assessments, hopefully objective, will then rise through the political 
hierarchy to inform the judgment of decisionmakers. Politics, under 
normal conditions, is typically an engine to soothe and to reassure. 
(It reflects that political imperative known as optimism.) Until the 
Nation is aroused, alarmist views are treated with disbelief. I recall 
an episode in 1950, when an intelligence analyst, examining the 
indicators, had concluded that the Chinese had already introduced large 
numbers of troops into North Korea, as the United Nations command 
advanced. He was pedaling this tale around Washington and ultimately 
reached high into the State Department. The recipient of his briefing 
listened very politely. When it was over, he responded as follows: 
``Young man, they wouldn't dare.''
    Moreover, national perspectives frequently are dominated by 
political axioms--and intelligence failures, so-called, are quite 
frequently the failures of prevailing political axioms. In 1990, Iraq's 
neighbors reassured themselves that ``an Arab state would never attack 
another Arab state.'' In 1973, a prevailing political axiom in Israel 
(which affected intelligence) was that their Arab neighbors would never 
attack as long as Israel had air superiority. Of course, I should 
mention the conviction, international as well as national, that 
``without question, Saddam Hussein has weapons of mass destruction.'' 
The process of fashioning such a political axiom is strongly abetted 
that over time any caveats coming up from lower levels in the IC get 
stripped away as information moves up the political hierarchy.
    Mr. Chairman, I trust that Congress will remember Hippocrates' 
injunction: ``First, do no harm.'' In altering the structure of the IC, 
it is essential to deliberate long and hard--and not to be stampeded 
into doing harm. On page 339 of the Report of the 9/11 Commission, the 
commissioners wisely state:

        ``In composing this narrative, we have tried to remember that 
        we write with the benefit and the handicap of hindsight. 
        Hindsight can sometimes see the past clearly--with 20/20 
        vision. But the path of what happened is so brightly lit that 
        it places everything else more deeply into shadow.''

    Mr. Chairman, our understanding of past events becomes perfect only 
in hindsight--if then. There will never be any corresponding perfection 
in intelligence organization--which necessarily must operate with 
foresight. Reform may now be necessary. Yet, in the vain pursuit of a 
perfect intelligence organization, do not shake up intelligence in a 
way that does do harm--and in pursuit of this will of the wisp, damage, 
in particular, those military capabilities that we alone possess.
    Thank you, Mr. Chairman. I shall be pleased to answer any questions 
that you or members of the committee may have.

    Chairman Warner. Thank you, Dr. Schlesinger. That's a very 
strong and clear message.
    Secretary Carlucci, I'd like to also advise my colleagues, 
that while you are best known, maybe, for serving as SECDEF, 
you also served as the Deputy to the Director of CIA for some 4 
years, am I not correct?
    Mr. Carlucci. Three years.
    Chairman Warner. So, much like Dr. Schlesinger, you've 
worked at both of those agencies and the Department.
    Mr. Carlucci. Yes, sir.

 STATEMENT OF FRANK C. CARLUCCI, FORMER SECRETARY OF DEFENSE, 
              CHAIRMAN EMERITUS, THE CARLYLE GROUP

    Mr. Carlucci. Thank you, Mr. Chairman, and thank you for 
including me with this distinguished panel.
    Senator Levin, members of the committee, I think this 
hearing is very important because any organization, any 
reorganization--and I've been through a number--is disruptive. 
You have to be certain that the long-term gain exceeds the 
short-term loss. You also have to be certain that the solution 
fits the problem.
    Mr. Chairman, I have a prepared statement. I'm going to 
summarize it, with your permission.
    Chairman Warner. Without objection, it will be admitted 
into the record.
    Mr. Carlucci. We need to be sure that the solution fits the 
problem. It's tempting, because we have 15 organizations with 
the label ``intelligence'' on them, to say they ought to be 
under common management. But as Jim Schlesinger has just 
pointed out, some competition, particularly among the 
analytical agencies, is, indeed, healthy; I would argue, 
necessary.
    As this committee is well aware, unity of command is 
necessary for any military operation. So is intelligence, and 
Jim Schlesinger has discussed that in some detail, and I agree 
with virtually everything he has said.
    The failings of September 11, as I read the report, were in 
the areas of human resources intelligence (HUMINT) and 
analysis. These can be improved without disrupting the DOD 
chain of command. The CSAs are already subject to the DCI's 
programming and budgeting authority, as you, Mr. Chairman, 
pointed out in your opening statement. The DCI has the 
concurring authority on people. I question whether much more is 
needed. It is true that DIA, on the analytical side, competes 
with CIA in some areas, but that is, by and large, healthy.
    I cannot find in the 9/11 Commission Report a convincing 
case that September 11 stemmed from any Pentagon failure to 
coordinate. The dots problems were mainly between domestic and 
foreign intelligence--and intelligence, on the one hand, and 
law enforcement, on the other--and the NCTC, as proposed by the 
9/11 Commission, should go a long way to solving these 
problems.
    I would have the center report to the DCI. I do not favor 
the creation of an NID, certainly not in the White House, for 
reasons, Senator Levin, that you have already discussed. I 
lived through that, as National Security Advisor, in the wake 
of Iran-Contra.
    The dilemma is that if you give teeth to the NID, you risk 
disrupting combat support, as Jim has described in some detail, 
you disrupt the unity of command, and you have agency heads in 
one department, DOD, reporting to somebody outside that 
department--hardly a healthy relationship. If you don't give 
teeth to the NID, then you've created a useless layer. In 
either case, you've weakened the DCI, and you've created a 
competitor to the National Security Advisor.
    A better approach, in my judgment, at least one that's less 
disruptive, would be to set up the NCTC and strengthen the 
DCI's authority in areas where analysis may show it's needed. I 
question whether it's needed. I think, Senator Lieberman and 
Senator Levin, you heard this morning from former Director 
Stansfield Turner, that he had plenty of authority at the time 
he was director. I can vouch for that, because I was his 
deputy, as I think you mentioned this morning. So I question 
how much more is needed. It may be just a question of 
exercising existing authority.
    There's been a lot of focus on the organizational issue. 
Let me mention some other shortcomings which I think are at 
least as important. They are not mentioned--some of them are 
not mentioned in the 9/11 Commission Report.
    I see no mention of better trade-craft in the recruitment 
of hard targets. I learned many years ago, as a Foreign Service 
Officer (FSO) in the field working with case officers, that the 
best way to recruit is to be able to protect sources and 
methods, or at least have the perception that you can protect 
sources and methods.
    Unfortunately, the perception out in the real world is that 
our country can't protect sources and methods. I can remember, 
when I was Deputy DCI, the head of a European Intelligence 
Service saying to me, ``Frank, we don't give you all our 
information, because you can't keep a secret.'' Imagine, 
Senators, that you were an Iraqi under Saddam Hussein, and a 
CIA case officer came to you, and you took a look at the leaks 
coming out of the U.S. Government--there are a couple of 
investigations underway already--the Freedom of Information Act 
being applied to the CIA, and the proliferation of oversight 
committees. Would you put your name on the rolls? All the 
skilled in the world won't do us any good in that secretive 
part of the world unless we do a better job of keeping our own 
secrets.
    The Commission did have some positive recommendations to 
make on the classification of information and on congressional 
oversight. But, in general, they were hostile to the need-to-
know principle. I can't imagine distributing information to 
people who don't need to know. I think we need to retain the 
need-to-know principle.
    Good collection of intelligence entails risk-taking in the 
recruitment process. Ever since the days of the Church 
Committee, we have discouraged risk in our intelligence 
organizations. We've indicted professionals for carrying out 
their responsibility. We've made it more complicated, or put a 
chill on the recruitment of people with human-rights violations 
on their record, when, indeed, those are some of the very 
people we need to be going after.
    Sure, there are failures, and we need to determine why 
those failures came about; but there are also successes, 
largely unheralded, and we should not risk the successes by 
excessive finger-pointing at the failures.
    Final point is resources. I think we can all agree that, in 
the 1990s, we shortchanged DOD, State, and our intelligence 
agencies. The rebuilding process is underway, thanks to members 
of this committee, among others, but it will take longer to 
rebuild than it takes to tear down. When I think of the length 
of time required to recruit, train, organize hard-cover for 
intelligence case officers, I agree with George Tenet when he 
says the rebuilding process will take 5 years. Let's hope that 
we don't prolong this process by hasty and ill-advised 
organizational moves.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carlucci follows:]
                Prepared Statement by Frank C. Carlucci
    Mr. Chairman, Senator Levin, members of the committee: It is a 
pleasure to appear before you today and I commend you for holding these 
hearings. Reorganizations are always disruptive and we must be certain 
the long-term gain outweighs the inevitable short-term loss.
    We must also be certain the solution fits the problem. Just because 
15 agencies carry an intelligence label doesn't mean they all should be 
integrated. Indeed managed competition is a healthy component of good 
intelligence.
    Unity of command is essential for military operations. So is good 
intelligence, as the 9/11 report acknowledges. Leaving aside the 
reluctance of policy makers to act on warning, the failings of 
September 11 appear to be principally in HUMINT and analysis. Improving 
HUMINT can be done without disrupting the Pentagon chain of command. 
Eighty percent of the Intelligence budget is frequently cited as 
disproportional DOD control. These assets are mainly in the hardware 
area and hence very costly. The NRO, NSA and NGA are already subject to 
the DCI's budgeting and programming authority. I question whether 
further DCI control is needed or desirable. The service HUMINT 
operations are largely tactical and nobody proposes separating them. 
DIA's HUMINT largely comes through the Attache System and is 
coordinated by Ambassadors at the local level. DIA's analytical effort 
can and should compete with that of CIA.
    I fail to find in the 9/11 report a convincing case that the 
September 11 problem stemmed from the failure of the Pentagon agencies 
to coordinate. On the contrary, the ``dots'' problem seems to be mainly 
between the CIA and the FBI on the one hand, and law enforcement and 
intelligence on the other, not with DOD. TTIC and the Patriot Act have 
gone a long way to solving some of these problems. The Counterterrorism 
Center, which would build on TTIC, is a good idea despite the dangers 
of putting intelligence and operational planning close to each other.
    I believe the Counterterrorism Center should report to the DCI. I 
do not favor creating the post of NID, certainly not in the White House 
where it would be too close to both the political and the policy 
process. Its main value would be to serve as a coordinator of domestic 
and international intelligence. The dilemma is that if you give the NID 
budget and personnel authority over DOD, even if he or she is not in 
the White House, you jeopardize combat support and disrupt the military 
unity of command. You also create a competitor to the National Security 
Advisor. On the other hand, if you don't give the NID budget and 
personnel authority, you add a useless layer and weaken the DCI in the 
process. A better approach would be to set up the Counterterrorism 
Center and strengthen the DCI's concurring authority over the CSA's 
where it may be inadequate. The main thing though is to make sure the 
DCI has clout over both the CIA and the FBI.
    If one goal is to improve HUMINT there are shortcomings more 
important than organizational structure. They are not dealt with in the 
9/11 report. I learned as an FSO working with case officers in the 
field that the key to good HUMINT is the ability to protect sources and 
methods, or better said the perception that we can protect sources and 
methods. In the intelligence business perception is as important as 
fact.
    Unfortunately the widespread perception is that we can't protect 
our sources and methods. I can recall the head of a major European 
Intelligence Service telling me when I was DDCI that he withheld 
information from us because we ``couldn't keep a secret.''
    Imagine you were an Iraqi under Saddam Hussein and a CIA case 
officer approached you. Knowing about extensive leaks, the constant 
pressure on the Agency (including by the 9/11 Commission) to reveal 
more information, the use of FOIA to reveal CIA material and multiple 
congressional oversight committees, would you want your name on the 
rolls? All the skilled Arabist's in the world won't be able to recruit 
in the highly secretive Middle East unless we commit to better 
protection of sources and methods.
    The commission did make some positive recommendations for a tiered 
classification system and streamlined congressional oversight but their 
overall thrust was to abolish ``need to know'' and have a more open 
intelligence process--an oxymoron. It is good to disseminate 
information, but the dissemination process is useless unless there is 
reliable information to disseminate. One source compromised means many 
sources not recruited.
    Good collection also requires risk taking. Much of our approach to 
intelligence since the Church Committee has been to discourage risk. 
Whether it is indicting professionals for carrying out policy or making 
it complicated to recruit human rights violators we have put a chill on 
entrepreneurial activity. There will be failures and we should 
determine why, but there are successes, largely unheralded, and we 
should not risk them by seizing on every failure to point fingers of 
blame.
    A final word on resources. They are needed. It is clear we cut DOD, 
State, and Intelligence too much in the 1990s--over 30 percent. The 
capability we lost can be rebuilt but not as quickly as it was 
eliminated. Bearing in mind the time required to recruit, train and 
organize effective cover in tightly closed societies or terrorist 
groups I think George Tenet's estimate of 5 years is on the mark. I 
hope we don't prolong that period by making the wrong organizational 
moves.

    Chairman Warner. Thank you, Mr. Secretary. Another strong 
statement, very clear in your views.
    Secretary Hamre?

  STATEMENT OF DR. JOHN J. HAMRE, FORMER DEPUTY SECRETARY OF 
  DEFENSE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Hamre. Chairman Warner, Senator Levin, thank you for 
inviting me.
    I acknowledge I come here with severe disadvantage, 
compared to my colleagues at this table who have such deep 
richness of talent and experience compared to me, but I do have 
the indisputable advantage in that I worked for all of you for 
10 years. So I throw myself on your mercy, and hope that you 
remember kindly your children. [Laughter.]
    Chairman Warner. Before you further demean your 
credentials----[Laughter.]
    --let me point out that you perhaps have as much experience 
as any of us with regard to the issue of budgeting. In the 
course of the colloquy here between my colleagues and myself 
and the witnesses, we will try and define your individual views 
on that.
    Dr. Hamre. I'd be happy to respond to that, sir.
    Chairman Warner. You do have experience there.
    Dr. Hamre. I do, sir. Thank you.
    Let me say, I am grateful to the work of the 9/11 
Commission for having opened up, for all of us, a debate we 
really should have as a country. How do we need to organize our 
intelligence services that support us in this important 
endeavor to protect the country? As I've written before, my 
concern about the recommendations that flow from them is that 
they are organizing, or reorganizing, the IC too narrowly 
around one set of problems.
    Yes, the connect-the-dot problem is very real, and we do 
need to anticipate, in our structure, how we try to solve that 
problem. Just as important, in my view, is the collective 
narrowness of thinking that's endemic in the intelligence 
process when it's supporting decisionmaking. Those two, I 
think, are, frankly, in tension with each other.
    If you try to organize the entire IC around one dimension, 
connecting the dots, frankly, I feel that we're going to make 
it much susceptible for a narrowness and a group-think to set 
in if we put everything under one person. If, by contrast, we 
try to keep broad diversity in the IC, as we have now, we have 
a coordination problem. So it's these two, I think, that we 
have to try to solve simultaneously.
    My concern about the 9/11 Commission is that it creates an 
NID and tries to coordinate by bringing all of the budget and 
personnel control under his authority. I must tell you, I would 
be very uneasy with that, having been the Comptroller in the 
DOD, and having been the Deputy Secretary. To have a major 
element of my department really working for another cabinet 
individual is, I think, a real mistake. You can't help but have 
that become a source of great friction over time, and I think 
that would not be healthy.
    I also think it is really not a good idea to strip away 
from the Cabinet Secretaries their assessment capacity to 
evaluate intelligence on their own. They need to come into a 
meeting with the President--and, frankly, come before all of 
you in hearings on the Hill--with their own independent 
capacity to reach a judgment, not just simply receiving it from 
a central authority.
    So I do not think it's a good idea to focus in such a 
narrow way that we get one point of view coming out of an IC. I 
really think a far greater risk lies in having that too 
narrowly constrained, and for Cabinet Secretaries, like these 
two gentlemen, not to come before you in a hearing, or not to 
come before the President, to make their case on their own 
assessment.
    Now, I've seen what the Commission has recommended, what 
Senator Kerry has recommended, and I've seen what the President 
has recommended. I, probably much like my two colleagues here, 
think that the current situation is preferable to the two that 
are on the table before you. I, personally, think that the 9/11 
Commission's recommendation would create a very dysfunctional 
situation in the executive branch. But I also think that the 
President's recommendation is going to create a very weak NID 
and, the way it was announced, could weaken the CIA in the 
process. I think that's a step back.
    So I come to a conclusion. If the politics is going to 
drive us to have an NID, then, I have to conclude, we have to 
find a way to make that individual have some genuine heft in 
the process. They're not going to be strong just simply running 
interagency coordination structures. They're going to have to 
have institutional depth.
    So my recommendation, which I realize is controversial, 
would be to move the intelligence factories--and that is the 
NRO, the NSA, and the NGA--under the NID. Just the factories.
    Now, some have asked me why do I not recommend that we move 
HUMINT. Frankly, those aren't factories. Those are artisan 
craft shops, and I don't think they're of the same scale. I 
think we should keep them where they are. I think they ought to 
be with the CIA and, to a lesser extent, the DOD or the Defense 
Human Intelligence Service. I think you should leave them 
there. But the factories that produce the raw material, I feel 
could be brought under this and give genuine depth to the NID.
    Now, Secretary Schlesinger rightly raised how crucial it is 
for us, in the DOD, to have reliable intelligence for our 
warfighting. It isn't a matter of just getting a finished 
intelligence product. We need the electrons. We need the 
electrons on the battlefield, almost in real time, to be able 
to do our job.
    Now, I will say that a good number of those platforms that 
produce tactical intelligence are under the management and 
control of the DOD already, and that would not change by moving 
the parent of the NSA to this new NID. But I do think that 
there would be problems that would emerge if you were to move 
the factories over under this individual. But I think they're 
manageable problems. At least I know how I would manage it if I 
were to do that. We come to this--we, DOD--would come to this 
with considerable clout, frankly. Each of those three agencies 
would collapse if we pulled out our people and our resources.
    Dr. Schlesinger said that there would be a tendency to 
reproduce those capabilities. Frankly, we can't afford it. I 
mean, we are going to rationalize our process. We've had to do 
that by the expense of these platforms already.
    So I think that there would be a--no question, there would 
be some tensions, but I think it is something we could manage. 
I, personally, would recommend that the deputies--myself, if I 
had been in the job, the deputy--or the Vice Chief of the Joint 
Chiefs, as well as other deputies--serve as a board of 
directors to the NID on, really, a daily basis, to ensure that 
we're getting the kind of support and product that we need.
    As I said, I don't think this is--I propose this really 
because I'm trying to find a path. If it is inevitable that 
we're going to have an NID split away from the CIA, we have to 
have a strong position, and I think this is a plausible way to 
do it, although I do acknowledge that there are going to be 
some challenges. I look forward to answering your questions or 
talking with you about them.
    [The prepared statement of Dr. Hamre follows:]
                Prepared Statement by Dr. John J. Hamre
    Chairman Warner, Ranking Member Levin, distinguished members of the 
committee, thank you for inviting me to participate in this critical 
hearing. I am grateful that you are undertaking this review. How we 
organize our government to undertake critical intelligence is one of 
the most fundamental problems we face. We need your thoughtful review 
and considered judgment. This is not something to rush. Please take 
your time to think through these issues carefully.
    With your permission, I would ask that you accept as my statement a 
copy of the article I wrote that appeared Monday in the Washington 
Post. It outlines everything I would otherwise want to say this 
morning. I would like to amplify on that statement, however, to discuss 
the implications this holds for the Defense Department.
    Let me say at the outset that American warfighting is more 
dependent on intelligence today than at any time in our history. The 
globe is not getting smaller; our forces are, so we have to get maximum 
efficiency by being precise in our planning and operation. We depend on 
superb tactical intelligence.
    A good deal of those capabilities are organic to our operating 
forces. But we also depend on the intelligence support we receive from 
the National Security Agency (NSA), the National Geospatial-
Intelligence Agency, and the National Reconnaissance Office. I honestly 
believe we can count on that support and have it tactically relevant, 
even if those organizations are transferred to a new central 
intelligence organization under a new DNI. But there are some steps we 
should take.
    First, I believe we should continue to send our military personnel 
to those institutions, even after transfer. Frankly we need to do that 
because we don't have the rotation base exclusively within the military 
services to support our force structure and manage our personnel. We 
need the wider job rotation base that these agencies provide. So it is 
in our interests for two reasons--to insure they continue to focus on 
us and to insure that our best tactical intelligence operators have a 
rotation base.
    Second, I would explicitly establish a very senior board of 
directors to oversee the new department. These individuals would 
actually be representatives for the Cabinet Secretaries who have the 
constitutional missions assigned them by the President. The 
Intelligence Community (IC) should be accountable to them, and we need 
a standing structure that insures that oversight and accountability.
    Third, I believe that we are on the edge of a new set of military 
intelligence platforms--long dwell unmanned vehicles is a good 
example--that provide needed tactical intelligence, but which also feed 
the national system. I would make those DOD investments and keep them 
in the Defense Department. We already know how to jointly task them for 
tactical and national missions.
    Fourth, I think the two Armed Services Committees need to 
strengthen their oversight of intelligence. But the focus should be on 
outputs, not on inputs. Too much of the oversight today is devoted to 
the review of the annual budget inputs to the system, not an assessment 
of the capabilities we get from the systems. Your oversight will help 
insure that the new intelligence system is responsive to our 
warfighters.
    Thank you for inviting me to participate today. I am pleased to 
answer any questions you have at the appropriate point.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Thank you. The committee will now proceed 
to its 6-minute round. I'll start off with Dr. Schlesinger.
    On page 4--I repeat your testimony--``To shift control over 
crucial intelligence assets outside the DOD risks weakening the 
relative military advantage of the United States,'' and so on. 
The operative word is ``to shift control.''
    Then I look at the statement by the National Security 
Advisor to the President, Ms. Rice, and she said the following, 
``We expect that the NID would have significant input into the 
development of a budget.'' Now, that's not shifting control in 
the President's position. Now, I recognize September 11 is on a 
different----
    But let's go back and explore. Is there a bridge between 
these two ``poles,'' so to speak, of shifting absolute control 
and the question of significant input? May I suggest the 
following, which I have mentioned publicly, and that is, let 
the SECDEF retain the budget structure, the actual people who 
work on all of these things and put it together. It's very 
complicated. We're talking about tens of thousands of people in 
these various agencies, am I not correct in that?
    Dr. Schlesinger. Yes.
    Chairman Warner. Tens of thousands of people. Leave them 
put. Let the SECDEF create the budget, but in coordination with 
the NID, allowing the maximum of input. At the time, presumably 
and optimally, when they would have a concurrence on the 
various points--that they would then jointly submit that budget 
to the President so that there would be accountability to both 
individuals.
    Dr. Schlesinger. I have little problem with that. I think 
that Frank has already observed that we have moved a long way 
in that direction. I think that both Don Rumsfeld and George 
Tenet would say that they already have that degree of 
collaboration. This might formalize it.
    Chairman Warner. I think that would be the objective of the 
legislation, which I hope, by the way, would not be driven by 
politics, Dr. Hamre. I hope it would be driven by good sense.
    So on that point, you feel that that is a bridge between 
some of the poles here.
    Mr. Carlucci. Yes.
    Chairman Warner. Would you like to speak to that, Secretary 
Carlucci?
    Mr. Carlucci. I think already, or at least when I was in 
the CIA, the Director put together the National Foreign 
Intelligence Program (NFIP), which was then worked out with the 
SECDEF. I can remember when I was in the job John Hamre was in, 
as Deputy Secretary of Defense, I persuaded the Office of 
Management and Budget (OMB) to let me determine the 
intelligence budget, because it was a straight tradeoff with 
the DOD budget, because the President had already determined 
the top line of the DOD budget. I gave intelligence a higher 
growth rate than I gave DOD. So a collaborative relationship 
already exists, and I think your suggestion is appropriate.
    Chairman Warner. In your study of the 9/11 report, and in 
my study, I'm not sure that they recognize fully the extent to 
which this is currently done. Am I correct in that observation?
    Dr. Schlesinger. I think that's correct, Mr. Chairman. If 
you recall, I think that what they're saying is, we have failed 
to connect the dots.
    Chairman Warner. Right.
    Dr. Schlesinger. That does not mean that there's not 
coordination on the budget.
    Chairman Warner. No. I think we've reached consensus.
    Dr. Hamre, how do you feel? You've had a lot of experience.
    Dr. Hamre. I sure have, and I've put together eight 
budgets, four of them as the comptroller, then four when I was 
in the deputy's job. To be honest, there's not nearly the close 
review of the intelligence budget that people think there is. 
When you look at what we submit to all of you, it's really 
quite skimpy by comparison to what it is that you ask that we 
submit for the DOD. There is coordination, but it's really 
quite limited.
    To be candid, I think the quality of oversight inside the 
executive branch isn't as strong as it ought to be of the 
intelligence, so that ought to be strengthened. But I think the 
reason it hasn't been, frankly, so strong is that there has 
been a de facto tug-of-war between DOD and the IC over who has 
the lead. In that struggle, frankly, that--just really has not 
dug into it as deeply as we probably should have.
    Chairman Warner. All right, then do you feel that the 
creation of the post of NID, with what I outlined, is a joint 
responsibility? While the people would be retained in the DOD, 
the actual work product would be coordinated carefully with the 
NID, and then they would both sign off on it, and both names 
would appear as it goes to the President. Do you think that 
would help remove some of the criticisms?
    Dr. Hamre. I think that that is, as the secretaries have 
said, quite similar to what's done now. It needs to be 
strengthened, no matter what. Is it going to get better by 
creating the NID? Not necessarily. It isn't necessarily going 
to be better if you create the NID. The process is weak right 
now because there are two bosses and there are two separate 
chains, and, frankly, there's a lot of ambiguity between those 
two chains. That's, frankly, replicated up here on the Hill. 
We've divided the oversight of the intelligence budgets and the 
armed services budgets.
    Chairman Warner. But that's a separate problem, budgets.
    Dr. Hamre. So we see this throughout the system.
    Dr. Schlesinger. Mr. Chairman?
    Chairman Warner. Yes?
    Dr. Schlesinger. The Secretary of Defense and the Secretary 
of Energy jointly sign off on the stockpile requirements for 
our nuclear weapons. There is also a Nuclear Weapons Council 
that is made up of members of the DOD and Energy Department, 
and that may be the model you're seeking.
    Chairman Warner. Right. Let me just take it to the next 
step, and that is the hiring and firing. Here, I draw on some 
modest experience I had in 5 years working for you, Jim, and 
the two predecessors, Laird, Elliott, Richardson--three of 
them. The heads of DIA, traditionally--NSA--have been military 
officers. I can recall that each of the military secretaries 
were asked to nominate--you recognize that, too, in your 
experience--and maybe a dozen or more individuals. The SECDEF, 
together with the secretaries of the military departments, 
really had a lot of personal knowledge about each of those 
individuals, and the selection process was driven almost 
entirely on credentials and experience, and those were the 
factors that made the final decision.
    Now, the NID simply doesn't have the benefit of having 
gotten to know those individuals through the many trips that 
each SECDEF and service secretaries make to the commands, visit 
with them and families, and everything else. Therefore, I 
think, again, I draw another parallel with the budget, and that 
is that there would be a joint consideration and a joint 
submission of that name. But given that the DOD would have more 
insight, certainly, into the military nominees--now, I don't 
suggest that they always have to be military.
    So, again, I come down to a similar process on the hiring 
and firing, and that would be collaborative between the SECDEF 
and the NID, and then a joint recommendation. Would I be 
correct in that assumption?
    Dr. Schlesinger. At the moment, there is collaboration on 
the hiring side. I think that that collaboration would break 
down on the firing side.
    Chairman Warner. Let's hope it wouldn't.
    Dr. Schlesinger. Yes.
    Chairman Warner. They both have to remain accountable, if 
they have their two names on that nominee.
    Dr. Schlesinger. I think when you were the Secretary of the 
Navy, Mr. Chairman, you might have been hesitant to share 
certain information with somebody who was necessarily reporting 
to somebody outside the building. I'd ask you to reflect on 
that possibility.
    Chairman Warner. I think that we've come to the point--
there's the old adage, ``need to know,'' but we also now have 
the ``need to share,'' and there has to be a greater sharing of 
information.
    Dr. Schlesinger. One very useful thing that an NID can do 
is to break down the classification boundaries among these 
intelligence agencies.
    Chairman Warner. You and I have discussed that.
    Dr. Schlesinger. Yes.
    Chairman Warner. Secretary Carlucci, to you for an answer 
on the hiring and firing-sharing?
    Mr. Carlucci. I think there would need to be a mechanism 
for breaking down an impasse. That is to say, if they can't 
agree, eventually one of them sends a name forward to the 
President, with a dissent by the other, so that the President 
can make a decision.
    Chairman Warner. If there were an impasse, I would presume 
that the President would be involved----
    Mr. Carlucci. Yes.
    Chairman Warner.--and perhaps reconcile it.
    Mr. Carlucci. The other point I would make--your comment 
that the DCI doesn't have the opportunity to know military 
people--my recollection is that either the DCI or the DDCI has 
to be a military officer, at least in----
    Chairman Warner. It has been that practice.
    Mr. Carlucci.--by practice, so that one or the other of 
them should have knowledge of the military people who are 
proposed.
    Chairman Warner. Some knowledge, but perhaps not to the 
degree of the SECDEF.
    Senator Levin?
    Senator Levin. Thank you, Mr. Chairman.
    Under the current law, the DCI is responsible for 
developing and presenting to the President the annual budget. 
That's the current law. So, in terms of preparation of the 
budget, it's right where the 9/11 Commission is saying it 
should be prepared, it seems to me, under law.
    When it comes to execution of the budget--by executive 
order, that is now basically in the DOD. But, Secretary 
Carlucci, when you were deputy to Admiral Turner, as you just 
indicated and he indicated this morning, in the Carter 
administration, that was done differently, by executive order 
at that time. That execution of the budget was in the hands of 
the intelligence people. Is that correct? That's what Admiral 
Turner, at least, told us this morning. I thought you were 
indicating something like that earlier today.
    Mr. Carlucci. I have trouble understanding what you mean by 
``execution.'' Do you mean, has the money been spent or has the 
program been carried out the way that Congress directed?
    Senator Levin. Including reprogramming.
    Mr. Carlucci. Including reprogramming?
    Senator Levin. Right.
    Mr. Carlucci. The answer to your question, then, is yes, 
that was done by the DCI.
    Senator Levin. That was done by the DCI, so that--by 
executive order, I emphasize--this shift could be made back, if 
it were desirable----
    Mr. Carlucci. Sure.
    Senator Levin.--to the intelligence----
    Mr. Carlucci. That's the----
    Senator Levin.--the head of intelligence.
    Mr. Carlucci.--point I tried to make, that we don't 
necessarily have to have statutes here.
    Senator Levin. Right.
    Mr. Carlucci. There is some flexibility.
    Senator Levin. So that's, it seems to me, point one. To the 
extent that it's desirable to shift back, reprogramming into 
the DCI or a successor, that could be done by executive order 
without legislation.
    Now, when we look at the September 11 failures, what I 
don't see is any connection between the failures and where that 
reprogramming authority on the budget should lie. I don't see 
any connection to the remedy which is proposed. Do any of you 
see the relationship between the remedy proposed, which is, 
basically, put reprogramming or execution of the budget back in 
intelligence, and the failures which preceded September 11?
    Mr. Carlucci. I think we're fixing a non-problem, to be 
honest with you.
    Senator Levin. Do either of the other witnesses see the 
relationship between that remedy and the flaws before September 
11?
    Dr. Schlesinger. No. Here's the thing, Senator Levin. One 
of the commissioners confirms that they spent 18 months 
studying the problem of September 11, and 3 weeks to put 
together this reform of the IC. I think that that tells----
    Senator Levin. But specifically, though. That's a general 
comment. But specifically then, at least--and I won't--Dr. 
Hamre, unless you have a difference on this, I'll say, so far 
we don't have any connection between the flaws before September 
11 and that particular remedy, relative to who has the 
reprogramming power.
    Dr. Hamre. The reprogramming isn't really going to solve a 
problem like that. It's really your capacity to structure the 
IC prospectively through your budget----
    Senator Levin. Through the budget, which, by law, by 
title----
    Dr. Hamre. Right.
    Senator Levin.--Section 403-3 of----
    Dr. Hamre. Right.
    Senator Levin.--50 USC, belongs, or is, right now, in the 
DCI.
    Now, if this is right, what we've said so far, we have this 
situation, that the remedy, relative to the budget change, does 
not correct the flaws. To the extent it's desirable, anyway, it 
can be done by executive order. Now, that's my summary of what 
your testimony is so far.
    Now, on the personnel side of this issue, we have, under 
current law, the requirement that the SECDEF obtain the 
concurrence of the DCI before submitting to the President any 
nomination to head the NSA or NGA or NRO. The only one left out 
of that would be the DIA. So, right now, under law, with that 
one exception, which I think would be continued, probably, by 
the 9/11 Commission, although I may be wrong--right now, the 
concurrence of the DCI is required before the appointment, at 
least, is made. So that if that is robustly implemented, 
presumably we have a DCI who has a veto over any intelligence 
head of those three agencies. Is that--are you with me so far? 
Okay.
    Is that not an adequate input into who the heads of that 
agency is--those agencies are to meet the goals, it seems to 
me, which are desirable goals, of the 9/11 Commission. Namely, 
which is that there be a significant input into who is going to 
run the intelligence for those three agencies? Does it meet the 
9/11 Commission's very legitimate point about having the person 
responsible for intelligence also having hiring authority for 
the people who are going to be collecting it?
    Mr. Carlucci. I think it does.
    Dr. Schlesinger. It does.
    Senator Levin. Do you agree with that?
    Dr. Schlesinger. It does.
    Mr. Carlucci. I agree with it.
    Senator Levin. Okay.
    Now, just on the accountability issue. Perhaps one of the 
two most troubling things to me is that the Commission did not 
address, in my book, the accountability failures prior to 
September 11. I disagree with you here, Dr. Schlesinger. When 
you have all those dots up there, it's not just that the dots 
weren't connected; it's that the information was not shared 
which would have allowed for the dots to be connected. You put 
dots on a board, and obviously, there's no automatic logic to 
connecting them. But the information which would have allowed 
the dots to be connected was not shared, as required by job 
description. You had people in the CIA who knew that al Qaeda 
operatives, who had attacked the U.S.S. Cole and were members 
of al Qaeda, had entered the United States, and never notified 
the FBI, as their responsibility was. You had FBI people--in 
Minneapolis, in Phoenix--who did what they were supposed to do, 
notified the national FBI office, the bin Laden desk at the FBI 
office, and nothing was done with critically actionable 
information about people in the United States who were clearly 
connected to bin Laden. Those are failures to do one's job and 
there's no one been held accountable for that.
    How do we get greater accountability into this process to 
address those kind of failures which were at the heart of the 
September 11 failure? They weren't who has budget 
responsibility; it was people not doing their jobs. How do we 
get that into this process?
    Mr. Carlucci. If this were today--if that were being--
happening today, we would look to TTIC. Presumably, after we 
set it up, we'd look to the NCTC.
    Senator Levin. My time is up but do either of you have 
anything to add to that?
    Dr. Schlesinger. My only observation is that, after the 
1970s, it was prohibited to share intelligence information with 
law enforcement, and that that was one of our problems. I agree 
fully, Senator Levin, that we did not share as much as we 
could. But there were restrictions.
    Chairman Warner. Thank you very much, Senator Levin.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here. There aren't 
three individuals for whom I have greater respect and 
appreciation for your incredible contributions to our country, 
and I'm very grateful they're here.
    I must say, though, that I think I've had an out-of-body 
experience here, because when I summarize the testimony of the 
witnesses, we really don't have to do anything substantive, as 
far as reorganizing our ability and enhancing our ability to 
fight the war on terrorism, which all of us agree is going to 
be with us for a long time.
    Secretary Carlucci mentioned we have to keep our own 
secrets. I don't know anyone who would disagree with that. The 
need to know--Senator Levin just pointed out that somebody felt 
it was such a need to know that they didn't inform the proper 
agencies that people were taking pilot training in Phoenix, 
Arizona. Risk-taking is at a minimum now, according to 
everything that I've read, and that is that our now-
intelligence services sit in the embassy and wait for the 
somebody to walk in.
    I don't know how long we're going to keep blaming the 
Church Committee. It's been about 30 years now since the Church 
Committee had their hearings. Maybe the effect of the Church 
Committee would have some kind of half-life after awhile.
    Yes, we've had successes. But for us to rest on those 
successes, given the ample evidence of massive failures that 
caused the worst attack on the United States of America in our 
history, I think would not be satisfactory to my constituents.
    Secretary Carlucci, you mentioned that rebuilding is 
underway, and that former DCI Tenet said it would take 5 years. 
What was he doing the previous years when he was in charge? As 
a member of the Weapons of Mass Destruction (WMD) Commission, I 
have been finding out more and more information, most of which 
is public knowledge, that there were massive failures. A guy 
named ``Curveball'' gives information which was accepted on its 
face and somehow became a part of Secretary of State's 
testimony before the United Nations Security Council--that, and 
other information he now deeply regrets--that he presented as 
fact. According to Mr. Woodward, the WMD information was a 
``slam dunk'' to the President of the United States.
    I guess my counter-argument to the testimony is, for us to 
maintain the status quo is simply not acceptable. I am not a 
Member of the Intelligence Committee. But, reading this report, 
no matter whether they spent 3 days or 3 weeks or 3 months, 
they did some incredibly valuable work.
    I'd be glad to hear your responses, but my question also is 
that, in your testimony, none of you have addressed the 
recommendations for a fundamental reorganization of how 
Congress exercises its oversight. They're very critical of 
Congress's oversight capabilities and activities, 
responsibility and blame that I think is well deserved, 
because--not because of the nature of the individuals, but the 
nature of the system. I'd like to hear your comments to mine, 
but also response to--if you have any ideas or thoughts--on 
reorganizing how Congress could better exercise its oversight 
responsibilities.
    Dr. Schlesinger?
    Dr. Schlesinger. Fools rush in where angels fear to tread, 
and recommendations as to how Congress should reorganize 
itself----
    Senator McCain. I could help you.
    Dr. Schlesinger.--usually fall on deaf ears. I think that 
you should carefully consider the joint-committee procedure 
that we had for atomic energy as a better way of organizing 
activities on both sides of the aisle. I'm not recommending it; 
I think you should consider it.
    As to what is wrong with intelligence, that is a matter of 
good analysis, improved analysis, and hiring good people. The 
problem was not the Church Committee, it was the reaction to 
the Church Committee in law and executive orders that said, 
``Don't talk amongst each other.'' There's some very silly 
examples that occurred as a response to those injunctions.
    Senator McCain. I'd be glad to hear from Secretary 
Carlucci, but, in response, again, there was no law or any 
custom or anything else that prevented the information about 
people taking pilot training in Phoenix from getting to the 
right----
    Dr. Schlesinger. Absolutely right.
    Senator McCain. There are a lot of things that happened 
that there's neither law nor action of the Church Committee 
that would have prevented this incredible stovepiping which has 
been identified by a large number of experts as one of the 
serious problems that we have.
    Dr. Schlesinger. That's absolutely right, and we need to 
get rid of the stovepiping, and that's one of the things that 
an NID can, indeed, do. Because only the clout of somebody with 
authority from the President can eliminate some of those 
classification barriers.
    Senator McCain. Secretary Carlucci?
    Mr. Carlucci. Senator McCain, I didn't mean to give the 
impression, and I hope I didn't, that I think everything is 
fine and we shouldn't make any changes. Indeed, I think we 
ought to set up the NCTC, and that's a major change. What I was 
saying is, be careful about moving the organizational boxes 
around, because you may make the problem worse.
    So you can enhance the DCI's authority. Let's look at it--
as Senator Warner is already doing, let's look at the DCI's 
authority and see where the shortcomings are, set up the NCTC, 
and proceed from there. There may be things that we could do 
afterwards that would be important. But, to take what Jim 
Schlesinger said, ``First do no harm.''
    Senator McCain. Do you have any comment about reorganizing 
Congress's oversight responsibilities?
    Mr. Carlucci. It's not been my area of expertise. Clearly, 
there are too many committees. To set up some kind of a joint 
committee would be a highly desirable thing to do.
    I mentioned trade-craft. There's been a lot of talk about 
connecting the dots, and that was the failing of our 
intelligence system. Okay, so be it. But had we had one asset 
inside of al Qaeda, we might have had highly accurate 
information. So let's also look at our trade-craft. Let's not 
just say it's a matter of organizational structure or 
connecting the dots.
    Dr. Hamre. Senator McCain, first I--our current system of 
budgeting, as we--when it comes to the IC--and it's because we 
have two different chains--and, frankly, there's a lot of 
ambiguity over who's in charge. People fight for the authority, 
not necessarily following through with the kind of details that 
we should have. I, frankly, see the same extending up here on 
the Hill. The quality of oversight is very uneven. The 
committees are too big, as Secretary Carlucci said. Far too 
much time is being devoted to arguing over budget inputs, not 
enough about what's coming out of the system. The Intelligence 
Committees and the Armed Services Committees compete with the 
Appropriations Committees to try to do the same job: control 
dollars. I think that's something that we really should look 
at.
    There is a range of things. I have some ideas. I think it 
would be useful to have, as Secretary Schlesinger said, a joint 
oversight committee that is comprised of the two Intelligence 
Committees to really do oversight of the intelligence process. 
So there are a number of things that need to happen. It's a 
rather wide set of recommendations I think you'd want to 
consider if you were looking at oversight for the community.
    You don't have any jurisdiction, for example, over--or the 
Intelligence Committee really doesn't have much--over the FBI, 
and yet the connecting-the-dots problem was very much a 
domestic/foreign-intelligence issue. Those all have to be put 
on the table. How you structure it to deal up here is going to 
involve some fairly big changes.
    I'd be happy to come and talk later. I got myself in a lot 
of trouble in the House for being too public, but I'll do it 
again, if you want.
    Senator McCain. You never get in trouble here. [Laughter.]
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. I join with all 
of those in welcoming a very distinguished panel.
    I had the chance over the last 10 days or so to go through 
pretty much all of the 9/11 Commission Report, and it obviously 
has to bring back to all the families those extraordinary 
moments and times of deep loss, and you can't read through that 
extraordinary report without recognizing it. It's also a 
tremendous challenge for the country.
    Now we are attempting to deal with these recommendations. 
It's against a background where I think all of our panelists 
have acknowledged the extraordinary progress that's been made, 
in terms of communications, intelligence, and information. The 
Gulf War, won 72 hours from the time of siting onto a target 
until the time weapons could be delivered, to--now to 20 
minutes--the progress that's been made has been extraordinary. 
No one wants to upset that. No one wants to disturb it.
    But the fact is, we're facing a newer world, a newer world 
with al Qaeda. A newer world with al Qaeda. This is not the 
issue of changing, ensuring that government is going to do what 
it has to do and should do, and has the most important 
responsibility to do, and that is to protect its people--to 
protect its people--and also to secure, obviously, the best 
that we can, in terms of our national--of our defense forces. 
That's obviously important.
    We're mindful that this is an issue which--in asking the 
Congressional Research Service, which I did in preparation for 
this hearing--this issue about how we can make our intelligence 
systems more effective, they've given me 15 different reports, 
going back to Herbert Hoover, about steps that could be taken, 
most of them not enormously dissimilar from the 9/11 
Commission. Not enormously dissimilar. Not enormously 
dissimilar.
    The one I want to speak to you about--I haven't got the 
time to go on through them--is the Scowcroft Commission Report. 
This isn't someone who is reckless in recommendations; this is 
a person who has served under seven Presidents, been a 
distinguished military leader, been a national security 
officer, heads the National Security Office for Bush 1, now the 
head of the Foreign Intelligence. He had some enormously 
important recommendations that are not greatly dissimilar from 
the recommendations of the 9/11 report.
    Let me just summarize. This is a--just very quickly, from a 
New York--or from a Time magazine story. ``Scowcroft chaired a 
year-long study on the subject and sent his report to the 
President in March. There, it collects dust. At a black-tie 
dinner last week''--this is in December 2002--``when he 
presented an award to CIA George Tenet, Scowcroft broke cover 
again. `For years, we had a poorly organized intelligence 
system,' he said, `but it didn't matter, because all the 
threats were overseas. So now we have a huge problem. It is 
unfair,' he said, `to ask Tenet to take responsibility for 
intelligence matters when he has authority over only some of 
them. I think it's time we give him all the tools he needs to 
do the job.' The room, full of spooks, spy chiefs, exploded in 
applause.' ''
    Now, maybe the Scowcroft Commission recommendations aren't 
the answer, maybe September 11 is not the answer, but the 
American people know we're dealing with al Qaeda that's out 
there in towns and communities, trying to steal weapons of mass 
destruction, bioterrorism, working day and night, in terms of 
its kind of a threat. I think we have to be able to evaluate--I 
don't know why we can't look at the Scowcroft Commission and 
make the recommendations--but we have to have serious 
recommendations, rather than, as Senator McCain has mentioned, 
just saying, ``Things are working okay.''
    Let me ask you, Mr. Hamre. How satisfied are you, today, 
given what you know and given what you understand is the 
current situation, that we are doing everything that we can--
should be doing, in terms of dealing with the threat of al 
Qaeda?
    Dr. Hamre. Senator, this is a--that's a much broader 
question than just the issue before us. I think that--first of 
all, I would say, I think there's a good deal more cooperation 
between the intelligence and law enforcement communities than 
ever existed before. Is it sufficient to divert the next 
attack? Maybe not, I don't know, but it's certainly much, much 
better than it was. The focus--we have many more people who are 
now worrying on this issue, compared to what we had before.
    Now, institutionally, you'll have to ask, is that--does 
that have staying power? I think the issue in front of you and 
the rest of Congress is, do you need to put an institutional 
framework to this? I, personally, think that the system that we 
have right now is, we tend to have a weak coordination 
structure. It's not that the authorities aren't strong for the 
DCI--he has very strong authorities--but he's not chosen to use 
them all, and they've fallen into, frankly, disrepair, because 
he's bucked up against very powerful SECDEFs through the years.
    So I think you--now you have to ask the question, do you 
change that? Do you basically ask him to override the SECDEF, 
or do you institutionally give him more standing, independence, 
and power, as was recommended by the Commission? At some point, 
we're going to have to restore, in a more institutional way, 
some of those authorities to coordinate across the government. 
But I think that there is a lot of risk of doing it the way the 
9/11 Commission recommended.
    Senator Kennedy. Are you familiar with the recommendations 
of the Scowcroft Commission?
    Dr. Hamre. Sir, I have never read it, because I don't think 
it's been publicly released, but I am aware of the 
recommendations.
    Senator Kennedy. Could you give us any reaction as to----
    Dr. Hamre. I think they were also trying--they recommended 
creating an NID, separated from the CIA director. I worry that 
there's not enough basis inside the Scowcroft recommendations 
for a strong NID, because, under that formula, he's still 
largely going to be managing a set of procedures, and I think 
that it needs to be stronger than that, frankly.
    Senator Kennedy. Could I ask the other--if my time 
permits--Secretary Schlesinger and Secretary Carlucci, whether 
you're familiar with the Scowcroft Commission and what you 
could tell us about it?
    Dr. Schlesinger. Yes, I am familiar with it. I make the 
first observation, General Scowcroft's remarks at the black-tie 
dinner, he said, ``In the past, the threat has been overseas.'' 
The inference from that is that we have to have better 
coordination between the agency and the other intelligence 
agencies and the FBI, which has been perhaps the weakest point 
of all. The reforms that he suggested do nothing about that.
    Senator Kennedy. My time's up. Do you think we ought to 
have that before the committee, the Scowcroft Commission?
    Dr. Schlesinger. I think that, whatever you do, you must 
have a better coordination between CIA and FBI, for the very 
reasons that you remind us----
    Senator Kennedy. I was thinking about the report.
    Dr. Schlesinger. On the report. As my remarks indicated, I 
do not think that it would be wise for the warfighter or for 
the DOD to take coordination between C\3\ and intelligence out 
of the DOD. I think that that would do damage to the 
warfighter, and I think that the attempt of commanders in the 
field will be to substitute other assets for the ones that they 
think have been lost to them.
    Mr. Carlucci. Just one quick point. Nobody has said that, 
``The intelligence system is working fine. Let's keep it the 
way it is.'' We've all made recommendations for change. I agree 
with what Jim has just said.
    Senator Kennedy. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. For the record, the Scowcroft Commission 
Report has not been released by the White House, so--there have 
been some public discussion of its major points, and we're 
going to look into seeing whether or not we can have greater 
access to it.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    I just had a talk with Brent Scowcroft last Thursday. Even 
at my age, I begged him, on hands and knees, to release the 
report to the Intelligence Committee and to the Armed Services 
Committee. He pointed out he is still the president of the 
President's Foreign Policy Advisory Board, and, as such, comes 
under the jurisdiction of the National Security Council (NSC) 
and would have to receive clearance from the White House to 
make that report public. I agree with Senator Kennedy, and I 
agree with you.
    Finally, after struggling from my hands and knees, I said 
that Senator Rockefeller and I would make that request, and 
that we would also make a personal call to the White House to 
see if we couldn't get that done. With all of the horsepower 
that the chairman has, and the vice chairman has, I am very 
hopeful we can get that done.
    Let nobody state that we are abrogating our 
responsibilities and challenge to try to implement the goals of 
the 9/11 Commission and to meet our responsibilities with the 
families. Senators Collins and Lieberman just concluded a 
hearing, as of this morning, where they had the DCIs, Webster, 
Woolsey, and Turner. All three indicated that they were for an 
NID, with some modification--I don't want to say that carte 
blanche--and also the NCTC. There was no comment on how we fix 
the oversight of Congress in which, by my count, we have at 
least eight committees, plus OMB, in charge of these decisions.
    Let me say that, with Senators Warner and Levin and myself, 
I was also hopeful that Senator Rockefeller would be able to 
attend, being the Vice Chairman of the Intelligence Committee--
we share their very strong feeling that we must preserve the 
tactical intelligence to the warfighter. That's a given. That's 
the tactical intelligence and related activities (TIARA) part 
of the program, in regards to tactical intelligence.
    Now, we have seven committees, I think, that have held 
hearings during this break. It's not a break. We have about 13 
to go, and it'll probably be up to 20 by the time we come back 
into session. So I think there is real work being done in 
September and I am very thankful for that.
    Mr. Chairman, I'd like to ask unanimous consent that the 
speech you made on the Senate floor, as of July 22, be inserted 
into the record at this point.
    You spoke before the Senate as the chairman of the Senate 
Armed Services Committee. You talked about the 9/11 report 
being a roadmap, but then you also pointed out, made the 
comment that amounted to a sweeping indictment that we have 
been dysfunctional in our oversight.
    I've been a member of this committee for 8 years. Of 
course, you've been the chairman, off and on, along with 
Senator Levin. You pointed out that you structured the 
Goldwater-Nichols legislation and we created the Special 
Operations Command. Through the efforts of Senator Lieberman 
and Senator Coats, you have also created a Subcommittee on 
Emerging Threats and Capabilities. That subcommittee, by the 
way, warned, in 1999, what could happen to the World Trade 
Center. In that subcommittee, we have made a lot of progress 
with regards to joint experimentation, homeland defense, 
counterterrorism, and future technologies and concepts that 
will be needed to confront all sorts of future threats.
    Then you had a minority-view report. This report is 10 
years old, signed by Senators Warner, Danforth, Stevens, Lugar, 
and Wallop. Bottom line, ``Reductions in the U.S. intelligence 
capabilities in this period of international stability are 
unwise and do not serve the Nation's long-term security 
interests.'' There's more. Basically, this is 1994, 10 years 
ago.
    So I'd like the entire speech to be made part of the 
record. I think it's pertinent. In setting the record straight, 
I congratulate you, sir, and I think you made some fine 
comments.
    Chairman Warner. Without objection. I think we should also 
note that you've been the distinguished chairman of the 
Subcommittee on Emerging Threats and Capabilities since the day 
it was created.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Roberts. As always, your humble servant, sir.
    Let me just say that if I can sum up the testimony--and I 
know that I should not do this with Senator Collins being 
present, who's doing an outstanding job, along with Senator 
Lieberman, on the Governmental Affairs Committee--but the three 
of the witnesses there pretty much got on the NID stage and the 
counterterrorism stage and left town. Now, they didn't leave 
town, but at least that was their recommendation. From what I 
hear of the witnesses, I'm not sure if you're on the NID stage, 
or not.
    Do you support really granting the NID direct supervision 
and control over the DOD elements of the NFIP? Now, saying 
that, there are 15 agencies; there are 4 of them under the DOD; 
then you have the 4 Services, that's 8; and then the rest of 
them are under the Intelligence Community, as all 3 of you well 
know. The suggestion has been made by the distinguished 
chairman that somehow we could work out some kind of an 
arrangement whereby there is better coordination. But it was 
just like Senator McCain said, I think, with the 9/11 
Commission, with a lot of support in this town, and with the 
administration moving toward that goal, and it's not a set 
policy yet that they are for the NID, and they are for this 
NCTC. Yes/no, are you for it or against it?
    We'll start with you, Jim. Pardon me. Secretary 
Schlesinger? And K State fan.
    Dr. Schlesinger. Thank you, sir.
    Now, we used to have greater uniformity in that, prior to 
the 1970s, the CIA was under the control of the Armed Services 
Committee. So what we have been doing on the Hill has been to 
split those authorities, reflecting the public reaction to the 
so-called ``scandals'' of the 1970s.
    No, I don't think that the authorities in the DOD should be 
placed under the NID.
    Senator Roberts. Secretary Carlucci?
    Mr. Carlucci. I agree with the concept of an NCTC. I do not 
favor an NID. If we're going to have an NID, I don't think he 
ought to have line management over the CSAs.
    Senator Roberts. Dr. Hamre.
    Dr. Hamre. Sir, I do not favor the 9/11 Commission 
recommendation that gives the NID authority over DOD agencies. 
If you're going to have an NID, you'll want a strong one. If 
you're going to have a strong one, I think you're going to have 
to give him some real things to manage, other than just 
interagency coordination processes.
    Senator Roberts. Let me give you the counter-argument. I 
have noted what appears to be very redundant, often wasteful, 
procurement of intelligence system, in my own view as chairman 
of the Intelligence Committee, shared by many across the 
several intelligence budgetary mechanisms down through the 
years, different agencies and different congressional 
committees--obviously, that's no surprise. You have the 
entrenched interest of several of these bureaucracies. We may 
see that, when an intelligence requirement is levied, the NRO 
always finds one of its satellites to be the best solution, if 
not all of them. The NGA will feel its imagery is the best. The 
NSA may offer signals intelligence. The Air Force may prefer 
its unmanned aerial vehicle (UAV). The CIA may obviously feel 
an agent collecting information is the best, not to mention a 
poor marine who would just want new tires on his high utility 
mobile mechanized vehicle.
    Sadly, all of these programs may be funded to meet similar, 
or even redundant, needs. Yet the SECDEF cannot do all that. We 
have an Under Secretary of Intelligence now who has his hands 
full. The SECDEF certainly has his hands full. Would an NID, 
with more powerful authorities, be able to make the tough and 
unpopular decisions that fiscal responsibility requires? It 
doesn't have to mean that you put the whole agency out of the 
DOD over to the NID, but at least that person would have 
funding authority, hiring and firing authority, shifting 
personnel authority, and also transfer authority in regards to 
funds.
    What I'm trying to say is the reprogramming--is your answer 
still no?
    Jim?
    Dr. Schlesinger. I think that the NID can do much more in 
the area of centralizing collection, which is the big money 
area, as your question raises. The NID should not be engaged in 
suppressing competition among the agencies. The SECDEF and the 
Joint Chiefs should have their own DIA.
    Mr. Carlucci. The way you've described it, I can see an NID 
building a huge staff right now, and that would be just another 
layer. So I think we have to be cautious about giving him all 
this authority. Either he builds his staff or he yanks 
something out of DOD. There's no in-between.
    Senator Roberts. Dr. Hamre?
    Dr. Hamre. I'd agree with what Dr. Schlesinger just said to 
you.
    Senator Roberts. Okay. My time is expired, and I thank you, 
Mr. Chairman.
    Chairman Warner. Thank you, Senator Roberts.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Thanks to you 
and Senator Levin for these hearings.
    As has been indicated, Senator Collins and I have been 
involved in holding some hearings and we welcome--there's a lot 
of overlap between our two committees, Mr. Chairman. We look 
forward to working with you as our committee produces the 
legislation that Senator Frist and Senator Daschle have asked 
us to produce sometime in September.
    I want to pick up on the questioning of Senator Roberts and 
some of the others, the line of questioning that they've been 
following.
    You can't read the 9/11 report without concluding that it's 
an indictment of the status quo, in some measure. They don't 
quite say this, but it certainly left me with the impression 
that if the kind of reorganization they recommend was in place 
prior to September 11, maybe it wouldn't have happened. It goes 
to the connecting of the dots, to the focusing of resources 
where they were necessary. The bottom line seems to be, no one 
was in charge. The Commission says that. Mr. Zellico, the 
executive director, testified to the Governmental Affairs 
Committee that that remains the case. No one's in charge of the 
American IC. As a result, there is stovepiping, there's not an 
overview by somebody at the top of where priorities are and, 
therefore, where the money should go.
    In that report, I believe it says that our IC is organized 
according to the best management principles of the 1950s, which 
is not surprising, because it came into being in the late 
1940s, when the world was very different and the enemy was very 
different--Soviet Union, as opposed to all the diffusion of 
terrorism.
    Incidentally, we know the toughest part of this is what to 
do about the Defense intelligence budget. Questions have been 
raised. It's true that a lot of the criticism in the 9/11 
Commission Report was focused on other agencies, particularly 
the failure of CIA, FBI, et cetera, to cooperate. But there is 
some criticism of the NSA, which is in the DOD, obviously.
    I'll just read from the Commission report, page 80, ``The 
NSA began''--let me start with page 87--``An almost obsessive 
protection of sources and methods by the NSA and its 
avoidance--its focus on foreign intelligence and its avoidance 
on anything domestic would, as will be seen''--in the report--
``be important elements in the story of September 11.'' 
Basically, an accusation that the considerable assets of the 
NSA were not being focused on the war on terrorism.
    They say, ``The NSA began putting caveats on its bin Laden-
related reports that required prior approval before they're 
sharing their contents with criminal investigators and 
prosecutors. These developments further blocked the arteries of 
information-sharing.''
    Finally, from page 417, ``In the September 11 story, for 
example, we see examples of information that could be accessed, 
like the undistributed NSA information that would have helped 
identify Nawaf al Hazmi, in January 2000.'' It goes on.
    So there is some direct connection in the report to 
failures of cooperation by intelligence assets now under the 
control of the DOD.
    Senator Roberts asked about whether you were for the NID, 
and there was--as recommended, I think you generally said no. 
Bob Gates, former DCI, said in testimony he submitted to our 
committee this morning--strong statement--``The new 
intelligence director, as described''--he actually talks about 
the White House. He says, ``The President recently announced 
his initial decisions in response to the Commission 
recommendation. I hope, as the White House spokesman has 
suggested, that these decisions are only a first step, because 
the new intelligence director, as described, will impose a new 
layer of bureaucracy, but has no troops, no budget authority, 
and no power. Therefore, the new position would be worse than 
the current arrangement.''
    So what's my question? [Laughter.]
    My question is this. You've answered, in part. Let me go at 
it this way. You've had the extraordinary experience in 
administration, both in the public and the private sector. How 
can we, in something so fundamental as this war on terrorism, 
go on without having somebody in charge? If you put somebody in 
charge, doesn't that mean they have to have budget authority 
over the DOD--or at least significant non-TIARA, non-tactical 
parts of the DOD intelligence budget?
    Secretary Carlucci?
    Mr. Carlucci. I think we can do that without creating 
another layer. That's the point I tried to make, that we ought 
to look at the DCI's authority, and where they are found 
wanting, let's change that. But to create another layer with a 
whole staff, I agree with Bob Gates, that either he's 
toothless, in which case it's a useless layer, or he's a 
nuisance because he's intervening in the warfighting process of 
DOD.
    Senator Lieberman. Okay, so that's helpful for me to 
understand. In some ways, you're saying if there's need for 
coordination and more strength, including some budget 
authority, give it to the DCI----
    Mr. Carlucci. Absolutely.
    Senator Lieberman.--instead of creating an NID.
    Mr. Carlucci. Absolutely.
    Senator Lieberman. Secretary Schlesinger?
    Dr. Schlesinger. The first point that I make is that the 
stovepiping that has so badly damaged our ability to deal with 
September 11, evidenced beforehand, was basically between the 
FBI and the CIA, and that if that is the area that you must 
bring greater integration, how far the TTIC does in bringing 
FBI information to the benefit of the counterterrorism area, I 
don't know. The FBI has historically been outside, really, of 
the IC.
    Second point, you mentioned that the NSA was obsessive 
about protecting its sources and methods and information, and 
the reason that it was obsessive was that during the 1970s and 
1980s, we told the NSA, ``Never eavesdrop on an American 
citizen.'' If you tell people not to hear things, and then, 
certainly, if they've heard things inadvertently, not to pass 
them on, they will be obsessive.
    Senator Lieberman. As you know better than anybody.
    Dr. Schlesinger. Yes.
    Senator Lieberman. You'd say it yourself, we're not in the 
1970s and 1980s anymore; we're in a new century with a new 
enemy, about whom we----
    Dr. Schlesinger. Absolutely.
    Senator Lieberman.--need to know everything there is to 
know.
    Dr. Schlesinger. Absolutely.
    Those restrictions should be dropped, and they have been 
dropped.
    Senator Lieberman. Dr. Hamre?
    Dr. Hamre. Senator Lieberman, you really don't need to add 
more authority to the DCI on budget. He already has very strong 
authority, but he doesn't really use it. The reason is, he's up 
against very strong Cabinet Secretaries.
    Senator Lieberman. So how do we deal with that? Because we 
know the SECDEF has a lot of authority and power. How are we 
going to equalize that competition, that tension, in a way that 
gives more resources to the war on terror?
    Here we have, ``George Tenet declares war on terrorism as 
DCI in''--as the Commission report said, ``in 1998.'' Nobody 
responds to him. Maybe it's because they didn't think it 
mattered, because he didn't have any budget authority over 
them.
    Dr. Hamre. But, Senator, it's not the only war we're 
fighting. We have a lot of things we're having to do besides 
war on terrorism. It is not the only focus. I think that's the 
primary worry I have: we're going to organize around just that 
one concept. I think that's where I have to ask you to be 
careful.
    Senator Lieberman. My time's up. But, obviously, we're not 
going to organize just around that one concept. The problem--my 
fear is--and this report documents it--this is the great threat 
to the security and lives of the American people, and we're not 
devoting enough of our intelligence resources, in a coordinated 
way with somebody in charge, to it.
    Thanks, Mr. Chairman.
    Chairman Warner. Thank you, Senator Lieberman.
    Dr. Schlesinger. May I, Mr. Chairman?
    Chairman Warner. Yes.
    Dr. Schlesinger. There are bureaucratic problems within the 
CIA, and when George Tenet, quite rightly, said, ``We are at 
war,'' even within the CIA, there was not the resource shifts 
that should have come, given the fact that we were at war.
    Senator Lieberman. It's a point well made.
    Chairman Warner. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    We're talking about the problems, and I think the panel has 
dealt with the problems, the deficiencies we had at the time of 
September 11. But a lot has happened since September 11, for 
heaven sakes. The NCTC that's been established, with CIA as the 
head officer--I think it's in the FBI building, supported fully 
by FBI--and every bit of intelligence involving terrorism is 
filtered through there so it can be properly analyzed. I guess, 
first of all, that's a big step forward, I think, and it's the 
kind of thing that was not happening before September 11. Also, 
I notice in the Commission's report that our expenditures for 
intelligence fell every year from 1990 to 1996. From 1996 to 
2000, it was flat, except for a Gingrich supplemental, they 
note.
    But since then, we've been spending a lot more money on 
intelligence, particularly HUMINT and other things that we know 
we were, in the aftermath of the disaster of September 11, to 
do better about.
    Do any of you doubt that there is a great deal more 
cooperation within the agencies now, a great deal of effort to 
knock down the stovepiping, that obviously existed before 
September 11, in the months since September 11? Secretary 
Hamre, I guess you're the most recent----
    Dr. Hamre. Sir, just by way of disclosure, I serve on an 
advisory board to both the FBI and the NSA, and there is more 
cooperation than I have ever recalled between these agencies 
and with the NSA and with the CIA. There is dramatically more 
cooperation. There still are organizational impediments. The 
law enforcement perspective is constraining, from an 
intelligence standpoint, to be candid. So there are issues like 
that.
    But, as you pointed out, lots has happened. Lots of good 
things have happened.
    Senator Sessions. Secretary Hamre, I know you served as 
Deputy Secretary and also as the Comptroller to the DOD under 
President Clinton's administration, but let me ask you about 
this. It's the ``Central'' Intelligence Agency. I presume that 
means it's supposed to be the central source of intelligence 
for the country. Was that the purpose of the founding of this 
agency, or one of the purposes of it?
    Dr. Hamre. Sir, it's supposed to be the one and only all-
source intelligence center that's supposed to provide.
    Senator Sessions. So if we create another one now, we're 
putting layer on layer. Is that what you're concerned about?
    Dr. Hamre. Sir, I think the proposal that the Commission is 
recommending is not to duplicate the CIA, but, indeed, to split 
off the central coordination role of the DCI from the CIA. 
That's where my concern lies, is that I think that 
recommendation, if left at that, will actually weaken both, and 
that's not a good idea.
    Senator Sessions. I had an opportunity to have dinner with 
some CIA agents and station chiefs and it was 8 o'clock. They 
said that was the earliest they had been at home. They're 
working 7 days a week to serve this country. I don't think they 
think that this Congress or the American people have any idea 
of what they do. My impression was, they simply felt that what 
they were doing was critical to this country, and they were 
doing it because they love this country.
    Mr. Carlucci, you mentioned ``disruption'' and Secretary 
Schlesinger, ``do no harm.'' Isn't it important that we not do 
anything that damages the morale and the motivation of those 
agents in CIA and DIA around the world who are at risk for us 
this very moment?
    Mr. Carlucci. I'm glad you raised that, Senator Sessions, 
because I don't think enough focus has been given to the 
recruitment of human assets around the world. I have worked 
with these people throughout a 26-year Foreign Service career. 
I have seen them do their day job during the day, do their CIA 
work all night. I've seen the strain on families. I've seen the 
dedication. There's no recognition. They can't become 
ambassadors. They just do it out of pure dedication. We need to 
support them. The name Dewey Claridge probably doesn't mean 
much these days, but there is a man who was indicted for 
carrying out his professional responsibilities. We don't treat 
them well. We need--one of the things--people say, ``Well, 
we're not recommending change.'' I'm recommending a very 
serious change, that we make sure we support our intelligence 
officers in the field. Recognize, sure, there are mistakes, 
there are intelligence failings, but there are a helluva lot of 
dedicated people out there doing a fine job.
    Senator Sessions. Perhaps what Mr. Tenet meant when he said 
it would take 5 years to get this thing back on a level we'd 
like to see it move to, he was talking about the delays that 
occur when you establish HUMINT. You just can't do that 
overnight, isn't that correct, Mr. Carlucci?
    Mr. Carlucci. You have to organize some cover. You have to 
train, you have to organize cover. You don't just go out and 
hire an Arab-speaking officer and send him into Iraq or 
Afghanistan and say, ``Recruit.'' It takes years to get good 
cover, non-official cover. You can do embassy cover very 
quickly. But non-official cover, which is what you have to do 
against the terrorist target, or against hard targets, like 
North Korea or Iraq, takes years to develop.
    Senator Sessions. Secretary Schlesinger, you've headed two 
cabinet agencies. I happened to be a prosecutor when we did the 
drug czar. That was supposed to coordinate all the Federal 
agencies on the drug front. I'm not saying it did not have some 
positive benefits, but it's pretty hard, is it not, to have 
some non-cabinet-level official order cabinet-level officials 
around?
    Dr. Schlesinger. My observation is that, unless a czar is 
given an agency, that, sooner or later, like Nicholas II, he 
winds up at Ekaterinburg with a bullet in his head. [Laughter.]
    Two quick points, Senator. First, the disruption that Frank 
referred to does not just affect our ability to recruit agents; 
it affects the morale of the people in the Department. When you 
shuffle around agencies, you're going to pay at least a short-
term price, because individuals in the system will be concerned 
about where they fit into the new system.
    Second point, we are now dealing with a different kind of 
conflict, and the CIA was established to bring together all of 
the information that came from the then-Army and Navy that was 
lost during the runup to Pearl Harbor. It was not designed to 
bring in the FBI.
    When I joined the government in 1969, the Director of the 
FBI was Herbert Hoover, who had given orders to all FBI 
personnel never to speak to anybody in the CIA. Now, that is 
real stovepiping. Of course, there were all these clandestine, 
if I may use--these exchanges of information, because the 
people in both the FBI and the CIA recognized that, to some 
extent, they had to work together.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, not only for your testimony, but for 
your service to the Nation over many years.
    It seems to me we've had two extraordinary failures in 
intelligence, both September 11 and Iraq. There were failures 
in collection, analysis, distribution of information, and, 
ultimately, decisionmaking. They represent--if not two sides of 
a coin, slightly different phenomenon. I would suspect that if 
we focus only on September 11, we might not fully realize all 
the changes that we have to make.
    The September 11 problem has a domestic component, which is 
not the case if we look at North Korea, we hope, or Iran. Those 
are strategic problems we have to deal with. In September 11, 
it was more of a failure of warning. In Iraq, it certainly 
wasn't a failure of warning.
    Consistent, though, were belief structures. We believed, 
before September 11, they could never do anything like this. 
With respect to Iraq, we believed they were going to do 
something the next day.
    So, again, a very general question, but in terms of 
collection, analysis, distribution, decisionmaking, what 
specific advice would you have for us? Also, what about this 
notion of belief structure, about--we fool ourselves 
sometimes--not the bad guys, but we fool ourselves.
    Dr. Schlesinger. Let me comment on WMD, if I may.
    Senator Reed. Yes, sir.
    Dr. Schlesinger. Given the information that the analysts 
had, theirs was not an unreasonable conclusion, that Saddam 
Hussein had WMD, given his history. The problem with the 
intelligence that went public was that it did not include the 
caveats that should have been included, all of the doubts, all 
of the holes.
    The real problem with intelligence on WMD was not the 
analysts; it was the failure to have effective HUMINT from 
inside Iraq, which is, unlike the Soviet Union or China, more 
readily penetrable. That we had no solid information. The 
analysts were working on the basis of inferences, and that's 
all they had, and the inferences are not unreasonable.
    Senator Reed. Mr. Hamre?
    Dr. Hamre. Sir, I think you've identified a very central 
problem, which is this--as you've talked about, belief 
structure, or some people call it ``group think,'' which sets 
in. I can only think of one really structural solution to that, 
and that's to make sure that the various elements of the 
government that have to come together to make a decision in the 
executive branch have to report to different oversight 
committees up here on the Hill and explain it to people with 
different perspectives. That's the only way I can think you can 
do that. Therefore, they need to keep--retain intelligence 
capabilities for assessment purposes and for their own 
department.
    Senator Reed. That presupposes that our oversight will be 
vigorous and consistent.
    Dr. Hamre. Yes, sir, and I hope it will.
    Senator Reed. Thank you.
    This issue of stovepipes is interesting. We all understand 
about stovepipes, but eventually they end, and that's in the 
National Command Authority, where the President--not just this 
President, but any President--has to challenge these agencies.
    Dr. Schlesinger. Usually stripped of their caveats.
    Senator Reed. Caveats, yes. But that's where the President 
will ask about the caveats, one would hope, because to assume 
that this is all simple stuff, I think misses point from the 
beginning, which raises a question. Maybe it's a mundane 
question, but with all this anticipated moving around of 
institutions and organizations and analysis, how will that help 
the President and the White House make better decisions? I 
think it is really one of the fundamental questions, and I'd 
appreciate your comments.
    Dr. Schlesinger. Look at the issue of the WMD once again. 
My problem with that is that the agency that had the best 
technical knowledge was disregarded. The Department of Energy 
said, ``All of our people who have looked at it said that these 
particular tubes are not intended for centrifuges,'' and that, 
in the overall, was pushed aside. You have to have a system 
that has respect for those who have the closest technical 
knowledge.
    Senator Reed. Again, I think that kind of nuance and detail 
is not being captured in the discussion of creating an NID 
and----
    Dr. Schlesinger. No.
    Senator Reed.--the TTIC. But that's really where it--
eventually, you make the judgment, which is, basically, giving 
the experts their play, letting them give you the analysis. In 
that case, they did connect the dots.
    Dr. Schlesinger. Yes.
    Senator Reed. But they were ignored. So it's not all the 
time about just connecting the dots; it's having decisionmakers 
who are willing to listen and to probe the analysis.
    Dr. Schlesinger. We not only want to connect the dots, we 
want to connect them correctly.
    Senator Reed. It looks as if we will do something. I would 
ask you, what do you think is the minimum we should do, Mr. 
Carlucci and Dr. Schlesinger and Dr. Hamre? Then what things, 
specifically, we might defer because they're hard and they 
require more cogent thought and they require, perhaps, just 
more time?
    Did you have any thoughts in that regard?
    Mr. Carlucci. Let me start. I think we ought to go ahead 
and create the NCTC with the operational planning component in 
it. I'm a little nervous about putting operational planning too 
close to intelligence, but I think, given the changed 
circumstances--Senator Lieberman, you said, ``It's not the 
1970s''--we ought to do that. We ought to find ways to tighten 
up cooperation between domestic and foreign intelligence. I 
would do that by looking at the DCI's authority, seeing if that 
could be enhanced, seeing what kind of participation the FBI's 
going to have in the NCTC.
    I would defer the question of an NID until we've had 
opportunity to give it more study.
    Senator Reed. Dr. Hamre? Dr. Schlesinger?
    Dr. Hamre. Jim?
    Dr. Schlesinger. Go ahead.
    Dr. Hamre. As I said, I think that the 9/11 Commission 
recommendation would give us too strong an NID for what we 
want, and I think the President's recommendation is too weak an 
NID. So if we're going to have an NID, I think you have to 
ground him with enough institutional heft so he can carry out 
the duties that I think Secretary Carlucci just outlined. He's 
not going to become a strong coordinator if he has no 
underlying institutional base for it.
    Senator Reed. Dr. Schlesinger?
    Dr. Schlesinger. I agree with what Frank said, and 
partially agree with what John said.
    The point to keep in mind is that one can establish a czar 
who has a sunset provision, not at any fixed date. But the 
power of a czar tends to fade over time. So when it's first 
established, there's great fanfare, and so on.
    Two things that the NID could do. One is to break down the 
impediments to the flow of information that are represented by 
each agency having its own special classification system. There 
is no way that much of the agency material cannot pass from one 
to another, and somebody with the authority of the President, 
whether in the White House or out of the White House, can break 
down those classification barriers.
    The second point that I would make is, going back at least 
to the time of Henry Kissinger, the National Security Advisor 
has done a lot of coordinating for the President. We can have 
that coordination formally established through an NID. But if 
the NID does not have large number of troops under his control, 
sooner or later his power will fade.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Dr. Schlesinger, for the record, you replied to an earlier 
question by Senator Reed comparing the former Soviet Union, 
China, and Iraq with regard to the ability to get HUMINT in. 
Would you, once again, repeat that? Because I understood you to 
say it would be easier to get into Iraq than China or Russia.
    Dr. Schlesinger. That would be correct.
    Chairman Warner. All right. Then the record is correct.
    Senator Collins.
    Senator Collins. Thank you.
    I want to return to the issue that was raised by Senator 
Lieberman and Senator Levin, albeit from different 
perspectives, about whether there is a link between the 
failures prior to September 11 and the issue of budget 
authority for the NID. I want to return to this, because I 
think there is a link, and that there is an important link, 
which the 9/11 Commission revealed.
    The Commission talks about DCI Tenet issuing a directive in 
December 1998 in which he says the following, ``We are at war. 
I want no resources or people spared in this effort, either 
inside the CIA or in the community.'' But the Commission goes 
on to note that nothing really happened after that directive 
was issued.
    To me, that is directly attributable to the fact that the 
DCI does not have the authority to mobilize resources across 
the government, and that's why I do think the idea of an NID 
with significant authority is part of the answer.
    Secretary Carlucci, you mentioned this morning Stansfield 
Turner testifying before the Governmental Affairs Committee. He 
endorsed the creation of an NID. He tells a story about how, 
shortly after he took over as DCI, you came into his office, as 
deputy, and said something to the effect of, ``We have a lot of 
levers in this office, but I've come to the conclusion that the 
wires have been cut and that they aren't actually connected.'' 
I love that quote, because I think it sums up what's wrong, 
that we have, on paper, a position that looks like he would 
have considerable authority, but that when it comes to 
mobilizing the entire IC, the powers that are needed, the 
authority's simply not there.
    Secretary Carlucci, I'll start with, could you respond to 
that, since I'm quoting, or trying to quote you?
    Mr. Carlucci. I've not had the opportunity recently to do 
an analysis. Certainly, I felt that Stan had ample authority, 
and exercised that authority.
    My point is that if you don't have the requisite authority 
with the DCI, don't create another layer. Give the requisite 
authority to the DCI. Let's analyze that, see what he needs--he 
or she--and make sure that that person has the tools to do the 
job. I'm very much afraid of the disruption that goes with 
creating another layer, and the impact that might have on our 
warfighting capability, as well.
    Senator Collins. Dr. Schlesinger?
    Dr. Schlesinger. When DCI Tenet made that observation in 
1998, that we are at war, he certainly had authority within the 
CIA, which has large numbers of people. Every element of the 
CIA said, ``That's right. Just don't take any resources away 
from me,'' so that you wound up with 6 or 8 or 10 people being 
assigned to Osama bin Laden. It wasn't that he did not 
recognize the problem. It was that there was bureaucratic 
resistance, or lethargy, whatever you want to call it.
    I am sure that if the DCI talks to the Director of NSA and 
says, ``This is our problem. Listen carefully,'' that the 
Director of NSA will respond to that. If he doesn't, a 
conversation with the SECDEF would have been, should have been, 
sufficient.
    The problem was that DOD was not responsive in that period. 
There was reluctance to get involved. Secretary Cohen, as John 
Hamre will remember, talked about the threat of WMD on U.S. 
soil, but DOD did not devote the resources, and was certainly 
opposed to any military action to go after al Qaeda.
    Senator Collins. Dr. Hamre?
    Dr. Hamre. Senator Collins, I think if you were to look at 
the statute that currently gives authority to the DCI, you'd 
find it really gives the authority that you're seeking in the 
NID. So, to Secretary Carlucci's point, you could--you really 
could--it's already there. The authority is there. I think you 
have to ask, why hasn't it worked? Why hasn't it happened? I 
think the candid reaction is that the DCI bucks up against big, 
powerful Cabinet Secretaries, and there's always compromise in 
all that. I don't want to quarrel about the priorities of the 
1990s, but we were fighting other wars at the same time, and so 
you're using--you're always apportioning your scarce 
resources--your intelligence resources, your military 
resources--for a range of things, and you're making a judgment 
as to where you have to put them at the time. I don't think 
anybody consciously said, ``Well, we know there's a big 
terrorist threat out there. We're just going to ignore it.'' 
Nobody ever said that. I think there was a consciousness change 
on September 11 that made all of our decisions on September 10 
irrelevant. I think that's now what we're looking at. We're 
looking back at that period with the consciousness we now have, 
on September 11, that we didn't have before. Now, you have to 
ask yourself, ``What do I do about that,'' in terms of changing 
the government.
    Senator Collins. That's true. But it seems to me that when 
you have a call to action that is as stark as George Tenet's 
was in 1998, when he says, ``We are at war. I want no resources 
or people spared in this effort throughout the entire IC,'' and 
yet little happens, that suggests to me a flaw in our 
structure, and that's why we're striving so hard to fix that.
    I see my time has expired. Thank you.
    Chairman Warner. Senator Collins, your question, to me, it 
goes to the heart of a point that I raised in my opening 
statement. Dr. Hamre said that the DCI has all the authority he 
feels he needs now; it's a question of whether to exercise it. 
I wondered, did the other two witnesses concur that the DCI, 
under current law, has sufficient authority to do those things 
that we envision an NID will do?
    Mr. Carlucci. I haven't made a study of it, but I think he 
does. Certainly he did when I was in the CIA.
    Chairman Warner. I don't think the law has been changed 
that way.
    Dr. Schlesinger?
    Dr. Schlesinger. I think that--I don't know whether he has 
all the authority. He certainly has a great deal more authority 
than was exercised.
    I might observe, Mr. Chairman, that we had national 
complacency in that period. It is important not to blame 
national complacency on the failure of the IC. It was a general 
national failure.
    Mr. Carlucci. Moreover, we don't know what actions George 
Tenet tried to take where he was blocked. I've not heard any 
evidence to that effect. He issued the warning. Did he do 
anything to follow up on the warning? I don't know.
    Chairman Warner. Thank you.
    Senator Ben Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I'm intrigued by the discussion about solving the right 
problem, because I think that the tendency in Washington, or in 
other areas of government and in the States is, typically if 
there's a problem, we need more money, a reorganization, some 
other layer of bureaucracy to solve it, and that's what we 
typically do. So I'm hopeful that we will avoid doing that 
here.
    In that regard, I also hope that we will solve the current 
problem, rather than the problem on September 11. Let me be 
clear on that. I get the impression that maybe some of the 
circumstances that existed on September 11 have either been 
self-correcting or have had some correction along the way with 
subsequent knowledge and experience. If that's the case, isn't 
it important that we make sure that the recommendations that 
the 9/11 report have are for the current situation, versus the 
prior situation? I'd like to get your thoughts about that.
    Dr. Schlesinger. I think that the first act of this 
committee might well be to make an inventory of the changes 
that have actually occurred in the IC and beyond the IC since 
September 11. Then you will be able to deal with the situation 
as you see it today rather than the defects of the period 
before September 11.
    Mr. Carlucci. I think your point is right on, and endorse 
what Jim said.
    Dr. Hamre. I agree.
    Senator Ben Nelson. Now, in that regard, holding back, 
perhaps, on the NID might make a lot of sense, because if 
you're going to put somebody in a position to be part of the 
solution, you're going to have to deal with the authority 
issue. That'll relate to budgeting, hiring and firing, policy 
relating to implementation. Would that also require an 
inventory of what really needs to be within the power of that 
NID if we choose to make that part of the solution?
    Dr. Schlesinger. I think that you might well indicate to 
that NID the priority tasks, because, otherwise, you have an 
endless list of things that might be done, and there are 
certain things that are high priority that should be done.
    Mr. Carlucci. I now have visions of an enormous bureaucracy 
turning itself inside out to reorganizing, everybody writing a 
job description, trying to figure out where they're going to be 
the next day, figuring out what pieces of the CIA should go to 
the new NID, how we ought to intervene, what kind of command-
and-control arrangements he ought to have over the CSAs. I 
think we may be creating a real confusing mess.
    Senator Ben Nelson. I was about to say that that's what we 
had with the Department of Homeland Security, but I would 
suggest that we're still having it.
    Dr. Hamre?
    Dr. Hamre. I'd agree with what you just said, and I would 
agree with what my colleagues said.
    Senator Ben Nelson. Well, what an agreeable group. 
[Laughter.]
    I really appreciate that.
    As we relate to the executive branch, with the oversight 
from the legislative branch, can you give us some 
enlightenment, your thoughts, about how we exercise oversight 
in this particular area, with a number of committees having 
some degree of oversight, some of it overlapping? Is there a 
way to help straighten out the relationship between the 
executive and legislative branches? Having served in both, 
myself, at the State level, and then here now, in the 
legislative branch--is that a bigger question than we have time 
for?
    Dr. Schlesinger. Senator, if you can persuade your 
colleagues to put protection of turf further down their 
priority list, you will have accomplished a great deal.
    Senator Ben Nelson. Are you going to touch that one, Mr. 
Carlucci?
    Mr. Carlucci. I've never been on the Hill, so I'll bow out 
of that one.
    Dr. Hamre. Sir, I worked up here for 10 years, and, 
frankly, congressional oversight amplifies the stovepipes in 
the executive branch.
    Senator Ben Nelson. Do you think it also can--when you say 
``amplifies,'' it just creates----
    Dr. Hamre. It reinforces----
    Senator Ben Nelson. Reinforces them?
    Dr. Hamre.--reinforces the parochialism inside the 
executive branch. The hearings, Congress tends to hear from its 
favorite departments and agencies, and that gets reinforced in 
the bureaucratic fights that we take into the executive branch. 
So it's--there does--it really does, in many ways, start here. 
I would think that spending some time figuring out some reform, 
bringing yourselves together in a cleaner oversight, would help 
a great deal.
    Senator Ben Nelson. Probably we'd have to have some outside 
suggestions brought to us, because it's probably not easy to 
reform ourselves, when we have our own interests. But I do 
think that that will have to be part of the solution when we 
put together whatever the recommendations and/or legislation 
that might be forthcoming.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    I believe, under the leadership of Chairman Roberts and 
Vice Chairman Rockefeller, that that is the subject of review 
of the Intelligence Committee on which I serve.
    Senator Ben Nelson. I don't believe the process will work 
without reform on the inside here, as well.
    Chairman Warner. Thank you.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman. I really want to 
thank you for holding this hearing. It's been one of the best 
I've attended. I came in here really leaning towards this whole 
idea of an NID, and, I have to say, you've made a very powerful 
case against it, which, in all candor, I don't think has been 
shaken very much by those who have questioned you and who 
support it.
    It seems to me--and tell me if I'm wrong--that what you're 
basically saying is, if we create this NID and he's too weak, 
it's just another layer of bureaucracy, which nobody wants; and 
if he's too strong, there is a considerable risk that he will 
disrupt the actions of his new directorate, will disrupt the 
considerable amount of good work that is going on within the 
agencies, certainly within the Department, without fixing what, 
in your judgment, really went wrong. Because, I take it from 
your testimony, that you just think there is no substitute for 
getting good people on the ground who are exercising good 
analytical judgment on the basis of both good technical and 
human intelligence. Is that a pretty fair summary of what 
you're saying?
    Mr. Carlucci. Perfect.
    Senator Talent. Perfect. Mr. Carlucci, I was going to raise 
a lot of issues and try and think of some hypotheticals about 
why an agency, let's say, station head or an agency official 
might not always share, in order to protect his sources. But I 
think the one you came up with in your testimony about the 
hypothetical Iraqi official who you're trying to recruit, and 
if he knows the watchword of the day throughout the Government 
of United States is ``share everything,'' he might be a little 
bit disinclined to put his neck on the line, wouldn't want that 
floating up in every discussion that goes on in Washington.
    Mr. Carlucci. Back in the days, Senator Talent, when we 
could protect sources and methods, I can remember as an FSO 
having a particularly important, but highly sensitive contact. 
I deliberately turned him over to the agency because they could 
run him in a covert way, and that would better benefit the U.S. 
Government, even though it would not help my career.
    Senator Talent. So you turned him over to the agency 
because you knew they could stovepipe it.
    Mr. Carlucci. Yes, I knew----
    Senator Talent. Put it that way.
    Mr. Carlucci. Exactly.
    Senator Talent. They could protect that source.
    Mr. Carlucci. They could protect that source, and he went 
on being protected for years.
    Senator Talent. All right. So it seems to me--and tell me 
if I'm wrong--that you're recommending several things. One of 
them--and I think I heard you all very strongly on this, and 
I'm really inclined to agree with this--that there has been no 
effective case made, either by the 9/11 Commission or 
otherwise--and certainly sitting on this committee, both here 
in the Senate, and in the House, I agree with this--there's 
been no case made that the collection and dissemination of 
intelligence within the Department, for the purpose of 
supporting tactical military operations in theater, is broken. 
That is working, and working because of efforts made throughout 
the Department ever since--well, for the last 20 years, and 
certainly since Operation Desert Storm. So we must, at all 
accounts, not break that. In other words, it took a lot of 
effort to get that to where it is, and we have to be careful we 
don't break it. Is that a fair statement?
    Mr. Carlucci. Jim made the case very well, I thought.
    Dr. Schlesinger. May I----
    Senator Talent. Yes, go ahead. Please.
    Dr. Schlesinger.--go back to your first statement? It was 
perfect, except in one respect----
    Senator Talent. Yes.
    Dr. Schlesinger.--that NID can be too strong and too weak 
at the same time. [Laughter.]
    Senator Talent. Having only 5 minutes, I don't know that 
I'll go into it; besides which, I understand in the less 
nuanced way that you've presented it to this point, and I don't 
know that I want to mess up my understanding.
    I feel strongly about that, also. I have seen this work--I 
think we all have--in classified settings, and I know that 
commanders in theater now have confidence in this. I think if 
we turn this over to a directorate, I think you're absolutely 
right, Dr. Schlesinger, there's a tremendous danger that either 
it won't work, or they'll believe it won't work in theater, and 
that could cost us lives. The funny thing is, if it does cost 
us lives, and there's some huge failures, we'll probably 
appoint some commission and then have a bunch of hearings after 
that, and go back and ask ourselves why that happened, and it 
will have been the result of not being careful not to fix what 
isn't broken.
    The second point I hear you saying is, look, if there are 
further obstacles to prevent sharing between FBI and CIA, we 
ought to get rid of them. Now, to utter a little dissenting 
point of view. I remember some of the abuses in the 1970s that 
were the reason why those Chinese walls were set up. Can we do 
the sharing without the abuses? I guess this isn't any of your 
field of expertise, but do you want to comment on it?
    Mr. Carlucci. One thing that that ignores is the degree of 
oversight that you currently have.
    Senator Talent. Yes.
    Mr. Carlucci. Jim Angleton couldn't perform today the way 
he had performed--the way he performed back in the 1970s. 
Congress would have full knowledge of the activities. So I 
think oversight takes care of that problem.
    Senator Talent. Okay. So, again, yes, allow the sharing, 
encourage the sharing, but have effective and honest people in 
charge to do the oversight.
    Mr. Chairman, that's all I have to say. I had more coming 
in. I think they've made a pretty strong case. I appreciate 
your holding the hearing.
    Thank you.
    Chairman Warner. I appreciate, Senator, your arranging your 
schedule to be back here for today and tomorrow, and your 
participation. Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I join with the 
others in thanking you for convening this and tomorrow's 
hearings. Gentlemen, thank you for your appearance and your 
service.
    I want to focus on a different set of failures that were 
disclosed in the 9/11 Commission Report, which were the 
failures to, as I read it, follow some of the existing 
protocols and procedures, and, thereby, a failure to the 
respond to the actual attack, on September 11. Given especially 
your experience at the very top of the civilian chain of 
command, I'd just like to see whether what strikes me as some 
egregious disconnects were, in fact, what I perceive them to 
be.
    Because we talk about this need for fundamental 
reorganization or reform and these different words at these 
levels of sophisticated intelligence gathering, coordination, 
et cetera, which I don't dispute. We've spent now this morning 
in another committee hearing and this afternoon. It's about 6 
hours well spent on these various aspects.
    But according to the Commission report, at least two, and 
probably three, orders from the Vice President of the United 
States, through a military aide, to North American Aerospace 
Defense Command (NORAD) to communicate to the fighter planes 
that were in the air at that time, the authority to shoot down 
an incoming enemy plane, a hijacked plane, were not passed on 
to the fighter pilots by the mission commander. On page 83, 
both the NORAD mission commander and the senior weapons 
director indicated they did not pass the order to the fighters 
circling Washington and New York because they were unsure how 
the pilots would or should proceed with this guidance. Leaving 
aside that this authorization from the Vice President, based 
on, as he's communicated, his conversation with the President 
occurred 2 hours after the first hijacking began, and 10 
minutes after the last plane actually had crashed in the fields 
of Pennsylvania, the fact that it was not passed on by NORAD to 
the pilots, to me, just is astonishing.
    The Commission goes on in the next paragraph to say, ``In 
most cases, the chain of command authorizing the use of force 
runs from the President to the Secretary of Defense, and from 
the Secretary of Defense to the combatant commander.'' The 
President apparently spoke to Secretary Rumsfeld the first time 
that morning shortly after 10:00. No one can recall the content 
of this conversation, but it was a brief call in which the 
subject of shoot-down authority was not discussed.
    Then the SECDEF, who I give full credit for going 
courageously to the site of the Pentagon explosion, returned at 
10:39--this is 2\1/2\ hours now after--almost 2 hours and 25 
minutes after the first hijacking commenced--and the Vice 
President is understandably of the belief that he's passed on 
these orders and that they're being carried out, and the SECDEF 
seems to be--very appropriately is saying, ``Who did you give 
the direction to?''
    The SECDEF, ``Let me''--you know, ``Has that directive been 
transmitted to the aircraft?''
    The Vice President, ``Yes, it has.''
    Secretary of Defense, ``Just to be clear, so you have a 
couple of aircraft up there that have those instructions at the 
present time.''
    Vice President, ``That is correct. It's my understanding 
they've already taken a couple of aircraft out.''
    Now, if you were the SECDEF in this situation, and that 
order from the Vice President of the United States, transmitted 
that way to the defense of this country has not been 
communicated to the pilots up there? I mean, is that an 
acceptable procedure, or is that as egregious a failure to 
defend this country as it appears to me?
    Mr. Carlucci. It's certainly not acceptable. Defense never 
trained for this kind of circumstance.
    Senator Dayton. Well, but----
    Mr. Carlucci. But that's no excuse. But that's a fact.
    Senator Dayton. They trained to follow out the command--I 
mean, that's what I'm trying to understand. Is it a failure to 
establish the proper chain of command? If the SECDEF had given 
a command from the President of the United States, would that 
have been carried out without question? Or, in this case, given 
that it came from the Vice President, based on a verbal 
conversation with the President, who's up on Air Force One, 
understandably--is up there and, by his own testimony, is 
having difficulty with the communications system there, which 
is another concern, to communicate in an ongoing line of 
communication with the Vice President. The Vice President 
transmits an order from--or an instruction from the President 
to NORAD, and it's not passed on. Where is the breakdown here? 
Just because it hasn't been rehearsed?
    Mr. Carlucci. I can't answer that.
    Senator Dayton. No, I mean, I--is it--I mean, I'm 
astonished----
    Dr. Hamre. Sir, I'm not going to try to answer it. But for 
something of this nature, there are procedures that an action 
officer in a command center will check that he's received a 
valid order. Very few action officers actually are talking to 
the Vice President on the other end. So there is a procedure 
and a set of very specified directions so that you get a 
validated order, so you know you are under the authority of the 
Commander in Chief of the United States to taken an action.
    I surmise that those--that that wasn't in place. It was 
happening so--in such a chaotic way, and it just wasn't there. 
People said, ``Well, wait a minute, we don't--we didn't get X, 
Y, Z kind of a message from such and such,'' and they probably 
said, ``Well, how do you know this is real?''
    I'm speculating here, sir, but I--we need to be--we know 
now that we have to be ready for this. We didn't have that 
consciousness on September 11, and my guess is, is that they 
didn't have the--they didn't follow a predesignated format for 
authenticating a communication from the President of the United 
States. We know how to do that for nuclear war. We've never had 
that for an episode like this. So before we just say that there 
was an egregious failure of duty, my guess is there are some 
operational details I need to understand better before I could 
jump to the conclusion that said that it was a dereliction of 
duty.
    Senator Dayton. I'm not suggesting that at all. I think 
people were individually responding according to their own 
judgment. Certainly, the Vice President was running the command 
post there.
    Dr. Hamre. Yes, sir.
    Senator Dayton. The fact that we didn't receive--weren't 
receiving the kind of incoming enemy attack that we thought we 
would be receiving----
    Dr. Hamre. Yes, sir.
    Senator Dayton.--in some other circumstance----
    Dr. Hamre. Yes, sir.
    Senator Dayton.--obviously, is----
    Dr. Hamre. I certainly understand your question. Yes, sir.
    Senator Dayton. The other point I would just make, because 
it leads to--and I know I'm out of time here--but due to the--I 
think, the good graces of the chairman of the committee and 
his--the location of the National Airport at--in the State of 
Virginia, we're operating that with some risk to the Capitol, 
to the White House, and the like. We had a situation with the 
Governor of Kentucky which has been largely overlooked by 
Congress and by, I think, the powers that be in the last--about 
2 months ago that says to me, if you look at the failure, 
again, of communications--we evacuated this entire complex. A 
couple of thousand people were literally running for their 
lives out of the buildings because of a failure again--and I 
can't get into this all--of the Federal Aviation Administration 
(FAA) to communicate with NORAD, to communicate, in this, with 
the Capitol Police. So, the axiom, what is condoned continues--
yes, we were caught very much by surprise on September 11, but 
I see continuing evidence of a failure of the established 
procedures to be followed in a situation 2 months ago. 
Fortunately, it was the Governor of Kentucky in a propellor 
plane rather than some other kind of attack. But it really 
alarms me.
    Mr. Chairman, I just would submit that I hope we can pursue 
this, because we can do all the intelligence reorganization, 
and we can spend billions more, or billions differently, but if 
we don't have basic lines of authority that we're going to 
follow in those situations of a national emergency, it doesn't 
matter, frankly, how much we spend, it's going to fail again.
    Thank you.
    Chairman Warner. Senator, your point is well taken. The 
Senator's point is well-taken.
    Dr. Schlesinger?
    Dr. Schlesinger. I can well understand why you are 
perturbed----
    Senator Dayton. Stunned.
    Dr. Schlesinger.--but not astonished. The order to shoot 
down a passenger airliner is met with a certain incredulity, 
and we were not prepared for this occasion. A fundamental point 
to bear in mind is, we had a clear chain of command, and yet 
there was a failure. Reorganization is not going to solve that 
problem.
    Senator Dayton. Right. Thank you.
    Thank you.
    Chairman Warner. Thank you very much.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, you bring a wealth of experience and knowledge 
to this particular issue. By being here today, you're again 
performing a great public service to your country, so we thank 
you for your service here today.
    I'm one of the folks who started out not being supportive 
of an NID, and for a lot of the same reasons that you have 
enunciated here today; particularly, Secretary Carlucci, your 
statement regarding another level of bureaucracy continues to 
bother me today, even though I've come around to thinking we 
need this position. But if we create simply another level of 
bureaucracy, we're going to do a lot more harm than we're going 
to do good, and the next 9/11 report's going to be twice as 
thick, say the same thing, and yet we're going to have another 
incident that has occurred.
    But the fact of the matter is that there are a number of 
agencies involved. We've talked about a lot of them here today. 
We've been primarily concentrating on DOD, but there are a 
number of department heads that we've not even alluded to 
today, some of which are scratched, from a surface standpoint, 
in the 9/11 report. For example, the Department of 
Transportation. We were just talking about the FAA here. You 
have Amtrak involved. You have all of our major transportation 
systems in every major city in the country that would have to 
be involved.
    The one major issue that, again, is touched on by the 9/11 
Commission Report that complicates this issue even further is 
the immigration issue. We're in the process right now, Senator 
Kennedy and I, of trying to make some major changes relative to 
how we deal with visas and who comes into this country. You 
have to have some mechanism for tying all of these issues--
whether it's defense, immigration, transportation, or 
whatever--together and make sure that all of that information 
is getting into one funnel, and that that funnel is where it 
ought to be, and it can get there in real time--and not just 
get in the funnel in real time, but get out to the other people 
that need that information in real time.
    Because of that, I have come to the conclusion that an NID 
can act in the same manner as a chief executive officer of a 
major corporation if he has the right tools with which to do 
it. If you don't give them to him, then he's not going to be 
able to do it.
    But there's nobody out there right now--even with the 
powers that the DCI has, he has no control over the FBI. 
Director Mueller is responsible to Attorney General Ashcroft, 
he should be, and we can't change that structure. DIA is 
responsible to the SECDEF. We can't change that structure. You 
are absolutely right that the warfighter who is on the ground 
in Iraq has to have the confidence that his military superiors 
are the ones who are going to give that answer to him.
    So there has to be somebody out there to get all of this 
information together, and get their arms around it, and make 
sure that these folks are talking to each other, the stovepipes 
are broken down. The Chinese walls, Dr. Schlesinger, that you 
referred to, between law enforcement and intelligence, are--
they're down as a result of the Patriot Act. They have to stay 
down. It's absolutely imperative that they do. Somebody has to 
coordinate all of that.
    I guess it's our job to try to figure out, taking the 
information that you and other folks are giving us as to how we 
do that--there is a statement that you made, Dr. Hamre, which I 
appreciate, and I wrote it down, where you said that an NID 
really has to have an institutional base if he's going to be 
successful. I know your comments relative to moving NRO and our 
other two agencies out of DIA--or DOD--under an NID would go 
towards doing that. But I'd like you to expand a little bit on 
that.
    What else does this individual need to have? We can say he 
ought to be able to hire and fire, he ought to have budget 
authority, but, as you and I were talking earlier, from a 
practical standpoint that is going to be extremely difficult, 
and we're not going to be able to do this by the October 1 
deadline that's been imposed on us.
    But would you expand on what you mean by that institutional 
base and where we need to go?
    Dr. Hamre. Yes, sir, Senator Chambliss. The reason I don't 
want to take away DIA from the SECDEF is the same as why I 
don't want to take the Bureau of Intelligence and Research away 
from the Secretary of State. They need those things. But there 
are a set of--the large collection agencies, the factories--
they run the satellites, they run the listening stations. 
They're in the business of just collecting wholesale, large 
amounts of information and then distributing it to the 
analysts. My view is that that could be brought under this NID. 
This would be a very significant institution. These would--this 
would be tens of millions--or tens of thousands of people, tens 
of billions of dollars annual budget. It would be a very 
substantial base, and he would be--or he or she would be the 
supplier, then, of intelligence to the analytic agencies, which 
would remain with the secretaries. That would be considerable 
institutional clout.
    Now, it also means that everybody else in the government is 
going to be in the position of demanding better quality from 
him and those factories. Those factories need now to support 
all those people. Right, now, in DOD, frankly, we tend to spend 
more time defending them because they're in our budget, rather 
than demanding they give us good quality. We tend to do that 
through different channels.
    So I don't personally believe that you need to have budget 
control in order to get good quality out of those agencies. 
Frankly, it hasn't been budget tools that we've largely used to 
get the coordination at the tactical level, it's been direct. 
It's making it a CSA. I, personally, would be--would want to 
make sure that the head of those agencies is a military 
officer, and remains under military command and control. I 
think there are ways you can handle that. But that way, you'll 
put genuine heft underneath that NID. If you don't have that, 
then he really--I think, a little like Secretary Schlesinger 
said, he's a czar, with power for the first half a year, and 
then it starts to atrophy quite quickly.
    Senator Chambliss. Anybody else have a comment on that?
    Dr. Schlesinger. The first comment is that any 
reorganization is going to have advantages and it's going to 
have disadvantages, and you want to be sure that the advantages 
outweigh the disadvantages.
    The second point is this. There are a variety of ways to 
handle this. You could raise the DCI from executive-level two 
to executive-level one. You could double-hat him as not only 
the head of the CIA and DCI, but he could be the--designated as 
part of the executive office as advisor to the President 
without splitting the analytic activities in a way that simply 
adds another layer to the system. You can create, by 
legislation, that the clandestine services, the Directorate of 
Operations is handed off to a deputy. You could do what has 
happened in the Department of Energy, which is to strip out the 
national security functions and put it under a quasi-
independent agency known as the National Nuclear Security 
Administration, in which the clandestine services would be 
responsive to an administrator of clandestine services, 
whatever you call it.
    So there are a whole variety of things that can be done, 
but having a DCI and an NID at the same time, it seems to me, 
is going to be counterproductive.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman, and thanks to our 
witnesses for being here today.
    Mr. Chairman, it seems to me that we're struggling with two 
very significant questions that are difficult to answer. One 
is, in a system with different and sometimes competing 
intelligence agencies, both for collection and analysis, how do 
we ensure accountability? The second is, how do we ensure that 
executive branch officials do not cherry-pick the intelligence 
that most conforms to their views, or, I think, in the words of 
Secretary Schlesinger, the concept of reality that they hold?
    We're dealing with human beings, we're dealing with 
politics, we're dealing with, unfortunately, partisan politics. 
You had a DOD that already controlled 80 to 85 percent of the 
intelligence budget, and yet the current SECDEF thought it 
necessary to create an Office of Special Plans, and go and find 
even more intelligence to be used for whatever concept of 
reality existed. You had a Vice President who went over to the 
CIA--not once, but enumerable times--to find out what he could 
find out that would fit his concept of reality.
    So we need a system that can ensure accountability, but 
also put some checks and balances back into this system. It is 
certainly clear that many signals were missed. There's no doubt 
about that. But I think it would be a shame and a tragic 
indictment of all of us if we are not more straightforward and 
honest about the problems we face.
    I listened with great interest to my friend Senator 
Sessions go on and on about the questions concerning trade-
craft and the exposure of people, yet I have not heard one call 
from anyone on the other side of the aisle to conduct a 
congressional investigation into the outing of Valerie Plame. 
Talk about an example that's going to send shockwaves through 
the existing CIA and any of our friends and allies around the 
world. There's no drumbeat for any congressional investigation. 
Why? Because it's in partisan politics.
    So I think we can rearrange the deck chairs on the Titanic 
from now until doomsday, but we need to reassert a sense of 
ethics and responsibility that go beyond partisan politics 
again to get back to an old-fashioned American patriotism where 
our highest obligation is to whatever the facts lead us to. I 
don't know how we get that by changing statutes, laws, and 
rearranging government positions.
    I also think it would be irresponsible of our committee not 
to take a hard look at Defense intelligence. It may very well 
be--and I think the arguments are quite compelling--that you 
don't want to interfere with the chain of command or in any way 
upset the tactical intelligence that's needed in combat. But 
there have been mistakes, and there have been missed 
opportunities, both operational and tactical.
    I still don't understand what happened at Tora Bora. I 
don't understand what happened when the Predator allegedly had 
bin Laden in their sights and didn't fire. I don't know what 
happened. I think we need to know what happened.
    So even if we conclude that it is not prudent to put any 
overarching authority over Defense intelligence, we'd better 
make sure we're doing whatever is needed to improve Defense 
intelligence, both collection and analysis, and not act as 
though, ``Oh, well, we're not going to mess with Defense 
intelligence, because that might possibly interrupt the chain 
of command and tactical.'' We need to make sure we're doing the 
best job we can with Defense intelligence.
    There was an example, and the 9/11 Commission talks about 
it. They call it ``the millennium exception.'' At a certain 
point in time, all the forces of our government were called 
into a room, day after day after day, run by the National 
Security Advisor, because, after all, all of these decisions 
ultimately are going to be decided in the White House. I don't 
care who you put in charge anywhere else. What we need to do is 
to figure out how to have a system that replicates what worked 
the one time in our recent history where we think it worked, 
and that required literally having people in the same room, 
being held accountable, having their information vetted, asking 
for further information from the collection, as well as the 
analyst, side.
    So I think that it's important that we take seriously the 
need to reorganize if it is necessary, but there's a much more 
important, deeper issue at stake here. That is to try to de-
politicize the collection, analysis, cherry-picking utilization 
of intelligence, no matter where it comes from. I hope that 
that won't even be an issue post-September 11. But, as I say, 
the outing of Valerie Plame does not give me a lot of 
confidence that we would use a CIA operative for partisan 
political advantage.
    So I guess, from my perspective--and I take very seriously 
what each of you have said; I have high regard for your 
opinions, based on many years of service--but let's focus for 
just a minute in the area of each of your expertise. Are there 
types of changes that you think our Defense and military 
intelligence need to make to improve on its performance, going 
forward, in both battlefield situations like Afghanistan and 
Iraq and with respect to the point that my colleague Senator 
Dayton made? He's been beating this horse quite vigorously in 
every hearing, because he is--as, I think, rightly so--quite 
appalled by what the ticktock is that broke down the chain of 
command under unusual, but, nevertheless, pressing 
circumstances. So could each of you just address the Defense 
and military intelligence issue for a moment?
    Dr. Schlesinger. Several comments. The first, Senator 
Clinton, is, there may be cherry-picking, but it does not 
affect, in my judgment, collection, which you mentioned. I 
think that the collection activities go on. I think that the 
attempt--we have had failures in collection--most obviously, 
HUMINT, in Iraq--but I don't think that the problem of 
collection is either partisan politics or cherry-picking. Now, 
the interpretation is a problem.
    The second point that I would make is, in the past, we 
have, as you indicated, had less partisan politics, and I join 
with you in wishing that we could return to those days. But one 
must distinguish between partisan--problems of partisan 
politics and the problems of real policy differences. Real 
policy differences are appropriate, and people will disagree 
with regard to what should be done, given certain 
circumstances. They may do that for partisan reasons, but there 
are irreducible level of policy differences.
    The third point I would make is, while you're here on Armed 
Services, strengthen the DIA. You ask, what do you do about 
Defense intelligence? It is not a real competitor, in my 
judgment, for the CIA, and we would be better off, 
analytically, if we had a stronger DIA.
    Mr. Carlucci. I'd just make--certainly, I think we can all 
agree, those who have served professionally, that partisan 
politics is very damaging to our intelligence capability and to 
our military efforts.
    I think the one area that requires some attention is, the 
distinction between national intelligence and tactical 
intelligence becomes increasingly blurred. You mentioned Tora 
Bora. That fighter in the field actually has to know everything 
there is to know about Osama bin Laden, his whereabouts. Things 
that used to be considered national intelligence now have to 
get into the tactical area. So that argues, once again, for 
some kind of closer relationship between the DCI and the DOD 
intelligence agencies.
    Dr. Hamre. Senator, I would--lots of areas that we need to 
work. Specifically, I think the need in DOD is for what we call 
``long dwell'' in collection capabilities. We have two types 
right now. We have collection that comes from airplanes that 
fly around. That's a little like looking over an area with a 
spotlight. So it doesn't--you can only look at a little spot 
for a period of time. Then, of course, we have satellites, and 
they have huge coverage, big floodlight-type thing. But they 
last for 10 minutes and then they won't be back for another 
hour and a half.
    What we're really needing in the Defense world is what we 
call ``long dwell,'' the capacity to get broad-area 
surveillance that can linger. So it has the best attributes of 
both. It has the capacity to see wide areas, but stay over the 
target area for a long time.
    Now, that's going to be done with a new generation of--
remotely piloted vehicles, largely, is going to be the way 
we'll do this. It's a ways away, and there are some very 
serious technical challenges associated with it. They should be 
military assets, in my view. They should be funded under the 
TIARA and Joint Military Intelligence Program, because you want 
them integrated into warfighting. But they'll have tremendous 
capacity in the national world, as well. That's a very good 
example of where the tactical systems will feed the national 
environment. We do that a lot. That's a good case-in-point, 
where you would not want to break that relationship, and you 
probably would want to put the lead on developing that inside 
the DOD. But that's a case-in-point, and we could come up with 
other examples like that for you.
    Senator Clinton. Thank you.
    Chairman Warner. Thanks, Senator. Senator, I'm sure you're 
fully aware, because of your interest in the situation, 
Ambassador Wilson's wife--that the FBI is now conducting an 
ongoing criminal investigation. It's been my experience that, 
when that is taking place, should a parallel investigation 
begin in Congress, it could impede or imperil the work of the 
FBI.
    Senator Clinton. Mr. Chairman, I remember very well Federal 
grand-jury investigations that had congressional investigations 
going on simultaneously.
    Chairman Warner. I defer to your recollection.
    Senator Clinton. I have personal experience with that.
    Chairman Warner. Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Let me say to each of you, it's a privilege to have you 
testifying here today. I certainly appreciate your outstanding 
service to this country. I've had the privilege of working with 
two of you in past lives, so I particularly want to welcome you 
here today.
    I'd like to follow up on what Senator McCain and Senator 
Nelson said earlier. Since the 9/11 Commission has made its 
recommendations, we, as lawmakers, have been told to look at 
ourselves in the mirror. Congressional oversight has been 
called ``lax,'' ``uneven,'' and ``dysfunctional.'' Critics have 
attested that overlapping jurisdiction and turf battles are 
promoted, rather than the desired result, which is 
accountability.
    I think we can point to the recently created Department of 
Homeland Security as an example of where lessons may be learned 
in incorporating a government overhaul of this magnitude. While 
we've been at war, Secretary of Homeland Security Tom Ridge and 
his top deputies have testified at 290 hearings in the past 
year and a half. They've received more than 4,000 letters from 
Congress requesting information. Furthermore, 88 committees and 
subcommittees assert jurisdictional interest over the 
Department of Homeland Security.
    Is it not instructive to look at this most recent example 
of a major government overhaul as a reality check for a 
realistic timetable for Congress to work under, and perhaps a 
reason to exercise prudence and discipline, rather than rushing 
to judgment in considering the proposed recommendations?
    Secretary Hamre?
    Dr. Hamre. Yes, absolutely.
    Mr. Carlucci. I agree.
    Senator Dole. Anything else you'd like to add, utilizing 
this example?
    Mr. Carlucci. I think the disruption that goes with a 
large-scale reorganization can't be overestimated.
    Senator Dole. Right.
    Mr. Carlucci. It's very harmful to performance. So I think 
your point is right on.
    Dr. Schlesinger. Senator Dole, I'd be happy to submit my 
testimony to the House Select Committee on those 88 committees 
of oversight and how they have stretched out the senior 
officers of the Department of Homeland Security. I fully agree 
with your observations.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Dole. Secretary Schlesinger, you've stressed the 
necessity of cautious interaction between intelligence and 
policymaking. Secretary Kissinger has said recently--this was a 
Washington Post piece, just in the last couple of days--
''Intelligence should supply the facts relevant to decision. 
The direction of policy and the ultimate choices depend on many 
additional factors, and must be made by political leaders.''
    How effectively would the administration's proposal allow 
our national policymakers to direct the intelligence efforts 
without compromising the independence and quality of analytical 
products? Are there better alternatives in this regard?
    Dr. Schlesinger. I think that this adds that other layer, 
and that it compromises what Secretary Kissinger was calling 
for, which is that the facts should come up to the political 
leaders. The political leaders must decide on a policy. Their 
task is different from that of intelligence; and the division 
of authority that is being proposed, I think, compromises what 
he outlined.
    Senator Dole. Secretary Hamre, since September 11, 
intelligence sharing and analysis have been significantly 
improved, with assistance from both the legislative and 
executive branches. How many of the Commission's 
recommendations would you estimate have already been addressed? 
Could you highlight the major ones? Would implementing any of 
the Commission's recommendations require the intelligence 
agencies to fix what is essentially not broken?
    Dr. Hamre. Senator Dole, forgive me for not having that at 
the top of my head. Can I respond to you for the record on 
that?
    Senator Dole. Surely.
    Dr. Hamre. I don't have the 42 recommendations under my 
belt, and what's been done. I've heard it said that a large 
number have been implemented, but I just don't know that 
personally, and I'd be glad to get back to you on that.
    Senator Dole. Fine. Just submit it for the record.
    [The information referred to follows:]

    I have reviewed the 39 recommendations contained in the Commission 
report. Some of them are rather general and some are specific. Some are 
easy to categorize and some are not. After considerable study, I would 
assess them in the following categories:

Completed..................................................            0
Not a recommendation but an observation....................            3
To be decided (e.g. congressional action needed)...........            8
Tried and (largely) failed.................................            2
Nothing or very little has happened........................            4
Lots of rhetoric, very little substance....................           11
Significant progress, work ongoing.........................           11

    Senator Dole. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, in your opening remarks you made reference 
that the committee's purpose in this examination is, in many 
ways, to look at the structure, the resources, and the 
leadership in trying to arrive at a decision. I've heard from 
the witnesses--and thank you, again, as to what has been said 
over and over, for your public service over the years to your 
country; thank you for that--I've heard them testify to 
basically that the structure they think that is there now is 
sound; it may need some tweaking. I've heard them say that the 
resources--there seems to be the resources that are committed 
to it, but I haven't heard the examination of the third issue 
that you raised, Mr. Chairman, which is the leadership.
    So what I would like to ask is the question that is begged. 
Do we have a system that is set up that is too sensitive to the 
personalities of the people--the personalities of the 
President, the SECDEF, the Secretary of State, the DCI, the 
Attorney General? If so, how do we fix it?
    Dr. Schlesinger. The second question is a lot harder than 
the first. Sure, we have a system that is sensitive to the 
personalities. That is, I think, unavoidable. Some of those are 
elected officials, some of them are appointed officials. The 
appointment of officials comes for a variety of reasons, 
including campaign contributions, in some cases. Obviously, 
you're going to have different levels of ability, as well as 
backgrounds, that may or may not be appropriate for the jobs to 
which these individuals are appointed.
    I can't answer the second question. That's the nature of 
our system. We have to--the system, in part, adjusts to weak 
personalities in different executive-branch positions, and they 
lose influence, and others take over, to a greater extent.
    Mr. Carlucci. I would agree that the system is very 
sensitive to personalities, but I would argue that that may not 
be totally undesirable. That's why we have elections. If we're 
not satisfied with the personalities, we throw them out.
    It is true, as Senator Clinton pointed out, that we need to 
try and insulate intelligence from political vagaries. Some 
thought could be given to a fixed term, but I don't know that 
that totally insulates the DCI from politics.
    I think you asked a very fundamental question, but I don't 
have a ready answer, unlike Jim.
    Senator Bill Nelson. You must have the answer, then.
    Dr. Hamre. No, sir, I certainly don't have the answer. But 
I think--first of all, I think the collection environment, the 
collection process is less, I think, susceptible to 
personalities. I think it tends to be in the assessment, how do 
you--what do you make of what it is that's in front of you? 
Here, my only recommendation is, I think that you want lots of 
diversity in that, and you want those people to have to come up 
to different committees in Congress and explain why they think 
that. We need to force our system--as much diversity and 
perspective in our system as possible, and I think that's--use 
more open-source material, make sure that the oversight system 
up here is quite rigorous, that there is--I have a ``long 
dwell'' fly here, excuse me--that collection is available to 
everyone, that you are putting us through a process of 
explaining our thinking, both in classified and unclassified 
hearings. I think much more rigorous oversight and insistence 
that we come forward and explain what we're doing would be 
good. I think that would be the most helpful thing you could 
do, sir.
    Dr. Schlesinger. Can I add something to that, Senator? We 
have something called ``noise,'' and each of these agencies 
takes the signals--or we hope it takes the signals--and forgets 
about what it regards as noise. But some other agency may not 
regard that as a noise. If that ``noise'' were disseminated--
what is regarded by one agency as noise selectively, were 
disseminated more generally, we might be able to get something 
that is closer to the truth.
    Senator Bill Nelson. In summary, I sense that there are two 
things, two ideas, around which you all would clearly 
congregate, that came out of the 9/11 Commission Report 
recommendations. A number of them that you disagreed with, 
which we appreciate very much your input. But these two, I 
think you would. Obviously, congressional oversight and 
direction ought to be much more robust. Then the other one is, 
I've heard all of you speak favorably--and correct me if I'm 
wrong--about an NCTC, that being the place that you could bring 
together all the collected information so that you're getting 
analysis of it, and that all the various agencies dealing with 
intelligence would be knowledgeable of that, and participate 
in, that analysis, and then determine how to use it.
    Mr. Carlucci. Agreed.
    Dr. Schlesinger. Those in the community who keep their 
nuggets to themselves and refuse to share them should be 
removed from the community.
    Senator Bill Nelson. I would suggest that the most recent 
example of that--and it wasn't specifically defined as 
intelligence, but it was certainly critical information--was 
when the Governor of Kentucky's inbound plane--the transponder 
wasn't working, and the FAA was all happy with it, and they 
knew about it, but they forgot to tell the military. Then they 
send the alert to the Capitol Police. Of course, we get this 
emergency announcement, ``You get out of the building 
immediately. There's an inbound aircraft.'' So there, sadly, is 
another example of where one hand is not knowing what the other 
hand is doing.
    Dr. Schlesinger. There's a distinction between a failure of 
communication and a deliberate failure of communication; and 
the latter, I think that we should be able to cope with.
    Senator Sessions [presiding]. The Senator from Texas?
    Senator Cornyn. Thank you.
    Thank you, gentlemen, for being here, and for hanging in 
there.
    Dr. Schlesinger. Senator, Senator Cornyn has been very 
patient.
    Senator Cornyn. You were patient, too, to wait until we get 
all the way down at this end of the table for questions. I 
appreciate that very much.
    I especially appreciate all three of you talking, at the 
outset, about the fact that solutions must logically flow from 
problems identified. In other words, I trust that we will be on 
guard about a solution looking for a problem.
    Indeed, I was also interested to hear a number of 
references to the fact that the specific causes of September 
11, as identified by the 9/11 Commission, had very little to do 
with the issues that we are talking about when we talk about 
budget authority, and particularly the role of the DOD in 
supporting the warfighter. But I think this is a very 
constructive and important exercise, and I commend the members 
of the 9/11 Commission for doing an outstanding job. But I 
think it's a difficult and complex subject.
    The one thing that I think cannot be overlooked is the fact 
that this administration and this Congress have not waited for 
3 years for the 9/11 Commission to issue its report to act in 
many ways that I think have been very constructive, and 
designed to solve the problems that we all know have existed. 
For example, we've talked some about the creation of the TTIC. 
The NCTC, which is one of the 9/11 Commission's 
recommendations, would indeed build on that to enhance the 
information-sharing between the CIA and the FBI, as appropriate 
under the law.
    We also need to identify the fact--as Attorney General 
Janet Reno and Attorney General John Ashcroft, and others 
testified to at the hearing--about the fact that it was the 
Patriot Act--sometimes maligned, but frequently misunderstood--
that was responsible for tearing down the wall between law 
enforcement and intelligence agencies, and allowing the kind of 
sharing of information that has, indeed, I believe, made 
America safer. Indeed, of course, the creation of the 
Department of Homeland Security, billions of dollars being 
appropriated to first-responders--variety of potential targets 
for terrorists.
    But I believe, of the recommendations that have been made 
by the 9/11 Commission--the NCTC and certainly the legislative 
oversight reform, which we have not talked about much here 
today, other than to avoid the subject because it is not 
necessarily the role of this committee, but certainly a matter 
of interest--but to me it seems less important when we look at 
reform to try to see how we can reorganize the wire diagram or 
the organizational chart. Indeed, as I think has been alluded 
to several times, the kind of authority that some have proposed 
giving to the NID already exists since 1997, when Congress 
passed legislation which created a Deputy DCI for Community 
Management, and gave that person responsibility for 
coordination of all intelligence agencies. I hope we wouldn't 
give too much--we wouldn't elevate the anecdote about DCI Tenet 
declaring war in 1998--we wouldn't elevate that too much, 
because, indeed, we all know it takes more than a declaration 
of war by the DCI to make things actually happen. That is 
really where the rubber meets the road.
    But let me ask a question that, I think, Dr. Hamre, you 
alluded to, but we haven't seemed to talk about very much. I 
don't think the 9/11 Commission Report really addresses this. 
In addition to the failure of HUMINT, which has literally made 
us blind, what happened in Iraq since 1998--and I fear we won't 
talk about it here--but I fear that is not an isolated event--
open-source intelligence collection. We spent a lot of money on 
satellites and all sorts of interesting gizmos that, indeed, I 
think are very useful, in terms of intelligence collection. But 
are you familiar with any effort in our IC anywhere to have a 
systematic and comprehensive open-source intelligence 
collection?
    Dr. Hamre. Sir, there are procedures that the IC uses to 
survey the thinking in the private sector on issues as they're 
trying to derive an assessment. For example, the National 
Intelligence Council will routinely go out and pull in the 
thinking of outsiders. It tends to be in the assessment phase. 
That's a little different from open-source, which is seen as a 
collection, as well as an assessment, activity.
    I think you will find that there's also a strategic study 
group that works for the Agency which routinely goes out to 
outside of government to try to augment its classified 
activities, but they tend to be bringing perspective more 
toward to the tail-end of an assessment, as opposed to being 
seen as a routine source of information-collection. I think the 
advocates--and I certainly do advocate wider use--of open 
source is to use it as a collection modality, as well, not just 
simply a second guess on the assessment phase.
    Senator Cornyn. Secretary Schlesinger?
    Dr. Schlesinger. I think, Senator, if you look at the 
fusion methods of the Special Operations Command down in Tampa, 
that they have brought together, or have attempted to bring 
together, open-source information, in part because the part of 
the world that they deal with, you have basically more open-
source information than you have secret information. A problem. 
It is a long, historic problem of the CIA, or has been, that if 
something's good, it has to be secret. Sometimes we just get 
the gems out of open-source.
    Senator Cornyn. I've sometimes joked among my colleagues 
that I have learned in classified briefing sessions since I've 
been in the Senate as much by reading the New York Times and 
Washington Post, and watching cable news. I wonder whether we 
are missing opportunities as hundreds of new newspapers and 
news sources arise in places like Iraq and all around the 
world, gleaning, systematically, information we could obtain 
from non-classified public sources of information, and do that 
on a more systematic and rigorous basis.
    Dr. Schlesinger. We should.
    Mr. Carlucci. May I comment, Senator?
    Senator Cornyn. Secretary Carlucci?
    Mr. Carlucci. We, of course, have FBIS, where we monitor 
all the radio broadcasts around the world, and CIA has had a 
Domestic Collection Division for some time. But, more 
fundamentally, what you describe is a basic responsibility of 
embassy reporting. It is up to the embassies around the world 
to deal with open-source information, to tell the Department of 
State what the press is doing in Country X or Country Y, what 
the politicians are saying. That's why we have political 
sections in our embassies.
    Senator Cornyn. Thank you. My time is expired.
    Thank you, Mr. Chairman.
    Chairman Warner [presiding]. Did you wish to follow up on 
Secretary Carlucci's response to you?
    Senator Cornyn. Are we going to have another round, Mr. 
Chairman?
    Chairman Warner. Yes.
    Senator Cornyn. I'll reserve any other questions.
    Thank you very much.
    Chairman Warner. Thank you, Senator.
    Senator Levin and I feel that we'll just take a brief round 
of questions apiece here. Let me see if I can bring some 
conclusion to this very important contribution that each of you 
has made.
    It seems that you would want Congress to very carefully 
explore what we could do, by way of law, to give to the DCI all 
those powers needed, such that he or she, as the case may be, 
would then be on a coequal basis with the Secretary of Defense, 
Secretary of Homeland Security, Secretary of State, and that 
that would, in my judgment, require less disruption. If you 
start pulling DIA and NSA out of DOD, and all of the things 
accompanying that, at a critical time in our history of this 
country, when we are on the verge of a presidential election, a 
congressional election, with the understanding that we'd take a 
look at how that works for a period of time, and then perhaps 
come back and reexamine the need to have some other individual, 
or converting the DCI to the NID and then bring in subordinates 
under him to do the work of the agency, is that a possible 
thing that we should consider, Secretary Schlesinger?
    Dr. Schlesinger. I think so, and I think you were out of 
the room, Mr. Chairman, but we were elevating the DCI to 
executive-level one, which makes them coequal.
    Chairman Warner. Yes, I heard that testimony.
    Dr. Schlesinger. Yes. There are a number of things that can 
be done.
    Chairman Warner. Putting him on a total par----
    Mr. Carlucci. You may not need legislation. It's good to 
look at the possibility of legislation.
    Chairman Warner. We'll figure that out----
    Mr. Carlucci. But, as Senator Levin pointed out, you may 
not need it.
    Chairman Warner. My point is, use that as an interim step.
    Mr. Carlucci. Oh, yes.
    Chairman Warner. With the extraordinary confluence of 
events taking place in the United States now, two very 
significant elections of both the President and Congress----
    Dr. Schlesinger. Some DCIs have been very timid about 
exercising the community power.
    Chairman Warner. Yes.
    Dr. Schlesinger. I think that a strong statement from 
Congress, that we expect the DCI to be seriously in charge of 
the community, would be helpful.
    Mr. Carlucci. With oversight followup on that.
    Chairman Warner. I understand that.
    Dr. Hamre, we were exploring, as you stepped out 
momentarily----
    Dr. Hamre. I sure did, sir.
    Chairman Warner.--whether or not an interim step, given the 
confluence of the events facing us--a presidential election and 
a congressional election--but if Congress desired to act in 
this current Congress, which is due to expire here in October, 
unless we have a lame duck--of addressing whether it needs to 
be in law, or otherwise, elevating the DCI to equate, in every 
respect, by way of authority, emoluments, and everything else, 
with the Secretaries of Defense, State, and Homeland Security 
as an interim step, and see how that system might work, and 
that would be less disruption, as envisioned by other proposals 
on the table.
    Dr. Hamre. I think I agree with my colleagues, I think it 
certainly would be less disruption. I think it's very hard to 
keep energy behind an initiative like that for every long. 
Things will fall back into their old patterns very, very 
quickly.
    Chairman Warner. So then your conclusion, we have to go to 
the NID.
    Dr. Hamre. No, sir. I think you need to take time to make 
sure we get this right and I know you're going to do that.
    Chairman Warner. I'm sure the leadership of Congress will 
make certain we do take the time.
    Dr. Hamre. Yes, sir.
    It isn't the sort of thing, just by putting emphasis behind 
it--will fade quite quickly, so you'll need to decide whether 
or not you want to make this decision or take other structural 
changes to increase the standing and stature of the DCI if you 
want to stay with the current structure.
    Chairman Warner. I'm not suggesting that the current 
structure--I think we could enhance the DCI considerably so 
that he's on a total par. Very often, in your testimony----
    Dr. Hamre. Sure.
    Chairman Warner.--today, you feel that the SECDEF--and I'm 
not suggesting the personality of the current----
    Dr. Hamre. No, no----
    Chairman Warner.--but the office itself is overwhelming of 
the DCI, and that, therefore, he's not been able to exercise 
maybe some of the current authority he now has in law.
    Dr. Hamre. The DCI actually has more expansive authorities 
than the SECDEF does in oversight and use of funds and that 
sort of thing, than--he has enormous authorities, authorities 
that the SECDEF had 50 years ago.
    Chairman Warner. All right.
    Secretary Schlesinger said, often some of the personalities 
did not fully exercise that, for whatever reason.
    Dr. Hamre. Right. They've been neutralized through the 
process, the interagency process, through time.
    Chairman Warner. Do you all think that's a proposal that we 
should at least consider?
    Dr. Schlesinger. Yes.
    Mr. Carlucci. Yes.
    Dr. Hamre. Yes.
    Chairman Warner. It's worthy of consideration.
    I thank you.
    Senator Levin.
    Senator Levin. Mr. Chairman, I think what the witnesses are 
saying is that, interestingly enough, that if you put the 
SECDEF on a par with the DCI, or whatever the successor to the 
DCI is, you will demote the DCI, legally, from where the DCI 
now is, legally, in terms, at least, of developing and 
presenting the budget. Because under Title 50, it is the DCI 
who is responsible to develop and present that budget. It's not 
par. It's the DCI who has responsibility. Now, for various 
reasons, which our witnesses have outlined, that has been 
watered down over the years, for interagency conflicts and 
whatever the reasons are. But, by law, to the extent we worry 
about such things, under Title 50--I'm reading it--I think I'm 
reading--and this is an exact quote, I hope--``The development 
and presentation to the President of the annual budget for the 
NFIP is the responsibility of the DCI.'' I'm not sure I would 
want to change that. That would be a reduction in the authority 
of the----
    Chairman Warner. I've not suggested that be changed.
    Senator Levin. You said ``par,'' though. That would put him 
on a par, in terms of that. But I think what you're suggesting, 
Mr. Chairman, if I can be a little technical here and 
legalistic--which I know is not my wont, but let me try it 
anyway--not too much laughter here. [Laughter.]
    My wife may be watching this. When it comes to 
reprogramming and the execution of the budget, I think, what 
the chairman--and I don't want to put words in his mouth--would 
like to see is a greater equality. Because, right now, that 
really belongs to the SECDEF, rather than to the DCI, when we'd 
come to the reprogramming.
    Now, the SECDEF has a serious responsibility in that, 
because I believe that there must be concurrence under current 
law when it comes to reprogramming. Does the SECDEF have to----
    Dr. Hamre. That depends entirely on where the dollars are 
appropriated and what part of fiscal law is governing. There's 
enormous flexibility in the intelligence budget.
    Senator Levin. No, but in the law itself----
    Dr. Hamre. There's very little flexibility----
    Senator Levin.--in Title 50, when it comes to the 
reprogramming power----
    Dr. Hamre. But, sir, it all depends on where it's 
appropriated up here.
    Senator Levin. All right. Okay.
    Dr. Hamre. That's what is governing.
    Senator Levin. But, in any event, I think that's an area 
where we ought to be looking, because that's a very critical 
area.
    Then when it comes to the hiring and firing point there, we 
have in the DCI in effect, the power now to veto in law, except 
for the DIA. But for these other three agencies, a concurrence 
of the DCI is required under 10 USC. So that's a pretty 
powerful position that the DCI is now in. He doesn't exercise 
it, apparently. But that's not the lack of authority; that's 
the lack of a will to exercise it. I don't know if we can 
legislate willpower, but, nonetheless, that's where the current 
law is.
    So I think that the one area where we really have to focus, 
in terms of where the chairman is discussing this--at least 
from my understanding of what he's saying, or perhaps his 
intent--is that area of budget execution, or the reprogramming 
area. That's where it seems to me there's real need to consider 
this power question.
    Chairman Warner. Let me just comment on that, because I was 
addressing this question of how the Secretaries of the many 
Departments--Defense, Homeland Security, and so forth--which 
contain the affected element or elements of the IC, does not 
object to such reprogramming transfer. Now, it seems to me if 
we took the--they have veto power now, and what I was trying to 
do is to make certain that the DCI--I didn't mean to demote 
him; I don't know how I'd be demoting him if we passed laws to 
further strengthen him----
    Senator Levin. Developing and presenting the budget?
    Chairman Warner. That's right, and also to eliminate these 
vetos over his reprogramming.
    Senator Levin. Now, reprogramming, I misspoke. Let me just 
go back to the reprogramming issue.
    Chairman Warner. At some point we'd want to hear from the 
witnesses.
    Senator Levin. Yes, but I misspoke, and I'd like to get 
their reaction to see if I want to correct myself.
    By executive order, the reprogramming power is now in the 
DOD. But, as Secretary Carlucci has said, when he was the 
deputy to the DCI, and as Admiral Turner said today, when he 
was the DCI, President Carter put that power in the DCI so that 
by executive order, with the stroke of a pen, literally, that 
power on reprogramming could go back to the DCI if that's what 
President Bush or the next President wants to do. So we don't 
even need a legal change for that one, because that's an 
executive order allocation. That's my question. Am I correct on 
that, Mr. Carlucci? Then I'd ask the others.
    Mr. Carlucci. That's my understanding.
    Senator Levin. Now, do our other witnesses want to come in 
on that? Then I'll be done on that.
    Chairman Warner. That's all right. Take your time.
    Dr. Schlesinger. I'm not sure I'm answering your question 
or the Chairman's observation, but it would really help if the 
senior leadership got together every once in awhile and just 
talked--the head of NSA, the DCI, the head of DIA. Right now 
you have people coming to what used to be--is now the foreign 
intelligence something-or-other board and their representatives 
of their agencies. It would help enormously if we had the 
principals meeting.
    Senator Levin. That's true. But I'm being very precise. 
There's an executive order, number 12333, which now designates 
the SECDEF the power to provide fiscal management for the NSA, 
for defense and military intelligence, and national 
reconnaissance entities. That means that by executive order, 
the SECDEF is given the power to supervise execution, including 
reprogramming, of that NFIP budget. That's an executive order. 
That can be changed back to what it was in the President Carter 
years, when it was the--if we want to, or if the President 
wants to--not me, or us--if the President wants to, he can give 
that power right back to the DCI or the successor.
    Dr. Schlesinger. Right.
    Senator Levin. So I just want----
    Dr. Hamre. That's true, sir, but I'll tell you, there's 
remarkably thin budget-justification material that comes with 
the intelligence budget. It's nothing compared to what you 
insist coming from us in DOD. I remember when the NRO piled up 
$3 billion worth of cash and nobody knew about it. I didn't 
know about it. I was the Comptroller, I didn't know about it. 
Okay? I mean, this happened. They do not get much oversight. 
They have tremendous flexibility right now.
    So I'm not sure that this is really the panacea that you 
think it is.
    Senator Levin. What?
    Dr. Hamre. Moving the authorities around a little bit for 
more flexibility, for money. They have so much flexibility, 
they don't even know where the money all is.
    Chairman Warner. My simple question was, if we did, by a 
combination of execution order and, if necessary, statutory 
change, elevate the DCI to level one, put him on a par--and 
hopefully, they would meet, Mr. Secretary--would that be an 
interim step, avoiding a lot of dislocation at this critical 
point in our----
    Mr. Carlucci. I see no objection to that.
    Chairman Warner. Do you have any support for it?
    Mr. Carlucci. I think it helps.
    Chairman Warner. All right.
    Mr. Carlucci. Gives him a little more clout.
    Dr. Schlesinger. I think that it might be desirable to 
establish a committee of principals----
    Chairman Warner. All right.
    Dr. Schlesinger.--and force the heads of these agencies to 
talk about their common interests.
    Chairman Warner. That's certainly in the realm of the 
President. All right, thank you very much.
    Senator Sessions.
    Senator Sessions. Mr. Chairman, this has been just a 
marvelous hearing and a marvelous discussion about government 
and responsibility and how to improve it. We have some of the 
finest people that I know of that work in our government 
agencies, spent 15 years at Department of Justice, and I know 
how fine the FBI agents are, and I've worked with them. But 
bureaucracies intercede, and we have real, real problems.
    The best example that I've seen in my experience of change 
in government was early in the Reagan administration, when he 
put a young leader in charge of coordinating law enforcement 
around America. It was Rudi Giuliani. He was third in command 
in the Department of Justice, but everybody knew he was setting 
the policy on law enforcement, and he made things happen.
    The drug czar, a non-cabinet agency, which we're talking 
about here, under Bill Bennett's leadership for several years, 
was a pretty significant force in establishing drug policy and 
coordinating drug efforts for a number of years. But I'm 
willing to bet that our drug czar today, his name is not known 
by the majority of the Drug Enforcement Agency agents. They 
probably don't even know his name, although John Walters is a 
fine person, doing a good job. But as Secretary Hamre said, it 
tends to fade. They have 150 people, and they're going to tell 
the Department of Justice how to run their business? Somebody 
with 200-300 people is going to order the DOD around? It just--
over time, it doesn't seem to work.
    So I guess I am intrigued and more inclined to be 
supportive of your views that, let's take the system we have, 
see if it is broken so badly we need major reform, or maybe the 
better approach is to see if we can't deal with the problem 
itself.
    Now, we talk about these agencies, and they deal with one 
another as if they're foreign nations. They enter memorandums 
of understanding which are the equivalent of treaties. They--
and it takes years of negotiating these things. It's worse than 
dealing with the Russians to get an agreement. Sometimes they 
never agree on issues.
    It seems to me that, really, the President can set this 
tone. If the President says, ``The CIA is going to coordinate 
my intelligence. Every agency is going to back--and if they 
don't, I want him to come tell me, and then I'm going to call 
in the Secretary of Defense and the Secretary of State, and 
we're going to have a prayer meeting over why he isn't working 
with the CIA Director.'' Am I off base on that?
    Mr. Carlucci. Sir, you're absolutely right. The one thing 
we haven't really talked much about is the NSC and the role of 
the NSC in implementing that kind of presidential directive.
    Senator Sessions. I know the President has really stepped 
up his commitment to this. The whole Nation, bipartisan, 
Republicans and Democrats--since September 11, we have dealt 
with many of the problems we've talked about today already, and 
made a lot of progress. Together we've done that. But I do 
think, ultimately, that if the President does not assert 
himself effectively, we won't see the progress there, because 
these agencies will retreat to their turf.
    One thing that still I believe is not completely fixed with 
the Patriot Act--Senator Cornyn, you might correct me--but it 
seems to me we still have some fear on the part of the foreign 
intelligence agencies, the CIA, that if they are involved with 
somebody who may be a citizen, even though they're connected to 
a foreign power, that they feel somewhat intimidated and 
reluctant to pursue that. Shouldn't we make sure that it's 
crystal clear that if an individual--there's probable cause to 
believe an American individual citizen is connected to a 
terrorist organization or a foreign power hostile to the United 
States, that they ought to be covered under the Foreign 
Intelligence Surveillance Act (FISA)?
    Secretary Schlesinger?
    Dr. Schlesinger. Yes.
    Mr. Carlucci. I would agree, but I'm not a lawyer, and I 
think you'd have to--well, you are--but what the legal 
constraints on the CIA are on that score, I don't know.
    Dr. Hamre. Sir, I think the key is what you said, probable 
cause. That's where the complication comes in, is what does it 
take to establish probable cause for purposes of the 
surveillance? That's where it has been problematic in the past. 
It's not difficult, once you have probable cause, to get a FISA 
court order.
    Senator Sessions. No, you're correct.
    Dr. Hamre. It's that standard of probable cause that has 
been very high.
    Senator Sessions. Dr. Hamre, you're correct. I think--and 
on a normal surveillance of a foreign operative, you don't have 
to have, to reach the level of probable cause----
    Dr. Hamre. Right.
    Senator Sessions.--which is a very high burden----
    Dr. Hamre. High burden.
    Senator Sessions.--as a prosecutor, I know----
    Dr. Hamre. Yes.
    Senator Sessions. But maybe we ought to relax that when 
there is a connection to terrorism and foreign intelligence.
    Dr. Hamre. I actually think there have--there actually have 
been some changes in that regard. I'm not a lawyer, myself. I'd 
want to defer to general counsel out at NSA. I think they're 
actually, the minimization rules are still in place, but I 
think that there are some greater flexibilities. We use them. 
But I'd defer to them to answer that for you, sir.
    Senator Sessions. It's referred to some in the Commission 
report, but I should study it more carefully.
    Dr. Hamre. Yes, sir.
    Chairman Warner. Thank you very much, Senator.
    Senator Sessions. Thank you.
    Chairman Warner. Senator Dayton.
    Senator Dayton. I don't really have any more questions, Mr. 
Chairman. When I was in Iraq last year with the Chairman, I 
resolved never to leave a room before he did, so----[Laughter.]
    It's held me in good stead.
    Chairman Warner. Thank you very much.
    Senator Dayton. Although I could say, if you're aware of 
any other $3 billion just lying around any of these entities, 
if you could let us know, that would be great. [Laughter.]
    Thank you.
    Dr. Hamre. Yes, I was pretty surprised to find it.
    Senator Dayton. All right.
    Chairman Warner. Thank you very much.
    The distinguished Senator from Texas can wrap it up.
    Senator Cornyn. Thank you, Mr. Chairman.
    I just have one final area of questioning, and that has to 
do with the dangers of consolidation in the IC. The best 
analogy I can think of is how much different your world view 
would be each day if you only read one newspaper and it was the 
Washington Post, and how much different it would be if, every 
day when you got up, instead of the Washington Post, you read 
the Washington Times. I worry that if we are consolidating all 
of our intelligence collection and analysis, and routing it up 
without the caveats, perhaps, as it goes through each layer, we 
present a nice, pretty package. We claim we have now 
consolidated the authority in one person, the NID, but, in 
effect, we are limiting the range of information that the 
policymakers really need in order to make the best possible 
decisions. Is that a poor analogy?
    Mr. Carlucci. It's a good analogy. Too much uniformity in 
the intelligence business is bad.
    Senator Cornyn. It strikes me that there's some benefit to 
having the competition or the diversity of voices. I know 
sometimes people wonder how in the world can you find out 
what's happening in Washington or anywhere else? I always say 
you need to read a lot of different newspapers. You need to 
read several different news magazines. You need to look at 
several different Internet news engines, like Google or Yahoo 
or whatever. Maybe then you will have some concept of what in 
the world is going on. But if you limit yourself to one source, 
that seems like that is fraught with danger.
    So I just hope that during the debate and discussion, as 
you have counseled us already, that we look for those things 
that are going to provide us better intelligence and not just 
claim that, yes, we've redrawn the organizational chart, we've 
created somebody with a new title, and we pat ourselves on the 
back under the misimpression that we've actually made America 
safer. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. But if I might, just 
to take an observation from your very important observations 
you made, the one thing that goes through this report that has 
struck me is the word ``imagination.'' Is not imagination the 
direct product of competition of differing intelligence views?
    Dr. Schlesinger?
    Dr. Schlesinger. Yes. It's unquestionably a--look, there 
were balls that were dropped here, and with--given the episode 
in Manila, given the seizure of the French aircraft that was 
supposed to fly into the Eiffel Tower, our problem was a 
failure of imagination, not to be cured--not to be cured--by 
restructuring. In Manila, it was said--whoever the name, I've 
forgotten--he said that, ``We were going to take an aircraft 
and drive it into Langley headquarters of the CIA.'' I would 
think that that would really get the attention of the CIA.
    Chairman Warner. I expect it would, too. But it is the 
product of competitive intelligence analysis. Again, going 
back, as I did with my colleagues on the Intelligence 
Committee, and looking at the problems, the DIA was very 
skeptical, as was the Energy Department, about certain aspects 
of the findings in the CIA.
    Again, is not imagination a product, Mr. Carlucci?
    Mr. Carlucci. It's a problem--I think that the report 
performs a useful service in pointing that out, but the report 
also points out that the policymakers do not act on warning, 
which is another issue that we haven't discussed today. That's 
beyond the realm of just pure intelligence. But the interaction 
between the IC and the policymaker is very important.
    Chairman Warner. Dr. Hamre?
    Dr. Hamre. Sir, I strongly believe that you want 
competitive analysis----
    Chairman Warner. To give you the imagination----
    Dr. Hamre. Absolutely.
    Chairman Warner.--as a product.
    Dr. Hamre. Absolutely.
    Chairman Warner. Gentlemen, thank you. You win an endurance 
contest. We're almost at 4 hours. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 6:20 p.m., the committee adjourned.]


 IMPLICATIONS FOR THE DEPARTMENT OF DEFENSE AND MILITARY OPERATIONS OF 
    PROPOSALS TO REORGANIZE THE UNITED STATES INTELLIGENCE COMMUNITY

                              ----------                              


                        TUESDAY, AUGUST 17, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:21 a.m. in 
room SR-325, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Sessions, Talent, Chambliss, Graham, Dole, Cornyn, 
Levin, Kennedy, Lieberman, Reed, Bill Nelson, E. Benjamin 
Nelson, Dayton, Bayh, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Brian R. Green, professional staff 
member; Thomas L. MacKenzie, professional staff member; and 
Paula J. Philbin, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Creighton Greene, professional staff member; and Maren 
R. Leed, professional staff member.
    Staff assistants present: Andrew W. Florell, Nicholas W. 
West, and Pendred K. Wilson.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Darren M. Dick, assistant to 
Senator Roberts; Lance Landry, assistant to Senator Allard; 
Lindsey R. Neas, assistant to Senator Talent; Steven R. Norton, 
assistant to Senator Chambliss; Aleix Jarvis, assistant to 
Senator Graham; Russell J. Thomasson, assistant to Senator 
Cornyn; Mieke Y. Eoyang, assistant to Senator Kennedy; 
Frederick M. Downey, assistant to Senator Lieberman; Neil D. 
Campbell, assistant to Senator Reed; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator E. Benjamin Nelson; and Todd Rosenblum, assistant to 
Senator Bayh.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to receive 
testimony from Secretary of Defense Donald Rumsfeld; Acting 
Director of Central Intelligence, John E. McLaughlin; and 
Chairman of the Joint Chiefs of Staff, General Richard B. 
Myers, on the implications for the Department of Defense (DOD) 
and current and future military operations of proposals to 
reorganize the U.S. Intelligence Community.
    We welcome our witnesses. I see that you're joined by Dr. 
Cambone. We welcome you.
    First, an administrative announcement to members of the 
committee. In consultation with Senator Levin, we have 
scheduled a hearing of this committee for immediately following 
our return on September 9. The question at that time will be 
the oversight review of our committee of the remaining reports, 
as we understand it, concerning the prisoner abuse situation in 
Iraq. Those remaining investigations, particularly the Fay-
Jones investigation into the role of the military intelligence, 
and the Schlesinger-Brown panel's overall view, should be 
completed in that period of time--would that be correct, Mr. 
Secretary?--and available for review. Your Department has so 
advised me of that.
    Secretary Rumsfeld. That is the current schedule. Whether 
something would come up that would cause one of them to delay 
for some reason or another, I can't know. But, at the moment--
what is the date you're planning to be back?
    Chairman Warner. September 9.
    Secretary Rumsfeld. As far as I know, those two that you 
mentioned would be completed.
    Chairman Warner. We've received excellent cooperation from 
your staff on this in the scheduling, and I've had an 
opportunity to work along with Dr. Schlesinger on these 
issues----
    Secretary Rumsfeld. Good.
    Chairman Warner.--so I thank you, Mr. Secretary.
    Now, the views of our witnesses today on the various 
recommendations for reform of the U.S. Intelligence Community, 
particularly the recommendations of the 9/11 Commission and the 
proposals of President Bush, are critical to this committee's 
understanding of how those recommended changes would impact the 
DOD in future military operations.
    The impressive work of the 9/11 Commission has given 
America a roadmap, a series of recommendations on how to move 
forward. I might add that the Governmental Affairs Committee 
this morning is hearing from the families and some survivors of 
the tragedies of September 11, and I think I join with all my 
colleagues, we're very impressed with their contributions into 
this national debate.
    So now it's time for Congress to thoroughly examine and 
evaluate all of these recommendations, and to enact such 
changes as we deem will strengthen our Intelligence Community.
    President Bush has taken swift action to embrace certain 
elements of the 9/11 Commission's recommendations prior to the 
9/11 report. We must be mindful of that, because this is a 
continuum of steps that have been taken, all the way from the 
Patriot Act to the establishment of the Terrorist Threat 
Integration Center, those steps to make our Nation safer each 
day that we go forward.
    Of the 41 recommendations made by the 9/11 Commission, some 
have already been enacted over the past 3 years. More will be 
done through executive order, and, quite possibly, Congress 
will provide legislation in the very near future.
    But as the 9/11 Commission noted, in nearly 3 years since 
September 11, Americans have become better protected against 
terrorist attack. But none of us can rest. We must constantly 
work--each day, each week, each month--to make America safer.
    As our witnesses are well aware, the DOD is home to the 
largest dollar--that is, budget allocation--within the 
Intelligence Community. DOD is the largest consumer of the 
intelligence produced by the Intelligence Community. We must 
not lose sight of these facts as we consider the way ahead.
    My overriding concern, speaking for myself as I examine 
changes and proposals and recommendations to the Intelligence 
Community, is, what changes will best help provide the 
strategic warning we need to protect the Nation, to keep our 
President and his subordinates fully informed while at the same 
time supporting the warfighter--the man, the woman, the sailor, 
the soldier, the airman, the marine--who, at this very moment, 
is taking risks throughout the world and fighting to keep the 
terrorist threat from our shores? How can we better provide the 
necessary intelligence to all of these consumers?
    It was not long ago when the national-level intelligence 
support to the warfighter was inadequate. All of us on this 
committee remember very well. The military's experience during 
Operation Desert Storm was a watershed event. From the time 
General Norman Schwarzkopf came before this committee in June 
1991 and advised us that responsive national-level intelligence 
support for his mission in the first Persian Gulf War was 
unsatisfactory.
    The Defense Department, together with other elements in the 
Intelligence Community, has painstakingly, since that time, 
built the intelligence and operational capabilities that we saw 
so convincingly demonstrated on the battlefields of Afghanistan 
and Iraq in the recent past. As we examine ways to reform our 
Intelligence Community, we must ensure that we do nothing to 
undermine the confidence that the battlefield commanders have 
in the intelligence support on which they must depend.
    The 9/11 commissioners correctly pointed out that our 
overall intelligence structure failed to connect the dots, in 
terms of observing and then fusing together the indicators of a 
significant threat from al Qaeda in the years and months 
leading up to the actual attack on our country on September 11, 
2001. The recommended solution, however, is to reorganize the 
entire community, not just focus on the parts that were 
unsatisfactory; therefore, we must examine the reasons for 
these dramatic proposals and understand how the recommended 
solutions address, or do not address, the problems identified 
in the 9/11 Commission's report.
    Clearly, we must seize the opportunity to act--and I, 
personally, am confident that Congress can and will do 
something in the balance of this session--but we should do it 
with great care. I'm ever mindful of the legislation to our 
national security structure, the National Security Act of 1947, 
and the Goldwater-Nichols Act of 1986, which many of us on this 
committee were full participants. These were not considered in 
haste, and we must not be rushed to judgment in this case.
    I, personally, as I've studied all the recommendations, 
feel, first and foremost, that we must be mindful that this 
Nation is at war at this very moment, with tremendous risks 
being undertaken by many people. We're at war, Mr. Secretary. 
Were we to try and do massive dismemberment of the DOD at this 
point in time, I think--and I listen to the Secretary and our 
witnesses--it could result in turbulence that might degrade 
this level of intelligence so essential as we continue to fight 
this war, as we continue to hear, almost every week or month, 
of the threat levels against this Nation, quite apart from the 
conflicts in Iraq and Afghanistan.
    So, with that in mind, I, personally, want to proceed, but 
with great caution, and do what we can to strengthen this 
system; at the same time, cause hopefully no turbulence or 
disruption in the intelligence system that now, I think, serves 
this Nation reasonably well--can be better.
    I look at the proposal by which we could take the current 
position of the Director of Central Intelligence, elevate it 
to--in every possible way, to that of a full cabinet status. As 
I look at the current body of law, you have extraordinary 
powers already on the statute. Perhaps some correction could be 
made, or addition, by Congress, to the existing powers so that 
there is no limitation to your ability to work as a coequal 
with your peer group, be it the Secretary of Defense, Secretary 
of Homeland Security, Secretary of State, or whatever the case 
may be.
    Perhaps we could change the name, call it the National 
Intelligence Director (NID). But if it's desired of Congress to 
move forward and create the entire new entity and a new layer, 
then I think we ought to do it in such a way that it's a 
partnership relationship between the Secretary of Defense 
working in consultation with the NID and his structure. At such 
time as the budgets are brought forward, they work on them 
together and present those budgets jointly, as they would 
present jointly to the President any recommendations for key 
personnel to serve in the various intelligence agencies.
    So those are two approaches that this Senator is 
considering, such that we minimize any disruption to the 
essential collection of intelligence today.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    Let me join you in welcoming our witnesses today. This is 
our committee's second hearing on the recommendations of the 9/
11 Commission to reorganize the Intelligence Community and the 
implications of such reorganization for the DOD and military 
operations.
    We have suffered from two different types of intelligence 
failures in recent years. The first was the failure of agencies 
to share information necessary to connect the dots before the 
September 11 attacks. That failure is attributed, by the 9/11 
Commission, mainly to problems in the organization and 
management of the Intelligence Community.
    The second failure, the massively erroneous intelligence 
assessments relied on before the war in Iraq, appears, in 
significant part, to have been the result of the shaping of 
intelligence by the Intelligence Community to support the 
policies of the administration.
    As we consider legislation for the reorganization of the 
Intelligence Community, we should recognize the significance of 
both types of failures: those resulting from poor organization 
and management, and those resulting from politicizing 
intelligence. Changing the organization of the Intelligence 
Community, as proposed by the 9/11 Commission, may help address 
intelligence-sharing problems, but does not address 
politicizing intelligence, and could even make that problem 
worse.
    Relative to the failure number one, the 9/11 Commission 
made major recommendations to reorganize the Intelligence 
Community that could have significant implications for our 
military which we want to explore today.
    One recommendation is to create the new position of a 
National Intelligence Director who would have greater authority 
over the national intelligence budget and programs and over 
hiring and firing people to head the national intelligence 
agencies, including agencies that are currently located within 
the Defense Department, such as the National Security Agency 
(NSA), which is responsible for collecting signals and breaking 
codes, and the National Reconnaissance Office (NRO), which is 
responsible for building satellites.
    Another recommendation is to create a new National 
Counterterrorism Center (NCTC) which would combine all-source 
fusion and analysis of terrorist intelligence, similar to what 
the Terrorist Threat Integration Center (TTIC) now does, but 
with the additional function of planning and tasking 
counterterrorist operations, including those conducted by 
military forces under the DOD.
    Another recommendation is to transfer the lead 
responsibility for all paramilitary operations, both overt and 
covert, to the DOD. Currently, the CIA is responsible for 
covert operations, which require a presidential finding and a 
prior notification to Congress.
    These recommendations raise a host of questions that need 
to be considered as we reform our Intelligence Community. The 
relationship between intelligence and defense entities and 
their specific responsibilities and authorities are not 
questions of turf. They are vitally important to both the 
security and well-being of our Nation and the safety of our 
troops.
    I would hope that our witnesses will address, in their 
opening statements, whether they agree with the following five 
recommendations of the 9/11 Commission. I'm quoting these 
recommendations.
    Recommendation number 1: The National Counterterrorism 
Center should perform joint planning. The plans would assign 
operational responsibilities to lead agencies, including 
Defense and its combatant commands.
    Recommendation number 2: The National Intelligence Director 
should have, ``the authority to reprogram funds among the 
national intelligence agencies to meet any new priority.''
    Recommendation number 3: The National Intelligence Director 
should approve and submit nominations to the President of the 
individuals who would lead the Central Intelligence Agency 
(CIA), Defense Intelligence Agency (DIA), NSA, National 
Geospatial-Intelligence Agency (NGA), NRO, and other 
intelligence capabilities.
    Recommendation number 4: Again, I'm quoting, ``Lead 
responsibility for directing and executing paramilitary 
operations, whether clandestine or covert, should shift to the 
Defense Department.''
    Recommendation number 5: The National Intelligence Director 
would manage this national effort, managing the national 
intelligence program, and overseeing the component agencies of 
the Intelligence Community with the help of three deputies, 
each of which would also hold a key position in one of the 
component agencies.
    Now, if we fail to make needed reforms, we may be leaving 
ourselves vulnerable to future intelligence failures. But if we 
unwittingly create a system that results in confused, unclear, 
or duplicative lines of command or responsibility, our security 
would be diminished. So we need to proceed urgently, but 
carefully, as we consider reforming our intelligence system.
    Regardless of the responsibilities that we might choose to 
give to the proposed National Intelligence Director and 
National Counterterrorism Center, and wherever we decide to 
place these offices on an organization chart, we must take 
steps to avoid the second major intelligence failure, the 
shaping of intelligence assessments to support administration 
policies--any administration's policies. Independent and 
objective intelligence is a matter of vital national 
importance. Objective, unvarnished intelligence should inform 
policy choices. Policy should not drive intelligence 
assessments.
    The Intelligence Committee's report of July 9, 2004, on the 
Intelligence Community's prewar intelligence assessments on 
Iraq is a multi-count indictment of faulty intelligence 
assessments.
    For example, when the CIA's unclassified white paper said 
that, ``Most intelligence specialists assess that Iraq was 
trying to obtain aluminum tubes for a centrifuge program for 
nuclear weapons,'' it did not explain that the Department of 
Energy, the Intelligence Community's nuclear experts, 
specifically disagreed with the assessment that the aluminum 
tubes were intended for Iraq's nuclear program.
    Similarly, when the CIA's unclassified National 
Intelligence Estimate stated that, ``Iraq maintains several 
development programs, including for an Unmanned Aerial Vehicle 
(UAV) that most analysts believe is intended to deliver 
biological warfare agents,'' the CIA eliminated a footnote to 
the effect that U.S. Air Force intelligence, the Intelligence 
Community agency with primary responsibility for technical 
analysis on UAV programs, did not agree with that assessment. 
When the CIA's unclassified white paper included the statement, 
``potentially against the U.S. homeland,'' with respect to the 
use by Iraq of biological weapons, it did not acknowledge that 
its own classified National Intelligence Estimate on the same 
subject did not include that frightening assessment.
    When the Director of Central Intelligence's testimony 
before the Intelligence Committee addressed, ``training in 
poisons and gases,'' of al Qaeda by Iraq, which, ``comes from 
credible and reliable sources,'' the Director did not mention 
that the underlying intelligence in his own classified 
statement called into question the reliability of the sources 
of this information.
    Now, these are but a few examples from the highly critical 
intelligence report of the Senate Select Committee on 
Intelligence on the intelligence failures before the war with 
Iraq. It is unacceptable for the senior U.S. intelligence 
official, whether that be a Director of Central Intelligence or 
a National Intelligence Director, to exaggerate the certainty 
of intelligence assessments and tell the President, Congress, 
the American people, and the world that something is an open 
and shut case, ``a slam dunk,'' when it isn't, when the 
underlying intelligence, in fact, has uncertainties and 
qualifications. Whatever changes we make to the organization of 
the Intelligence Community, we must do all that we can to 
ensure that the intelligence upon which our Nation relies, 
often for life-and-death decisions, is independently and 
objectively analyzed and presented.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Levin.
    Mr. Secretary, we welcome, again, your appearance here. I 
would recognize you just got back from an important trip to our 
forces abroad, and I recognize that you've been in consultation 
this morning--at the White House, I presume--perhaps on this 
subject and others, and we're anxious to hear your views.
    May I courteously ask that you bring the microphone up as 
close as possible, because we have a very full room, and the 
acoustics somewhat diminished.

  STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE; 
   ACCOMPANIED BY DR. STEPHEN A. CAMBONE, UNDER SECRETARY OF 
                    DEFENSE FOR INTELLIGENCE

    Secretary Rumsfeld. Thank you, Mr. Chairman, members of the 
committee.
    I appreciate this opportunity to discuss the subject of 
strengthening the Intelligence Community in the United States, 
as well as some of the recommendations of the 9/11 Commission.
    Needless to say, some of what I will be saying will be my 
personal views, because, while the President has made a number 
of decisions--and announced them--that he believes will improve 
the Intelligence Community, some aspects of his proposals are 
still under discussion, and, in that case, I may very well be 
back someday to discuss those decisions as they arrive.
    He's proposed the establishment of a National Intelligence 
Director, as the 9/11 Commission recommended, the creation of 
an NCTC, and the issuance of a number of executive orders to 
implement other recommendations of the 9/11 Commission, such as 
reform of the community's information-sharing.
    I think what I'd like to do is to ask my complete statement 
be put in the record, and I will abbreviate it substantially.
    Chairman Warner. Mr. Secretary, a very wise course. All 
statements by the three witnesses will be admitted into the 
record.
    Secretary Rumsfeld. The President will continue to listen 
to the debate on the subject of intelligence reform, as will 
others in the executive branch. I think the hearings are a good 
thing. The experts that have been testifying have a lot of 
background and experience and knowledge, and certainly add 
dimension to the discussion.
    The objective of Intelligence Community reform is to 
provide the community with a renewal, to refashion it to better 
succeed in this still new and different 21st century. Those 
objectives include improved indications and warning of 
impending events in enough time to anticipate them and to 
permit effective action.
    This requires, in my view, aggressively breaking down the 
stovepipes within and between domestic, foreign, and military 
intelligence; integrating domestic intelligence into the 
Intelligence Community while providing for the appropriate 
protections for civil liberties--and that's not an easy task; 
it's a big issue for this committee and for the country--
authorizing and enabling intelligence users to access required 
intelligence data wherever it may reside; improved analysis of 
the environment to reduce the likelihood of surprise, 
especially by terrorists, and this requires conducting, in my 
view, competitive analysis within the offices of the NID and 
within and among departments and agencies based on all-source 
intelligence; seeking to avoid ``group think,'' as recommended 
by the 9/11 Commission; balancing the need for intelligence and 
warning against the current threats in light of the need for 
longer-term strategic analysis; improved ability to use 
intelligence to effectively deter and disrupt, defeat, and 
defend against attacks on the United States' interests, 
especially by terrorists--it requires ensuring that departments 
and agencies charged with deterring and defending U.S. 
interests possess highly capable all-source intelligence 
capabilities, commensurate with their missions; developing and 
executing integrated joint responses by executive departments 
to effectively employ the instruments of national power 
appropriate to the task or mission; maintaining clear lines of 
authority and responsibility between the President and the 
heads of the executive departments and those operating 
agencies.
    Mr. Chairman, I come to this subject with a background of 
interest in intelligence capabilities. As I recall, I appeared 
before this committee in January 2001, more than 3\1/2\ years 
ago, for a confirmation hearing, and I was asked by one of the 
members of the committee what subject kept me up at night. I 
answered, simply, with one word: intelligence. The answer 
remains the same.
    Adversaries have many advantages in denying information 
too, and deceiving intelligence analysts and policymakers, 
alike, about their capabilities and their intentions. As a 
result, they're capable of surprising us, as well as surprising 
friendly foreign countries. This is the reality our country 
faces as we consider various proposals for improving 
capabilities to the U.S. Intelligence Community to meet the 
21st century problems.
    A variety of proposals for achieving these objectives have 
been advanced. I'm persuaded that the attributes we seek in the 
Intelligence Community--imagination, intuition, and 
initiative--may best be encouraged and developed by 
organizations where planning is centralized but the execution 
of the plans is decentralized. An Intelligence Community 
organized around areas of substantive expertise--for example, 
foreign, domestic, and military intelligence--would possibly be 
more likely to generate, in a timely fashion, the indications 
and warning of crisis and provide intelligence support needed 
by the executive departments of government in the performance 
of their respective missions than is one organized around a 
single or preeminent national intelligence organization.
    As some have suggested, organizing the U.S. Intelligence 
Community around national collections agencies, like NSA, NGA, 
and NRO, and aligning them under direct NID leadership, could 
conceivably lead to some efficiencies in some aspects of 
intelligence collection, and some modest but indefinable 
improvement in support of those agencies provide to other 
elements of the government. At the same, however, it's possible 
that, by their sheer size and the broad extent of their 
activity, those collection agencies could come to form the 
center of gravity of the NID's organization. If a consolidation 
of those agencies outside DOD were to be considered, we should 
be certain that it would actually help resolve the 
intelligence-related problems and difficulties that have been 
described by the 9/11 Commission and that we face, and that 
they would not create additional problems.
    As an example of the latter, we would not want to place new 
barriers or filters between military combatant commanders and 
those agencies when they perform as combat support agencies. It 
would be a major step to separate these key agencies from the 
military combatant commanders, which are the major users of 
such capabilities.
    With respect to solving problems that have been identified, 
my impression is that the technical collection agencies collect 
more than we can analyze today. This suggests that we need more 
analysts and capacity to process data.
    It's also my conviction that we must repair our human 
intelligence capabilities. They were especially hit in the 
budget cuts during the 1990s. It's my belief that any changes 
that are made to meet the objectives identified earlier need to 
focus on building a community for the 21st century along 21st 
century lines, networked and distributed centers of analysis 
within executive departments and agencies, with access to all 
available data, focused on employing instruments of collection, 
wherever they reside, as tools for exploring hypothesis and 
conducting alternative analysis--this implies a National 
Intelligence Director with authority for tasking collection 
assets across the government--setting analytic priorities; and 
ensuring all-source competitive analysis throughout the 
Intelligence Community. Importantly, the personnel management 
and training to alter the culture in the community--it's not 
something that's been discussed extensively, but real change--
most people are discussing organizational changes, and, in my 
view, we need to think also about the culture. If you think of 
the DOD and the number of--almost decades it's taken to instill 
the culture of jointness in that institution, it ought to 
remind us of the importance of culture with respect to the 
Intelligence Community's issues. Information, security, and 
access policies, information technology standards and 
architectures across the community are also enormously 
important. Reallocating resources in a year of budget 
execution. As I said, the precise extent of such authorities 
and other issues are still under consideration, but an NID 
likely will need some authorities of these types.
    The Department, through the Services and the combatant 
commands, has worked to break down stovepipes between foreign 
and military intelligence that support DOD activities. The 
impetus for this effort was, as you pointed out, Mr. Chairman, 
the lessons learned from Operation Desert Storm, some 12 years 
ago. You recalled the disappointment that existed with the 
timeliness, speed, and scope of intelligence support for those 
operations.
    The result of a decade's effort to establish a timely and 
seamless interaction between DOD and CIA activities has become 
apparent in Afghanistan and Iraq and in the ongoing war on 
terror. I suppose anyone can have their own opinion, but, in my 
view, we are about as well-connected as we ever have been, 
although we're probably not as well-stitched together as we 
conceivably could or should be. But any change to the 
Intelligence Community, it seems to me, should be designed to 
help us close, further, those gaps and seams, not to reopen 
them.
    The 9/11 Commission has focused the Nation's attention--and 
very usefully--on questions related to strengthening the 
community. I think it would be unfortunate if we were to lose 
sight of the 9/11 Commission's reflections on the nature of the 
world in which we live and the recommendations for the national 
security policies needed to protect and defend the country and 
the American people.
    In addition to the recommendations offered by the 9/11 
Commission, we could usefully consider the following:
    Further improving U.S. domestic intelligence capabilities 
while preserving U.S. civil liberties. I think that is one of 
their most important recommendations, and it's receiving 
relatively little attention and discussion. As part of that 
initiative, I would just mention that the DOD appointed a 
panel, headed by Newt Minow, to look at ways and means of 
achieving our domestic intelligence capabilities--the defense 
intelligence capabilities--consistent with our laws and values, 
to help counter 21st century threats. It's conceivable that 
such an outside panel could be useful in this instance.
    The President's been actively engaged in developing 
initiatives that engage people at risk to subversion by 
extremist ideologies. In no case is this more evident than his 
broader Middle East initiative. These initiatives could be 
embraced by Congress so that educational institutions abroad 
that emphasize religious toleration are supported, including 
provision for information technologies for schools.
    Foreign scholarships and fellowships for exchanging 
American and foreign students and scholars are established to 
improve cultural understanding.
    Helping to mobilize private philanthropy and non-
governmental groups to promote ideas and amplify those local 
voices that oppose transnational terrorism and extremist 
ideologies and provide counterweights to terrorist-related 
organizations.
    Providing the executive branch with the necessary 
flexibility to manage the 21st century war of terror.
    Congressional approval of the administration's request for 
funds for combatant commanders' use in the field to aid in 
humanitarian relief and reconstruction. Those of you who've 
visited Iraq and Afghanistan know that our combatant commanders 
believe that those dollars are as powerful as bullets in the 
work they're doing.
    I think, a reexamination of the train-and-equip authorities 
and missions to explore opportunities for improving the 
efficiency and effectiveness of such assistance programs.
    Consider conducting an interagency roles-and-missions study 
to rationalize responsibilities and authorities across the 
government to meet the 21st century threats.
    In pursuit of strengthening our Nation's intelligence 
capabilities, I would offer one cautionary note. It's important 
that we move with all deliberate speed. We need to remember 
that we are considering these important matters, however, while 
we are waging a war. If we move unwisely, and get it wrong, the 
penalty would be great.
    If you think back, the National Security Act of 1947 
established the DOD. By 1958, it had undergone no fewer than 
four major statutory or organizational changes. Another round 
of major change was inaugurated with the Goldwater-Nichols Act 
in 1986. I doubt that we should think of intelligence reform 
being completed at a single stroke.
    Intelligence is expensive. The community suffered 
substantial reductions in the budget in the last decade and in 
people. Those reductions were made on the theory that, the end 
of the Cold War, U.S. reliance on intelligence for security 
would not be as substantial as it had been. Events have proven 
otherwise, and we need to recognize that.
    To conclude, let me return to where I began. I'm still 
concerned about our country's intelligence capabilities, but 
that concern stems not from a lack of confidence in the men and 
women in the Intelligence Community. They have fashioned 
important achievements over recent years, and I believe our 
country owes them a debt of gratitude. It will be a long time, 
if ever, that many of their achievements are fully and broadly 
known and appreciated.
    The DOD and its counterparts in the Intelligence Community 
are forging, during a war, a strong interlocking relationship 
between intelligence and operations, between national and 
tactical intelligence, and between foreign and military 
intelligence. We've worked hard to close the gaps and seams 
that these terms imply.
    Now, my concerns are rooted in the new realities of this 
21st century, and certainly the Department is ready to work 
with you to further strengthen our ability to live in this new 
and dangerous world.
    Thank you.
    [The prepared statement of Secretary Rumsfeld follows:]
               Prepared Statement by Hon. Donald Rumsfeld
                              introduction
    Mr. Chairman, members of the committee. I appreciate the 
opportunity to discuss the broader subject of enhancing the 
Intelligence Community, as well as some of the 9/11 Commission 
recommendations.
    I want to point out that what I will be saying represents my 
personal views, in that I am appearing before the President has made 
his final decisions on many of the important issues.
    As members know, the President has reached a number of decisions 
that should improve the capabilities of the Intelligence Community:

        <bullet> Establishment of a National Intelligence Director.
        <bullet> Creation of a National Counterterrorism Center.
        <bullet> Issuance of a number of executive orders that will 
        implement other recommendations of the commission, such as 
        reform of the Intelligence Community's information sharing.

    In addition, the President has called for substantial reform of 
congressional oversight.
    The way Congress decides to conduct its oversight certainly impacts 
the way the executive branch does its business. If we are to become 
more agile and flexible in fighting the war on terrorism and rapidly 
adjusting to meet new circumstances, Congress will likely need to 
adjust its practices.
    The President will continue to listen to the debate on the subject 
of intelligence reform. He will continue to take the counsel of a broad 
range of experts, including those who have written and/or testified 
before you and other committees, on this important subject as he 
considers additional details relative to his proposals and frames new 
initiatives.
                               objectives
    The objective of Intelligence Community reform is to provide the 
community with a renewal, to refashion it to succeed in this still new 
and different 21st century. Those objectives include: 

        <bullet> Improved indications and warning of impending events 
        in enough time to anticipate them and permit effective action. 
        This requires:

                <bullet> Aggressively breaking down the stovepipes 
                within and between domestic, foreign, and military 
                intelligence.
                <bullet> Integrating domestic intelligence into the 
                Intelligence Community while providing for appropriate 
                protection for civil liberties.
                <bullet> Authorizing and enabling appropriate 
                intelligence users to access required intelligence data 
                wherever it may reside. 

        <bullet> Improved analysis of the environment to reduce the 
        likelihood of surprise, especially by terrorists. This 
        requires:

                <bullet> Developing an integrated and authoritative 
                understanding of trends and events, at home and abroad, 
                and whether and how they might evolve into threats to 
                U.S. interests.
                <bullet> Conducting ``competitive analysis'' within the 
                offices of the NID and within and among departments and 
                agencies, based on all source intelligence, seeking to 
                avoid ``group think'' as recommended by the 9/11 
                Commission.
                <bullet> Balancing the need for intelligence and 
                warning against current threats in light of the need 
                for longer-term strategic analysis. 

        <bullet> Improved ability to use intelligence to effectively 
        deter, disrupt, defeat, and defend against attacks on U.S. 
        interests, especially by terrorists. This requires:

                <bullet> Ensuring that departments and agencies charged 
                with deterring and defending U.S. interests possess 
                highly capable, all source intelligence capabilities 
                commensurate with their mission.
                <bullet> Developing and executing integrated, joint 
                responses by executive departments to effectively 
                employ the instruments of national power appropriate to 
                a task or mission.
                <bullet> Maintaining clear lines of authority and 
                responsibility between the President and the heads of 
                the executive departments and those operational 
                agencies.

        <bullet> Improved process for setting national goals, 
        priorities, missions, and requirements for the collection and 
        analysis of intelligence. This requires:

                <bullet> A more integrated approach to setting these 
                goals, priorities, missions, and requirements.
                <bullet> Enhancing the role of policy makers and 
                intelligence analysts in this process; and
                <bullet> Ensuring that the process produces 
                intelligence and capabilities to deter, defeat, and 
                defend against adversaries, especially terrorists that 
                are agile, flexible, and responsive.
                       the need for a renaissance
    Mr. Chairman, members of the committee, I come to this subject with 
a record of interest in the Nation's intelligence capabilities.
    When I appeared before your committee in January 2001, more than 
3\1/2\ years ago, as the nominee to be Secretary of Defense, I was 
asked what subject kept me up at night.
    I replied, without hesitation, ``intelligence.''
    My prior experience as chairman of two congressionally-mandated 
commissions--one on the ballistic missile threat to the U.S. and the 
other on the organization and management of national security space--
had impressed on me how difficult it is to acquire intelligence, 
convert it into useful information and then use it in support of 
operations.
    In our global environment, adversaries can exploit international 
trade, finance, and communications to acquire expertise, technology and 
systems--often on the open market--with which they can do great harm to 
the American people and the Nation's interests.
    My concern back in 2001 was, and remains today, that a combination 
of terrorists and states that wish us harm, will exploit that global 
environment, and gain access to or develop weapons of mass destruction.
    The efforts of the Intelligence Community to identify such threats 
in a timely and precise way that permit us to act decisively are 
frustrated by the reality that:

        <bullet> Our adversaries are keenly aware of our 
        vulnerabilities;
        <bullet> They need to succeed only occasionally whereas we are 
        obliged to defend against them everywhere and at all times;
        <bullet> Through a combination of espionage against the U.S., 
        irresponsible leaks, demarches, official disclosures and the 
        general advance of scientific and technical knowledge, 
        adversaries have learned far too much about how we collect, 
        analyze, and use intelligence;
        <bullet> Adversaries have many advantages in denying 
        information to and deceiving intelligence analysts and 
        policymakers alike about their capabilities and intentions; and 

        <bullet> As a result, they are capable of surprising us as well 
        as friendly foreign countries.

    This is the reality our country faces as we consider various 
proposals for improving the capabilities of the U.S. Intelligence 
Community to meet 21st century problems.
    It is a reality borne out by the work of the 9/11 Commission and by 
the continuing review of intelligence prior to Operation Iraqi Freedom 
by the Senate Select Committee on Intelligence, as well as the good 
work done by this committee, the House Armed Services Committee, the 
House Intelligence Committee, and other committees of Congress.
    In the face of this reality, and enlightened by the experience of 
the last 43 months, I come to this subject with a healthy respect for 
the magnitude of the task our country is tackling.
    I also come to it with an adage in mind that I find useful: ``To 
those who would tear down what is falls the responsibility of putting 
in place something better.'' I would remind that it is far easier to 
critique and find fault than it is to build.
                  how might those results be achieved
    A variety of proposals for achieving the objectives I outlined have 
been advanced.
    My experience as Secretary of Defense and in the pharmaceutical and 
electronic industries persuades me that the attributes we seek in the 
Intelligence Community--imagination, intuition, and initiative--are 
best encouraged and developed by organizations wherein planning is 
centralized but the execution of plans is decentralized.
    An Intelligence Community organized around areas of substantive 
expertise--for example, foreign, domestic and military intelligence--
would possibly be more likely to generate, in a timely fashion, the 
indications and warning of crises and provide the intelligence support 
needed by the executive departments of government in the performance of 
their respective missions than is one organized around a single and 
preeminent national intelligence organization.
    As some have suggested, organizing the U.S. Intelligence Community 
around the national collection agencies--NSA, NGA, and NRO--now located 
in the DOD, and aligning them under direct NID leadership, could 
conceivably lead to some efficiencies in some aspects of intelligence 
collection and some modest but indefinable improvement in the support 
those agencies provide to other elements of the government. At the same 
time, however, it is possible that by their sheer size and the broad 
extent of their activity, those collection agencies could come to form 
the ``center of gravity'' of the NID's organization.
    If a consolidation of the NSA, NGA, and NRO outside DOD were to be 
considered, we should be certain that it would help resolve the 
intelligence-related problems and difficulties we face and not create 
additional problems. As an example of the latter, we wouldn't want to 
place new barriers or filters between the military combatant commanders 
and those agencies when they perform as combat support agencies. It 
would be a major step to separate these key agencies from the military 
combatant commanders, which are the major users of such capabilities.
    With respect to solving problems that have been identified, my 
impression is that the technical collection agencies--NSA, NGA, and 
NRO--collect more than we can analyze today. This suggests we need more 
analysts and capability to process data. It is also my impression that 
we must repair our human intelligence (HUMINT) capabilities. They were 
especially hard hit in the budget cuts beginning in the early 1990s.
    The President has not yet made a decision on these issues. He will 
undoubtedly continue to listen to the debate and take different views 
into consideration in reaching decisions. He has not ruled anything 
out.
    It is my belief that any changes that are made to meet the 
objectives identified earlier need to focus on building an Intelligence 
Community for the 21st century along 21st century lines:

        <bullet> networked and distributed centers of analysis within 
        executive departments and agencies, with access to all 
        available data;
        <bullet> focused on employing instruments of collection 
        wherever they reside as tools for exploring hypothesis and 
        conducting alternative analysis; and
        <bullet> whose activities, priorities, and production schedules 
        are directed by the NID.

    This implies a NID with authority for:

        <bullet> tasking collection assets across the government, 
        <bullet> setting analytic priorities and ensuring all source, 
        competitive analyses throughout the Intelligence Community, 
        <bullet> the personnel management and training to alter the 
        culture in the community, 
        <bullet> information security and access policies, 
        <bullet> information technology standards and architectures 
        across the community, and 
        <bullet> reallocating resources in the year of budget 
        execution.

    As I said, the precise extent of such authorities, and other 
issues, are under consideration by the President and Congress. But an 
NID likely will need some authorities of this sort.
    I have been asked about the commission's recommendation for 
shifting paramilitary operations to DOD. We will give that 
recommendation careful consideration. This, like other recommendations, 
is complicated. The executive and legislative branches will need to be 
comfortable that any changes that might be made take account of the 
difference in the authorities and capabilities of the CIA and DOD and 
the changing needs of a President for access to a broad range of 
capabilities to meet the various challenges the Nation will be facing.
                          implications for dod
    The Department of Defense seeks and welcomes changes in the way the 
Nation does its intelligence business. It is greatly to the advantage 
of the U.S. Armed Forces that the Intelligence Community is better able 
to serve it and the other executive departments of the government, 
especially those associated with our Nation's homeland security. If the 
government as a whole is better able to act in a timely fashion, the 
frequency and duration with which the men and women of our armed forces 
will be called for combat operations abroad might be reduced.
    I believe DOD's experience with changing the way it does its 
business over the last decade, and especially since 2001, might help 
inform the proposals being offered to change the Intelligence 
Community.
    For example, the Department, through the Services and the combatant 
commands, has worked hard to break down stovepipes between foreign and 
military intelligence that support DOD activities. The impetus for this 
effort was the lessons learned from Operation Desert Storm. You may 
recall General Schwartzkopf's disappointment with the timeliness, 
speed, and scope of intelligence support to the operations he 
commanded.
    The result of a decade's effort to establish a timely and seamless 
interaction between DOD and CIA activity has become apparent in 
Afghanistan, Iraq, and in the ongoing war on terror. We are as well 
connected as we ever have been, but we're probably not as well stitched 
together as we could or should be; gaps and seams may still exist. But 
any change to the Intelligence Community should be designed to help us 
close further those gaps and seams, not reopen them.
    I hope that the change in the relationship between foreign and 
military intelligence and operations that has occurred since Operation 
Desert Storm will be matched by similar changes between domestic and 
foreign intelligence as the result of any reform. I am sure much has 
been done since September 11 to improve that relationship, but very 
likely more can and should be done.
    Second, DOD is pursuing a network-based intelligence, operations, 
and communications capability to replace its hierarchical and serial 
practices. As part of this effort, the DOD is developing and deploying 
new sensors, communications systems and establishing new standards and 
protocols to permit the secure transmission of a high volume of 
classified and unclassified data and information at the lowest possible 
levels of operations. This will permit the armed forces to conduct 
highly decentralized operations in response to centralized direction.
    This has enabled quicker decisionmaking, increased the prospect for 
immediate action in response to actionable intelligence, improved the 
precision of military operations, and provided combatant commanders at 
all levels with far greater situational awareness. A similar approach 
to networks and decentralized execution within the Intelligence 
Community would likely yield for it similar results.
    Third, as part of the effort to network its capabilities, DOD has 
tightened the connection between the operating forces and the combat 
support agencies--NSA, NGA, and NRO. I know General Myers will say more 
about this.
    This connection has been crucial to improving the effectiveness and 
capabilities of the U.S. Armed Forces in combat against enemy 
conventional forces, unconventional forces, and terrorists.
    We now have an opportunity to create government-wide networks that 
can strengthen the connection of the components of the Intelligence 
Community located in other executive departments--especially on the 
domestic side--to NSA, NGA, and NRO. Extending access to the network 
infrastructure DOD is already building to other Departments would help 
in this regard. The NID could well establish the standards and 
protocols governing the construction and use of the resulting networks 
for intelligence purposes.
                          other considerations
    The 9/11 Commission has focused the Nation's attention on questions 
related to strengthening the Intelligence Community. It would be 
unfortunate if we were to lose sight of the commission's reflections on 
the nature of the world in which we live and the recommendations for 
the national security policies needed to protect and defend the Nation 
and the American people.
    In addition to the recommendations offered by the commission, we 
could usefully consider the following:

    1. Further improving U.S. domestic intelligence capabilities while 
preserving U.S. civil liberties:

        <bullet> As part of this initiative, appointing a bipartisan, 
        blue-ribbon panel, not unlike the Minow Panel we set up in DOD, 
        to look at the ways and means of enhancing our domestic 
        intelligence capability, consistent with our laws and values, 
        to help counter 21st century threats.

    2. The President has been actively engaged in developing 
initiatives that engage peoples at risk to subversion by extremist 
ideologies. In no case is this more evident than his Broader Middle 
East Initiative. Those initiatives could be embraced by Congress so 
that:

        <bullet> Educational institutions abroad that emphasize 
        religious toleration are supported, including provision of 
        information technologies for schools
        <bullet> Foreign scholarships and fellowships for exchanging 
        American and foreign students and scholars are established to 
        improve cultural understanding.
        <bullet> Economic aid and assistance programs that utilize 
        private-public partnerships are more widely developed to 
        encourage small business development, banking sector 
        development, and local infrastructure improvement, and to teach 
        skills that workers will need in the 21st century.
        <bullet> Private philanthropy and non-governmental groups are 
        mobilized to promote the ideas and amplify those local voices 
        that oppose transnational terrorism and extremist ideologies, 
        and provide counterweights to terrorist-related organizations.

    3. Providing the executive branch with the necessary freedom to 
manage the 21st century war on terror:

        <bullet> Congressional approval of the administration's 
        requests for funds for the combatant commanders use in the 
        field to aid in humanitarian relief and reconstruction.
        <bullet> Adoption of contracting rules to streamline contract 
        awards while retaining appropriate oversight to the 
        circumstances so that critical projects like equipping local 
        security forces are not unduly delayed.
        <bullet> A reexamination of ``train and equip'' authorities and 
        missions to explore opportunities for improving the efficiency 
        and effectiveness of such assistance programs.

    4. Realigning and reorganizing the U.S. Government's functions and 
responsibilities to meet the challenges of the 21st century:

        <bullet> Consider undertaking a fundamental re-look at the 
        roles and missions of the U.S. Government to meet the national 
        security challenges of the 21st century. Consider developing a 
        new National Security Act--not simply another incremental 
        update of the 1947 act. This new organizational design could be 
        coupled to a Unified Executive Branch Plan, outlining 
        responsibilities and assigning lead and supporting 
        responsibilities among departments for national security tasks, 
        as we do for military forces.
        <bullet> Introduce Goldwater-Nichols type reforms to increase 
        ``jointness'' across Federal agencies. Consider establishing a 
        National Security University (like National Defense University 
        for the Department of Defense) to educate national security 
        officials and an interagency training exercise process to build 
        capacity for interagency crisis management and national 
        security planning and operations.
        <bullet> Establishment of a Reserve Force of civilians for a 
        new Office of Stability and Reconstruction Operations in the 
        Department of State, including incentives for service and 
        commitments to train and deploy overseas when directed.
        <bullet> Consideration of the creation of Joint Interagency 
        Task Forces, led by statutory members of the National Security 
        Council (NSC), to conduct integrated planning for the 
        employment of all instruments of national power for particular 
        missions (e.g., attacking/disrupting terrorist networks, 
        protecting homeland, and engaging in ideological struggle).
        <bullet> Consideration of the conduct an Interagency Roles and 
        Missions Study to rationalize responsibilities and authorities 
        across the U.S. Government to meet 21st century threats.
                      moving with deliberate speed
    In pursuit of strengthening our Nation's intelligence capabilities, 
I would offer a cautionary note. It is important that we move with all 
deliberate speed; however, moving too quickly risks enormous error, as 
this committee has heard from former senior officials, military and 
civilians, with broad experience in this matter. We are considering 
these important matters while waging a war.
    National security is not easily achieved in this new century. If we 
move too unwisely and get it wrong, the penalty will be great. The 
National Security Act of 1947 established the DOD. By 1958 it had 
undergone no fewer than 4 major statutory or organizational changes. 
Another round of major change was inaugurated with the Goldwater-
Nichols Act in 1986. We shouldn't think intelligence reform will be 
completed at a stroke, either.
    Intelligence is expensive. The Intelligence Community suffered 
substantial reductions in its budget in the last decade. Those 
reductions were made on the theory that, with the end of the Cold War, 
U.S. reliance on intelligence for security would not be as substantial 
as it had been. Events have proven otherwise. It was a mistake, and we 
are paying the penalty.
    It was with that in mind that the President developed his 
``Strengthening Intelligence Initiative.'' It seeks to increase the 
number of HUMINT operators, linguists, and analysts and provide them 
with needed infrastructure support. The first increment of funding for 
the initiative was included in the fiscal year 2005 budget recently 
enacted by Congress. Between now and 2009 that initiative seeks to add 
thousands of personnel to the Intelligence Community. They are needed.
    George Tenet and I worked over recent years to increase the numbers 
and capabilities of HUMINT operators in our respective areas of 
responsibility. More will need to be done in this area. But HUMINT 
operators are not created overnight.
                               conclusion
    To conclude, let me return to where I began, before this committee 
in January 2001. I am still concerned about our Nation's intelligence 
capabilities. That concern stems not from a lack of confidence in the 
men and women of the Intelligence Community. They have fashioned 
important achievements over recent years. Our country owes them a debt 
of gratitude. It will be a long time, if ever, that many of their 
achievements are fully and broadly known and appreciated.
    DOD and its counterparts in the Intelligence Community are forging, 
in the crucible of war, a strong, interlocking relationship between 
intelligence and operations, between national and tactical 
intelligence, and between foreign and military intelligence. We have 
worked hard to close the gaps and seams these terms imply. Our people, 
our budgets, and our activities are closely intertwined. That close 
relationship between DOD and CIA is a driving cause of shared 
successes.
    My concerns are rooted in the realities of the 21st century. Our 
Intelligence Community will need to improve to meet the challenges we 
face, and DOD is ready to work with you to further strengthen our 
ability to live in this new and dangerous world.

    Chairman Warner. Thank you, Mr. Secretary.
    Director McLaughlin?

   STATEMENT OF HON. JOHN E. McLAUGHLIN, ACTING DIRECTOR OF 
                      CENTRAL INTELLIGENCE

    Mr. McLaughlin. Thank you, Mr. Chairman.
    Mr. Chairman, as this committee considers reorganization 
proposals by the President, the Kean Commission, and Congress, 
I want to speak for a moment about the structure and 
capabilities of the U.S. Intelligence Community, as it exists 
today, not in 2001. I think it's important that we do that at 
the beginning of these deliberations.
    I believe that today's Intelligence Community provides a 
much stronger foundation for any changes you want to make as we 
move forward than most people might realize. That said, there 
is no question we can still do better, and I'll close with some 
thoughts on how that can be accomplished.
    Three years of war have profoundly affected the American 
Intelligence Community. Since September 11, our capacity and 
effectiveness have grown as our resources have increased--a 
very important point, our resources have increased 
dramatically--and as we have taken steps to address many of the 
issues that others have highlighted. This has been the most 
dramatic period of change in my personal memory.
    Some examples:
    Our policies--the Nation's, and the Intelligence 
Community's have changed dramatically. We're on the offensive 
against terrorists worldwide, and many of the most dangerous 
are captured or dead.
    Our practices have also changed. Intelligence, law 
enforcement, and military officers serve together and share 
information realtime and on the front lines around the world. 
Here in Washington, I chair an operational meeting every day 
with Intelligence Community and law enforcement officers 
present. Decisions made there go immediately to officers in the 
field--immediately--whose penetration and disruption of 
terrorist groups yields the kind of increasingly precise 
intelligence you've seen in the last couple of weeks.
    Our worldwide coalition has changed. It is broader, deeper, 
and more committed than before or at September 11. Where 
terrorists found sanctuary before, they now find our allies, 
and we are seeing the results from Panama to Mexico City.
    Our laws have changed--the Patriot Act has given us weapons 
in the war we did not have then--and we've saved lives because 
of them.
    Our institutions have changed. The Terrorist Threat 
Integration Center did not exist then. It enables us to share 
intelligence collected abroad with law enforcement information 
collected at home, and plots have been stopped in the U.S. 
because of that.
    Twenty-six different data networks now flow there, to the 
Terrorist Threat Integration Center, to be shared by officers 
from the widest array of foreign and domestic intelligence 
agencies ever assembled in one organization. People who think 
we can't break down the so-called stovepipes need to visit the 
Terrorist Threat Integration Center.
    In turn, such changes affected our ability to wage war, and 
the impact of change has been striking. It was imaginative 
covert action, CIA officers working with the U.S. military, 
that helped drive military operations and ousted the Taliban 
from power in Afghanistan, and broke up the sanctuary that al 
Qaeda had used.
    Terrorist arrests are increasing steadily. You see that in 
just about every morning newspaper.
    CIA, Federal Bureau of Investigation (FBI), Treasury, and 
other partners at home and abroad are starving al Qaeda of its 
lifeblood: money.
    CIA has worked with the FBI as it has taken down extremists 
in Lackawanna, Columbus, and New York City.
    Our coalition partners include, by varying degrees, Libyans 
and Russians, Chinese and Hungarians, Pakistanis and Saudis, 
and more, along with our traditional allies in Europe and in 
Asia.
    In short, the situation has changed dramatically from where 
the 9/11 Commission left off. Two things, however, are still 
true: al Qaeda and other terrorists remain dangerous, and there 
is still room for improvement in the Intelligence Community.
    But the image that many seek to perpetuate, of a community 
that doesn't share information or work together, a community of 
turf-conscious people competing with each other for influence, 
I must tell you, that's not the community I lead. It's a 
caricature that does a great disservice to the men and women 
who put it on the line every day, 24/7.
    Because of this committee's special responsibilities, I 
need to say a word, as the Secretary did, about the 
Intelligence Community's support for the warfighter. As we 
discuss various proposals for restructuring the Intelligence 
Community today, let me be clear about one thing: No matter 
what course the administration and Congress choose, 
intelligence support to the military, especially in time of 
war, should not be allowed to diminish. I believe such support 
can and will be preserved under any of the options being 
considered. No one would think about it in any other way. 
Everyone in the Intelligence Community understands that NSA, 
NGA, NRO, all vital parts of the National Intelligence 
Community, are also combat support agencies.
    Let me give you the assurance that the relationship between 
the Intelligence Community and the uniformed military--and the 
military, in general; the Defense Department, in general--has 
never, in my personal experience, been closer. The Secretary 
alluded to this.
    Some data points:
    The Secretary of Defense, to his great credit, has met 
frequently with George Tenet and myself to coordinate policies 
across the board in an almost unprecedented manner, in my 
experience.
    A Navy SEAL three-star, Vice Admiral Callon, sits right 
across the hall from me at CIA headquarters with the mission of 
ensuring that we and the military are connected and that both 
sides are getting what they need. I see him two or three times 
every day.
    CIA and U.S. military officers have been living and 
fighting together in Afghanistan for 3 years in the mountains 
and plains, where they have al Qaeda on the run. Our 
collection, operational, and analytic support to military 
efforts in Afghanistan and Iraq is close and continuous, as I 
think most of you have seen during your trips to those areas. I 
have a lot of data here about the number of operations, liaison 
teams that we've sent to U.S. Central Command (CENTCOM), and so 
forth.
    I have frequent video conferences with CENTCOM Commander 
General Abizaid to personally assure that we understand his 
perspective and his needs.
    We've upgraded information technology support to the 
military in the field so that Intelligence Community products 
are now available in 80 military intelligence centers around 
the globe.
    It is a different world from the one that General 
Schwarzkopf, I think, described accurately after the first Gulf 
War.
    Looking ahead now, it's important to note that the 
terrorist threat is in no way stagnant. We've had victories. 
But these organizations learn, and they adapt. It's not enough 
for us to keep up. We have to anticipate and keep ahead.
    As we seek to build on the improvements we've made in 
recent years, we should keep in mind a few of what I would call 
``first principles.''
    First, speed and agility are the keys to the war on 
terrorism and profoundly important to the Nation's other 
intelligence challenges. We sometimes have literally only 
minutes to react to a lead that allows us to go after 
terrorists. Speed and agility are not promoted by complicated 
wiring diagrams, more levels of bureaucracy, increased dual-
hatting, or inherent questions about who is in charge.
    Second, as in architecture, form should follow function. 
The functions intelligence must perform today are dramatically 
different than during the Cold War. Back then, we focused 
heavily on large strategic forces--where were they, for 
example--and where countries stood on the bipolar competition 
that characterized that era. Today, the focus is more on 
locating people, sometimes one person in a city of 17 million, 
tracking shipments of dangerous materials, understanding 
politics, now down to the tribal level, in a world where the 
only constant is change.
    Third, in this world, clear structure and a clear chain of 
command is better than the opposite.
    Fourth, most important to knowing how and what to change is 
consensus on what we want from our intelligence agencies, along 
with constancy in resource and moral support for them, through 
good times and bad, and patience. The 9/11 Commission says that 
the country cannot be patient. But to quote a saying I learned 
during my Army years, ``If you want it bad, you will get it 
bad.''
    Drawing on these principles, I believe that short, clear 
lines of command and control are required in whatever structure 
you establish, regardless of what you call its leader. Three 
words are key: agility, flexibility, and speed. You need to 
build these into any new structures and procedures.
    No matter how successfully we anticipate future challenges, 
we won't foresee them all, so we will need the ability to adapt 
our organizations to change easily and quickly. We will need 
flexibility in shifting resources, people, and money to respond 
to shifting priorities.
    The DCI can do some of this now, with existing authorities; 
but, frankly, it's too complicated, cumbersome, and ponderous. 
It involves more negotiations and sign-offs than current 
requirements permit.
    That's why, should the President's proposal to create a 
National Intelligence Director be adopted, I believe that that 
individual should have the clear authority to move people and 
resources, and to evaluate the performance of the national 
intelligence agencies and their leaders. This should be 
accomplished in the cleanest and most direct manner you can 
devise.
    People often remark that the DCIs allow too much in the 
Intelligence Community to be--the phrase often used is, ``CIA-
centric,'' whether it's the staffing of centers or the 
preparation of national estimates. Well the reason is simple. 
It's because a DCI can. That is, these are the troops he 
directly commands and can task and move with little effort or 
resistance. If the DCI had enhanced authorities along the lines 
I've suggested, or if you create a National Intelligence 
Director like that, you should expect to see much more 
integration of effort in the community, and a greater capacity 
to create cross-community task forces and centers in a more 
agile and seamless way. You should also see more progress by a 
DCI, or a National Intelligence Director, on things like common 
policies for personnel, training, security, and information 
technology.
    Now, as you consider all of this, here is a key thing to 
think about:
    Who will you hold responsible, not just when things go 
well, but when something goes wrong with intelligence? Today, 
it's the DCI, even though his authorities over the rest of the 
community outside CIA are limited.
    If, in the future, it will be a National Intelligence 
Director, what authorities would be commensurate to that kind 
of responsibility if that's the person you choose to hold 
responsible?
    What would that person actually be responsible for? What 
the community concludes substantively about major issues, like 
Iraq, North Korea, or terrorism? If the answer is yes, that 
person will need direct access to sizeable numbers of 
collectors and analysts, just as the DCI has today. The 
question then arises about where those people will come from 
and with what impact.
    Or would the National Intelligence Director be responsible 
less for substantive matters and primarily for the management 
and integration of resources? Can substantive and management 
responsibilities be separated? If they can, will responsibility 
and accountability be harder to pin down than it is now, 
especially in view of the fact that the person you now hold 
responsible, the head of CIA, would then be at least a layer 
away from the top?
    I regret to close with a series of questions, but I believe 
they illustrate the complexity of these issues and the need to 
proceed cautiously and with care as we contemplate changes to 
an intelligence system on which the Nation must depend more 
than ever for its security.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. McLaughlin follows:]
                Prepared Statement by John E. McLaughlin
    Mr. Chairman, as this committee considers reorganization proposals 
by the President, the Kean Commission, and Congress, I want to speak to 
the structure and capabilities of the Intelligence Community as it is 
today, not as it was in 2001. I believe that today's Intelligence 
Community provides a much stronger foundation than many people realize 
for whatever changes you decide to make. That said, we can still do 
better, and I will close with some thoughts on how this can be 
accomplished.
                      intelligence community today
    Three years of war have profoundly affected the Intelligence 
Community. Since September 11, our capacity and effectiveness have 
grown as our resources have increased and as we have taken steps to 
address many of the issues others have highlighted. This has been the 
most dramatic period of change in my memory. Some examples:

        <bullet> Our policies--the Nation's and the Intelligence 
        Community's--have changed--we are on the offensive against 
        terrorists worldwide and many of the most dangerous are 
        captured or dead.
        <bullet> Our practices have changed--intelligence, law 
        enforcement, and military officers serve together and share 
        information real time on the front lines at home and abroad. In 
        Washington, I chair an operational meeting every day with 
        Intelligence Community and law enforcement elements 
        represented. Decisions made there go immediately to officers in 
        the field whose penetration and disruption of terrorist groups 
        yields the kind of increasingly precise intelligence you have 
        seen in the last 2 weeks.
        <bullet> Our worldwide coalition has changed--it is broader, 
        deeper, and more committed. Where terrorists found sanctuary 
        before, they find our allies now--and we are seeing the results 
        from Manama to Mexico City.
        <bullet> Our laws have changed--the Patriot Act has given us 
        weapons in the war we did not have and we have saved lives 
        because of them.
        <bullet> Our institutions have changed--The Terrorist Threat 
        Integration Center (TTIC) enables us to share intelligence 
        collected abroad with law enforcement information collected at 
        home--and plots have been stopped in the U.S. because of that. 
        Twenty-six different data networks now flow there to be shared 
        by officers from the widest array of foreign and domestic 
        intelligence agencies ever assembled in one organization. 
        People who think we can't break down the so-called 
        ``stovepipes'' need to visit TTIC.

    In turn, the changes affected our ability to wage war and the 
impact of change has been striking.

        <bullet> It was imaginative covert action--CIA officers working 
        with the U.S. military--that helped drive military operations 
        and ousted the Taliban from power in Afghanistan and broke up 
        the al Qaeda sanctuary.
        <bullet> Terrorist arrests are increasing steadily. That 
        evidence comes with your morning newspapers nearly every day 
        now.
        <bullet> CIA, FBI, Treasury, and other partners, at home and 
        abroad are starving the al Qaeda of its lifeblood--money.
        <bullet> CIA has worked with the FBI, as it has taken down 
        extremists in Lackawanna, Columbus, and New York City.
        <bullet> Our coalition partners include, by varying degrees, 
        Libyans and Russians, Chinese and Hungarians, Pakistanis and 
        Saudis--and our traditional allies in Europe and Asia.

    In short, the situation has changed dramatically from where the 9/
11 Commission left off. Two things, however, are still true: al Qaeda 
and other terrorists remain dangerous and there is still room for 
improvement in the Intelligence Community. But the image that many seek 
to perpetuate of a community that does not share information or work 
together, a community of turf-conscious people competing for 
influence--that is not the community I lead. It is a caricature that 
does a great disservice to the men and women who put it on the line 
every day, 24/7.
                       supporting the warfighter
    Because of this committee's special responsibilities, I need to say 
a word about the Intelligence Community's support to the warfighter. As 
we discuss various proposals for restructuring the Intelligence 
Community today, let me be clear about one thing: no matter what course 
the administration and Congress choose, intelligence support to the 
military, especially in time of war, should not be allowed to 
diminish--and I believe such support can and will be preserved under 
any of the options being considered. Everyone in the Intelligence 
Community understands that NSA, NGA, and NRO, all vital parts of the 
National Intelligence Community, are also combat support agencies. Let 
me give you the assurance that the relationship between the 
Intelligence Community and the uniformed military has never been 
closer. Some data points:

        <bullet> The Secretary of Defense has met frequently with 
        George Tenet and myself to coordinate policies across the 
        board.
        <bullet> A Navy Seal Three Star--Admiral Calland--sits right 
        across the hall from me with the mission of ensuring we and the 
        military are connected and that both sides are getting what 
        they need.
        <bullet> CIA and U.S. military officers have been living and 
        fighting together for 3 years in the mountains and plains of 
        Afghanistan where they have al Qaeda on the run.
        <bullet> Our collection, operational, and analytic support to 
        military efforts in Afghanistan and Iraq is close and 
        continuous.
        <bullet> The CIA deployed 12 Crisis Operations Liaison Teams to 
        CENTCOM specifically tailored to work side-by-side with Special 
        Operations and conventional forces in Afghanistan and Iraq.
        <bullet> I hold frequent video conferences with CENTCOM 
        Commander Abizaid to personally assure that we understand his 
        perspective and needs.
        <bullet> We have upgraded information technology support to the 
        military in the field, so that Intelligence Community products 
        are now available in 80 military intelligence centers around 
        the globe.
                           thoughts on reform
    Looking ahead now, it is important to note that the threat from 
terrorist organizations is not stagnant. These organizations learn and 
adapt. It is not enough for us to keep up, we must anticipate and keep 
ahead. As we seek to build on the improvements we've made in recent 
years, we should keep in mind a few of what I would call ``first 
principles'':
    First, speed and agility are the keys to the war on terrorism, and 
profoundly important to the Nation's other intelligence challenges. 
Speed and agility are not promoted by complicated wiring diagrams, more 
levels of bureaucracy, increased dual hatting, or inherent questions 
about who is in charge.
    Second, as in architecture, form should follow function. The 
functions intelligence must perform today are dramatically different 
than during the Cold War. Back then, we focused heavily on large 
strategic forces and where countries stood in the bipolar competition 
of the day. Today, the focus is more on locating people, tracking 
shipments of dangerous materials, understanding politics down to the 
tribal level in a world where the only constant is change.
    Third, in this world clear structure and clear chain of command is 
better than its opposite.
    Fourth, most important to knowing how and what to change is 
consensus on what we want from our intelligence agencies, constancy in 
resource and moral support for them through good and bad times, and 
patience. The commission says that the country cannot be patient. But 
to quote a saying I learned during my Army years: if you want it bad; 
you will get it bad.
    Drawing on these principles, I believe that short, clear lines of 
command and control are required in whatever structure you establish, 
regardless of what you call its leader. Three words are key: agility, 
flexibility, and speed. You need to build these into any new structures 
and procedures.
    No matter how successfully we anticipate future challenges, we will 
not foresee them all. So, we will need the ability to adapt our 
organizations to change, easily and quickly. We will need flexibility 
in shifting resources, people and money to respond to shifting 
priorities. The DCI can do some of this with existing authorities. But 
frankly, it is too complicated and ponderous. It involves more 
negotiation and signoffs than the times will allow.
    That is why, should the President's proposal to create a National 
Intelligence Director be adopted, I believe that individual should have 
the clear authority to move people and resources and to evaluate the 
performance of the national intelligence agencies and their leaders. 
This should be accomplished in the cleanest and most direct manner you 
can devise.
    People often remark that DCIs allow too much in the Intelligence 
Community to be ``CIA-centric''--whether it is the staffing of centers 
or the preparation of national estimates. Well, the reason is simple. 
It's because the DCI ``can''--that is these are the troops he directly 
commands and can task and move with little effort or resistance. If the 
DCI had enhanced authorities along the lines I've suggested or if you 
create a NID like that, you should expect to see much more integration 
of effort in the community and a greater capacity to create cross-
community task forces and centers in a more agile and seamless way.
    You would also see more progress by a DCI or NID on things like 
common policies for personnel, training, security, and information 
technology.
    As you consider all of this, here is a key thing to think about: 
who will you hold responsible not just when things are going well but 
when something goes wrong with intelligence? Today, it is the DCI even 
though his authorities over the rest of the community outside CIA are 
limited. If in the future it will be a National Intelligence Director, 
what authorities would be commensurate with that kind of 
responsibility? What would that person actually be responsible for? 
What the community concludes substantively about major issues, like 
Iraq, North Korea, or terrorism? If the answer is yes, that person will 
need direct access to sizeable numbers of collectors and analysts, just 
as the DCI has today. The question then arises about where those people 
will come from and with what impact.
    Or would the NID be responsible less for substantive matters and 
principally for the ``management'' and integration of resources--and 
can the two be separated? If they can, will responsibility and 
accountability be harder to pin down than it is today--especially in 
view of the fact that the person you now hold responsible--the head of 
CIA--would then be at least a layer away from the top?
    I regret to close with a series of questions, but I believe they 
illustrate the complexity of these issues and the need to proceed 
cautiously and with care as we contemplate changes to an intelligence 
system on which the Nation must depend, more than ever, for its 
security.

    Chairman Warner. Thank you very much, Director McLaughlin, 
for a very frank and candid appraisal of this situation, 
drawing on many, many years of experience that you've had at 
the Agency.
    General Myers?

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Thank you, Mr. Chairman, Senator Levin, and 
members of the committee, for your support of our ongoing 
efforts to improve our intelligence capabilities.
    Our military has been working diligently since September 11 
to break down intelligence barriers and to better integrate 
with other agencies of our government and our allies. We've 
accomplished a great deal, but we still have much work left to 
do. I can think of no more important issue to our national 
security and to the men and women of our Armed Forces in harm's 
way around the world.
    Reorganizing the Intelligence Community is a complex and 
difficult task, and the decisions made will have enormous 
consequences far into the future. Opportunities like this only 
come along once in a long time, perhaps in a lifetime. The last 
intelligence reform of the magnitude we're now considering was 
in 1947. So we have to be careful as we proceed.
    While I support the concept of a National Intelligence 
Director, I'd like to articulate what I think are some critical 
parameters as we move forward.
    As Chairman of the Joint Chiefs of Staff, I am continually 
mindful of the fact that the DOD's intelligence capabilities 
are an important part of the Nation's overall Intelligence 
Community, and these assets support national security in the 
broadest sense.
    At the same time, to the warfighter, from the combatant 
commander down to the private on patrol, timely, accurate 
intelligence is literally a life-and-death matter every day. In 
my judgment, the military's dependence on intelligence is 
unique and on a scale unparalleled in our government. In fact, 
in today's threat environment, we no longer have a distinct 
boundary between operations and intelligence.
    Traditionally, we thought of intelligence as support, a 
support function. That's an outmoded, outdated way of thinking. 
DOD's intelligence people are an integral part of the 
warfighting team.
    When coalition forces captured Saddam Hussein in December 
2003, we saw this integrated team in action as they turned 
information into action quickly. That's just one example out of 
thousands. But intelligence reform initiatives need to further 
this ability to integrate operations and intelligence.
    As we move forward, we cannot create any institutional 
barriers between intelligence agencies--and, of course, that 
would include the National Security Agency, the National 
Geospatial-Intelligence Agency, and the National Reconnaissance 
Office--and the rest of the warfighting team. We've made great 
progress integrating this team, as was evident in our military 
successes in Afghanistan and Iraq.
    I share the concerns of the Secretary and others who have 
testified on this issue, that we proceed with caution on any 
decision that increases centralized control of intelligence. In 
some areas, greater centralization might improve coordination, 
create resource efficiencies, and clarify responsibilities. On 
the other hand, we must absolutely protect the competition, the 
inherent cross-checking function that comes from independent, 
all-source analysis. The combatant commanders and the Joint 
Chiefs have also voiced this same concern.
    We must also protect the dynamic we have today that 
encourages innovative thinking. I believe the more you have 
centralized control, the less you have the kind of 
entrepreneurial spirit and agility that I see in our service 
men and women every day. The officers and noncommissioned 
officers (NCOs) and civilians in the field who see a problem 
and create a solution contribute immeasurably to our overall 
intelligence capabilities.
    Traditionally, we have used the terms ``national,'' 
``strategic,'' and ``tactical'' to define intelligence 
functions, assets, and customers. Today, I believe those terms 
highlight, and even perpetuate, stovepipe thinking. The data 
that the private in the foxhole needs right now might be the 
same information the President needs, and the reverse could 
certainly be true. The same, by the way, is true of the terms 
``intelligence,'' ``surveillance,'' and ``reconnaissance,'' or 
ISR. I often challenge people to convince me there's a 
functional distinction between them. No one has succeeded yet. 
I point it out for two reasons. One is to show that there are 
still stovepipes out there that we need to overcome, but also 
to highlight the challenge in dividing tasks and assigning 
responsibilities in a way that will be productive and 
effective. We simply haven't caught up to information-age 
warfare in this new national security environment that we find 
ourselves.
    Above all, intelligence reform must further result in 
better information-sharing. We have to get beyond the thinking 
that intelligence is proprietary. This really is a cultural 
issue. Traditionally, the producer of intelligence has been 
considered the owner of that intelligence. That's clearly 
unsatisfactory, as September 11 showed. As Director McLaughlin 
said, we've made a great deal of progress in that area, as 
well. In my view, we still have more to do.
    We have to move from the thought process of ``need to 
know'' that dominated our Cold War mindset to a ``need to 
share'' mindset. We need to reexamine how we balance risk, from 
a security and classification perspective, versus the benefits 
that come from sharing information.
    Right now, I believe we depend, in large measure, on 
personal relationships and memoranda of understanding to force 
information-sharing across organizations and agencies. In fact, 
I've dropped a roll of duct tape on the podium during a speech 
to emphasize this point, because, in a sense, we're duct-taping 
together organizations and processes that weren't designed to 
be well-connected. We've made progress, as said, but, again, 
there is more to do.
    We have to, to the best we can, institutionalize 
information-sharing to provide a much greater degree of 
transparency for all intelligence customers. I think that's one 
function a National Intelligence Director might perform very 
well.
    We also tend to focus on vertical information-sharing, 
getting information up and down the chain of command. We have 
much room for improvement, not just in sharing information 
between the headquarters and the foxhole, but also between 
foxholes. Here, I'm using the term ``foxhole'' figuratively, of 
course. It's also the ship and the aircraft and the guard-posts 
of the front gate of a base.
    A National Intelligence Director should also oversee needed 
integration of intelligence resources. Competition for 
resources is a big challenge for the Intelligence Community, 
and we need an improved process for coordinating intelligence 
programs--and here, I'm thinking of the major procurement 
programs--perhaps modeled after the Joint Requirements 
Oversight Council that we use in the DOD. This process must be 
transparent within the entire intelligence communities and 
those departments and agencies that are concerned.
    I appreciate the efforts of this committee to stay focused 
on intelligence reform at its broadest level. Certainly, the 
terrorist attacks of September 11 and the struggle to defeat 
violent extremists are at the forefront of this debate. But we 
can't lose sight of the fact that we are making decisions that 
will have ramifications well beyond the war on terrorism. We 
don't know with any certainty what the next threat to our 
security and our prosperity will be, but we do know we can't 
afford to be taken by surprise. That was the most important 
lesson, of course, from Pearl Harbor and the most important 
lesson of September 11.
    As Senator Levin said, and the Secretary said, we have to 
be very thoughtful and, at the same time, proceed with the 
proper sense of urgency. As we get more and more clarity on the 
gaps and deficiencies in our intelligence today, we have to 
guard against creating new problems.
    The details matter very much. I highly recommend an 
interagency tabletop exercise to work through any recommended 
options to war-game the second-, third-, and fourth-order 
effects, and highlight problems before they're 
institutionalized.
    Once again, on behalf of the men and women in uniform, I 
thank you for your support. This is a sacred responsibility 
that we share, protecting the lives of our service men and 
women, preserving our way of life for future generations. I 
look forward to working with you in this important work, and to 
answering your questions.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, General, for an 
important contribution.
    We'll now proceed to a round, 6 minutes per Senator.
    I want to approach my questions just in a very practical 
way. Let's face the realities of where we are--Congress, the 
executive branch and, indeed, how our Government is functioning 
at this very moment.
    We're in recess. Nevertheless, some 20 committees have come 
back--or held 20 hearings. I think that shows strong 
participation by Congress.
    The President has indicated--and I read his statement 
today, ``Today, I'm asking Congress to create the position of 
National Intelligence Director.'' Now, that person will serve 
as the President's principal intelligence advisor and will 
oversee and coordinate the foreign and domestic activities and 
intelligence. This is a broad mandate. The National Security 
Advisor, in response to a question put to her, said, ``We 
expect the National Intelligence Director would have 
significant input into the development of a budget.'' We're 
awaiting further clarification from the administration, maybe 
actually a bill, itself.
    Now, it's important that we try to do what we can, given 
the realities that we're in an election of our President, we're 
in an election of the entire House of Representatives, a third 
of the Senate, and we have but a few weeks time left after we 
come back here in September. I, personally, think something can 
be done, providing it's constructive and adds to strengthening.
    But I pick up on your comment, Secretary Rumsfeld, and, I 
think, a very wise one, as you recited the history of reforms 
that this country has had, beginning in the 1947 Act, the 
Goldwater Act, and so forth; we didn't do it in a single 
stroke.
    So as I approach my individual responsibilities--and, of 
course, our committee will meet and decide how we condense the 
information we've received and forward it to other committees, 
and possibly to the President--but I'm of the opinion that we 
should not try and do the whole 9/11 Commission recommendation 
in a single stroke. That's my view. If you'll look at the one 
provision, which I think is most important, here on page 412, 
``Second, the National Intelligence Director should manage the 
national intelligence program and oversee the component 
agencies of the Intelligence Community, would submit a unified 
budget,'' and it goes on.
    Now, Mr. Secretary, I'd have to ask you, very bluntly and 
strongly, if we were to rubberstamp that provision and enact it 
into law in the next few weeks, would that put at risk, in your 
judgment, the ability for this country to perform as well as 
it's performing today in its intelligence collection 
activities?
    Secretary Rumsfeld. Mr. Chairman, those are issues that are 
being discussed extensively in the executive branch, as well as 
here in the committee. They're important questions. Trying to 
find that right balance, I think it might be useful, just for 
the record, if we took the two big issues with the National 
Intelligence Director, personnel and budget----
    Chairman Warner. Budget. All right.
    Secretary Rumsfeld. --and explain how it currently works.
    The Director of Central Intelligence today has very broad, 
extensive authorities in being. They may be executed in varying 
ways by different DCIs over time, but, in fact, in writing, 
there's tremendous authority. I wouldn't think of suggesting 
somebody to the President for the NSA or the NGA or for the NRO 
without developing criteria with the DCI, without discussing 
candidates, without interviewing candidates, without each 
agreeing that those candidates--this individual is the right 
individual, and making a joint recommendation. That's how it's 
done. With respect to the budget, the current Director of 
Central Intelligence does develop that budget. The issue, I 
think, is not so much that as it is the reprogramming 
authority, and part of that is bureaucracy in the Agency, in 
DOD, and in the Office of Management and Budget (OMB), and part 
of it's bureaucracy in Congress. John McLaughlin is here and 
can comment on that. But the role, today, on both budget and 
personnel, for the DCI is extensive, and my guess is, it ought 
to be, for a NID.
    Chairman Warner. Then one route, which I strongly endorse, 
could be that we could, if necessary, formalize, in statute, 
what exists today by way of joint cooperation between yourself 
and the Director of Central Intelligence in the formulation of 
the budgets, and those budgets could be, in a sense, jointly 
submitted. Am I not correct?
    Secretary Rumsfeld. I would have to go back and refer to 
the statute to see what's already in there, Mr. Chairman.
    Chairman Warner. I think you'll find that that is the 
spirit of it. I think if we did that, that would remove some of 
the concerns that the 9/11 Commission had. If we did the same, 
in terms of appointments, as you point out, you wouldn't think 
of putting someone in there that was not acceptable to the 
DCI--so formalize that and have a joint submission of the 
nominations of the heads of the various departments at DIA, 
NSA, and the like. Would that seem to you to be an acceptable 
advancement?
    Secretary Rumsfeld. It is the practice we're using.
    Chairman Warner. Fine.
    Secretary Rumsfeld. I've found it, working with George 
Tenet, that it worked very well. We communicated extensively 
about these individuals, and made the recommendation to the 
President, saying that each of us agreed that this was an 
appropriate thing, to appoint or nominate or to extend the term 
of any one of those individuals. Except for DCI, less formal 
there. Certainly with the national collection agencies. With 
the Director of Defense Intelligence, with that post, we had 
the same discussion. But it is a slightly different role, and I 
don't know that I would include it if you're going to be doing 
something with a statute.
    Chairman Warner. We could look at that. But if this 
sweeping proposal here of the 9/11 Commission--and I don't mean 
to be critical of it; I'm just being bluntly factual about it--
if that were to be adopted as stated here, would that derogate 
your, I think, prime responsibility--namely, the Tactical 
Intelligence and Related Activities (TIARA) budget--which 
supports the warfighter?
    Secretary Rumsfeld. Senator, we are still looking at these 
things. They're considerably important, and I am not in the 
position to say anything other than, the devil's in the 
details.
    Chairman Warner. Right, I accept that. But the work of 
Congress is moving ahead. We have some momentum in these 
committees. We're coming up with ideas. The sooner we can get 
those guideposts from our President and the administration, the 
better we will be able to form our work.
    I would ask you, Director McLaughlin, I've suggested 
possibly that Congress would enact such laws to change the 
position so that the Director is on an equal footing with the 
members of the Cabinet--most particularly, the Secretary of 
Defense. Could you, if not now, show the committee your 
recommendations of what legislative actions need to be taken to 
strengthen the DCI such that he can stand on an equal footing, 
with regard to budget matters and other matters, with the 
Secretaries of Defense and State?
    Mr. McLaughlin. Mr. Chairman, if I'm not mistaken, the 
current statute really accomplishes that.
    Chairman Warner. I think it does, but others do not think 
it does.
    Mr. McLaughlin. The existing statute gives the DCI the 
authority to put together the budget for the Intelligence 
Community. In fact, I could walk you through the steps by which 
that's done, if you wish. So that exists in the statute 
currently.
    Chairman Warner. I ask you to examine the balance of the 
statutes and advise the committee. In the first place, you're a 
level two, which is one step below the level of the Secretary 
of Defense. Is that correct?
    Mr. McLaughlin. That's correct. But, in fact, the process 
currently works as the Secretary described. The DCI, based on 
intelligence priorities that are now established by the DCI in 
consultation with the National Security Council, puts together 
an intelligence budget by suggesting to each of the constituent 
agencies what their budget ought to include, what the 
priorities ought to be. Those agencies put their budgets 
together----
    Chairman Warner. My time is going along. But my point is, 
you're a level below, in terms of protocol, pay, and otherwise. 
We could raise it to the same level as the Secretary, could we 
not?
    Mr. McLaughlin. You certainly could.
    Chairman Warner. All right. That's, I think, an important 
matter.
    Mr. McLaughlin. Why would I argue against that? [Laughter.]
    Chairman Warner. Fine. No, no----[Laughter.]
    I understand that. But yesterday's panel--a very 
distinguished panel, of Dr. Schlesinger and Frank Carlucci, who 
know a great deal about these issues were concerned, together 
with Dr. Hamre, that even though there is the law there, 
because of your level-two position, not level-one, you could 
be--not you, personally, but that person occupying--at some 
disadvantage in the customary competition that goes on among 
the cabinet officers--I'm not suggesting you become a cabinet 
officer--but the cabinet officers as they work through the 
budget and the personnel appointments. So that's my point. 
Perhaps we could change it so you're on an absolute coequal 
status, and give you the title of NID, and try it for a while, 
and see if it would work. Otherwise, I guess we're awaiting 
further comments from the administration. [No response.]
    All right.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I'd like to ask the Secretary his personal view, then, on 
some of the specific recommendations of the 9/11 Commission 
relative to the powers of the National Intelligence Director 
and the proposed National Counterterrorism Center. It's clear 
to me that we should create both. We will create both, I hope, 
and do it promptly. The issue is going to be the powers and 
responsibilities. I'd like your personal view on those issues.
    First, should this proposed National Counterterrorism 
Center be able to assign operational responsibilities to 
combatant commands? Your personal view. Do you agree or 
disagree, or can't you answer one way or the other simply?
    Secretary Rumsfeld. Are you talking about the center or the 
NID?
    Senator Levin. This is the NCTC.
    Secretary Rumsfeld. The NCTC. Right now, the folks in the 
interagency process are working hard to find out----
    Senator Levin. You don't have a personal view you can share 
with us now?
    Secretary Rumsfeld. I think that the statutory 
responsibilities of the departments and agencies pretty much 
establish where responsibility for operations ought to be, 
and----
    Senator Levin. There's a proposal----
    Secretary Rumsfeld. --number one----
    Senator Levin. There's a proposal--I just want to know, 
because I----
    Secretary Rumsfeld. Well, I'm doing----
    Senator Levin.--I mean, I'm trying to----
    Secretary Rumsfeld. --my best.
    Senator Levin. Well, I know, but if you can't give us 
``personally, you agree,'' ``personally, you disagree,'' or, 
``it's not that simple,'' I'll accept that you can't give us 
one or the other. That's acceptable to me. You can either 
agree, or you disagree, with that. I mean, that's a specific 
recommendation. Mr. Secretary, we got specific 
recommendations----
    Secretary Rumsfeld. I understand.
    Senator Levin.--from the 9/11 Commission. I'm quoting them. 
I just want to ask your personal agreement or disagreement. If 
you can't give us that, that's okay, but just say you can't 
give us a personal yes or no from your perspective.
    Secretary Rumsfeld. I can't do it with a yes or no----
    Senator Levin. Thank you.
    Secretary Rumsfeld. --that's for sure.
    Senator Levin. Thank you.
    Secretary Rumsfeld. It's a vastly----
    Senator Levin. Now, the next----
    Secretary Rumsfeld. --more complex question.
    Senator Levin. Okay. Well, it's a very specific 
recommendation.
    Now, by executive order now, the reprogramming authority is 
in the Secretary of Defense. That's by executive order. The 9/
11 Commission is recommending, essentially, that we give the 
new National Intelligence Director the budget reprogramming 
authority. Do you agree or disagree with that, personally?
    Secretary Rumsfeld. Certainly an effective NID would need 
to be intimately involved in reprogramming. How the authority 
ought to work, whether DOD, NID, or OMB, is something that, 
just by its very nature, requires coordination among all three 
and Congress. Quite honestly, Congress has been one of the 
biggest difficulties with respect to that issue.
    Senator Levin. I'm going to ask that the five questions 
which I asked for specific agreement or disagreement be 
answered. Mr. Chairman, I'm going to ask, for the record, that 
our witnesses answer whether they agree or disagree with those 
specific recommendations, because of the time requirements 
here. Is that all right, for the record?
    Now, this is for Mr. McLaughlin. Whatever the reforms are, 
we must promote objectivity and the independence of 
intelligence assessments. The 9/11 Commission said that the 
report of a meeting in Prague between the lead hijacker, Atta, 
and the Iraqi Intelligence Officer, al Ani, was not supported 
by available evidence. Yet that report of the meeting was 
repeatedly referred to in public statements of the 
administration as key evidence of a link between Iraq and al 
Qaeda. CIA had doubts. We found out later, because those CIA 
doubts were in classified documents. The CIA had doubts about 
the reliability of the reports of that meeting. Why were the 
doubts of the CIA left classified, while the report of the 
meeting, which clearly was reported--there was a report--was 
just repeatedly referred to? Why were your doubts classified 
until recently?
    Mr. McLaughlin. This is a story that evolved over a long 
period of time.
    Senator Levin. Very specifically, though, why were your 
doubts left classified until recently? That's my question.
    Mr. McLaughlin. They were spelled out very explicitly in a 
classified paper----
    Senator Levin. But the----
    Mr. McLaughlin.--published on January 29.
    Senator Levin.--report of the meeting was used repeatedly 
as evidence of the link between al Qaeda and Iraq. That report 
of the meeting was repeatedly referred to by administration 
sources as being credible, and yet your doubts about the 
meeting, in the CIA, remained classified. My question to you 
is, why did the CIA, in its public statements, just simply say 
that, ``Yes, there is a report which can neither be confirmed 
nor denied,'' but why did you leave the fact that you had 
doubts about that meeting classified? That's my question.
    Mr. McLaughlin. The vast majority of what we produce is 
classified. It goes to members of the administration and it's 
available to Congress so that people have a very clear 
understanding, at any moment, what we----
    Senator Levin. Not the public.
    Mr. McLaughlin.--what we think.
    Senator Levin. But the public did not know that you had 
doubts.
    Mr. McLaughlin. Our job is to make our views available as 
clearly and objectively as we can to the policymaker and to 
Congress, frequently in classified--almost always in classified 
channels, because the information is sensitive. We're dealing 
with liaison sources here. We're dealing with intelligence 
collection techniques. That's why it's classified. It's then 
there for anyone who wishes to draw on it, as they wish to draw 
on it, in shaping their public comments.
    Senator Levin. Mr. McLaughlin, the CIA said----
    Mr. McLaughlin. But the 9/11 Commission was, I think, 
careful in saying that we were objective on this point. This is 
one of the points where the 9/11 Commission----
    Senator Levin. No, they----
    Mr. McLaughlin.--gave us----
    Senator Levin.--they didn't say that. It was the 
Intelligence Community that made a reference to that.
    Mr. McLaughlin, the CIA said, in a classified document, 
that assisting Islamic terrorists would be an extreme step for 
Saddam Hussein. Why was that left classified, when the 
administration was saying that Saddam Hussein would give 
Islamic terrorists a weapon of mass destruction at any day, any 
moment? Why did you leave that critical fact classified?
    Mr. McLaughlin. I think the answer to that is simply that--
the one I gave before, that our job is to say, as objectively 
and clearly as we can, what we think to be the case--and we did 
that--for the benefit of both policymakers and Congress. It was 
there----
    Senator Levin. Classified.
    Mr. McLaughlin.--it was there for all to draw on. I think 
most of our work is classified.
    Senator Levin. Many of your statements, though, however, 
were unclassified.
    Mr. McLaughlin. I think, on that point, we issued one or 
two unclassified statements----
    Senator Levin. Right.
    Mr. McLaughlin.--largely in response to questions from 
Congress. As I recall without consulting them, those statements 
were very carefully phrased, in terms of the limitations we put 
on describing that relationship. In an unclassified form, as 
well.
    Senator Levin. And----
    Mr. McLaughlin. I believe, in response, actually----
    Senator Levin.--you believe it's that----
    Mr. McLaughlin.--to a letter that you----
    Senator Levin.--you believe that statement, when it was 
finally unclassified, that it would----
    Mr. McLaughlin. Yes, sir.
    Senator Levin. Excuse me. When the statement was finally 
unclassified, that the CIA believed it would be an extreme step 
for Saddam Hussein to give a weapon of mass destruction, you 
believe that that was consistent with what the administration 
was saying about the likelihood of Saddam Hussein giving al 
Qaeda a weapon of mass destruction?
    Mr. McLaughlin. Well----
    Senator Levin. Is that your judgment?
    Mr. McLaughlin. We've talked----
    Senator Levin. I'm asking you a direct question.
    Mr. McLaughlin.--we've talked about this before, and I 
don't think it's our job to comment----
    Senator Levin. We've never gotten a clear answer to that 
question. Let's get it now.
    Mr. McLaughlin. I don't think it's our job to comment on 
the public statements of the administration or of Congress. 
There are times, as we've explained in the past, when we will 
take someone aside--either a Member of Congress or a member of 
the administration--and quietly tell them, ``That's--there's 
new information on this, and I would describe it differently.''
    Senator Levin. My time is up.
    Thank you.
    Chairman Warner. Did you feel you had adequate time to 
respond to those questions?
    Mr. McLaughlin. I do.
    Chairman Warner. Fine.
    Senator McCain?
    Senator McCain. Thank you, Mr. Chairman, and I thank you 
for announcing that we'll have the hearing in September. I hope 
that we also have a hearing on the latest administration 
proposal on troop realignment.
    Chairman Warner. Yes. We will.
    Senator McCain. I'm concerned about it, and I hope we can 
get as full an explanation as possible. I'm particularly 
concerned about moving troops out of South Korea when North 
Korea has probably never been more dangerous than any time 
since the end of the Korean War. I hope, as some critics 
allege, this is not a retreat to Fortress America. So I'll look 
forward to hearing from the administration on this very 
important announcement.
    Chairman Warner. I assure you, Senator and other 
colleagues, Senator Levin and I discussed that yesterday, and 
we will promptly advise the committee of a date.
    Senator McCain. Also, I think we need a hearing on this 
latest mismanagement identified by the DOD Inspector General of 
$2.6 billion being spent on C-130 aircraft that can't be used 
in combat. Remarkable. Same people that were involved in the 
Boeing deal.
    Director McLaughlin, the reports, from whatever source, 
indicate that our greatest--or certainly the top two or three 
greatest failings has been in human intelligence. Mr. Lindh, 
from California, was able to join and train with the Taliban 
and fight against the United States, but we've never been able 
to insert any kind of person into the al Qaeda or other 
terrorist organizations. What, in the 9/11 Commission 
recommendations, do you believe will help us in this issue?
    Mr. McLaughlin. First, Senator, with all due respect, I 
would dispute the premise. In closed session, I could explain 
that we have been able to achieve what you suggest we haven't 
been able to achieve.
    Senator McCain. It's not my suggestion; it's the suggestion 
of the 9/11 Commission.
    Mr. McLaughlin. I'm talking----
    Senator McCain. It's a conclusion of the 9/11 Commission.
    Mr. McLaughlin. The way I would characterize it is, at the 
time of September 11, we clearly had human sources within the 
sanctuary, or we would not have been met on the ground on 
September 27 by people welcoming us into Afghanistan. So we had 
a network of human sources in Afghanistan at that time. I 
believe the 9/11 Commission notes that.
    Senator McCain. I only have 6 minutes----
    Mr. McLaughlin. Since September 11----
    My comment, at the outset, frankly, was more about the 
post-September 11 period, when I think our human intelligence 
(HUMINT) has improved.
    Now, in terms of your question about what, in the 9/11 
Commission recommendations, would help us acquire better 
HUMINT, I think----
    Senator McCain. I guess I have to rephrase my question. Do 
you believe that we need to improve our human intelligence?
    Mr. McLaughlin. Absolutely. Absolutely.
    Senator McCain. Then what is it that needs to be done?
    Mr. McLaughlin. Director Tenet's comment before the 9/11 
Commission, that it would take 5 more years, I think, was 
misinterpreted by almost everyone who heard it. He was not 
saying, at the time, that, ``We are starting now, and 5 years 
from now we'll be in good shape.'' What he was saying, and what 
I would strongly endorse, is that we probably need about 5 more 
years to get to where we need to be.
    But you have to appreciate where we started from. In 1997, 
at the end of those reductions of about 25 percent in our 
overall capability, I would say we were in Chapter 11. We were 
only training about a dozen or two dozen, what we call, case 
officers, the people who recruit human spies. Over the last 5 
to 7 years we've rebuilt that capability, thanks to the 
resources that Congress and the administration have provided--
and that's extremely important--to the point where we're now 
graduating the largest classes of HUMINT source collectors in 
our history. We now have an array of people around the world, 
and an array of HUMINT sources, including sources--the very 
people who are allowing us to capture people like Khalid Sheikh 
Mohammed. That was a HUMINT source operation. The people who 
are allowing us to bring forth the kind of information that we 
brought forth in the last couple of weeks on the casing reports 
of major financial institutions, that came about as a result of 
HUMINT source operations.
    Are we where we need to be? Absolutely not. We need more 
core collectors--case officers, if you will--who are out there 
recruiting spies. We need more people with languages that help 
them do that. We need more people in our clandestine service, 
who don't look like me, who can circulate freely in parts of 
the world where people like me would stand out.
    So bottom line here is, that's what we need to get to the 
point where we need to be on HUMINT source collection.
    Senator McCain. In your written statement, you said, 
``Should the--that's why, should the President's proposal to 
create a National Intelligence Director be adopted, I believe 
the individual should have the clear authority to move people 
and resources, and to evaluate the performance of the national 
intelligence agencies and their leaders.'' Does that include 
control over their budgets?
    Mr. McLaughlin. The Secretary said, this is all being 
debated. If you want my personal view, I would say yes.
    Senator McCain. Thank you very much, Director McLaughlin. I 
also want to thank you for your outstanding service to the 
country for many years. We're very appreciative of it, and we 
know it will continue.
    Finally, could we talk about stovepiping again? Do you 
believe that the recommendations will prevent a reoccurrence of 
such has happened when FBI agents reported that people were 
taking pilot training in Phoenix and the information never got 
to the right people?
    Mr. McLaughlin. I think we're close to fixing that problem 
now, and I think some version of a National Counterterrorism 
Center would take us even further.
    The reason I think we're close to fixing that now, a whole 
series of things have changed since September 11. It goes to 
the kind of--let me start at the top--personal relationship 
that exists between the Director of the FBI and the Director of 
the CIA. During these last 2 weeks, for example, when we were 
struggling with the terrorism alerts, Bob Mueller and I were on 
the phone continuously with each other, working through issues. 
There's no impediment there.
    We now have senior FBI officers embedded in our 
Counterterrorism Center. One comes every day, a senior officer, 
to my meeting at 5 o'clock, where we work through terrorism 
problems around the world, and that person is responsible for 
making sure that everything at that table, the most sensitive 
intelligence, is available back in the FBI.
    In the Terrorism Threat Integration Center, it's not 
inconsequential what's going on there. It's not built yet, 
entirely, but we now have FBI officers, CIA officers, officers 
from Homeland Security, and any number of other agencies 
sitting in one building, a stone's throw away from each other, 
exchanging information.
    So I actually think--oh, and the other thing I'd point 
out--and Bob Mueller needs to speak for himself on this, but I 
work closely enough with him that I think I could characterize 
something he's doing that relates to the problem you've just 
pointed out. He has underway a vigorous effort to develop a 
reporting system from all of his constituent field offices 
coming into a central hub where that reporting would then be 
funneled out to people who need it. That's essentially the kind 
of reporting system we've had in the foreign intelligence arena 
for many years. Case officer meets someone in a back alley in 
Egypt, sends in a report, that's distributed to people all 
around the world who need to see it. That's what Director 
Mueller's working to create, and making progress in creating.
    Not to say there aren't problems to go here, but we're 
moving in the right direction.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you very much. Welcome, gentlemen.
    Secretary Rumsfeld, you referenced that civil liberties--
the commission emphasized by the 9/11 panel--do you have any 
problems with that being included in any proposal that would 
pass Congress? [Pause.]
    I want to keep moving. I know you want to give things a 
complete answer, but I----
    Secretary Rumsfeld. I am not in a position to answer yes or 
no to questions on issues that the President and the 
interagency process is discussing.
    Senator Kennedy. Well, I----
    Secretary Rumsfeld. I clearly believe that the issue of 
domestic intelligence is an important one and requires that we 
address the questions of privacy and our values as a society.
    Senator Kennedy. If I could join in, perhaps I'll add that 
on to Senator Levin's questions for the panel to see what's 
your reaction.
    Because there is a very specific proposal on that. We're 
looking at these proposals. It's a matter of enormous 
significance and importance no matter what we do in this area. 
We'll have more of a chance to deal with it in the Judiciary 
Committee on Thursday, but I did want to get your response.
    As the Commission Report--Lee Hamilton--summarized, we need 
the best intelligence we can for our troops. But as September 
11 made clear with 3,000 Americans, we also need to protect the 
American people from terrorists. Clearly, the status quo is not 
sufficient.
    Now, if we look back on what has been stated by the 
intelligence agencies, going back to a quote that was mentioned 
yesterday, December 4, 1998, DCI Tenet, at that time, issued a 
directive, ``We are at war. I want no resources or people 
spared in this effort, either inside the CIA or the 
community.''
    Now, that was on December 4, 1998. Coming into 1999--
February 2, 1999--George Tenet said, at the worldwide threat 
briefing, ``Let me mention two specific concerns. First, there 
is no slightest doubt that Osama bin Laden, his worldwide 
allies, his sympathizers are planning further attacks against 
us.'' He continues, ``Bin Laden's overarching aim is to get the 
United States out of the Persian Gulf. He'll strike whatever in 
the world he thinks we are vulnerable.''
    Then he continues in February 3, 2000, ``Osama bin Laden is 
still foremost among terrorists because of the immediacy and 
seriousness of the threat he poses. Everything we have learned 
recently confirms our conviction he wants to strike further 
blows against America.''
    Then in the 9/11 Commission, you were noted--and I read 
from page 208, ``Rumsfeld noted to us his own interest in 
terrorism which came up after--in his regular meetings with 
Tenet. He thought the Defense Department, before September 11, 
was not organized adequately or prepared to deal with the new 
threats, like terrorism. But his time was consumed with getting 
new officials in place and working on the foundation documents 
of a new Defense policy, the Quadrennial Defense Reviews, the 
Defense Planning Guidance, and the existing contingency plans. 
He did not recall any particular counterterrorism issue that 
engaged his attention before September 11, other than the 
development of the Predator unmanned aircraft system.''
    That is the problem. That's the problem that the 9/11 
Commission is dealing with. Evidently Secretary Scowcroft 
believed the same. I'm asking, Mr. Secretary, will you support 
the request of the chairman of the committee and Chairman 
Roberts to declassify the Scowcroft Commission, as well, since 
it's dealing with this same issue as the September 11, in terms 
of the accountability issue and intelligence-gathering? Will 
you?
    Secretary Rumsfeld. I have been briefed on the Scowcroft 
Commission Report. I don't see any reason why there shouldn't 
be a process, going through and see what portion of it can be 
declassified. I don't know who classified it in the first 
place. It wasn't the DOD, to my knowledge.
    Senator Kennedy. No, it was a presidential request, and, 
therefore, it's a presidential decision about the 
declassification, not yours. So the only question is--it's 
right on target on the issue that we're trying to consider here 
before the committee, the 9/11 Commission, and it is made by a 
very distinguished figure that's served with President Bush-
one, serves with President Bush-two, served with Republican and 
Democratic Presidents, and also understands the importance of 
intelligence-gathering and that the current system is not 
functioning.
    So I gather that you will at least--it's your position that 
you would welcome the Scowcroft Commission Report. It's been 
reported in the newspapers. It's on this issue. Do you think it 
would be useful for us to have that?
    Secretary Rumsfeld. As I say, I've been briefed, I haven't 
read it recently, and it would have to be declassified.
    Senator Kennedy. When you were briefed, was there anything 
in it that bothered--that you didn't think could be classified?
    Secretary Rumsfeld. Not that I can recall.
    Senator Kennedy. Thank you.
    Let me ask a question about--we've talked a good deal about 
what is the actual statutes that govern the allocation of 
responsibilities between the Secretary of Defense and the head 
of the intelligence agency. But if I ask the head of the 
intelligence agency--if you had a dispute, for example, with 
the DOD. Say it was on Syria. You wanted to have a program to 
find out about the penetration of al Qaeda in Syria, and DOD 
wanted to have a report on whether the Syrian bridges could 
hold American tanks, do you win on that, or does the DOD make 
the final judgment decision? If you wanted to have a satellite 
to gather radioactive information technology, in terms of being 
able to further your different interests in a particular 
targeted area, and the DOD wanted to use that satellite for 
other purposes, who makes the final cut on those kinds of 
issues?
    Mr. McLaughlin. In truth, now, Senator, it's a negotiation. 
When we have----
    Senator Kennedy. Who makes the final cut?
    Mr. McLaughlin. The----
    Senator Kennedy. Who makes the final judgment? Someone has 
to say----
    Mr. McLaughlin. If we----
    Senator Kennedy.--this is----
    Mr. McLaughlin.--if the two of us can't agree--and 
typically we do come to an agreement, because of the 
consultation process--it goes to the President as a tiebreaker, 
which is one of the reasons why a DCI has always----
    Senator Kennedy. Has that happened, in your recent memory?
    Mr. McLaughlin. It has not. It is one of the reasons why a 
DCI always consults with the Secretary of Defense, because no 
DCI wants to put the President in the position of being the 
tiebreaker.
    Senator Kennedy. My time is up, Mr. Chairman. Thank you.
    Chairman Warner. Thank you very much.
    Senator Roberts?
    Senator Roberts. Thank you, Mr. Chairman.
    Let me just say again that Senator Rockefeller and I have 
written to Mr. Scowcroft, and he is perfectly willing to come, 
I think, before Congress, either in a classified setting or a 
non-classified setting. He is the president of the President's 
Foreign Policy Advisory Group, which puts him in a category 
that does not permit him to come before Congress and make a 
classified document public. The person who would make that 
decision, I think, is the National Security Director, and we 
are working on that, and I am very hopeful that we can have his 
testimony. I would agree with Senator Kennedy, it would be very 
helpful.
    Director McLaughlin, I've, along with others, tossed a few 
brickbats over in your shop, and then I asked you the other day 
if you could provide me with a list of some things that have 
changed since the infamous National Intelligence Estimate (NIE) 
of 2000 and also since September 11. You've done that, and I 
would like to ask permission, Mr. Chairman, to put this list of 
nine positive changes that the CIA has made in the record at 
this point.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Roberts. I'm not going to read them all, but I 
would just simply say that when we go to war, why, the 
intelligence and the military forces do now live together, they 
fight together; the military, law enforcement, and Intelligence 
Community does hear the latest intelligence reports; and the 
acting Director does direct action on the spot. The 
intelligence and the law enforcement communities are much more 
closely linked than they ever were before, and that's all 
across the world. The number of FBI officers serving in the 
NCTC has doubled. I think the number in the clandestine service 
with the CIA has tripled. You sent 60 people over to Terrorism 
Threat Integration Center (TTIC). I could go on and on, but I 
think that's a good-news story, from one who has been very 
critical of the CIA, more especially after our Senate inquiry.
    Let me just say the snapshot that we are taking today of 
the CIA is a different snapshot than we took with our inquiry 
and dating back to the NIE 2000 and also September 11.
    Now, you said, on page 12 of your testimony, you would also 
see more progress by a DCI or NID on things like common 
policies for personnel, training, and security and information 
technology. My question, does the current structure allow the 
DCI to set common policies for personnel, training, security, 
and information and technology? My answer to you is that it 
does, because, in 1947, the National Security Act, you and your 
predecessors have had that authority. But my question to you 
is, can you enforce those policies?
    Mr. McLaughlin. You put your finger on the issue, Senator. 
We have the authority to set the policies, but it's difficult 
to enforce them. We do our best, and we have a process for 
making progress, which we have made, but the enforcement is not 
as strong as----
    Senator Roberts. Then all this talk about the 1947 National 
Security Act and you have all the authority that you need, if, 
in simplistic terms, you would just enforce it, everything--
well, it wouldn't be fine, but it would be better. I don't 
think you can enforce it, because of the way--this breakdown, 
in terms of TIARA and National Foreign Intelligence Program 
(NFIP) and Joint Military Intelligence Program (JMIP). I'm not 
going to go into all these acronyms, but that's the tripod of 
what the Intelligence Community and the DOD simply has now.
    Yesterday, Mr. Secretary--and I'm talking about Secretary 
Rumsfeld--we had two former Secretaries of Defense and a key 
member of the DOD. I asked them, do you support a NID? Do you 
support a NID with budget authority and also reprogramming 
authority? Without getting into the fact that we would 
obviously leave the tactical part in the military--I am talking 
more about the NFIP and the CIA, NSA, DIA, NGA, NRO, FBI--it's 
a real mouthful--Homeland Security, State, Treasury, and 
Energy--we didn't talk about moving those agencies over to the 
NID, just whether or not he had the authority to reprogram and 
hire and fire and have some control over the budget, and the 
answer was no.
    Yesterday morning, why, Senator Collins and Senator 
Lieberman, in the Governmental Affairs Committee, had three 
witnesses--they were former CIA directors--asked them the same 
question, and they said yes.
    Nobody has dared to wander onto the thin ice on how we 
reform our own situation here with the fractionalization and 
the way we handle, say, intelligence. We are having 20 
hearings. I think we've had eight; 12 more to come, as the 
Chairman has indicated. We'll have one tomorrow in the 
Intelligence Committee. We are going to have a lady who wrote a 
book about the history of the National Security Act. Since 
1947, 15 times we have tried to implement reform--if, in fact, 
it is reform--and 15 times, we've failed. She's going to say 
why. We have David Kaye to talk about intelligence centers. 
Everybody's talking about intelligence centers. The Iraq Survey 
Group (ISG) is probably a good one. We have Charles Boyd, who's 
a four-star from the Air Force, and somehow got Julian Bond, 
Newt Gingrich, Gary Hart, and Warren Rudman all to agree on one 
premise. That's almost a miracle. He's going to talk about the 
Bremer Commission, the Gilmore Commission, the CSIS study, 
Aspen-Brown, and Hart-Rudman, and say why on Earth haven't we 
moved prior to this time.
    The Intelligence Committee is drafting legislation. So 
we're going to share it with Susan Collins and with Joe 
Lieberman, and we're going to share it with this committee. We 
have already started the business of sharing it with the 
administration. We have also shared it with you, sir. We're 
going to share it with the Armed Services Committee. We think 
that it follows along the lines like the Chairman has 
indicated, and at least it's a step forward.
    Let me ask you a question, since my time has run out and 
I've made a speech. Practically speaking, how could a National 
Intelligence Director who did not possess the ability to 
control execution of the budget or control over personnel 
decisions, effectively break down stovepipes in the 
Intelligence Community and improve the sharing of information 
across the community? How could he not do that--I mean, how 
could he do that if he didn't have that authority?
    Secretary Rumsfeld. I think it's possible to give a 
National Intelligence Director, or a Director of the CIA, the 
authority to break down stovepipes and give that direction to 
the entire community and have it accomplished, quite apart from 
the budget question.
    It seems to me that--to go to your earlier comment on 
budget flexibility--the problem we have, one of the problems, 
is that the budget is developed in 1 year, it's worked on by 
Congress in another year, and it's executed in the third year. 
It's obvious that it doesn't work that way. The world changes 
out there. Flexibility is necessary.
    Now, if a portion--a same piece of intelligence can 
simultaneously be a piece of national intelligence and a piece 
of battlefield or tactical or military intelligence. The idea 
that either the DOD or CIA should go in and, without 
consultation, reprogram, it seems to me, would be unwise. You 
could disrupt things because of not understanding the fact that 
that same piece of intelligence is simultaneously national and 
military or battlefield. Therefore, it takes--simply because of 
the complexity of it, it takes both to be involved in a 
reprogramming process. That's not bad; it's prudent.
    Senator Roberts. I'm not advocating anything other than 
what you have said, in terms of the cooperation. If you had a 
Special Forces trooper in Afghanistan, and he was involved in 
battle, which they are today, that's tactical. If all of the 
sudden he happens to be in the no-man's land where Osama bin 
Laden is, that becomes strategic, and then the NID would be 
involved, just as well as you would be involved there. There 
has to be a way to put this together.
    I thank you all for coming.
    Chairman Warner. Thank you, Senator Roberts.
    General Myers. Senator Warner, can I just----
    Chairman Warner. Yes, of course. I want to just say one 
word. I want each witness to feel that you have adequate time 
to respond. Take it, and if you're not getting it, draw the 
attention to the Chairman. I'm trying, best I can, to give that 
opportunity to all.
    General, please proceed.
    General Myers. Thank you, Mr. Chairman. I would just like 
to comment on Senator Roberts' question to the Secretary on, 
really, how you force change. I think everybody knows this, but 
you can't, just by moving boxes around on a chart or appointing 
a National Intelligence Director, even if he has it in statute, 
say there will be change. We're talking about some very 
ingrained cultural issues with a diverse group of 
organizations, and it's going to take more than creating that 
position. You're going to think very seriously about how you 
empower him and what tools you give him or her to do their 
task.
    When you wanted to reform the military and make us more 
joint, in Goldwater-Nichols--and most of you know this a lot 
better than I do--but I think the debate went on for 3 years. 
At least 3 years. There was, obviously, philosophical debates 
before then, but the debate here on Capitol Hill and in the 
offices of Washington, DC, for 3 years. Then you created some 
new offices--and I can think of the Vice Chairman of the Joint 
Chiefs of Staff--and some new processes--and I can think of the 
Joint Requirements Oversight Council. But you also mandated 
some personnel policies that we have to report on to Congress 
today--however many years later that is, 16-17 years later--and 
education. You mandated certain educational matters, as well.
    So I don't think we should--and I'm sure everybody 
understands this, and I know Senator Roberts understands it, 
but for those who don't, this is more than just creating 
somebody and saying, ``Okay, good, we got that done.''
    This is going to be a tough job. This is leading cultural 
change, which is the most difficult. We have a community that 
is, I think, performing very well today. What we're trying to 
do is tune it up and enhance its performance, but it's going to 
take some of those items, I believe, if you're going to get 
there.
    Chairman Warner. Thank you.
    Yes, Mr. Secretary?
    Secretary Rumsfeld. Mr. Chairman, I appreciate your 
inviting us to feel that we have been able to respond fully.
    I'd like to comment on a question that Senator Levin raised 
about the NCTC and operations, and make very clear that the 
President has indicated that--not in public announcements, but 
in private comments, internally--that he does not want anybody 
in between him and operations. So, in terms of the operations 
in the Central Intelligence Agency or operations in the DOD, 
the President would not have that NCTC in the middle of that, 
from an operational standpoint, and I didn't want any doubt 
about that.
    The second thing I'd like to clarify is, I welcome the idea 
of hearings on global posture. We have provided extensive 
congressional briefings. We have had extensive briefings with 
our allies around the world. There is nothing in it that even 
begins to approximate Fortress America.
    The Cold War is over. We are not expecting a Soviet tank 
attack across the North German Plain. It is appropriate to 
adjust that force posture. We have met with a great deal of 
support in the briefings we've had with our friends, with our 
allies. With respect to North Korea, I would not want the 
implication to be left that we would, in any way, weaken that 
deterrent.
    The Korean War ended 50 years ago. South Korea has a gross 
domestic product (GDP) that's probably 25 or 30 times the North 
Korean GDP. We have been working with the South Korean 
Government to transfer responsibilities so that the deterrent 
would remain strong. General LaPorte has done a superb job in 
working with them. They are--over a period of years, will be 
incrementally assuming additional responsibilities.
    The Defense Department has, in addition, been investing in, 
and making arrangements for, other kinds of capabilities to be 
available, and I don't think there will be any doubt but that 
the combined capability of the South Korean military and the 
United States of America will be fully adequate to the task.
    I would say one of the things that we're really having 
trouble with--change is hard for everybody, and I understand 
that. There's a great resistance to it. We're just going to 
have to work our way through it. But I think, in the 21st 
century, we have to be very careful to not equate quantities of 
things with capability.
    If you have a ``smart bomb'' that can do the work of 8 
``dumb bombs,'' the fact that you go from 10 ``dumb bombs'' to 
5 ``smart bombs'' does not mean you've reduced your capability. 
What we are doing, we have incrementally improved our 
capability over time in that theater. We intend to remain with 
a presence and strength. I think there will be no doubt in the 
minds of the people in that region that we have maintained the 
proper balance and the proper types of capabilities that fit 
the 21st century and the circumstances. We've been very pleased 
with the cooperation of the South Korean Government, in terms 
of that, taking over some of those responsibilities--and we'd 
be happy to come up and have a full hearing and testify on it--
and have benefitted from the many briefings that have been 
given to the staffs and offered to members over a sustained 
period of time on this subject.
    Senator McCain. Mr. Chairman, could I just comment very 
quickly? I have neither been offered nor received any briefing, 
nor do I know of any member of this committee who has.
    Chairman Warner. Senator, I think that we can show you that 
there have been some staff briefings on this----
    Senator McCain. There have been staff briefings. No member 
that I know of has been offered a briefing. I would have liked 
to have one--received one, with alacrity.
    Senator Sessions. I asked for one, and got one, and several 
of us made a trip to Europe to look at the bases there.
    Chairman Warner. I think there's been a record of----
    Senator McCain. I've been to Europe many times, too.
    Senator Sessions. We went down to look at bases that may be 
closed and may be strengthened.
    Chairman Warner. Let me just say, for the record, there 
have been, I think, communications on this subject. We knew it 
was forthcoming. You've actually made public pronouncements on 
it on several occasions, am I not correct?
    Secretary Rumsfeld. This has been going on for close to 3 
years.
    Chairman Warner. Correct.
    Secretary Rumsfeld. I'll be happy to arrange for a briefing 
for any Member or any staff person.
    Chairman Warner. Right.
    Secretary Rumsfeld. It is important. It is just in its 
early stages of beginning discussions with foreign countries, 
in terms of specifics. It is something that will roll out over 
a period of probably 5 to 10 years. It is not something that's 
going to be done precipitously. As I say, we'd be happy to come 
tomorrow if appropriate.
    Chairman Warner. I think we've covered it. I think it's 
important that we took a few minutes on that.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Secretary, you have carefully avoided any opinions 
about many of the proposals of the 9/11 Commission, but I think 
it's important to get another one on the table, and that's the 
suggestion that the DOD assume all the covert paramilitary 
operations--those conducted by the CIA, as well as operations 
conducted by the DOD. Do you have an opinion, for the record?
    Secretary Rumsfeld. I'll say this. There are clearly things 
that the Central Intelligence Agency does that are covert that 
the DOD ought not to do. There are things in the middle where 
we both do things and where we have individuals involved in 
teams that are led by them or led by us, and there be a mixture 
from time to time. I think it's a subject that lends itself to 
a classified hearing better than a public hearing. But the 
short answer is, I have not proposed such a thing. It is 
something that we've asked our people to look at and the agency 
to look at, but, at the moment, I certainly wouldn't recommend 
it. It's something that is being discussed internally.
    Senator Reed. Now, Mr. Secretary, are some of your concerns 
based upon the different frameworks that soldiers operate, vis-
a-vis CIA operatives--both legal, ethical, and cultural 
dimensions--or is this simply a--the practical, that they do 
things that we don't want to do?
    Secretary Rumsfeld. They do things that are authorized by 
statute and by findings that we're not organized, trained, or 
equipped to do, and don't want to do. There are things that 
involve preparation of a battlefield which are not public, but 
eventually become public, which we, in the DOD, do do, as we 
should. I think that, again, that's about as far as I'd want to 
go in a public hearing.
    Senator Reed. Let me just--again, the final point is that, 
from your answer, there are things that they are authorized to 
do by law and custom that the DOD is not authorized to do, is 
that correct?
    Secretary Rumsfeld. Absolutely.
    Senator Reed. So this consolidation would require Congress 
to change the law, as well as just simply authorizing a 
consolidation of effort--or change several laws.
    Secretary Rumsfeld. That, I don't know, because I don't 
know what anyone would propose by way of responsibilities. We 
have responsibilities that are authorized by law--preparation 
of the battlefield--and they have responsibilities that--no one 
that I know of is suggesting transferring out of the agency. So 
whether or not--I doubt that a law would have to be changed, 
but I simply don't know, because I don't know what anyone would 
propose to change.
    Senator Reed. Mr. McLaughlin, do you have comments on this 
topic?
    Mr. McLaughlin. Yes, I would--as the Secretary has pointed 
out, this is being discussed in the administration, and we've 
actually been asked to consult on it and come up with a 
position. If you want a personal view, I would not accept that 
recommendation, for a couple of reasons. I mean, this is, 
again, personal view. I think we have a perfect marriage now of 
CIA and military capabilities. CIA brings to the mix agility 
and speed. The military brings lethality. That was the 
combination that was so effective in Afghanistan. There are 
also special authorities that the DCI has by statute--Section 8 
authorities, for example--that allow the DCI to do things--for 
example, to purchase equipment that's useful in paramilitary 
operations, without competitive bidding. It's a small point, 
but--actually, a large point. It means that the DCI, under 
current statute, is empowered to move quickly on things that 
have a paramilitary nature.
    It's important to realize there's a vast difference in 
scale here. Without giving the numbers, we're tiny on this 
score. DOD is large when it comes to special operations. So we 
have a niche role here that I think is very important.
    The other thing I would say is that--not well understood--
is the fact that our paramilitary capability undergirds our 
whole covert-action program. It isn't just the kind of image 
that comes across in the movies about what we do; it's that our 
covert-action program, across the board, which covers many 
different areas, has, as part of its infrastructure, for a very 
wide array of things, this paramilitary capability.
    Senator Reed. General Myers, do you have a comment, 
particularly from the perspective of a uniformed-military 
officer, about the blending of these two different cultures?
    General Myers. I think my advice would be along the same 
lines that you've heard from the Secretary and from the acting 
director in that, right now, we have well-defined military 
missions in the world. This would change some of that, if we 
were to adopt that recommendation. I think we have to think 
very carefully about that.
    I know there is--as we have begun to consider it, there is 
not a lot of enthusiasm at this point for that kind of change. 
I think it's important that, as people see the military uniform 
around the world--and we are around the world, we work with--
over a couple-of-year period, we probably work with most 
nations in this world, in one form or another--and that they--
that we maintain that, that we are the U.S. military, and we're 
not involved in other things.
    Senator Reed. Mr. Secretary, the 9/11 Commission was a very 
intensive review--after-action report, if you will--of a major 
intelligence failure. We've had similar failures with respect 
to Iraq. Has the DOD conducted a major after-action review of 
the intelligence failures in Iraq? If so, what are the 
recommendations for change, not only within the DOD, but 
coordination with the CIA and other agencies?
    Secretary Rumsfeld. The DOD, through the Joint Forces 
Command, embedded a cluster of people in the beginning of the 
war, and as it went along it conducted a lessons-learned, a 
portion of which included intelligence. They then completed 
that, and then initiated a series of interrogations of Iraqis 
and looked at lessons learned, not from our standpoint, but 
from what the Iraqis thought they were doing and what they 
thought they knew or didn't know. That was then completed.
    In addition, the CIA has conducted some aspects of it from 
their perspective.
    Senator Reed. These reports are available and----
    Secretary Rumsfeld. We'd be happy to give you or the 
committee a briefing on the lessons learned. I've found them 
fascinating. I've probably spent 20 hours being briefed on 
those two lessons learned that the DOD did. I have not been 
briefed on the agency's piece.
    Senator Reed. Thanks, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Reed.
    Senator Sessions?
    Senator Sessions. Chairman Myers, can you share with us how 
the military officers, maybe your chiefs, feel about the new 
National Intelligence Director proposal? I know there's some 
frustration. I sense that we wish that we had had better 
intelligence on--I guess in every conflict we've ever been in. 
But how are your--do your people respond to this?
    General Myers. One of my responsibilities, of course, is to 
represent, to the Secretary and others in the National Security 
Council, and the President, of course, is the thinking of our 
combatant commanders, and, for that matter, the Joint Chiefs of 
Staff. Let me start out by saying, we clearly have the greatest 
military in the world. Part of the reason it is the greatest 
military in the world is because we have this integration of 
operations and intelligence that I talked about earlier in my 
opening statement.
    So with that as a backdrop, we have talked now, on many 
occasions, with our combatant commanders and to the service 
chiefs on intelligence and intelligence reform. I think they 
would sign up to my opening statement and some of the tenets in 
there and some things that we hold very important. They're 
clearly in favor of breaking down any bureaucratic barriers to 
getting information, and information-sharing, and they 
addressed that. As we had this discussion, that's one of the 
primary topics that comes up.
    They strongly believe that it's hard to differentiate 
between the national, strategic, and tactical levels of 
intelligence. They understand that, and think that intelligence 
needs to move seamlessly, not only vertically, but horizontally 
between organizations, services, analytical elements, whatever, 
as well as vertically. So they understand that.
    They would make a big point, if they were sitting here, 
about the need for competitive analysis. I mentioned that in my 
opening statement, again. But they think all-source analysis, 
it's--with several different elements, is the way you get to 
the--to understand what the intelligence probably really means 
and----
    Senator Sessions. In other words, they don't want to be--to 
have only one source of information. They prefer that other 
entities and agencies would be able to share information 
directly if they thought it was appropriate.
    General Myers. Senator Sessions, that's absolutely right. 
The need for----
    Senator Sessions. The other Secretaries of Defense that 
testified yesterday expressed that concern quite clearly, also.
    General Myers. Competitive analysis is certainly to all our 
benefits, and then we can make whatever judgments we have to 
make. But that would be important. Then as they get into the 
details--and, of course we were--when we were talking when I 
was--the last time I solicited their opinions, we were talking 
about some of the fundamentals, not some of the specifics, of 
the 9/11 Commission Report, although we referred to that. We 
said there are recommendations out there, but they would not be 
for any other bureaucratic hurdles that removes the warfighter 
or the commander--be it a combatant commander or a joint task 
force commander--from the intelligence process--collection and 
dissemination and so forth. They've worked that very hard.
    In my opening statement, I talked about the entrepreneurial 
spirit that exists at the other end of this intelligence chain 
as being important to providing our best intelligence, not just 
to the warfighter, but to the national community, as a whole. 
They're part of that entrepreneurial spirit. That's where it 
resides, and further down, as well. So they'd like to preserve 
that. I think those were their overall concerns. They're very 
engaged in this process, and will follow it along.
    Senator Sessions. I think there's a pretty firm belief on 
this committee that we ought not to undermine the success that 
we've had with regard to intelligence, and we should strengthen 
it, not weaken it.
    Director McLaughlin, thank you for your service. I think 
you have every right to speak aggressively about the good 
things that have occurred since September 11. I think that 
after that date everything changed and people began to 
reevaluate entirely, whether it's the FBI, the DOD, or any 
other agency. A lot of policy changes have occurred. Senator 
Roberts mentioned nine specific ones that I think have dealt 
with many of the problems that the 9/11 Commission has referred 
to, or at least attempted to deal with them.
    So let me ask you briefly just your opinion. Do you feel 
like, with regard to the 9/11 Commission's report and 
recommendations, that many of those recommendations have 
already been accomplished and that--you indicated the report 
seemed to stop as of September 11. Were they fully informed on 
the changes that have occurred since when they made the report?
    Mr. McLaughlin. I would say, Senator, a lot of the things 
that they recommended or spotted as problems have been dealt 
with. My sense is that the 9/11 Commission did spend some time 
looking at post-September 11. But that isn't in their report, 
particularly. Their report seemed to have been written from a 
September 11 perspective.
    There is still more to do.
    Senator Sessions. I know, but you have taken care of a lot 
of those things.
    Mr. McLaughlin. But I don't want to--it's important that I 
not convey a sense of complacency or satisfaction here, because 
in this business there is, frankly, never any perfection, and 
there never will be. The nature of the business is such that 
you're constantly finding--as you've solved one problem, 
another one comes up on the horizon.
    Senator Sessions. Yes.
    Mr. McLaughlin. So, yes, we've made a lot of progress, but 
there's still a lot to go.
    Senator Sessions. I was present during the time we did the 
drug czar. The drug czar, as I understand it, had the power to 
review the budgets of all agencies affecting narcotics. It 
establishes, by consulting with the agencies involved in 
narcotics, a national drug policy. The President then is asked 
to sign off on the national drug policy. Then the drug czar 
reviews the budgets of the agencies to make sure that they're 
spending their money on things that accomplish the agreed-upon 
strategy.
    I guess my question would be--in some sense, that's 
supposed to be, in theory, CIA's role. Some suggest that, 
``Well, you can't do it, because you have operational 
responsibility, as well as oversight responsibilities.'' Could 
CIA fulfill that role? Can it today? If it needed some 
additional legislation, and that were passed, could you do it, 
as well as a new National Intelligence Director?
    Mr. McLaughlin. To make sure I understand your question, 
Senator, are you saying, could the DCI, with some augmentation, 
carry out the duties that are laid out in the report for a 
National Intelligence Director?
    Senator Sessions. Or at least with regard to the powers and 
compared to the drug czar.
    Mr. McLaughlin. The short answer would be yes. The DCI, as 
many people here have noted, has extensive authorities. Some of 
them--they're all--the ones recorded in statute give the DCI 
the power to do various things that we've talked about here. To 
some degree, though, any DCI's authority stops at a certain 
point, and persuasion takes over, so that the effectiveness of 
a DCI depends, to a large degree, on the personal relationship 
that he or she develops with leaders of the community, with the 
Secretary of Defense, and just how he runs the operation.
    I meet with--as George Tenet did--all of our program 
managers every couple of weeks to go over everything. We 
harmonize policies. There is a point, though, where I think 
Senator Roberts was leading with some of his questions, where 
your ability to enforce these policies drops off. So you can 
coordinate, you can improve, you can approve, you can launch, 
but there is a point where, as DCI, you're basically in a 
negotiation and persuasion mode.
    Senator Sessions. My time has expired, Mr. Chairman. But I 
thank you, Mr. Director.
    Chairman Warner. Thank you very much.
    Colleagues, as we know, the Governmental Affairs Committee 
started in quite early this morning with a hearing. It would be 
my intent now, out of respect to--Senator Collins, the 
chairman, and Senator Lieberman worked to schedule our 
hearings--I'd like to turn to Senator Lieberman, but understand 
a colleague has a very critical--Mr. Nelson, you were next. Can 
you two sort it out, who would go first here?
    Senator Bill Nelson. Mr. Chairman, I have a little problem 
back home, called Ground Zero, named Punta Gorda, that I'm 
going back to.
    Chairman Warner. Would you, then, go ahead--and then I'll 
go to Senator Lieberman.
    Senator Lieberman. I'll be glad to yield to Senator Nelson.
    Chairman Warner. Thank you.
    Senator Bill Nelson. I thank you.
    Gentlemen, thank you for your public service, and thank 
Senator Collins for her graciousness in allowing me and others 
to sit in on her hearings, of which we've just had testimony 
from the members of the families of September 11.
    Senator Clinton had been gracious to the families to offer 
to ask questions, and--that the families would like to--and 
since I was last in the pecking order, a family member passed 
up a question to me that I think gets to the heart and soul of 
a lot of this discussion as we try to exercise our legislative 
prerogative under the Constitution and our congressional 
oversight.
    If I may, gentlemen, direct this question to you from Carol 
Ashley, who is a member of the Family Steering Committee.
    Chairman Warner. Senator, would you yield?
    The Chair notes that a number of the families have joined 
us here at the conclusion of the hearing that Senator Collins 
and Senator Lieberman had.
    Please proceed.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    The question is, General Myers, please explain why giving 
the National Intelligence Director control over intelligence 
funding causes problems with an effective military response to 
terrorism overseas.
    This is one of the significant policy issues that we are 
facing in deciding with regard to the new National Intelligence 
Director.
    General Myers?
    General Myers. I think the Secretary has talked a great 
deal about the budget and the implications of the budget. I 
would go back to the fundamentals that I had in my opening 
statement, in that it's not the budget authorities that are the 
problem at all. That can be whatever people decide it is, as 
far as I'm concerned.
    The thing that you have to maintain through this is the 
fact that we now have, in terms of overseas, a warfighting 
team. It's a warfighting team that operates in peacetime or 
wartime. It produces intelligence that is used at the national 
level and is used at the tactical level. This team depends on 
all the different departments and agencies that have 
intelligence responsibilities, not just those that are in the 
DOD. They are, as Director McLaughlin talked about, pretty 
tightly integrated today. So I've never said, one way or 
another, where the budget authority should be. That is still 
being debated inside the administration; it's being debated 
here today.
    I would just say, as we look at placing budget authorities 
we need to make sure that this extremely important element of 
our intelligence apparatus--and I will call it ``military 
intelligence,'' but it doesn't really do it justice because 
we're so tightly linked and integrated today--but we don't 
break that apart. That, whatever we do budget-wise, we don't--
that everybody has a voice in the process. Today, that pretty 
much happens.
    So, as has been said before, the first thing we should do 
is, do no harm. It's a lot better than it was on September 11. 
As I said in my statement, it's pretty good. We can still 
improve that.
    Senator Bill Nelson. As a uniformed military officer, do 
you think that giving the NID budgetary authority is going to 
cause you a problem, militarily, to respond to terrorism 
overseas?
    General Myers. The devil's in the details, and I don't 
think, inherently--inherently, no, I don't think that will 
necessarily cause a problem. But the devil is in the details. 
In this town, we have people that have certain authorities, but 
there is no czar in this town. That's not how the business 
works. It is a town where we collaborate and coordinate. That's 
certainly true in the Intelligence Community, where, again, 
there are many different agencies and departments that are 
involved in that work.
    No, I have no problems with moving budget authority around, 
as long as we work through the details to make sure that the 
collaboration and the coordination that needs to take place 
recognize the things that I said earlier.
    Senator Bill Nelson. Secretary Cambone, same question.
    Dr. Cambone. Sir, the question is how the budget and its 
allocation translates into front-line capabilities, and that, 
in turn, is representative of the various interests that are at 
play in building that budget at the direction of the DCI today.
    Within the DOD, something like 68 percent of personnel in 
the NFIP budget are from DOD, so the budget that is built by 
the DCI is 68 percent personnel from the DOD. Among those 15 
agencies that everyone talks about, 83 percent of all U.S. 
intelligence, NFIP/JMIP/TIARA, the personnel are DOD personnel. 
DOD personnel are integrated across all of the activities of 
the Intelligence Community, and they are there to be certain 
that two things happen simultaneously. One is to assure 
national support. The Secretary of Defense is obliged, under 
title 50, to lend that support to the DCI. They are obliged to 
be assured that the DCI--that the Secretary of Defense is able 
to discharge his title 10 responsibilities relative to the 
Armed Forces of the United States.
    The budget, all in one place, with all of those decisions 
being made in one place, Defense or the DCI or the NID, would 
probably be changing those relationships in ways that we don't 
understand today. That's why today we actually have a bargain 
here, a partnership between the DCI and the Secretary of 
Defense. The DCI builds the budget, the Secretary of Defense is 
expected to see that it's executed against those priorities 
that were set for national intelligence and meets the military 
intelligence requirements. So that's the bargain we struck.
    Senator Bill Nelson. So you would think that there might be 
a problem created if someone outside the DOD--namely, the 
National Intelligence Director--has budgetary authority over 
all intelligence, which, as you said, huge part of that 
personnel and money is within the DOD.
    Dr. Cambone. I'd be concerned about two words, Senator: 
``sole'' authority and ``all'' activities. So you have to 
work--again, it's a partnership, and it was designed that way, 
by Congress and by Presidents and DCIs and Secretaries of 
Defense in the past, to make sure it is a partnership so that 
no one has sole authority or all of the authority.
    Senator Bill Nelson. Secretary Rumsfeld, would you care to 
respond?
    Secretary Rumsfeld. I would agree with what I said earlier 
and what Dr. Cambone just said.
    Chairman Warner. Thank you very much, Senator, particularly 
for asking the question on behalf of the families.
    Senator Collins, again, we commend you for the series of 
hearings that you've held on this important subject. I've been 
able to attend two of them myself. The Chair now recognizes you 
for purposes of questioning.
    Senator Collins. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman. Thank you, Mr. Chairman. If I say it three times--
I'll get it loud enough, eventually. [Laughter.]
    Director McLaughlin, I know there's been discussion before 
I was able to join the panel today about the issue of budget 
authority, but I want to probe that a bit further with you. 
When I read the 9/11 Commission Report, I was struck by the 
information on a directive issued in December 1998 by DCI Tenet 
in which he said, ``We are at war. I want no resources or 
people spared in this effort, either inside CIA or the 
Community.'' The 9/11 Commission concluded that--despite that 
call for action, that, in fact, very little happened within the 
Intelligence Community, that there wasn't a marshaling of 
resources. That's one reason that I think the issue of budget 
authority is so important.
    It's my understanding that the National Security Act gives 
you the authority to guide the Intelligence Community agencies 
as they prepare their budget submissions for the NFIP; but you 
don't, however, have budget execution authority over any of the 
NFIP, except that portion that goes to the CIA and the 
Community Management Program. As I interpret that, that means 
that you help set the budget levels for the Intelligence 
Community, but then you don't have any control over the funds 
once they are appropriated, except in the CIA direct control; 
rather, it's the DOD that has that control, and we know that's 
more than 80 percent of the total intelligence budget.
    The 9/11 Commission recommends that budget execution 
authority--that is, the control over the funds once they've 
been appropriated--be given to a new National Intelligence 
Director, as you're well aware. Perhaps, to me, the strongest 
rationale for this recommendation is, it would allow the NID to 
marshal the resources in a way that George Tenet apparently 
could not, according to the findings of the 9/11 Commission.
    Now, ironically, Dr. Cambone summed up the rationale for 
giving this authority very well last week when he testified 
before the House Armed Services Committee (HASC). He was 
talking about the need for the National Intelligence Director 
to set information technology standards for the entire 
Intelligence Community. This quote is not in the August 11 HASC 
testimony.
    To me, that sums up why you need to have budget execution 
authority--not just the ability to shape the budget 
submissions, but execution authority vested, at least for the 
NFIP, in the new National Intelligence Director.
    So, with that rather long introduction, I'd like to ask you 
whether you believe the NID does need to have budget execution 
authority if our goal is to have the Director successfully be 
effective in overseeing and coordinating the Intelligence 
Community. As Dr. Cambone said, when talking about intelligence 
standards, if the person doesn't have the ability to, ``push 
the money in the right places to get it done, or withhold it,'' 
can the NID truly be effective?
    Mr. McLaughlin. As we've said several times, Senator, 
discussions are ongoing within the administration on this, and 
nothing is off the table, from the administration's point of 
view. So I can give you my personal view on that----
    Senator Collins. That is what I'm seeking.
    Mr. McLaughlin.--based on personal experience, but without 
any sense that that is ``the view'' that would prevail.
    There's a couple of things you have to say at the outset to 
frame this a bit. First, I think we're talking principally 
about the NFIP agencies, not about all 15 of the agencies.
    Senator Collins. Right.
    Mr. McLaughlin. A number of the agencies in that 15 fall 
into the TIARA. We're talking about the service intelligence 
organizations and so forth. I don't think that the National 
Intelligence Director should have budgetary authority over all 
15 of these agencies. I think it ought to be narrowed to the 
NFIP agencies, which would be, of course, NSA, NRO, NGA, and 
CIA. So when you're looking at the NFIP, it's that.
    Second, another thing that needs to be said is, in any 
arrangement--and I mentioned this in my testimony--but, 
fundamentally, in any arrangement that you have, whoever has 
this authority would have to accept ironclad accountability for 
support to military intelligence requirements. That would have 
to be built in, either by understanding or statute or executive 
direction, because you just--as I said, these agencies are 
combat support agencies, and everyone in the intelligence 
business realizes that, even though they serve more than one 
department, which is what makes them national.
    Against that backdrop, a third point. While we don't have 
execution authority in the year of the budget, we do have the 
authority to reprogram. I think you and I have talked about 
this once before. The reprogramming, as it currently works, 
works; but it is cumbersome. It requires that when I'm--and you 
reprogram for a number of reasons. Sometimes you do it because 
one program is doing better than another, another time because 
someone is not doing as well as they should, another time 
because something else is more essential, in your judgment. 
Typically, you require the approval of the agency that's 
surrendering funds; you require the approval of the department 
head who oversees that agency, usually the Secretary of 
Defense; you require the approval of OMB; and you require the 
approval of six congressional committees. Typically that takes 
about 5 months. So you can see that's not very agile to the 
needs of today.
    So what does all of this, my long answer to you, add up to? 
My view is that that National Intelligence Director ought to 
have the authority to move those funds, because--with the 
caveats that I built into this: absolute accountability for 
military needs. Frankly, even in that circumstance, with that 
authority, a National Intelligence Director, I can safely 
predict, would consult closely with the Secretary of Defense as 
funds were moved around; but in the circumstance that you and I 
have just discussed, that person would have the final 
decisionmaking authority.
    I think if you look within the NFIP, the National Foreign 
Intelligence Program--just as another fact to put on the table, 
I think about 30 percent of the personnel in the NFIP are 
military.
    So all of that has to go into the mix. Sorry for the long-
winded answer. But as all of us have said, this is complicated.
    Senator Collins. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Collins. Thank you.
    Chairman Warner. I feel that question is so important that 
I'm going to ask Senator Lieberman to defer. Frankly, Mr. 
Secretary, your views in response to that question would be 
helpful.
    Again, Senator Roberts has drawn up a bill, you're drawing 
up a bill, Senator Levin and I may contribute some language. We 
respect the fact that the President hasn't come forward as yet. 
He's not--he's going to do it. I suggested that he wait until 
the committees work through their--this was my own personal 
recommendation yesterday--work here, these 20 hearings. But as 
we do our work, to the extent we can get some of the personal 
views and guideposts, I think it would be very helpful to us.
    So the question propounded by our distinguished colleague 
from Maine, I think, Mr. Secretary, would you desire to have an 
opportunity to respond?
    Secretary Rumsfeld. I'll add to what I've already said in 
my remarks. I've pointed out that the role of an NID at least 
implies--although the administration's not come forward with 
specifics--but it implies authority for tasking collection 
assets across the government. The DCI currently has that. It 
implies setting analytical priorities and ensuring all-source 
competitive analysis throughout the Intelligence Community; the 
personnel management and training to alter the culture in the 
community; information, security, and access policies; 
information technology standards, as Dr. Cambone mentioned in a 
hearing, and architectures across the community; and 
reallocating resources in the year of budget execution.
    Now, what does the DCI currently have? He currently has the 
authority for directing collection and production, currently 
has the responsibility for developing the budget, and currently 
has the authority to recommend reprogramming, which, for the 
reasons I stated earlier, avoiding--I mean, the principal user 
of intelligence is the DOD; that's the major user. So 
reprogramming--once the budget's set, reprogramming is 
difficult, as he says. It's difficult because government's a 
big bureaucracy. It's difficult because the congressional 
committee system is what it is. But there is not--neither the 
DOD nor CIA ought to be reprogramming without very close 
coordination, for fear of disrupting the process that each has 
already agreed to.
    Now, the real problem is, as I said, that the budget's 
developed in 1 year; it takes a second year for Congress to 
deal with it, and a third year for its execution. Any budget's 
going to require change. It is not a budget to be executed; it 
is a plan to be tested against what actually happens in the 
world, and then adjusted as those changes and events occur. So 
it's going to take the ability for the DCI, the Defense 
Department, OMB, which is--the ultimate decision-maker is 
certainly not the DOD or DCI, currently; it's OMB--the 
President and OMB as its instrument.
    Now, it seems to me that this is very important. It needs 
to be discussed, as it is being in this committee. I think it 
merits a great deal of care and attention.
    Chairman Warner. I assure you, I think Congress is giving 
it a great deal of attention, and I thank you, and we're trying 
to get such guideposts as we can at this time.
    Now, Senator Lieberman?
    General Myers. Senator?
    Secretary Rumsfeld. Could General Myers----
    Chairman Warner. Oh, General Myers, yes, of course.
    General Myers. Sir, could I make a comment to the budget 
execution business?
    As I tried to answer with Senator Nelson, I think you're 
talking budget execution authority. Again, this has to be done 
in a collaborative way. Creative tension in the intelligence 
business is the only way, I think, that policymakers, Congress, 
or people are going to understand the situation. There cannot 
be a czar that just starts pointing and pulling levers. There 
is no ``Wizard of Oz'' here that's going to solve this, in my 
opinion. It has to be a collaborative effort. Creative tension, 
in this case, is good.
    I would add one other thing to this mix in budget, and it 
goes--it's not execution authority, but it goes back to the 
budget preparation.
    I think that anything we could do to reform the process by 
which we decide on major systems procurement would be a very 
good thing to do. In the DOD, we have such a process. A major 
part of that process came out of Goldwater-Nichols. We have a 
fairly new process in the Intelligence Community, but it's far 
from perfect, in my judgment, and it needs to have more 
visibility inside the community, inside those departments and 
agencies that have systems that are affected, and it ought to 
be end-to-end, and we don't--we often don't think about the 
end-to-end pieces of this system. So when we're talking about 
major systems, major procurement of those systems, something 
like our Joint Requirements Oversight Council that was mandated 
by Goldwater-Nichols would be a fairly good process for us to--
perhaps, to at least look at for the Intelligence Community.
    So that's--but it's not execution; it's planning and 
programming, more appropriately. But I make that comment.
    Chairman Warner. Thank you very much. Any further comments 
to that important series of questions?
    Senator Sessions. Mr. Chairman?
    Chairman Warner. Yes?
    Senator Sessions. One question. With regard to this large 
amount of money that goes to Defense for intelligence, General 
Myers or Dr. Cambone, does that include every military officer 
in the military? Do you know, does it go down to the brigade or 
the military intelligence (MI) units out there or----
    Dr. Cambone. Sir, it does.
    Senator Sessions. So----
    Dr. Cambone. That's how we get to such a large fraction of 
the total.
    Senator Sessions. Yes, that explains some of that.
    Dr. Cambone. But, just for the clarity, as Mr. McLaughlin 
says, there is the NFIP, in which there are U.S. military 
personnel covered. The individuals you just asked about, the 
Service people, doing Service jobs, if you will, are in either 
the TIARA accounts, or in a JMIP, which are inside the DOD and 
on which, by regulation and custom, the DCI consults. So there 
are three pockets of dollars here that we're talking about, and 
military personnel are in all of them.
    General Myers. But where the rubber meets the road--and 
that's with combatant commanders and joint task force 
commanders and our troops out there doing peacekeeping to 
combat--they don't understand these budget classifications and 
the systems they deal with, they don't care where the 
intelligence comes from. They don't care if it's an NFIP, a 
JMIP program, a TIARA program. In fact, at that level, they're 
all mixed, and the people are all mixed, and they're all 
working to the benefit of the mission. So if you were to pick 
one piece of this up here and say, okay, now we have somebody 
with budget execution authority, and thinking that that's not 
going to have some impact on this entrepreneurial mix that we 
have down here that's really making things happen. That's not 
benefitting just the soldiers in the foxhole, that's also 
benefitting the President, because it enables all sorts of 
intelligence capabilities. It's something that has to be 
considered as we think about this. You can't separate the 
parts. It's not as easy, if you go to al Dhofar, if you go to 
Baghdad, to separate these parts. They don't care. It's easy 
here in Washington, I think, when we are used to looking at 
lines in a budget.
    Mr. McLaughlin. Senator, the cryptologic support group that 
might be in Baghdad belongs to the NFIP out of NSA, supporting 
a special operations team that isn't in the intelligence budget 
at all, working with the tactical HUMINT team member from the 
Army down in the TIARA accounts, working to bring together the 
information from a satellite, which is in the NFIP account, and 
an airplane, which is in the JMIP account. They don't see any 
of that. It's all information and data flow down to the point 
of operation.
    Secretary Rumsfeld. If I could add one thing as I notice 
people are thumbing through the 9/11 book, it seems to me it's 
important, when we're talking about a possible change, that we 
connect it to a problem. If you think about it, that 9/11 
report, it talked about communication problems between CIA and 
FBI; it discussed the law enforcement orientation of FBI; it 
talked about the need for domestic intelligence-gathering; it 
talked about the need for all-source intelligence; it talked 
about the problem of stovepiping; it talked about the need for 
congressional reform; it talked about the need for accelerating 
the clearance, the ethics approvals, the security clearances, 
and the confirmation process so that people didn't end up, like 
the DOD, with 15, 20, 25 percent vacant in presidential 
appointees that require Senate confirmation; it talked about 
group-think; and it talked about deficiencies in human 
intelligence.
    Now, we have to ask ourself, okay, if those are the things 
that they identified--and I think that's probably at least 
three-quarters of things they identified--the question is, what 
reform is going to fix those things? What reform is going to 
improve the situation? What reform or change is going to add 
more value than it's going to cause in disruption or 
difficulty. Those are tough questions. They really are tough 
questions, and it's hard for me to see how the question that 
has been elevated here is--necessarily bears on any or all of 
these things.
    Chairman Warner. I think your observation is well taken, 
and--I don't mean to criticize the Commission--they've also 
suggested some reforms in areas in which they have not 
identified a problem. Now, do you concur in that?
    Secretary Rumsfeld. I'm trying to think of one.
    Chairman Warner. I want go to Senator Lieberman, and we'll 
come back to that.
    Senator Lieberman?
    Senator Levin. If Senator Lieberman would just yield for 
one second----
    Senator Lieberman. Go right ahead.
    Senator Levin. As I indicated, I want to make something 
part of the record at this point. First of all, that yesterday 
in the Senate Governmental Affairs Committee, we asked former 
DCIs Webster, Woolsey, and Turner that very question, as to 
whether there was any relationship between the recommendation 
relative to budget execution and the problems that the 9/11 
Commission had identified. I think it's fair to say that at 
least two of the three unequivocally said there was no 
relationship between that recommendation, relative to budget 
execution, and the problems which had been identified by the 9/
11 Commission.
    What I would like to make part of the record is not just 
that reference, which I think reinforces what Secretary 
Rumsfeld was just saying, but also Executive Order 12333, 
because it is that executive order which allocates the budget 
execution to the DCI. By the stroke of an executive pen, that 
could be--let me start over again.
    It is that Executive Order 12333 which allocates budget 
execution to the DOD. Before that, as one of our witnesses 
pointed out yesterday, the budget execution authority under the 
Carter administration was in the DCI. It was shifted after that 
to the DOD. It could be shifted back, if that's desirable. With 
all of the qualifications that have been mentioned here, it 
could be shifted back to the DCI or to the new Director of 
National Intelligence, if we adopt one, by an executive order, 
by the stroke of a pen.
    I only want to put this order in the record here now to 
make it clear that this is not necessarily a legislative issue, 
since that budget execution power has been allocated by 
executive order, currently to the DOD, that previously had been 
in the intelligence agency, and could be reallocated back. So 
that's the portion of the executive order that I'd like made 
part of the record at this point.
    Chairman Warner. Without objection.
    [The information referred to follows:]
         Executive Order No. 12333--Dec. 4, 1981, 46 F.R. 59941
                 united states intelligence activities
Section 1.11 The Department of Defense
    (j) Direct, operate, control and provide fiscal management for the 
National Security Agency and for defense and military intelligence and 
national reconnaissance entities;

    Chairman Warner. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Mr. Secretary and witnesses, thank you for being here.
    Mr. Secretary, I wanted to share this experience. As I 
arrived late from the earlier hearing, I said to a few of my 
colleagues, ``How are things going?'' They said, with a certain 
unease, ``The Secretary, contrary to what we normally expect of 
him--opinionated--refreshingly opinionated, quite often--is not 
responding to specific questions about the authority of the 
National Intelligence Director proposal.'' I found the kind of 
unease that you'd have on a day when your dog stopped barking. 
You'd say, ``He's not feeling well.''
    But I understand the reason why you're doing it, and I want 
to say that I find it encouraging. I find it encouraging in 
that you have said, and others at the witness table, that the 
administration, the White House, has not finally decided where 
it is on some of these critical questions.
    I was first puzzled--I was pleased when the President 
endorsed the National Intelligence Director, Counterterrorism 
Center, puzzled by some of the vagueness of the language used 
that day about the powers of the NID, troubled when Andy Card 
specifically, I thought, said that the NID, as he saw it, would 
not have any budgetary authority of real consequence. I was 
encouraged last week when the National Security Advisor 
Condoleezza Rice said that, in fact, ``It seems to be going in 
a better direction, as far as I'm concerned,'' and I'm, in that 
sense, encouraged by what you have said about--and the others 
have said--about where the process is.
    Yesterday, we had three former DCIs at our committee, one, 
Bob Gates, Acting DCI under President Reagan, CIA Director 
under the first President Bush--submitted written testimony, 
because he couldn't be there, and had a very strong statement, 
``The President recently announced his initial decisions in 
response to the Commission's recommendations. I hope, as the 
White House spokesman has suggested, that these decisions are 
only a first step, because the new National Intelligence 
Director, as described, will impose a new layer of bureaucracy, 
but have no troops, no budget authority, and no power. In its 
present form''--I took that to mean in the form of the 
discussion--``the new position would be worse than the current 
arrangement.''
    So I hope that we're in a process here that ends, as it 
should, in a non-partisan executive/legislative branch 
agreement on what should happen to improve our intelligence 
apparatus.
    I think you spoke--incidentally, in the list of budget 
authorities, or authorities that the NID would have that you 
read from your initial statement, you mentioned the 
reprogramming authority, but the Commission clearly recommends 
much greater authority, that the whole intelligence budget be 
in the National Intelligence Director, almost the opposite of 
what exists now, that all--95 percent, from what I can tell, of 
the intelligence budget goes through the DOD, including the 
CIA's budget.
    So let me ask you a question about one part of this that, 
after I arrived, you did speak to, and that is the National 
Counterterrorism Center, and what you take to be the 
President's clear position. I believe you did say it, that they 
announced the support of these recommendations, that there not 
be anybody between himself and the Secretary of Defense with 
regard to operations. I understand that completely.
    I do think that the counterterrorism--that the Commission 
makes a strong recommendation about these counterterrorism 
centers, that if you have essentially everybody involved around 
the table sharing information on intelligence, that it makes 
sense to have them work together on planning operations. I want 
to ask you whether there isn't a way, perhaps borrowed from 
your current joint operations with CIA, for instance, where you 
couldn't have the Counterterrorism Center's planning 
operations--but then subject it to a review or a veto by the 
Secretary of Defense so we don't lose the plus, the synergy, of 
everybody being around the table together.
    Secretary Rumsfeld. Senator, first, the reason the dog 
didn't bark is clear. Number one, the executive branch is 
wrestling with these issues----
    Senator Lieberman. Right.
    Secretary Rumsfeld. --and they are tough issues, and the 
President has not come to final conclusions on them. Second is, 
I have been inviting in former Secretaries of Defense, former 
DCIs, former National Security Advisors, as--I met at lunch 
with--Dick Myers called in the former Chairman and Vice 
Chairman of the Joint Chiefs of Staff. I've called people to 
talk about these issues, because they're terribly important. 
I've spent a lot of time. I have not developed conviction on a 
lot of the details that--and, as we said, the devil's in the 
details--you darn well better get it right, because we're 
dealing with very important things for our country. I just 
haven't gotten conviction down to the third and fourth level in 
this yet, to feel that I can sit here and say authoritatively 
something.
    Senator Lieberman. I understand that, and I respect it.
    Sir, if I might, Stansfield Turner, retired admiral and 
former Director of CIA, DCI, it would be interesting to talk 
to, as Senator Levin suggested. I hadn't realized this, but he 
testified yesterday that President Carter, by executive order, 
essentially made him an NID, National Intelligence Director, 
with the authorities fundamentally that the Commission has 
recommended now. The combination of his military background 
plus that experience, I think, makes him somebody interesting 
to talk to.
    Secretary Rumsfeld. One thing that's not come up in this 
hearing, or in the--at least that I recall--in the 9/11 report, 
is an issue that we ought to think about, and that is, has this 
government lost the ability of keeping a secret? I don't know 
the answer to that. But it seems to me it's worth asking that 
question and whether there are changes or reforms that we ought 
to think about in that connection. Because what's taking place 
is, we are systematically advantaging the enemy. They go to 
school on us, they learn a lot, and we help them. We help them 
with a hemorrhaging of information from the United States 
Government on a regular basis, and that's a problem.
    Senator Lieberman. I agree with you. I want to quote 
something----
    Chairman Warner. Senator, I must say that in the time 
allocated the Senators----
    Senator Lieberman. Yes.
    Chairman Warner.--I have to get to moving.
    Senator Lieberman. I wonder if I could just ask for a 
quick----
    Chairman Warner. All right.
    Senator Lieberman.--answer to the question that I posed 
about the Counterterrorism Center, whether you'd take a look at 
whether it's possible to create--to not lose the synergy of the 
joint operation planning, but still protect the chain of 
command from your warfighters to you to the President.
    Secretary Rumsfeld. The idea of someone planning and 
passing a plan off to the executors, I think, is a poor idea. 
Executors need to be involved in the planning.
    Second, in those instances where more than one agency is 
going to be involved in an operation, there already is joint 
planning. There has to be.
    So I cannot imagine quite how that would work, myself. I 
think that once you get down to the point where you have a plan 
that's executable, it darn well had better have been intimately 
crafted and shaped to fit the circumstances and the talents and 
the skill sets and the assets and the circumstances of that 
situation.
    Chairman Warner. I thank the Senator.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Mr. Secretary, I'll tell you, that issue actually did come 
up yesterday in our hearing. Former Secretary Carlucci cited 
the specific problem that you just alluded to, and he even gave 
an example of how, when he was Secretary of Defense, he was 
able to protect a source that, today, he did not think he'd be 
able to protect. You're exactly right, that's one of the major 
problems we have. We lay everything out in public hearings, and 
there's no town in the world that has leaks greater than what 
comes out of this town. So that's an entirely separate problem, 
obviously.
    The one thing that I have gleaned from everything you've 
said thus far is something I alluded to yesterday, and that is 
the fact that, whatever we do relative to reorganization or 
changes that we might make, this is such a complex issue that, 
if we're not careful, we're going to mess this thing up and 
create a lot more problems if we're not very careful in the 
direction in which we go.
    The major reform that's recommended by the 9/11 Commission 
is the total restructuring of the Intelligence Community 
relative to the creation of the Director of National 
Intelligence and who reports to him, not just the budget 
authority. So I want to stay away--you've discussed the budget 
issue, I think, pretty thoroughly, and I think we all have a 
general idea of what you're talking about there. But in this 
reorganization recommendation, the chart that the 9/11 
Commission has set forth, on page 413 of their report, is 
critically important. What it does is spell out who reports to 
who under the National Intelligence Director.
    I'd like for each of the three of you to comment on this 
and respond in this way. If you think that flow chart and that 
restructuring of the Intelligence Community will work, fine. If 
you think it will not work or there are problems associated 
with it, I wish you'd comment on that.
    Mr. Secretary?
    Secretary Rumsfeld. I don't have it in front of me, but I 
can recall seeing and not understanding it sufficiently.
    Chairman Warner. Let us take a moment to provide it to the 
Secretary.
    Secretary Rumsfeld. Oh, I don't need it. I remember looking 
at it, and I remember that a chart is a chart, an organization 
chart, and I could not tell from it--and I could not if I had 
it in front of me now--how it would work. I think that the--all 
of the granularity that is necessary underneath that is what 
either makes it work or not work, or--in the last analysis, 
frankly, you can have the best organization chart and bad 
people, and you're not going to have much of an organization; 
and vice versa, you can have good people and a lousy 
organization chart, and it works pretty darn well. But I'm 
uncomfortable with what I see there.
    Senator Chambliss. General Myers?
    General Myers. It's one of those issues that I think is 
fundamental as you decide what it is--what responsibilities and 
authorities you want this National Intelligence Director to 
have. This organization under him is fundamental to that. I 
think we're wrestling with the first part. Until you decide 
that, I think it's very difficult, then, to start plugging in 
the boxes underneath that. We need to wrestle with the first 
part before I'd be comfortable saying that particular 
recommendation in the 9/11 report is the right recommendation.
    Mr. McLaughlin. Senator, I think Chairman Myers hit the 
nail on the head, and this was why I emphasized, in my 
testimony, that it's critically important, at the outset, for 
form to follow function here; meaning that we have to decide 
what we want this NID to actually do. As an acting DCI, I have 
a list of about 30 things long that I do.
    Would you want this person to be the person who walks in to 
brief the President every day? Would you want this person to be 
the person who came up here and sits where the DCI normally 
sits to brief you on, say, the worldwide threat posture each 
year? Would you want this person to be the person who speaks 
for the Intelligence Community on what's happening with North 
Korea's weaponry? Would you want this person to be the person 
who defines the requirements for the community?
    Those are currently things the DCI does. If you had this 
person assigned those tasks, the person sitting, I think, a 
layer down in that chart, heading the CIA, would have more 
limited responsibilities for all-source analysis, clandestine 
operations overseas, covert action, and science and technology.
    So if you were to choose to assign all of those 
responsibilities that I just enumerated to this National 
Intelligence Director--as distinct from a more limited range of 
responsibilities having to do more with the czar 
responsibilities that involve basically composing a budget, 
coordinating it, ensuring that it's carried out, and so forth--
but if you assigned that full block of responsibilities to this 
individual, as General Myers says, that would really affect 
that organizational chart. My reaction to it is similar to the 
Secretary's. I'm uncomfortable with it, because, first, I don't 
know exactly what this person would do day-to-day, in a 
practical sense; and, second, if you had this person doing, 
day-to-day, the range of things that I just laid out, I think 
it's awfully complicated, and it would make it harder to do 
those things than it currently is, because a number of the 
people in those seats down there are dual-hatted; it wouldn't 
be clear what the reporting chains are, and so forth.
    I have, in my own mind, a chart that I would draw up if I 
were doing this, but I'd leave that to another day, because I 
think we have to first talk about what this person actually 
does.
    Senator Chambliss. I think it's pretty clear that what the 
recommendation from the 9/11 Commission does do is that it 
takes away a lot of the jurisdiction, a lot of the power and 
authority of the Director of Central Intelligence, and it gives 
that power and authority to the National Director of 
Intelligence. It does call for reporting requirements to go 
from the NID to the President, as opposed to the CIA to the 
President, so it makes drastic changes in who's going to report 
to who. I know my time is up, but, just very quickly, John, 
what would that do to morale in the agency? Do you have any 
thoughts on that?--if the role of the Director of the CIA is 
diminished?
    Mr. McLaughlin. I speak as a career CIA employee, so I come 
here with a certain bias that I can't erase. People who work in 
the Intelligence Community--in the NFIP, not just the CIA--have 
grown up with the thought that the DCI is the leader of the 
community. I think anything that diminished the role of the 
person who sits in that chair would take quite a bit of 
adjustment on the part of CIA employees.
    Senator Chambliss. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I want to go back to the movement of troops. There's merit 
in moving, I believe, troops from Germany and Europe, 
realigning our force structure, location of troops in that 
area, because I think the threat, we all understand, of 
communism and of the threat of the former Soviet Union is no 
longer what it once was. Also, I think it's an important thing 
to design a personnel structure that lengthens stays at a 
particular Army or Air Force base or a naval station. General 
Schoomaker has already talked about this, and clearly that's, I 
think, desirable to the families of almost every person in 
uniform, and has merit.
    But moving troops from South Korea, as a matter of 
interest, I think might be a different story. South Korea, as 
we all know, faces a conventional threat from North Korea, just 
as Asia and the United States face a strategic threat from 
North Korea. I know that you've thought about this. Although 
our forces in South Korea are not as large as those in Iraq, I 
worry about removing any troops at this time so--to avoid 
having it viewed as a sign of weakness or, some might suggest, 
a reward to a regime that's proliferating weapons and weapons 
technology to the highest bidder. I know that we're engaged in 
multiparty talks with North Korea, and it's important that we 
keep that in mind, keep in mind the audiences of South Korea, 
the region, and, unfortunately, Kim Jong Il. Because of his 
insular and isolated position, I am very concerned that this 
will, in some way, suggest to him preemptive--as I think 
retired Lieutenant General Daniel Christman said--some sort of 
preemptive concession, as opposed to simply a realignment of 
troops and reassessing our strength needs/requirements in that 
particular area.
    I wish you would comment on that. I know that you've 
thought about it. I certainly agree that moving the troops from 
Seoul south to another location so they're not right in the 
heart of the city has been under consideration. I assume that 
may be part of the overall restructuring there. But perhaps, 
Secretary Rumsfeld and General Myers, you might be able to 
share your thoughts on this.
    Secretary Rumsfeld. I'll be very brief. The deterrent will 
not be weakened in any way. It is a mistake, in my view, to 
equate numbers with lethality and capability. Speed, agility, 
and precision are enormously important--more important than 
numbers--simply counting up numbers of people or numbers of 
bombs or numbers of something else--and we're going to have to 
get our thinking adjusted to that.
    The process will take place over time. It's been 50 years 
since the end of the Korean War. South Korea is vastly more 
powerful and more capable, from an economic standpoint, than 
the North. We are in a process that General LaPorte has been 
undertaking of transferring responsibilities to the South 
Korean military. They're accepting those responsibilities. We 
are rearranging our forces on the peninsula, and we are adding 
capability. That costs money. That adds lethality. That is not 
trivial. The suggestion that that deterrent will be weakened, 
in my view, is inaccurate. I would like General Myers to 
comment on it.
    General Myers. I would just add to that. The South Korean 
Armed Forces, they have 560,000 people on Active Duty. They 
have 3.8 million in Reserves. We're going to make a modest 
change in our force structure there--by a fraction, a small 
fraction of those numbers. But it really does come down to 
capability. It comes down to the speed, agility, and precision, 
as the Secretary said. It also comes down to our ability to 
command and control, to battle-manage our assets. Any 
comparison of the security situation in the South and our 
abilities to deter and dissuade the North are unmistakable. Our 
deterrent posture will not change. If anything, it's going to 
get better over time.
    It was just a couple of years ago, this committee, we were 
considering a paucity of precision-guided weapons. Through your 
action, our coffers are pretty full. It was only a couple of 
years ago when the commander of U.S. Forces Korea and Combined 
Forces Command worried about not having those precision 
weapons. Today, I mean, just a couple of years, that situation 
has changed dramatically, where it is the bedrock of General 
LaPorte's war planning. So there should be no mistake, I think, 
on anybody's part that actually our capability is increasing 
day by day. It is also important that the Republic of Korea 
take the steps necessary to assume those missions to gain that 
capability so they can be, with their resources, with these 
tremendous numbers in their Armed Forces, prepared--better 
prepared, and continue to evolve too. So it is not an issue of 
numbers; it's an issue of capability in their case, as well.
    So we're working this really hard. We talked about this 
with the Joint Chiefs. We've talked about it with the combatant 
commanders. There's nobody currently responsible for this part 
of the world--or, for that matter, anywhere in the world--that 
thinks this is going to diminish our capability to deter, 
dissuade, or influence North Korea. In fact, we think it is all 
for the better, for all the reasons, Senator Nelson, some of 
which you stated, and some of which we stated here.
    Secretary Rumsfeld. Actually, I just add that the force 
adjustments on the Korean Peninsula have absolutely nothing to 
do with the four-, or five-, or six-party talks with the North 
Koreans with respect to their nuclear activities. They know it, 
we know it, the other participants know it.
    Senator Ben Nelson. Do you think the North Koreans 
understand that, exactly, with such an isolated position that 
they hold in the world and totally an insular government, as I 
understand it?
    Secretary Rumsfeld. I guess, let me rephrase--or let me 
answer this question. I absolutely do not think that there's 
any risk that the North Koreans are going to misunderstand the 
combined military capability--yesterday, today, and tomorrow--
of South Korea and the United States of America.
    Senator Ben Nelson. Our resolution to stay and support that 
Republic?
    Secretary Rumsfeld. Absolutely.
    Chairman Warner. Thank you, Senator.
    Senator Ben Nelson. Thank you.
    Chairman Warner. Senator Dole.
    Senator Dole. Gentlemen, there are no shortages of 
proposals to reorganize the Intelligence Community. A spectrum 
of ideas can be found in the recommendations advanced by the 9/
11 Commission, the administration, the Scowcroft Commission, 
numerous legislative efforts, and the proposals by 
distinguished individuals, such as Secretary Hamre, whom we 
heard from yesterday, Bob Gates, just to name a few.
    Now, these proposals, all well-intentioned, are worthy 
attempts to achieve unity of effort in our Intelligence 
Community and enhance our national security. The diversity 
among these numerous proposals affects the operations of 
numerous governmental departments and agencies, as we all know, 
all of which fall under the jurisdiction of multiple 
congressional committees. As a result, attaining a 
comprehensive assessment and comparison of these proposals has 
been elusive, at best.
    The testimony and subsequent debate that we heard yesterday 
in our hearing illuminated numerous concerns about intelligence 
reform, as well as the merits of reform. The assessments 
spanned the spectrum. Secretary Hamre noted that connecting the 
dots and avoiding group-think are in tension with each other. 
Implementing an organizational solution to just one of the 
problems will worsen the other.
    The 9/11 Commission suggested that we, as lawmakers, look 
ourselves in the mirror. I touched on this point in yesterday's 
hearing. There are those who have called congressional 
oversight ``lax,'' ``uneven,'' and even ``dysfunctional.'' 
Problems raised include overlapping jurisdiction and turf 
battles.
    Now, as a freshman Senator, I don't claim to be an expert 
in congressional oversight. But as a veteran of a number of 
different branches of government, perhaps as much as 35 years 
in the executive branch, I do have concerns with some proposals 
that have been made, and I believe rushing to judgment on 
implementing them would be a mistake.
    The Department of Homeland Security serves as a perfect 
example. While we have been at war, Secretary Tom Ridge and his 
top deputies have testified at 290 hearings in the past year 
and a half, they've received more than 4,000 letters from 
Congress requesting information; furthermore, 88 committees and 
subcommittees assert jurisdictional interest over this 
Department.
    I'm not sure how many committees would have jurisdiction 
over a National Intelligence Director, but I imagine it would 
be more than a few. A back-of-the-envelope survey suggests at 
least seven full committees, just in the Senate.
    Dr. Lowell Wood, of Stanford University, I think made a key 
point, and I want to quote at length from him: ``Only when 
Congress makes major changes in its own ways of doing business 
in any area does the rest of the government take note and begin 
to believe that it's really serious about the corresponding 
change and that things, indeed, must change. Really big changes 
are needed in the Nation's strategic intelligence functions, 
and just tinkering with executive structures and titles and 
organizational arrangements and locations is a fooling-some-of-
the-people-some-of-the-time type of solution. It surely won't 
fool, even for a moment, the hard-eyed types that infest the 
mean streets of the present-day world. Instead, Congress must 
significantly change itself, as well as the executive. 
Difficult though this may be, anything less simply fails to 
rise to the demands of the present challenge posed to 
America.''
    I spoke last week with former Director of Central 
Intelligence Bob Gates, who advised against the temptation to 
find a middle road, a compromise that mitigates controversy and 
unhappiness both in the executive and legislative branches, but 
does not solve the problems identified by the 9/11 Commission.
    Secretary Rumsfeld, Henry Kissinger has called for a pause 
for reflection to distill the various proposals into a coherent 
concept. A small group of men and women with high-level 
experience in government could be assigned this task with a 
short deadline. In your opinion, Secretary Rumsfeld, how does 
the current committee structure in Congress have to be reformed 
in order to be able to deal with a massive intelligence 
overhaul without running into jurisdictional issues and turf 
wars? Based on your experience, do you feel that Dr. 
Kissinger's proposal for an outside panel of experts--elder 
statesmen, let's say--should be considered for implementing the 
Commission's recommendations?
    I would like to ask just this one question--or these two 
questions--of each of you on the panel, please.
    Secretary Rumsfeld. Senator Dole, thank you.
    With respect to the last question, I have not seen the 
specific recommendation that Dr. Kissinger made, but I have 
been, in effect, doing that, inviting in outside experts, 
senior people, elder statesmen, to use your phrase, because I 
value their thoughts and their ideas. I've had in Secretary 
Cohen and Secretary Brown, and Dr. Kissinger. I've talked to 
about these things, and any number of other people from both 
parties. I think it's a useful thing for this committee to do. 
Whether it ought to be formalized, I guess, is for others to 
decide.
    With respect to your question on Congress, I guess--I 
haven't served in Congress for 35 or 40 years, so I don't think 
I'm really current. Further, I guess it's really none of my 
business, technically. On the other hand, I appreciate the 
invitation.
    Chairman Warner. Don't feel any constraints. Go ahead and 
let us have it. [Laughter.]
    Secretary Rumsfeld. I appreciate the invitation.
    It is a problem. Let me first look at it in a macro sense. 
We are conducting a global war on terror with peacetime 
constraints, in large part. If you think of the different 
circumstances we can be in--we can be at peace; we can be in a 
partial emergency situation, where we have partial authorities; 
you could be over in full mobilization; you could be in a 
declared war--and the authorities that Congress delegates to 
the executive branch change. They change depending on which 
circumstance we're in.
    What is the global war on terror? Where does it fit across 
that spectrum? How ought we to be arranged for this period, 
which could be a long, tough period, a dangerous period, in the 
21st century where technologies have evolved, where things move 
faster? That would be a very useful thing for Congress to 
address. I think it could be done usefully, and I think it 
could be--significantly inform what we do so we could look at 
it in a macro sense rather than each little piece.
    Do we need better contracting authorities in a crisis? 
Ought the DOD to be--ought we to be able to do more with 
respect to training and equipping foreign forces, so we can use 
them instead of our forces, when it costs a fraction as much? 
Yet we're all tangled up in that issue, for 3 years now. We 
weren't able to do the training and equipping for the Afghan 
army after the war. We had to go around tin-cupping the world. 
So there's a--this is a big issue. It's an important issue.
    Now, with respect to the committee situation, sure--I mean, 
I'm not an intelligence expert, and I don't have to testify on 
intelligence matters, normally. But if we're worried about 
keeping a secret, if we're worried about congressional 
oversight and assuring that Congress has a full role in a fast-
moving world, I would think that smaller committees or a joint 
committee on intelligence might very well serve that need 
better. I would think that--it's none of my business, again--
but the idea that there's a--people who get to be experts on 
intelligence then have to leave the committee, as I understand 
it, on a rotating basis--maybe that's a good idea; maybe it 
isn't a good idea. I think there are things that Congress could 
do.
    Clearly--you mentioned the homeland security situation, and 
the multiplicity of committees--Dr. Cambone, I think, and John 
McLaughlin mentioned the number of committees that have to 
approve reprogramming. If we're building a budget one year, 
getting it approved the next, and not implementing it until the 
third year, the idea that you have to spend 4, 5 months trying 
to get a change in a budget that you know you're going to need 
changes in is mindless in the 21st century. We have to fix 
that.
    Chairman Warner. Dr. McLaughlin?
    Senator Dole. Thank you.
    Mr. McLaughlin. Senator, those are really important 
questions, and I welcome the chance to comment on them.
    First, for the Intelligence Community--and CIA, in 
particular--engagement with Congress is very important. In 
2003, we had something like 1,200 separate meetings with 
Congress. These weren't with committees now. Some were with 
committees, but I'm including in that count briefings to 
individual Members and so forth. In 2004, the number is up to 
about 780. I'm not complaining. This is important to us. It's 
important to us for a number of reasons--those kinds of 
meetings, plus oversight.
    With the military, the military's connected to the American 
people in a variety of ways. So many people serve in the 
military, every town has a recruitment station. People 
understand the military.
    People don't understand intelligence, generally. We don't 
have a natural constituency. Our oversight process is the thing 
that really ties us to the American people in very important 
ways. So let me say that I start as a strong supporter of 
oversight, and believe it's essential, actually, to the health 
of this community.
    Now, I wouldn't make any recommendations about committee 
structure--one, two, or more. At present, we typically report 
to about six committees when we do our budget, and I think you 
know which ones they are.
    I would comment a little bit about the way oversight works. 
I think the words, to me, that are most important--if I were 
characterizing the ideal oversight situation, the two words I 
would use would be ``continuous'' and ``constructive.'' In 
other words, oversight has tended to focus, I think, very 
heavily on our faults and our mistakes. I would not ask that it 
do anything less on those issues. In other words, when we make 
an error, when we make a mistake, it needs to be brought 
forward, and we need to address it with our oversight 
committees.
    I think there is more scope for what I would call the 
``constructive''--that's constructive, in its own way--but for 
a different kind of oversight that also includes frequent 
engagement with us on issues of the day. Oversight committees 
ought to have more hearings on things like what's going on in 
China, what's going on in Iran, exploring the issue. Oversight 
committees also ought to look more carefully at our successes, 
not to give us a pat on the back, but to learn from why we've 
succeeded somewhere. How is it that we took down the A.Q. Khan 
network? How did that happen? How is it that we have captured 
so many leading figures in al Qaeda since September 11? How did 
that happen? Now, it isn't just an academic question, because 
embedded in the ``How did it happen?'' is ``What do we need?'' 
to do more of that. My own view, in my own experience, not 
enough of that goes on in the oversight process.
    So----
    Chairman Warner. Thank you. I must----
    Mr. McLaughlin.--I would just stop there.
    Chairman Warner.--interrupt, if I may.
    Senator Dole. Thank you for excellent comments.
    Chairman Warner. This panel has to be at the White House at 
promptly 2:30. We have five, six Senators that have yet to have 
their opportunity.
    So I thank you, Senator, and I thank you, Dr. McLaughlin. 
You may extend your remarks, for the purpose of the record, 
voluminously, if you so desire.
    Mr. McLaughlin. I was finished.
    Chairman Warner. Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman, gentlemen.
    Mr. Secretary, the 9/11 Commission report, according--here 
on page 43, states, ``In most cases the chain of command 
authorizing the use of force runs from the President to the 
Secretary of Defense, from the Secretary to the combatant 
commander.'' President Bush, because of--by his account and 
others, communications problems onboard Air Force One that 
morning, was having difficulty establishing communication with 
the Vice President on a consistent basis. The Commission goes 
on to say here that the President spoke with you for the first 
time shortly after 10 o'clock, which would have been almost 2 
hours after the first hijacking began. No one can recall the 
content of this conversation, but it was a brief call in which 
the subject of the shoot-down of these incoming hijacked 
planes, authority, was not discussed. At 10:39, the Vice 
President updated you on the air threat. The Vice President 
was, understandably, under the belief that since he had 
communicated twice, possibly three times, according to this 
report, through a military aid to North American Aerospace 
Defense Command (NORAD), the authority from the President to 
shoot down an incoming plane that did not detour, that that was 
the instruction that had been passed on. The NORAD commander 
told the Commission--both the mission commander and the senior 
weapons director of NORAD indicated--and according to, again, 
the Commission report, they did not pass the order to the 
fighters circling Washington and New York because they were 
unsure how the pilots would or should proceed with this 
guidance.
    What is the necessary chain of command to be established so 
that an order directed from the President verbally from the 
Vice President to NORAD is carried out--or is communicated, I 
should say, to those who must carry it out?
    Secretary Rumsfeld. Dick Myers and Dr. Cambone were with me 
that day. The way you've stated it is not the way I recall it, 
the 2-hour figure you used. My recollection is, the first tower 
was hit sometime around 8:46, I think.
    Senator Dayton. Sir, I said the first hijacking commenced 
at 8:14.
    Secretary Rumsfeld. Oh, the first hijacking, I beg your 
pardon.
    Senator Dayton. You're right, though, about an hour and a 
half after the first plane----
    Secretary Rumsfeld. I think the way to respond to this, 
Senator, is as follows. Under the way the national security 
arrangement is, and was--I should say ``was''--the 
responsibility of the DOD was essentially to defend our country 
from external threats. Indeed, the responsibility for internal 
threats, which is obviously what was taking place on September 
11, not an external threat--it was from within the country--was 
the responsibility of the FBI, and, in the case of a hijacked 
aircraft, the Federal Aviation Administration (FAA). The 
responsibilities of DOD was as a supporter of an attack on our 
country, in the event we were asked. But Congress and the 
country has, for many decades, kept the DOD out of the law 
enforcement business, out of the crime business, out of 
internal law enforcement issues under the Posse Comitatus Act.
    So the DOD was oriented externally. Our radars were pointed 
out, not in. The FAA was the one that then had the 
responsibility to say, ``There's a hijack,'' and then ask the 
DOD, say, ``will you track and report on that hijacking?''--the 
hijacking, traditionally, being a situation where a plane is 
taken for the purpose of going someplace and then getting some 
political advantage for it, not flying it into a building.
    So the way you characterized the chain of command is 
correct--from the President to the Secretary of Defense to the 
combatant commander--but it applied to things from external 
threats, not the responsibility of the FBI or the FAA.
    Senator Dayton. I respect, sir, that the circumstances of 
that morning were very different from what anybody had 
foreseen. Given, however, that the Vice President, at that 
point, from the command-control bunker of the White House is 
communicating--again, I'm using the 9/11 Commission report's 
information here--via military aide, to NORAD the President's 
verbal authority to shoot down a plane, and that information is 
not--that instruction is not communicated, then, to the fighter 
pilots circling the United States Capital and New York City, is 
that the way it's supposed to function? Would that happen again 
if we were to be surprised again today?
    Secretary Rumsfeld. I'm going to ask General Myers to add 
to this, but the answer is, of course not. Since that day, a 
great many adjustments and changes have been made, and we have 
various types of fighter aircraft on alert. We have established 
an Assistant Secretary for Homeland Security in the DOD. We 
have established a Northern Command, that never existed, for 
the DOD to be addressing the homeland security issues from a 
Defense Department standpoint. We have a new Department of 
Homeland Security that exists. There's just a dozen things that 
are different.
    The way to stop airplanes is, clearly, from the ground--
that is to say, to have air marshals and to have reinforced 
doors and to have baggage inspections and to not allow 
terrorists on aircraft that they can then take that aircraft 
and fly it into a building.
    Now, as a last resort, is it possible that we could shoot 
down an aircraft in the event that was necessary? Yes, it's 
possible. Airplanes fly right past the Pentagon every 5 
minutes, and what it takes is simply to lower your nose and go 
into something. Could we stop that? No. I mean, the fact of the 
matter is, with all the airplanes flying around in the skies, 
it is not possible to do it in many instances. We do spend a 
lot of money and a lot of effort to try to stop it, both from 
the ground and from the air.
    The answer to your question is, yes, a great deal has 
changed.
    Senator Dayton. Anyway, my time has expired. Mr. Chairman, 
if I may just ask the----
    Chairman Warner. Let's have General Myers----
    General Myers. Yes, sir.
    Senator Dayton.--may I ask him also--well, yes, sir.
    Chairman Warner. Go ahead, Senator.
    General Myers. Senator Dayton, I would just add, to the 
Secretary's remarks, now that NORAD is focused inward as well 
as externally, that there are rules of engagement that have 
been promulgated, that are well-understood--in a classified 
session or outside this room we could talk about that, if you 
want to--but they're very well-understood up and down the chain 
of command, and it's practiced all the time.
    Clearly, we're talking about some very serious issues here, 
as the Secretary said. It also involves ground defenses, not 
just air defenses. But the rules of engagement, the command and 
control structure that's set in there is completely different 
because the mission for NORAD changed after September 11, and 
no longer were they asked to look just externally, but also 
internally.
    The relationship between NORAD and the FAA has also changed 
dramatically, and we've worked those arrangements where we 
have, I think, very good communications today. I talked to 
General Eberhardt today about that particular issue, and he 
certainly agrees.
    Senator Dayton. Mr. Chairman, if I may just ask that he 
respond, also--Mr. Chairman, if you would--in writing, to the--
I think it's inference, but it's also really an explicit 
accusation made in the substance of the report on, 
particularly, page 34, that NORAD's testimony, 20 months after 
September 11, to the 9/11 Commission about the sequence of 
events, particularly the failure of the FAA to inform NORAD in 
a timely basis of three of the four hijackings, was inaccurate. 
The statement made by NORAD publicly 1 week after September 11, 
which is very similar to that testimony made 20 months later, 
was also inaccurate, seriously misleading anybody trying to 
assess the response and non-response that day in a way that I 
think is far more alarming about FAA's failure--proper response 
than NORAD's, but I--if you would please review that testimony 
and see, because I don't believe anybody has held those 
discrepancies--or anyone to account for those discrepancies 
that I consider them to be--more than just oversights. I think 
they're serious misrepresentations of the facts. Thank you.
    Senator Dayton. Thank you, Mr. Chairman.
    General Myers. Could I make just a comment on that, Senator 
Dayton? I liken this to an accident investigation board when an 
aircraft crashes. I've been a reviewing official at the table 
at many of those. Normally what happens when an incident 
happens, there is the first report, which has some accuracies 
and many inaccuracies. So statements, what people believe 
happened immediately afterwards and in the next week or 2 
weeks, is what they believe. But as they continue to harvest 
the facts, and as we go to machines that record things--like 
aircraft recorders, like radar scope recorders, and so forth--
the facts become clearer, and what people thought they saw or 
thought they understood or thought they heard changes over 
time. That's the nature of these kind of investigations.
    I think NORAD would be the first to say that, because of 
the access that the 9/11 Commission had to certain parts of 
this apparatus that was collecting this data, that it sharpened 
their focus, too, and things they thought happened turned out 
to be either different or incomplete. It took a lot of work and 
a lot of months to come to what was ground truth. The same 
thing is true in accident investigations. It takes us sometimes 
many months to come to ground truth, and what people thought 
they heard, what they thought they saw, will be changed as they 
review the facts. I think that's the case.
    I've talked to General Eberhardt about this. I do not know 
what the motivation of NORAD would be to ever lie or deceive. I 
mean, that's not what they're pledged to do. They're pledged to 
do the same thing we all are, in uniform, and that's defend 
this country. I would take exception to anybody that thinks 
they had any other motive.
    Chairman Warner. Thank you very much, General.
    Senator Dayton. If I could say, Mr. Chairman, this 20 is 
months after--sworn testimony to the Commission 20 months after 
the event, I think, is worthy of your scrutiny, please. 
Furthermore, because--I bring this up, not just for historical 
reasons--2 months ago--and if you have a chance to review the 
circumstances, the plane that caused the evacuation of the 
Capitol complex, with thousands of people running for their 
lives here, being informed to do so by the Capitol Police 
because of, again, a failure of FAA--and that's almost entirely 
based on the evidence I have--their failure to communicate just 
basic information to air defense, to anyone else, including the 
Capitol Police, that we had a situation there, the closest 
simulation I think we could possibly have--because people 
thought it was a real threat, until they found out otherwise--
that we could have--and here, 2\1/2\ years after September 11 
has occurred, we find, basically, again, a complete breakdown 
of communication by the Federal authorities--and, again, 
primarily FAA--but to National Defense Command and to others so 
that we don't have a response. We talk about things not 
changing as a result of September 11, this, to me, is the most 
horrific example that I could imagine. If we don't deal with 
the fact that we failed----
    Chairman Warner. Senator----
    Senator Dayton.--now a second time on the basic elements of 
communication and----
    Chairman Warner. Senator, I have to----
    Senator Dayton.--following protocols----
    Chairman Warner. Thank you.
    Senator Dayton.--and procedures. Sir, I waited, sir, for 3 
and 4 hours here----
    Chairman Warner. Yes----
    Senator Dayton.--if I just may finish.
    Chairman Warner.--but you're cutting out the time of other 
Senators to be able to ask----
    Senator Dayton. I've waited----
    Chairman Warner.--a single question.
    Senator Dayton.--a long time, sir.
    Chairman Warner. I ask your indulgence to supply, for the 
record, please, so that I can turn----
    Senator Dayton. Before September 11 happens again, I ask 
that we review that evidence.
    Thank you.
    General Myers. Senator Dayton, I'll respond to that, for 
the record, if I may, Mr. Chairman and Senators.
    [The information referred to follows:]

    The incident in question involved the Governor of Kentucky's 
aircraft. Despite communication shortfalls, the end result is that the 
checks and balances in effect prevented a tragedy from taking place. 
The North American Aerospace Defense Command (NORAD) took appropriate 
action and did not shoot down the aircraft.
    The Kentucky Governor's aircraft did not have a pre-flight waiver 
for flying into the Air Defense Identification Zone (ADIZ) without a 
transponder. Upon airborne notification of a transponder malfunction, 
the pilot requested and the Federal Aviation Administration (FAA) 
granted permission to continue to Ronald Reagan Washington National 
Airport. NORAD was not informed that the aircraft would be permitted to 
fly into the ADIZ without a functioning transponder and that FAA 
controllers were in communication with the plane. However, NORAD assets 
tracked and positively identified the aircraft prior to its landing.
    Since the incident, FAA has made it mandatory that all aircraft 
must have an operational transponder in order to enter the National 
Capital Region ADIZ. In addition, FAA has provided the same radar 
displays used by Potomac Terminal Radar Control to people in the 
National Capital Region Command Center.

    Chairman Warner. I'm going to have to ask, respectfully, 
that you provide--this is an important colloquy, but I've had 
Senators waiting just as long.
    Senator Cornyn, it is your time.
    Please reply for the record, General.
    Senator Cornyn. Undoubtedly, the 9/11 Commission has 
performed an important public service. But, by definition, 
their focus was on the causes of that terrible event on that 
terrible day. I think we should all be chastened by some of the 
testimony we've already heard here today that any solution 
should logically flow from the problem that has been 
identified--or, I believe, Director McLaughlin, you said the 
form ought to follow the function. I think that's good advice.
    It seems to me that a number of the solutions are directed 
toward preventing another September 11. For example, the 
National Counterterrorism Center, perhaps, something that's 
been described as ``TTIC on steroids,'' the congressional 
oversight reform, which I think is an important subject, and 
which--it's been touched on a little bit today. But I guess the 
question I have really relates to the National Intelligence 
Director, because it seems to me that, in some ways, what we're 
doing is creating a position and then trying to find things for 
that person to do, which, to me, seems like the opposite of how 
we ought to address it, because I do believe that we ought to 
let the form follow the function, or the solution logically 
flow from the problems that have been identified.
    Which leads me to the question--Director McLaughlin, 
specifically--you alluded to a number of things that have 
happened since September 11 which have made America safer: 
passage of the Patriot Act, tearing down the wall between law 
enforcement and intelligence authorities, creation of the 
Department of Homeland Security, creation of the Terrorist 
Threat Integration Center. But could you tell us, sir, today, 
what additional authority could this Congress provide to you, 
as the Director of Central Intelligence, or to the National 
Intelligence Director, that would make this country safer and 
which would be more likely to prevent another September 11?
    Mr. McLaughlin. I think--I would start by the things that, 
from where I sit, I need most at this point in the fight 
against terrorism. The first thing I would say is, I need more 
experienced people. We've done a lot since September 11 and in 
the last 5 or 6 years to build up our staff that is on the 
front line against terrorism, but we need still more people, 
and we need them with experience.
    The second thing I need in order to get that is still more 
time, in the sense that you don't produce those kinds of people 
overnight; they have to be in the pipeline, they have to be 
training, they have to be in the field, they have to learn 
their business. So as much as we have improved, there's still a 
ways to go on that score.
    Looking through the 9/11 recommendations, the things that 
jump out at me as things that would most improve our 
counterterrorism posture are things like a common 
intelligence--a common information-technology architecture for 
the Intelligence Community. At the end of the day, sharing 
intelligence, sharing information, means moving information. I 
think counterterrorism, at the end of the day, is--apart from 
the people who fight terrorists--all about fusing information. 
It's about taking the information you get from some highway 
patrolman in Indiana, some agent of yours in the Middle East, 
an overhead satellite, an intercepted conversation, and having 
that all come together on a desk somewhere, where someone looks 
at it and says, ``I see connections that I didn't see before.''
    So that means putting people together, as we have in TTIC. 
To the extent that--if you walk through TTIC now, you would see 
that the thing they probably most need to deal with the 26 
networks that flow into that place is a common information 
architecture to merge them all together so that every 
individual has all of that information popping up on their 
screen every day.
    Now, I should be brief here, but the other thing is, if you 
want to look at these recommendations, and you wanted to pick 
out something that would make a difference, I think a separate 
budget appropriation for the NFIP would make a difference; that 
is, separating that out so that it would have, just by virtue 
of its separation, fewer congressional committees to go 
through. It would make a lot of things simpler.
    I could go on, but those are the first things that occur to 
me.
    Senator Cornyn. I know all of us are interested in 
improving our intelligence outputs, and I hope we just don't 
look at budgetary inputs and minutia like that when we really 
need to be focusing on, ``How do we improve our intelligence 
and not do anything that would harm what we currently have, or 
the improvements that have occurred since September 11, and 
perhaps other unintended results that would be detrimental to 
the security of our country?''
    Mr. McLaughlin. That's why I say the fusion of data is most 
important. If you bring it together, and you see the picture, 
and then you have the ability to act on it, as we must, 
literally within minutes, transmitting a picture that we've 
developed to someone in the field who takes action, anything 
that helps that fusion and transmission is critical.
    Senator Cornyn. Thank you, my time is up.
    Chairman Warner. Thank you, Senator, for your courtesy.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country. I 
deeply appreciate your grappling with these tremendously 
important issues. I know they're not easy. While we want to 
move with as much haste as possible, it is important that we 
get it right. So I thank you for your dedication to that.
    It seems to me that we, Mr. Chairman, have all gathered 
here for the same purpose. We may have different ways of 
getting to the goal, but it's to try and prevent a future 
September 11. It seems to me that our ability to accomplish 
that objective is going to depend upon how well we grapple with 
the profound change that has swept the world since over the 
last 50 to 60 years when the Intelligence Community was first 
organized, and particularly the last 15 to 20--rogue nations, 
collapsed states, non-state actors, proliferation of weapons of 
mass destruction that are difficult to contemplate.
    My concern, gentlemen, is that in the private sector, there 
is an engine for change. It's the bottom line. You either 
succeed or you perish, and that's fought each and every day. In 
the governmental-side thing, you don't have quite the same 
impetus to stay up with the changing times, and so governments 
adapt more slowly. It sometimes takes a great shock, as we have 
experienced, to serve as the impetus for the kind of change 
that is necessary.
    So I think, while we want to make sure we get it right, at 
the same time, I hope we can think big, and use this as an--not 
just as a challenge to be met, but as an opportunity to perhaps 
make some of the changes that, in government, are too often too 
long in the coming.
    I am somewhat concerned, not by what you've said here 
today, but just the general drift of events, that perhaps we 
have let the moment pass, that the momentum for constructive 
change has been dissipating, that perhaps the bureaucratic and 
congressional inertia is reasserting itself. I hope that's not 
the case, but I am somewhat concerned.
    So I have one question, Mr. McLaughlin, for you, and then 
two observations that I'd like to make before my time expires.
    My question, Mr. McLaughlin, is a followup on something 
that Senator Collins first raised. I'd like to ask it in a 
little bit different way. That is, the comment's been made by 
members of the committee and the panelists here today that 
we're at war. That is undeniably true, we are at war. This 
observation was, I think, first made by a previous DCI, Mr. 
McLaughlin, even before September 11, when Mr. Tenet observed 
that Osama bin Laden has declared war on us, and we are at war 
with him, and he sought to mobilize the resources of the 
community. But, in the opinion of the 9/11 Commission, 
apparently the message wasn't received or internalized by 
enough people. I think the head of the NSA, when I asked about 
that statement--and his response was, he wasn't aware that the 
DCI had declared war on al Qaeda.
    My question to you, George Tenet was not a wallflower. He 
was a fairly strong personality. I can't think that he didn't 
make his wishes known. What powers did he lack to put into 
effect the notion that we were at war, and that we needed to 
mobilize ourselves as if we were at war, and act as though we 
were at war? What powers does the DCI lack that prevented him 
from acting upon his observation?
    Mr. McLaughlin. Well, it's a----
    Senator Bayh.--or getting others to act upon his 
observation.
    Mr. McLaughlin. Yes. It's a complicated question and a 
complicated answer, but I'll be brief.
    I think the 9/11 Commission probably underrated, to some 
degree, the responsiveness that we saw. That said, it probably 
wasn't all that it should have been. There are many reasons for 
this. Part of them may lie in authorities. Inevitably, if a 
Director has authority to move people and money and individuals 
rather than relying on the power of persuasion and the force of 
personality that you allude to, the Director can do more things 
more rapidly.
    TTIC is a good example. I was able to put 60 people in TTIC 
overnight, because they were my people. I took them right out 
of CIA and put them there. A week after I said go, they were 
going. So there's a directness of authority that improves 
things.
    Senator Bayh. But could I--I don't want to cut you short--
forgive me for that. Let me cut to the chase here. We had a 
long set of discussions about the whole budget issue----
    Mr. McLaughlin. Yes.
    Senator Bayh.--which is one of the things we need to do. I 
understand the administration is grappling with that. In your 
opinion, if there had been a different alignment of budgetary 
authority, as has been suggested by the Commission and the DCI, 
would it have elicited a different response?
    Mr. McLaughlin. If it would have hastened and made more 
direct the Director's ability to put people together and 
determine what they were doing, day in and day out, yes, it 
would have made a difference.
    Senator Bayh. I suspect it would have. Let me follow up----
    Mr. McLaughlin. There are other things in the climate. I 
just need to say, though, that it isn't just--in that time, it 
wasn't just budget authority; it was that--for lack of a better 
term, the crystalizing event of September 11 had not happened. 
Even in the summer of 2001, when we had high threat warning, it 
was still difficult, not just for people in the United States, 
but for our liaison partners, our intelligence partners 
overseas, to digest the seriousness of it. Once that event 
occurred, as I said in my testimony, everything changed, and 
the limited authorities we had were more effective. So that's 
part of it, too.
    Senator Bayh. We all see the world differently following 
September 11 than before. But it did strike me that it was with 
some remarkable clairvoyance that he announced we were at war.
    Mr. McLaughlin. Oh, and he said it in worldwide threat 
testimonies, in 1998, 1999, and----
    Senator Bayh. My two observations, and then my time has 
expired, are as follows. First, Mr. McLaughlin, you said that--
I think you asked--you said the most important question we 
needed to keep in mind is, who will we hold responsible? I 
think that's right. But I would disagree with you when you said 
that today it's the DCI. From my point of view, if we were to 
ask those who were responsible to appear before us today, it 
would be three or four individuals. All of you have the 
authority. You have mentioned that actually enforcing the 
authority is sometimes difficult, takes the force of 
personality, working collegially, those kinds of things. There 
may be other issues there. It seems to me today the person we 
hold responsible is the Commander in Chief, the President of 
the United States. I wonder if that situation serves him or the 
Nation well, and that, regardless of how we come down--and 
whether it's a DCI with more authority, a NID without--a super-
empowered NID, a NID that's just simply serving a coordinating 
function--we do need to try, as much as we can, to answer that 
question, ``Who do we hold responsible?'' In some ways, I think 
you were being a little tough on yourself.
    My final observation, Mr. Secretary, deals with something 
you mentioned. I said to Senator Lieberman--he left the room--
he said he thought the dog hadn't barked. I said, ``You missed 
the Secretary's enthusiasm for the subject of congressional 
reform. That certainly energized his testimony.'' My comment 
simply would be--it's something that I think is absolutely 
appropriate--I hope that Congress--Congress's zeal for reform 
will involve as much a look in the mirror as it does a scrutiny 
of what you do. Because, from my vantage point, we take up a 
lot of your time, and yet our oversight is more the appearance 
of oversight than efficient oversight, in fact. So I hope that 
meaningful congressional reform will be a part of this agenda. 
I think we will all know it has arrived when some of us have 
been willing to cede some of our authority for the cause of 
reform, as much as it is asking you to look at what you do and 
perhaps cede some of yours.
    Thank you, Mr. Chairman.
    Secretary Rumsfeld. I do, Senator, very briefly. Thank you 
very much, Senator.
    Anyone in positions of responsibility who has lived through 
September 11 feels an enormous sense of urgency. Do not think 
for a minute that that sense of urgency is not there. It is, 
and we are determined to continue to force this system to 
perform better for the American people and the country.
    A second comment. You said, ``Who's accountable?'' I think 
the--it's important to say, ``Who's accountable for what?'' 
Because there's a tendency to equate counterterrorism--you said 
we're here to avoid another September 11--that's true, to be 
sure. But we're dealing with the entire Intelligence Community, 
and the entire Intelligence Community has tasks well beyond 
counterterrorism. We have counterproliferation, we have 
intelligence for the warfighter, there are tasks of deterring 
and defending--and, if necessary, fighting--for this country 
that the Intelligence Community contributes to all of that. We 
ought not to think that the task before us is to redesign the 
Intelligence Community to fit one of the many important 
functions that it has.
    Chairman Warner. Thank you very much.
    Senator Talent.
    Senator Talent. Thanks, Mr. Chairman.
    Senator Bayh's comments and the Secretary's comments are a 
good segue for me into my areas of interest.
    First of all, empowering the DCI--I'm glad Senator Bayh 
said what I've been thinking the whole hearing--the President 
can empower the DCI, anytime he wants to, to move budgets 
around or personnel around, isn't that right, Mr. McLaughlin?
    Mr. McLaughlin. There is a statute that determines all of 
that. It's in the--there are legislative requirements, I think.
    Senator Talent. Yes. I don't know that I want DCIs to be 
declaring war on anything on their own authority, under this 
system or a new system. I thought that's what the President 
did, and Congress did.
    Let me go into the whole issue. Rather than me going into 
the whole issue, I'm going to focus on one thing, given the 
lack of time, but on the National Intelligence Director 
proposal, and particularly with regard to those aspects of the 
Intelligence Community that today support warfighters, which 
Secretary Rumsfeld mentioned.
    If Congress created a directorate, as has been proposed, 
and gave the Director authority over budgets and personnel, and 
that Director decided that too much of the NSA's or the NGA's 
or the NRO's resources were going to support combat operations 
on the ground, and wanted to draw resources away--under that 
scenario I've painted, who could overrule that decision? If we 
empowered him with control over budgets and personnel--by 
definition, the only person would be the President, right? He'd 
be, effectively, a Cabinet-level officer, acting on behalf of 
the agencies in this department.
    Mr. McLaughlin. Yes, that's correct. I would say, though, 
that it's very difficult for me to imagine circumstances in 
which anyone who heads the Intelligence Community would arrive 
at the conclusion you just arrived at. For example, I 
understand that in the case of those agencies, NSA, NGA and so 
forth, I think there's a--the Chairman will correct me if I'm 
wrong--biannual review of their combat readiness, or their 
readiness to support combat. That would have to continue. I 
would recommend that whoever has this authority, that would 
have to continue. So I just can't imagine circumstances where 
someone would take away from that accessability.
    Senator Talent. I've heard this repeatedly, ``We can't 
imagine the circumstances where we give somebody a power and he 
would not exercise it in a way that we don't agree with.'' 
Maybe that would be the case in the next 6 months or the next 
year. We don't know what's going to happen 2, 3, or 4 years 
from now. Probably this Director is going to be somebody who 
comes from the civilian Intelligence Community, comes from 
somebody who's interested in covert operations or non-
proliferation or domestic surveillance--I'm not trying to argue 
with you, Mr. McLaughlin, I'm trying to air my concerns here.
    The only person I think could overrule him would be the 
President. Where is the President, under this scenario I've 
painted, getting his view of intelligence and intelligence 
priorities? From this person. So the President's hearing--and 
because we don't want him to hear a whole lot of different 
views, he's getting one view from this Director, who then says, 
after presenting it, ``Mr. President, I really think we need to 
take some of these resources and personnel away from combat 
support operations, because that's okay right now, and we need 
to put it into this counterintelligence. If we don't, we can't 
prevent another September 11.'' What's the President going to 
do?
    Or, under the current system, this committee would have 
something to say about it, because we have jurisdiction over 
the activities of the armed services. But if we followed 
through with the recommendations and turned all congressional 
jurisdiction over to one committee--and who would they be 
hearing from? Who would they be getting their intelligence 
information from? This one person.
    We're all presenting this as if this can't possibly happen. 
Let's think back on people who have run intelligence agencies 
and who have acquired a great deal of power, over time, at 
least over their particular areas. I think we're rushing--as 
Secretary Schlesinger said yesterday before the committee--that 
fools rush in where angels fear to tread.
    You say--near the end, Mr. McLaughlin, you say you'd also 
see more progress by a DCI or NID on things like common 
policies for personnel, training, security, and information 
technology. The NSA, the NGA, the NRO, their personnel and 
training policies, and certainly their information technology, 
are designed to be compatible with what's going on in the rest 
of the department that they support. Isn't that correct?
    Mr. McLaughlin. For the most part.
    Senator Talent. Yes, and so----
    Mr. McLaughlin. They also support other departments.
    Senator Talent. I got you. But--so we could have a 
Director, the NID who says, ``I'm not so sure I agree with how 
the Army is setting up the architecture for future combat 
systems. I don't know that I want our satellite technology to 
fit in exactly with that.'' Then if he decided that, who'd be 
in a position to tell him he was wrong?
    Mr. McLaughlin. I also said in my testimony--and bear in 
mind now, it's important----
    Senator Talent. I understand you're not----
    Mr. McLaughlin. No, but it's important to----
    Senator Talent. I'm deliberately using you as----
    Mr. McLaughlin.--step back----
    Senator Talent.--a sounding board, because these are my 
concerns.
    Mr. McLaughlin. It's important to step back here and say 
the Intelligence Community didn't raise this. We're all talking 
about it because it was raised by the 9/11 Commission. You need 
our professional judgment on what would happen if you did what 
the Commission recommends. That's just to get that in context 
here.
    So my view would be, if you did what the Commission 
recommended here, with the National Intelligence Director, you 
would need the assurance--you raise a valid question--that that 
National Intelligence Director would not take away from the 
combat support capabilities of those agencies. You might need 
to have that assurance through an executive order. You might 
need to have it through legislation. But you would need that 
assurance. Anyone who enacts this would need to build that into 
the system.
    Senator Talent. I appreciate that, and your service and 
your testimony.
    Mr. Chairman, I agree with something you said right at the 
outset of this. This is the committee--it's been our 
responsibility and our privilege to make sure that our men and 
women in the field have what they need to defend us, and for as 
many of them to come home as possible. I know you and the 
ranking member take that very seriously. I think we need to 
look at this with that in view.
    The one part of the intelligence operation that we all 
agree is working is the support of these agencies of tactical 
combat operations, and we don't want to--we don't want to break 
what isn't broken in an attempt to fix what is.
    I thank you, Mr. Chairman.
    Chairman Warner. Senator Clinton. Thank you for your 
patience, Senator.
    Senator Clinton. Thank you, Mr. Chairman. I thank you for 
holding these hearings.
    There are so many questions, and so little time, and 
everyone has been here for so long, I would ask unanimous 
consent to submit some additional questions for the record, Mr. 
Chairman.
    Chairman Warner. The record will remain open until the 
close of business today for further questions to the panel by 
all members.
    Senator Clinton. Thank you.
    Senator Clinton. There are a number of questions that the 
September 11 families have provided that I feel are very 
important, and I want to submit them.
    Senator Dayton was able to ask a variety of questions about 
the activities on the day of September 11, the chain of 
command, NORAD, et cetera. I think he will be furthering those, 
and I will add to them, as well.
    I don't think any of us disagree with the very strong 
assumption that whatever we do cannot, and should not, in any 
way undermine the provision of intelligence to our warfighters 
and our combatant commanders. But I think there is a concern on 
the part of, not just the September 11 families, but many 
people who have watched the interplay between the DOD and the 
intelligence agencies and the provision of information to the 
Commander in Chief over a number of years, that, at the end of 
the day, the Defense Department has an enormous amount of 
authority, both explicit and implicit, which it operates under, 
and which it does use to influence how intelligence is not only 
collected and analyzed, but how it's used for decisionmaking.
    So among the questions that the September 11 families have 
asked me to pose to you, Secretary Rumsfeld, are the following:
    Imagine, for the sake of argument, that there is an NID, as 
proposed by the 9/11 Commission. What are the assurances that 
you would need in the legislation that would enable you to feel 
comfortable that the warfighters and combatant commanders were 
provided for and that the primary obligation of providing 
tactical intelligence was protected?
    Second, with respect to tactical intelligence, I think it 
is important, as I said yesterday, that we not go into this 
assuming that everything is 100 percent perfect in the area of 
tactical intelligence. I think that would be a mistake. I think 
that there are questions that need to be raised, and among them 
are those that have been raised by officers who have testified 
before this committee, starting last spring, with respect to 
lessons learned. In the 9/11 Commission, pages 210 to 212, 
there is a description of the coordination problems between DOD 
and CIA that resulted in what they call a missed opportunity to 
use armed Predators to attack Osama bin Laden. There have also 
been questions raised with respect to the intelligence that was 
used, or not used, in the battle situation known as Tora Bora. 
So I think that part of our obligation on this committee is, 
not just to assume that everything DOD does has a level of 
perfection, and we're only looking at the intelligence outside 
of DOD. I know that, inside DOD, there are lots of after-action 
reports and lessons learned, and I think it's important that, 
as we proceed with his inquiry as to how to reform 
intelligence, we have the advantage of your recommendations 
with respect to changes at the tactical level that could 
influence some of these decisions going up the chain.
    Finally--this is also directed to Under Secretary Cambone--
it is bewildering to me that there were pieces of information 
within DOD, within CIA, within FBI that were not shared. That 
has nothing to do with budget authority, it has nothing to do 
with human intelligence capacity. It has to do with a breakdown 
somewhere in the chain that would have gotten information 
pushed to the top and shared among respective agencies. If any 
of you can lend any light to the operational opportunities that 
were missed, again, as set forth in the 9/11 Commission on 
pages 355 and 356, I think for any of us who read this, it is 
very hard to understand how the FBI wouldn't be given 
information that the CIA had.
    That continued with respect to Iraq. As I understand the 
problems with the, so-called, source ``Curveball,'' that 
information was not conveyed to the CIA as to the background of 
this individual, the reliability of his information.
    So we can spend a lot of time talking about rearranging the 
boxes on the organization chart, but unless there is a 
fundamental commitment to the sharing of information at all 
levels--national, strategic, operational, tactical--we're just 
spinning our wheels.
    Finally, because I know you have to put in a lot of words 
before the time goes up, this whole question of secrecy is 
something that I think deserves a lot of attention. My 
predecessor, the late Senator Moynihan, wrote a book called 
``Secrecy,'' which I commend to you because in it he raises 
some very interesting questions about what we need to keep 
secret and what we don't need to keep secret. In fact, we have 
over-classified a whole lot of information that, if not kept 
secret, could have actually helped people at all levels of our 
government respond to situations that they were confronted by. 
It is, I think, a legitimate concern that we have to figure out 
how to keep secret what is worth keeping secret, but we have to 
quit this over-classifying, and create almost an incentive for 
people to share information, and sometimes to, I think, very 
detrimental consequences, such as the outing of Valerie Plame 
and also the latest outrage, which was the revealing of Mr. 
Khan's name. I find those things just inexcusable and 
unbelievable, and it happens all the time. So I think the whole 
question about secrecy, what should or couldn't be classified 
needs to be looked at at the same time.
    So, having exhausted, I'm sure, my time, I'd appreciate any 
response that any of you might have to any of these points.
    Secretary Rumsfeld. I'll leave the CIA/FBI piece to John 
McLaughlin, but let me just say that you're exactly right, that 
the problem of stovepiping and not sharing information is a 
serious one. It is addressed in this report by the 9/11 
Commission, properly. It's been addressed by the executive 
branch. It occurs not only between organizations, as you 
suggest, but within organizations.
    Second, I am familiar with Pat Moynihan's book ``Secrecy,'' 
and you're correct there, too, it is--when you're dealing with 
these things every day, I very often ask, ``Why is this 
classified,'' and, ``Give me a declassified version,'' that 
comes out almost the same. It is because, I suppose, people are 
busy; they want to be safe, not sorry; and there's a process, 
always, to review, after some period of time. But the over-
classification is, I agree, something that, very properly, 
ought to be addressed in a serious way, and we'd be happy to 
respond to some of the other questions and your comments, for 
the record.
    Senator Clinton. What about the issue of Curveball?
    Dr. Cambone.
    Mr. McLaughlin. That probably is--well, maybe Steve has a 
comment on it, but it's properly in my arena, as well.
    My sense, looking back at that one, was that the real 
problem, Senator Clinton, was the fact that we, collectively--
the Defense Intelligence Agency and CIA--did not have direct 
access to that source, which generated over a hundred 
technically--seemingly solid reports from a technical basis. I 
think that was the key thing that impeded our use of that 
source.
    I don't know whether Dr. Cambone has something to add on 
that or not.
    Chairman Warner. Thank you very much----
    Yes?
    Mr. McLaughlin. May I just answer one or two of your other 
points, Senator Clinton?
    On the secrecy issue, I think this is a complicated 
question in our age, and particularly when it comes to 
terrorism. If you think about it, back in the Cold War, or even 
prior to September 11, the kinds of secrets we had to go out 
and find were mostly in governments, ministries, cabinets, and 
so forth, overseas. Today, the enemy we're facing, particularly 
in terrorism, compartments secrets down to a handful of people 
in a cave somewhere. It's very well-documented in the 9/11 
report how few people knew about that.
    So what I take from this is, they use secrecy as a 
strategic weapon. It's a strategic weapon for them. Because 
it's asymmetric--asymmetrically, it works against us because we 
don't keep secrets very well. Most of what we have to say, most 
of what--it's all out there. As the Secretary said, they go to 
school on us.
    So while I support a lot of what Senator Moynihan had to 
say--and I'm familiar with his book--I just think we do need to 
rethink the whole secrecy thing when we're going against 
terrorists.
    On the information-sharing, this is another complicated 
issue. We have to be careful not to point fingers on this, 
because it is complicated. People have different memories of 
what was shared, what wasn't shared. CIA has some differences 
with the 9/11 Commission on this point, particularly on the 
issue of sharing with FBI. We have pointed out to them that the 
original reporting, for example, on the two hijackers--pointed 
out to the 9/11 Commission--that the original intelligence on 
them was available to a wide array of agencies, including FBI, 
CIA, NSA, State Department, and so forth. We pointed out to 
them that we made an association, with the FBI, between one of 
these hijackers and the U.S.S. Cole bomber, one of the U.S.S. 
Cole bombers, Khaled, in approximately December 2000, I believe 
it was. For some reason, they didn't accept that, and the 
report says what it does. That said, there were many instances 
where information wasn't shared. But I just think it's been a 
bit overdrawn in the report.
    Chairman Warner. Thank you, Director McLaughlin.
    Thank you, Senator Clinton.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. McLaughlin, I've heard the story often repeated that 
Zarqawi--is that the way you say the person's name?
    Mr. McLaughlin. Abu Musab al Zarqawi, yes.
    Senator Graham. Did he go to Baghdad, at any time, to 
receive healthcare treatment?
    Mr. McLaughlin. We think he did.
    Senator Graham. Okay. We think he went to Baghdad when 
Saddam Hussein was in power, is that correct?
    Mr. McLaughlin. Yes.
    Senator Graham. One thing that I've learned from looking at 
this report very briefly is, it tells us a lot about the past, 
and some things about the present, but it also tells us about 
the future. The one thing that I get from this report that I 
think we're overlooking a bit is that this war is going to go 
on a lot longer than any of us begin to realize. The report 
says, ``The enemy is just not terrorism, it is the threat posed 
specifically by Islamist terrorism, by Osama bin Laden, and 
others, who draw on a long tradition of extreme intolerance 
within a minority strain of Islam that does not distinguish 
politics from religion, and distorts both. The enemy is not 
Islam, the great world faith, but a perversion of Islam. The 
enemy goes beyond al Qaeda to include the radical ideological 
movement inspired in part by al Qaeda that has spawned other 
terrorist groups and violence. Thus, our strategy must match 
our means to two ends: dismantling the al Qaeda network and, in 
the long term, prevailing over the ideology that contributes to 
Islamist terrorism.''
    Do all of you agree that the American public needs to 
understand that, for years to come, we will be at war with 
these groups? Is that a correct statement? Do you agree with 
the 9/11 Commission's findings there?
    Mr. McLaughlin. I do.
    Senator Graham. Having said that, the structural changes 
that we're debating here today are important to me. Now, I've 
come away with one conclusion. If we're going to have a 
National Intelligence Director, he or she needs to be the 
person held accountable, and they need all the power, not part 
of the power.
    I came in here as a believer in that position. Now I'm not 
so sure. The reason I'm not so sure is because the functions 
you just described that you currently have--if given to the 
National Intelligence Director, I don't know how you 
incorporate all those functions and, at the same time, give the 
President a variety of options and a variety of opinions.
    But having said all of that, my question to you, Secretary 
Rumsfeld--the Commission tells us that if we're going to win 
this war, we have to deny our enemies sanctuaries. Could you 
tell the committee, without disclosing any secret information, 
what countries, in your opinion, are providing sanctuary to al 
Qaeda, or terrorist groups like al Qaeda, and what strategy do 
we have to dry up that sanctuary?
    Secretary Rumsfeld?
    Secretary Rumsfeld. Yes, I'm doing something that's 
strange: I'm thinking how to respond.
    Senator Graham. Because that's a tough question.
    Secretary Rumsfeld. It is a tough question.
    Senator Graham. Who are they, and what do we do about them?
    Secretary Rumsfeld. Let me answer the first question first. 
You talked about whether or not the NID ought to have all the 
power. I think it's terribly important that we ask ourselves 
the question, ``All the power for what?''
    Senator Graham. Right.
    Secretary Rumsfeld. You were talking about the global war 
on terror. The Intelligence Community, as we said, has a much 
broader set of tasks. We do not want to organize the 
Intelligence Community to fit one element----
    Senator Graham. Right.
    Secretary Rumsfeld. --important, to be sure--but to fit any 
one element, because the responsibilities are so broad.
    Second, with respect to sanctuaries, you used the phrase, 
``Which countries are providing it?'' There are sanctuaries 
that are provided by countries, as we know. There are also 
sanctuaries that are not provided by the countries at all. They 
have portions of their countries that they do not govern 
effectively, and cannot govern effectively. Then there are 
countries that aren't countries, that are--I mean, Somalia is a 
situation that is a geographical country, but, in terms of a 
government, it--I don't think it could be said--John, correct 
me if you disagree--but I don't think it could be said that 
they have a government that presides over the real estate in 
that country in an effective way.
    I guess the word ``sanctuary'' also is a problem, because 
you have to define it. Is the ability to use the banking system 
a sanctuary? Is the ability to use wire transfers, cyberspace, 
is that a sanctuary?
    We know that seams are used effectively. The Pakistan/
Afghan border is a problem. The Saudi/Yemeni border is a 
problem. The Syrian/Iraqi border is a problem. The Iranian 
border is a problem.
    We know that countries vary in their behavior with respect 
to terrorists, that some are aggressive and go after them, that 
some tolerate them and don't do much about them, and, in 
effect, are, kind of, fellow travelers with it, but not 
active----
    Senator Graham. Would Iran be in the country that tolerates 
and does very little about them?
    Secretary Rumsfeld. It's a mixture. I think John would be 
better to answer this. But clearly they are active with 
Hezbollah, and that's a terrorist organization by our 
definition. Clearly there have been, and probably are today, al 
Qaeda in Iran that they have not dealt with in a way that a 
country that was against al Qaeda would have done. They have 
had the Ansar al Islam organization back and forth across their 
borders.
    John, do you want to elaborate? You're the expert.
    Mr. McLaughlin. Those are all the right points, Mr. 
Secretary. If you're talking about Iran--I think the Secretary 
said it accurately--it's, on this score, a bit schizophrenic. 
You'll find elements of the government that are uncomfortable 
with this, but the prevailing elements in that government are 
tolerant toward terrorists, and there's no question that they 
support, actively, Hezbollah. Hezbollah draws its inspiration 
and origins from Iran, back in the late 1970s, and continues, 
to this day, to be dedicated to the destruction of Israel and 
to receive support from Iran for that purpose.
    Chairman Warner. Senator, I thank you. I thank the 
witnesses. We've had an excellent----
    Yes, Mr. Secretary?
    Secretary Rumsfeld. I apologize, Mr. Chairman. I do want to 
have the record clear. Senator Warner, you and Senator Levin 
were briefed on our global posture----
    Chairman Warner. That is correct----
    Secretary Rumsfeld. --at a breakfast----
    Chairman Warner.--in your office.
    Secretary Rumsfeld. --in my office by me, by the Chairman, 
by Andy Hoehn.
    Chairman Warner. Correct.
    Secretary Rumsfeld. Since then, the committee's 
professional staff have been briefed at least twice. Four or 5 
weeks ago, briefings were conducted for the personal staffs of 
all committee members. There is, and has been, an outstanding 
offer to brief any committee member. We have briefed a 
significant number of Members of the Senate and the House, and 
staffs of not just your committee, but the Appropriations 
Committee, the Armed Services Committee, the Foreign Relations 
Committee, and the MILCON Subcommittees of some House and 
Senate Members. We have made a major effort on the global 
posture because it is a big and important issue; and I would 
not want the record to suggest that those opportunities have 
not been available to staff members, because they have.
    Chairman Warner. I've indicated to you that I verified 
those facts. There has been a complete disclosure by you to the 
Senator and myself and others over the course of time.
    Senator Levin. Mr. Chairman, just to clarify further, I 
thank the Secretary for those briefings that he made reference 
to, including the very general one in his office. However, I 
think it is fair to say that the actual decision that was made, 
the details of it, were not briefed to Members of the Senate, 
were not offered, as is usually the customary courtesy, that, 
prior to an announcement of something of this dimension, that 
Members of the Senate would be offered a briefing of that 
particular decision, to the details that were so critically 
important that were outlined yesterday were not briefed, either 
in your office, as far as I remember, or offered.
    Secretary Rumsfeld. They were briefed, and they were 
offered.
    Senator Levin. The details?
    Secretary Rumsfeld. The details that have been released and 
that we know. We're now at the very beginning of the process of 
going to country after country and deciding, with them, what we 
will do with them, and to what degree will we have usability of 
their forces, but----
    Senator Levin. In which case----
    Secretary Rumsfeld. --there's no question----
    Senator Levin.--in which case, there weren't many details 
yesterday. I guess that's the summary, then.
    Secretary Rumsfeld. There weren't. Because they will roll 
out as each country is dealt with. When one country may be our 
first choice, and we would go to them, try to work out an 
arrangement; if it doesn't work out, we have other options. 
Then we would slide off that and go somewhere else. But the 
broad thrust of it was what we briefed, and what we have 
offered to brief. As I said earlier, we'd be happy to hold a 
hearing on this and give you anything we have.
    Chairman Warner. That opportunity will be given.
    I thank you, Mr. Secretary. I thank you, Director. I thank 
you, General. We've had a very good hearing. We are adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
            problems in the dod in the reprogramming process
    1. Senator Levin. Secretary Rumsfeld, during the hearing we 
discussed the 9/11 Commission's recommendation on giving overall budget 
execution authority for the National Foreign Intelligence Program 
(NFIP) to a new National Intelligence Director (NID), including 
authority for reprogramming funds during the execution of the budget. 
Could you provide any examples where there have been problems within 
the administration within the last 3 years of getting approval to 
reprogram funds in NFIPs?
    Secretary Rumsfeld. The Department has not experienced problems 
getting approval to reprogram funds in NFIP programs. The DOD has not 
opposed any NFIP reprogramming.

            problems in the cia in the reprogramming process
    2. Senator Levin. Director McLaughlin, could you provide any 
examples where there have been problems within the administration 
within the last 3 years of getting approval to reprogram funds to 
correct emergent problems in NFIPs?
    Director McLaughlin. Over the last 3 years, there have never been 
formal written objections by the Secretary or Deputy Secretary of 
Defense to NFIP reprogramming actions. However, significant 
coordination issues occasionally increase the amount of time required 
to obtain concurrence by the OSD and move the transfer request through 
the approval process. For example, in 2002, OSD delayed concurrence for 
an NRO reprogramming action for 6 months to ensure sufficient General 
Transfer Authority would be available for DOD reprogramming actions. 
Eventually Congress appropriated funds for the project in a 
supplemental and NRO withdrew its request.

    3. Senator Levin. Director McLaughlin, during the hearing, you 
mentioned a figure of 5 months as representative of the time that is 
required to obtain approval of an NFIP reprogramming request. Could you 
provide some specific examples of reprogramming actions, including the 
times it took to obtain Department of Defense (DOD), Office of 
Management and Budget (OMB), and congressional approval, that led you 
to this assessment?
    Director McLaughlin. Each reprogramming request is unique, and the 
time required to obtain approval can vary depending on the type of 
reprogramming and the authority under which the action is requested. On 
average, after the programs submit requests, Community Management Staff 
(CMS) and OSD staffing require about a month to coordinate with the 
programs and General Counsel, prepare the transfer documents, and 
obtain approvals. OMB approval generally adds another 2 weeks to the 
process and congressional notification takes up to a month. OSD 
apportionment takes only a couple of days. Generally, the greatest 
delays arise as a result of the staffing process, legal 
interpretations, or debates over offset choices within and among the 
programs, CMS, OSD, and OMB. All in all, reprogramming requests 
requiring congressional notification require approximately 5 months; 
those that do not take between 3 and 4 months.
    CMS works closely with the programs on reprogrammings and 
transfers, even before requests are formally submitted to CMS, so 
specifying the exact amount of time it takes for programs to submit 
reprogramming requests to CMS can be inexact. The staffs also attempt 
to mitigate delays by working concurrently with OSD and OMB 
counterparts while formal approvals are being obtained. This allows the 
staff to address concerns expeditiously and alleviate delays that are 
inherent in the sequential approval process.

                        restructuring checklist
    4. Senator Levin. Secretary Rumsfeld, I am going to list a series 
of recommendations that the 9/11 Commission makes and would appreciate 
your telling the committee whether you agree or disagree with each 
individual recommendation and why:

        <bullet> The National Counterterrorism Center (NCTC) should 
        perform joint planning. The plans would assign operational 
        responsibilities to lead agencies, such as Department of State 
        (State), the Central Intelligence Agency (CIA), the Federal 
        Bureau of Investigation (FBI), Defense and its combatant 
        commands, Homeland Security, and other agencies.

    Secretary Rumsfeld. The DOD has had nearly 20 years of experience 
with ``jointness'' and is proof of how powerful a joint perspective 
driving joint operations can be as evidenced recently in Afghanistan 
and Iraq. I endorse adopting the DOD model (following Goldwater-Nichols 
Act 1986) of centralized planning and decentralized execution for the 
NCTC as a means of improving indications and warning and more 
actionable intelligence in support of the counterterrorism mission. In 
this construct, the NCTC would provide strategic guidance, mission 
parameters, and broad operational concepts to the designated department 
or agency to facilitate operational planning and mission execution. The 
department/agency would develop an operational counterterrorism plan, 
suitable for mission execution with close review by the NCTC. The 
designated department/agency would execute those plans in receipt of an 
executive order from the national authority. Throughout the process of 
operational planning and execution, the NCTC and the designated 
department/agency would be generating intelligence at the strategic and 
operational level thereby ensuring competitive analysis. In addition, 
the operations themselves would be creating new intelligence that in 
the end will enhance our ability to provide indications and warning and 
a better intelligence product to the national command authority and to 
the operator.

        <bullet> The NID should have the authority to reprogram funds 
        among the national intelligence agencies to meet any new 
        priority.

    Secretary Rumsfeld. The NID should have authority to reprogram 
funds among the national intelligence agencies when there is a higher 
priority or unforeseen intelligence requirement. I can't imagine that 
the NID would not want to consult with the head of the department or 
agency head.

        <bullet> Should the President issue a new Executive Order 12333 
        that would give a NID budget execution authority, including 
        reprogramming authority, for DOD intelligence agencies?

    Secretary Rumsfeld. Since the August 17 hearing, the President has 
issued Executive Order 13355, ``Strengthened Management of the 
Intelligence Community,'' which expands the authority of the Director 
of Central Intelligence over reprogramming of intelligence funds. On 
September 8, the White House announced that the President supports 
providing this expanded authority to a newly created NID.

        <bullet> The NID should approve and submit nominations to the 
        President of the individuals who would lead the CIA, Defense 
        Intelligence Agency (DIA), FBI Intelligence Office, National 
        Security Agency (NSA), National Geospatial-Intelligence Agency 
        (NGA), National Reconnaissance Office (NRO), Information 
        Analysis and Infrastructure Protection Directorate of the 
        Department of Homeland Security, and other intelligence 
        capabilities.
        <bullet> Should Congress amend section 201 of title 10 which 
        gives the Secretary of Defense the authority: (1) to nominate, 
        after seeking the concurrence of the Director of Central 
        Intelligence, the Directors of NRO, NGA, and NSA; and (2) to 
        nominate the Director of DIA, after consulting with the 
        Director of Central Intelligence?

    Secretary Rumsfeld. I support the President and his plan to create 
a strong NID.

        <bullet> Lead responsibility for directing and executing 
        paramilitary operations, whether clandestine or covert, should 
        shift to the Defense Department.

    Secretary Rumsfeld. The DOD and the CIA have embarked upon a study 
of this question. The Department will report to the President by 
February 18, 2005.

        <bullet> The NID would manage this national effort [managing 
        the national intelligence program and overseeing the component 
        agencies of the Intelligence Community] with the help of three 
        deputies, each of which would also hold a key position in one 
        of the component agencies.'' (NOTE: The organization chart in 
        the Commission's report implies that these deputies, including 
        the one for Defense, the Under Secretary of Defense for 
        Intelligence, would be responsible for all hiring, training, 
        acquiring, equipping, and fielding of intelligence capabilities 
        within their respective departments.)

    Secretary Rumsfeld. I support the position put forward by the 
President.

  director of central intelligence commenting on public statements of 
                        administration officials
    5. Senator Levin. Director McLaughlin, in responding to my question 
about the difference between the internal intelligence assessment on 
the likelihood that Saddam Hussein would give a weapon of mass 
destruction to terrorists, you said, ``I just don't think it's our job 
to comment on the public statements of the administration or of 
Congress. There are times, as we've explained in the past, when we will 
take someone aside, either a Member of Congress or a member of the 
administration, and quietly tell them there's new information on this 
and I would describe it differently.''
    In an October 7, 2002 letter, the DCI, George Tenet, to Senator Bob 
Graham, Chairman of the Senate Select Committee on Intelligence, said:

          ``Saddam for now appears to be drawing a line short of 
        conducting terrorist attacks with conventional or chemical or 
        biological warfare (CBW) against the United States.
          ``Should Saddam conclude that a U.S.-led attack could no 
        longer be deterred, he probably would become much less 
        constrained in adopting terrorist actions. Such terrorism might 
        involve conventional means, as with Iraq's unsuccessful attempt 
        at a terrorist offensive in 1991, or CBW.
          ``Saddam might decide that the extreme step of assisting 
        Islamist terrorists in conducting a weapons of mass destruction 
        (WMD) attack against the United States would be his last chance 
        to exact vengeance by taking a large number of people with 
        him.''

    But the same day, October 7, 2002, in a speech in Cincinnati, the 
President said:

          ``Iraq could decide on any given day to provide a biological 
        or chemical weapon to a terrorist group or individual 
        terrorists. Alliances with terrorists could allow the Iraqi 
        regime to attack America without leaving any fingerprints.''

    Are you aware of any attempts to inform the President that the 
intelligence assessment of Saddam Hussein sharing weapons of mass 
destruction would likely be done as ``his last chance to exact 
vengeance by taking a large number of people with him'' rather than, 
``on any given day?''
    Director McLaughlin did not respond in time for printing. When 
received, answer will be retained by in committee files.

    6. Senator Levin. Director McLaughlin, in an October 8, 2002, 
interview with the New York Times, Director Tenet said ``there is no 
inconsistency'' between the CIA views in the letter and those of the 
President. Is such a public statement by Director Tenet consistent with 
a policy not ``to comment on the public statements of the 
administration or of Congress?''
    Director McLaughlin did not respond in time for printing. When 
received, answer will be retained by in committee files.

 consolidating personnel and budget control to improve information flow
    7. Senator Levin. Secretary Rumsfeld, Director McLaughlin, and 
General Myers, there apparently was a number of instances where 
components of the Intelligence Community possessed information that 
might have helped other agencies take action before the September 11 
terrorist attacks. The 9/11 Commission has recommended giving a new NID 
control of personnel and budget of the national intelligence program, 
which I assume would equate to the NFIP. A large portion of the NFIP 
funding currently supports organizations that work for both the 
Secretary of Defense and the Director of Central Intelligence.
    One specific example of failure to share information was the CIA's 
failure to share information on the presence of two of the September 11 
plotters with the Immigration and Naturalization Service (INS) or the 
FBI. This was despite the fact that the CIA staff and budget were 
operating under the control of the DCI (the current version of the 
proposed NID). Will each of you indicate if you believe that there are 
currently impediments to sharing data that can only be broken down by 
changing organizational relationships, and if so, what laws need to be 
changed?
    Secretary Rumsfeld. DOD strongly supports improving information 
sharing and supports the President's proposal on this subject.
    Director McLaughlin. [Deleted.]
    General Myers. I do not believe there are currently any impediments 
to sharing information that can only be solved by changing 
organizational relationships. The information-sharing problems we have 
experienced are, for the most part, rooted in cultural bias, not 
structural obstacles.

    8. Senator Levin. Director McLaughlin, is there any reason to 
believe that the CIA's failure to share data with the INS or FBI was 
influenced in any way by the DCI's personnel and budget execution 
control of the CIA?
    Director McLaughlin did not respond in time for printing. When 
received, answer will be retained by in committee files.

    9. Senator Levin. Secretary Rumsfeld, Director McLaughlin, and 
General Myers, are any of you aware of any evidence that DOD agencies 
had unshared data that might have helped prevent any of the September 
11 attacks?
    Secretary Rumsfeld. I am not aware of any evidence that there was 
unshared data in a DOD agency which could have prevented the September 
11 attacks.
    Director McLaughlin. No, CIA is not aware that any of the DOD 
agencies, or for that matter, any U.S. Government entity, had any 
unshared data that might have helped prevent any of the September 11 
attacks. It is likely that CIA, FBI, and NSA all had bits and pieces of 
information that were somehow related to one or more of the 19 
hijackers, but none of that information, even if it had all been 
amalgamated prior to September 11, would have been enough to have 
prevented the September 11 attacks. We still would have been missing 
the answers to the who, what, when, or where questions.
    General Myers. No. I am not aware of any evidence that DOD agencies 
had unshared data that might have helped prevent any of the September 
11 attacks.

 nctc authority to assign operational responsibilities to the military
    10. Senator Levin. Secretary Rumsfeld and General Myers, the 9/11 
Commission recommended the following: ``Lead responsibility for 
directing and executing paramilitary operations, whether clandestine or 
covert, should shift to the Department of Defense. There it should be 
consolidated with the capabilities for training, direction, and 
execution of such operations already being developed in the Special 
Operations Command.'' Tasking for counterterrorism paramilitary 
operations would be from the NID through the National Counterterrorism 
Center (NCTC) to the operational force. The Commission report is silent 
on tasking for paramilitary activities other than on behalf of 
counterterrorism. If the NCTC were to have the authority to ``assign 
operational responsibilities'' to combatant commanders to conduct 
counterterrorist operations, how could we avoid creating conflicting or 
confusing chains of command?
    Secretary Rumsfeld. The shape and functions of the National 
Counterterrorism Center (NCTC) are presently being addressed in 
accordance with the President's existing executive order and the 
Intelligence Reform and Terrorism Prevention Act of 2004 by an 
interagency task force in which DOD is participating. We are also 
addressing the 9/11 Commission's recommendation on paramilitary 
operations under a November 18, 2004, presidential directive for a 
joint review by myself and the Director of the Central Intelligence 
Agency. On both the NCTC and the Paramilitary question, DOD, the CIA, 
and other elements of the interagency are working together closely to 
provide a coordinated set of responses and recommendations to the 
President. As to the suggestion that operational taskings should flow 
directly from the NCTC to the operational force, if the taskings were 
intended for execution by DOD, such a construct would be unacceptable 
due to its infringement on the chain-of-command responsibilities 
inherent to the Department and its military forces.
    General Myers. If the NCTC were to have the authority to ``assign 
operational responsibilities,'' it would violate the chain of command 
and lead to confusion and loss of unity of effort. If the NCTC were to 
have such responsibility, it is imperative that the NCTC recommend any 
requirements for combatant commanders to the Office of the Secretary of 
Defense for Secretary of Defense approval and military advice. This 
would be the only way to keep the chains of command clear.

    11. Senator Levin. Secretary Rumsfeld and General Myers, how would 
a combatant commander resolve conflicting directives from the DOD chain 
of command and from the NCTC? Wouldn't such an arrangement be violating 
the fundamental principal of unity of command?
    Secretary Rumsfeld. Routing all military directives via the Office 
of the Secretary of Defense would mitigate any potential conflicts and 
would ensure unity of command. The Office of the Secretary of Defense 
and the Joint Staff ensure that military advice is provided to the 
President and coordination is effected for all operational directives.
    General Myers. Routing all military directives via the Office of 
the Secretary of Defense would mitigate any potential conflicts and 
would ensure unity of command remains intact. As stipulated by law, the 
military chain of command originates with the President of the United 
States, through the Secretary of Defense to the combatant commanders. 
Furthermore, this arrangement permits the Secretary of Defense to get 
military advice from the CJCS and JCS as well as permits combatant 
commanders to address perceived conflicting guidance directly with the 
Office of the Secretary of Defense without injecting confusion within 
the NCTC.

    12. Senator Levin. Secretary Rumsfeld and General Myers, would the 
President and the Secretary of Defense have to approve each such 
assignment?
    Secretary Rumsfeld. As the principal assistant to the President in 
all matters relating to the Department of Defense, the Secretary of 
Defense would approve the assignment of operational responsibilities to 
combatant commanders in support of counterterrorist operations 
coordinated by NCTC.
    General Myers. As the principal assistant to the President in all 
matters relating to the Department of Defense, the Secretary of Defense 
would approve the assignment of operational responsibilities to 
combatant commanders in support of counterterrorist operations.
    The NCTC should not have command authority and should not inject 
itself in the chain of command by directing commanders to perform 
actions. As suggested by the 9/11 Commission's report, the NCTC will 
likely work through existing government agencies. The 27 August 2004 
executive order directing the establishment of the NCTC states the NCTC 
shall be ``implemented in a manner consistent with the authority of the 
principal officers of agencies as heads of their respective Agencies'', 
and heads of agencies ``shall keep the Director of the Center fully and 
currently informed of [their] activities.'' The declared goal of 
creating NCTC is to strengthen intelligence analysis, strategic 
planning against global terrorist threats and to ensure intelligence 
support to operations.

    13. Senator Levin. Director McLaughlin, what effect would such 
operational assignment authority within the NCTC have on the 
counterterrorist operations of the CIA?
    Director McLaughlin. [Deleted.]

                  lead for all paramilitary operations
    14. Senator Levin. Secretary Rumsfeld and Director McLaughlin, the 
government is currently operating in foreign areas with a clearly 
defined separation of functions between the DOD and the CIA. The CIA is 
responsible for conducting covert action operations, where the 
government has the ability to deny involvement in such activities if 
they are compromised. The DOD is responsible for conducting other 
clandestine or secret operations where the potential revelation of U.S. 
Government involvement would not be so sensitive. Under the current 
system, this possible covert action would be approved through the 
normal executive branch approval process and the President would submit 
a finding to Congress before executing such an operation. Upon approval 
and appropriate notification, the DCI would task the CIA to conduct 
this mission. Under the 9/11 Commission recommendations, the process 
for presidential approval and congressional notification would 
presumably be similar, but the NID would task someone within DOD. It is 
not exactly clear whether the Commission intends that the tasking would 
be to the Secretary of Defense or directly to the Special Operations 
Command or to one of the combatant commanders. Then forces working for 
the Special Operations Command or forces working for the combatant 
commander would execute the mission. I would like to ask each of you, 
do you agree that this is the way such operations would be changed?
    Secretary Rumsfeld. I do not support direct taskings of U.S. 
Special Operations Command or any other combatant command outside the 
channels constituted by the legally prescribed chain of command which 
runs from the President, through the Secretary, to those commanders. 
Current statutes and the military chain of command preclude direct 
tasking of the U.s. Special Operations Command or any other combatant 
command by the National Counterterrorism Center (NCTC) or the Director 
for National Intelligence.
    Director McLaughlin did not respond in time for printing. When 
received, answer will be retained by in committee files.

    15. Senator Levin. Secretary Rumsfeld and Director McLaughlin, do 
you believe it would be appropriate, and consistent with our 
obligations under the Geneva Conventions, for U.S. military personnel 
to become involved in conducting covert operations pursuant to 
presidential findings?
    Secretary Rumsfeld. Pending the completion of the presidentially 
directed study on the 9/11 Commission paramilitary recommendation, it 
would be inappropriate for me to comment.
    Director McLaughlin did not respond in time for printing. When 
received, answer will be retained by in committee files.

    usd(i) reporting to national intelligence director rather than 
                          secretary of defense
    16. Senator Levin. Secretary Rumsfeld, Director McLaughlin, General 
Myers, and Under Secretary Cambone, the 9/11 Commission recommends that 
the new NID should approve and submit the nomination to the President 
for the Under Secretary of Defense for Intelligence, who would then 
report to the NID. Currently the Under Secretary of Defense for 
Intelligence is recommended by, and reports to, the Secretary of 
Defense. I'd like to ask each of you, what are the pros and cons of 
having the Under Secretary of Defense for Intelligence selected by and 
reporting to the NID, vice the Secretary of Defense, and do you agree 
with this recommendation?
    Secretary Rumsfeld and Secretary Cambone. The position of the Under 
Secretary of Defense for Intelligence was created by law (section 137 
title 10) to be the principal staff assistant and advisor to the 
Secretary of Defense and Deputy Secretary of defense on intelligence-
related matters, counterintelligence and security. I support the 
President's position on this subject.
    Director McLaughlin. While it may be implicit in the context of its 
recommendations for appointing the other two Deputy NIDs for Foreign 
and Homeland Intelligence, the 9/11 Commission report does not 
explicitly spell out who would approve and submit the nomination of the 
Deputy NID for Defense Intelligence (the USD(I)). But the commission is 
clear in making the point that the three Deputy NIDs would also hold 
key positions in their component department or agency. So even if the 
NID were to ``approve and submit'' the nomination for the USD(I), the 
Secretary of Defense would still play a major role in selecting this 
official. The fundamental problem with the proposal is less a question 
of who appoints the three deputies than it is of potential for conflict 
inherent in a situation where officials are asked to wear two hats.
    While I understand the commission's position, I do not support the 
recommendation. One of the reasons behind the commission's proposal to 
create an NID was the judgment that the Director of the CIA wears too 
many hats. Creating a structure where key intelligence officials also 
wear departmental hats is, I believe, the wrong approach. Even more 
important in my view, the Deputy NIDs as proposed by the commission, 
would constitute an unnecessary layer of management interposed between 
the NID and the heads of the major IC agencies. To be effective in 
today's environment, the NID needs to be able to direct and guide the 
activities of the CIA, DIA, NGA, NRO, NSA, and other agencies. Placing 
a deputy layer between the NID and those agency heads would actually 
have an effect opposite to the one the commission intended.
    General Myers. The Under Secretary of Defense for Intelligence is a 
key member of the Secretary's staff. It is not clear how an official in 
this position would be selected by someone other than the Secretary. I 
do not agree with this recommendation.

    17. Senator Levin. Secretary Rumsfeld and General Myers, would you 
have concerns about inserting the Under Secretary of Defense into the 
chain of command for tasking the intelligence activities within the 
Department of Defense?
    Secretary Rumsfeld. In current law, the Secretary of Defense has 
the authority to task collection elements within the Department of 
Defense. In practice, the Under Secretary generally does not engage in 
the day-to-day operations within the Defense Intelligence Community. 
USD(I) serves as the staff assistant and advisor to the Secretary and 
Deputy Secretary of Defense, and has as a principal duty the overall 
supervision of all intelligence and intelligence-related affairs of the 
Department of Defense. These responsibilities and functions do not 
equate to being engaged in the substantive side of tasking, processing, 
exploiting, ad disseminating intelligence.
    General Myers. The Under Secretary of Defense for Intelligence is a 
vital staff position. As a principal of the Secretary's staff and a key 
figure in the policy process, USD(I) clearly has intelligence needs 
that must be supported; however, this position is not in the military 
operational chain of command nor should it be.

        revealing sources and compromising intelligence missions
    18. Senator Levin. Director McLaughlin, press accounts suggest that 
revealing the name of the Pakistani individual who was cooperating with 
U.S. officials searching for al Qaeda operatives compromised the 
mission after the public disclosure of his name. Is that an accurate 
impression?
    Director McLaughlin. [Deleted.]

    19. Senator Levin. Director McLaughlin, a USA Today article from 
August 10, 2004, quotes National Security Adviser Condoleezza Rice as 
saying that the name of the individual had been disclosed to reporters 
in Washington ``on background.'' Should the name of any such 
cooperating individual be released under any circumstances?
    Director McLaughlin did not respond in time for printing. When 
received, answer will be retained by in committee files.

    20. Senator Levin. Director McLaughlin, were you asked and did you 
approve the decision to reveal the source's name publicly or on 
``background'' to a reporter?
    Director McLaughlin. No, the DDCI was not asked to approve the 
decision to reveal the source's name publicly or ``on background'' to a 
reporter.

   effect of a national intelligence director on competitive analysis
    21. Senator Levin. Director McLaughlin, during the development of 
the National Intelligence Estimate (NIE) on Iraq's WMD capabilities, 
which was prepared prior to the war and which proved to be so 
inaccurate in its judgments, a number of intelligence analysts in the 
U.S. Government held views that differed from the prevailing CIA view. 
Notable examples of this include the Department of Energy and State 
Department Intelligence and Research Bureau (INR) assessments on 
whether the now-famous aluminum tubes were intended for centrifuges, 
and the Air Force Intelligence Agency assessment of whether Iraqi 
unmanned aerial vehicles were intended to deliver WMD. Both of these 
differing assessments have been validated since, but were overruled by 
the CIA in developing the NIE. The 9/11 Commission recommends 
consolidating control and budgeting responsibility for national 
intelligence activities under a new NID. If Congress were to give a 
National Intelligence Director that authority, what steps should we 
take to encourage competing analyses and ensure differing views and 
debate within the Intelligence Community to improve the quality of our 
intelligence?
    Director McLaughlin. The views of the Department of Energy and INR 
were fully presented in the NIE on Iraq's WMD.
    Striking a balance between greater centralization of authority, 
including authority over resources, while retaining healthy competitive 
analysis, is one of the critical issues in intelligence reform. Almost 
every committee (or commission) that has looked into this matter has 
come out in favor of greater authority at the center of U.S. 
intelligence, whatever the title of the official occupying that center. 
At the same time, these same studies and proposals have warned against 
the danger of ``group think.''
    There is a major difference between empowering an individual to 
give central direction to the Intelligence Community and allowing that 
individual to impose his or her views on the community. No one is 
suggesting the latter formulation. There must always be a healthy 
competition of views on major issues. 
    Encouraging competitive analysis and ensuring differing views will 
involve one part  internal mechanisms such as analytic training that 
emphasizes personal integrity; management that fosters competitive and 
alternative analyses; and the willingness to ``tell it like we see it'' 
to policymakers, along with effective evaluation and ``lessons 
learned'' mechanisms--and one part active oversight in both the 
executive and legislative branches. One key component of oversight will 
be an active effort to ensure that objectivity remains the cornerstone 
of any and all analytic efforts.

    22. Senator Levin. Director McLaughlin, what steps should be taken 
to ensure that the Intelligence Community provides independent, 
objective, and accurate analyses?
    Director McLaughlin. Again, we start with a sense of the values of 
the profession, the first of which is that our job is to provide 
accurate, timely information because our national security is dependent 
on it as are the lives of the American people we serve. We must 
continue to train our employees on the centrality of this mission from 
their first day on the job, and we must continue to emphasize this, in 
word and in deed, throughout their careers. Beyond that we can build 
internal mechanisms to reinforce this sense of integrity. We need the 
benefit of active external oversight to ensure that we are always 
meeting our standards in this area.

    23. Senator Levin. Director McLaughlin, would consolidation of 
budget control of most of the intelligence analysts, as well as hiring 
and firing authority over national intelligence agency leaders under a 
single official, support or hurt this aim?
    Director McLaughlin. We simply must accept one basic fact: One 
consequence of consolidating budget control, along with personnel 
(hiring and firing) over the entire community in the hands of a single 
official will be the need for active, ongoing efforts to ensure that a 
desirable consolidation on the resource side does not make inevitable 
the homogenization of analysis or of analytic perspectives. I emphasize 
the word ``ongoing;'' this cannot be a ``set it and forget it'' 
approach to the processes that ensure that honest, competitive analysis 
remains the hallmark of U.S. intelligence.

          dci authorities compared to nid authorities (budget)
    24. Senator Levin. Director McLaughlin, the 9/11 Commission has 
recommended giving a new NID sole responsibility for budgets of the 
national intelligence agencies. As I understand the process now, the 
DCI is responsible for developing and submitting the budget for the 
NFIP to the President, but, since Executive Order 12333 confers 
authority for fiscal management for the DOD combat support agencies to 
DOD, the DCI would have to obtain the concurrence of the Secretary of 
Defense before requesting OMB approval of any reprogrammings involving 
the DOD combat support agencies. If the Commission's recommendations 
were implemented, would this change in reprogramming authority be the 
principal difference between the DCI's current budgeting authority and 
what the budgeting authority of the NID would be?
    Director McLaughlin. No, other changes would be necessary to 
enhance the DCI's or NID's authority over the NFIP budget to address 
the recommended actions of the 9/11 Commission. The DCI or the NID 
would need:

        <bullet> Authority to decide independently the content of the 
        NFIP budget request to the President. In the past, the DCI, 
        under the National Security Act, had the authority to 
        ``develop'' the NFIP budget, but Secretary of Defense approval 
        was needed to incorporate DCI decisions into the Defense budget 
        before submission to the President, and ultimately, to 
        Congress. The President recently gave this authority to the DCI 
        in Executive Order 13355.
        <bullet> Authority to manage the allocation of enacted 
        appropriations to Intelligence Community components. Making 
        appropriations for the NFIP to a single appropriation to be 
        allocated by the DCI, after apportionment by OMB, would further 
        enhance the NID's ability to control the NFIP budget.
        <bullet> Authority to transfer appropriations or personnel 
        within the NFIP without the approval of the Secretary of 
        Defense or any other head of a department with NFIP resources. 
        The National Security Act currently requires that the head of 
        the affected department(s) ``not object'' to transfers.

    The President's proposal would provide the NID:

        <bullet> Authority to decide independently the content of the 
        NFIP budget request to the President.
        <bullet> Authority to manage NFIP appropriations through the 
        comptrollers of cabinet departments.
        <bullet> Authority to transfer appropriations after 
        consultation with the Secretary of Defense or any other head of 
        a department with NFIP resources.

    The President's proposal also would prevent disclosure of the total 
amount of intelligence funding. 

    25. Senator Levin. Secretary Rumsfeld, what would the consequences 
for DOD be of giving the new NID the authority to reprogram funds out 
of DOD programs and activities without the approval of the Secretary of 
Defense?
    Secretary Rumsfeld. My understanding is that NID authority to 
reprogram funds would be for designated programs, not all DOD programs, 
and would be after appropriate consultation with the Secretary of 
Defense.

    26. Senator Levin. Secretary Rumsfeld and Director McLaughlin, who 
would resolve any potential conflict between supporting DOD 
requirements and supporting broader requirements of decisionmakers and 
other agencies?
    Secretary Rumsfeld. Under the President's proposal, the NID.
    Director McLaughlin. It is not yet certain what the authorities of 
the proposed NID will be. Under current law (section 103 of the 
National Security Act), the DCI establishes the requirements and 
priorities to govern the collection of national intelligence by 
Intelligence Community elements. He also approves collection 
requirements, determines collection priorities, and resolves conflicts 
in collection priorities levied on national collection assets, except 
as otherwise agreed with the Secretary of Defense pursuant to the 
direction of the President. The new Executive Order on intelligence (EO 
13355) contains similar language. 
    It seems likely that the NID will have at least as much authority 
as the DCI currently has in this area. It also bears noting that, as a 
practical matter, the DCI and the Secretary of Defense have always been 
able to work out their differences over the tasking of national 
collection assets, and have never had to refer such a dispute to the 
President for resolution.

        dci authorities compared to nid authorities (personnel)
    27. Senator Levin. Director McLaughlin, as I understand the process 
now, the Secretary of Defense must obtain the concurrence of the DCI in 
appointing anyone to head the NSA, the NRO, or the NGA. For the head of 
the DIA, the Secretary must only consult with the DCI on that 
appointment. The 9/11 Commission has recommended giving a new NID sole 
responsibility for hiring and firing of leaders of the national 
intelligence agencies, including the head of DIA. Is there any 
indication that the heads of the DOD combat support agencies have been 
unresponsive to the direction or tasking of the DCI?
    Director McLaughlin. First of all, I would note that the ``combat 
support'' agencies are national intelligence agencies. The inclusion of 
the word ``national'' in the names of the three agencies was not an 
accident; it clearly signaled the intent of Congress, and the 
administration at the time of their formation, that a principal role of 
NGA, NRO, and NSA was to support the national intelligence mission as 
defined by the National Security Council and carried out by the DCI. 
Although the NRO is not a combat support agency and NSA is not a combat 
support agency for all purposes, each agency has a combat support role, 
a function that becomes primary when U.S. forces are engaged in combat 
operations and combat support becomes, in effect, the highest national 
intelligence priority. Non-DOD agencies, notably the CIA, also have 
combat support roles that they have always carried out with 
distinction.
    In my view, the Directors of NGA, NRO, and NSA do an excellent job 
of balancing their national missions with their combat support 
functions. They all have resources in the DOD, JMIP, and TIARA programs 
that help them respond to specific tactical needs, but a considerable 
portion of their national programs is used to support the military as 
well.
    The ability of these agencies to successfully carry out both sets 
of responsibilities does mean that serving two masters is the ideal way 
to operate. NGA, NRO, and NSA must participate in strategic planning, 
program and budgeting, requirements definition, and policy development 
processes in both the Intelligence Community and the Department of 
Defense. While we have made efforts to minimize redundancy where 
possible, the fact remains that the agency heads now must respond to 
two bosses, with all the potential for redundancy and conflict that 
entails. Establishing a strong NID would help to reduce this redundancy 
and conflict, thereby minimizing overhead and enabling these agencies 
to devote more of their resources to both the national and military 
support missions.

    28. Senator Levin. Secretary Rumsfeld and General Myers, do you 
have concerns about any effects on support to military operations or 
otherwise of transferring this authority (particularly for DIA) to a 
new NID?
    Secretary Rumsfeld. I support the President's proposals.
    General Myers. At this stage of the intelligence reform process, 
without knowing or working out all the necessary agreements between the 
Department of Defense and the NID that establish intelligence support 
priorities, it is difficult to address all concerns. In broad terms, 
every commander requires timely and accurate intelligence to support 
decisionmaking across all missions, ranging from combat to theater 
security cooperation. Regardless of the final Intelligence Community 
structure, combatant commanders must have the ability to influence 
national intelligence priorities and intelligence asset allocation. Any 
initiative or reform that creates gaps between the intelligence 
agencies or that dilutes the DOD's ability to influence intelligence 
resource allocation and prioritization of intelligence efforts or 
removes and/or transfers senior DOD intelligence analysts outside of 
the Department causes me concern because of the impact on the 
warfighter and the ability to successfully execute the mission.

    29. Senator Levin. Secretary Rumsfeld and General Myers, do you 
believe there is a way to do so and still ensure that military 
requirements for intelligence are satisfied?
    Secretary Rumsfeld. I support the President's proposals.
    General Myers. The heads of defense intelligence agencies are 
properly appointed by the Secretary of Defense. Current statute 
requires DCI concurrence for the appointments of the heads of the NSA, 
NGA, and the NRO. Appointment of the Director of the DIA requires 
consultation. We have worked very hard for a number of years to develop 
synergy from integrating defense and national requirements and 
activities. Over these years, a reasonable state of balance has been 
achieved between defense and national requirements. As combat support 
agencies in the Secretary of Defense chain of command, military 
requirements receive an emphasis that could be lost under an alternate 
arrangement.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton
                 presidential ``shoot-down'' authority
    30. Senator Dayton. General Myers, was the presidential shoot-down 
request withheld from the pilots by the Northeast Air Defense Sector, 
as identified on page 43 of the 9/11 Commission report?
    General Myers. The pilots were not informed of the presidential 
engagement authority. However, direct, positive command and control was 
maintained between the commanders and the pilots at all times on 
September 11, 2001, and the authority would have immediately been 
relayed had there been a target.

    31. Senator Dayton. Secretary Rumsfeld, was there an investigation 
into the decision not to forward this order to the pilots? If an 
investigation or after-action review was conducted, identify the 
investigation/review officer and provide a written copy of the report 
to the committee for review.
    General Myers. No, an investigation was not required and therefore 
not conducted into the decision regarding forwarding presidential 
engagement authority to the pilots.

    32. Senator Dayton. Secretary Rumsfeld, a statement on page 17 of 
the 9/11 Commission report indicates that the Defense Department and 
National Command Authority considered the need to shoot down a 
commercial airliner prior to September 11, 2001:

        ``Prior to September 11, it was understood that an order to 
        shoot down a commercial aircraft would have to be issued by the 
        National Command Authority (a phrase used to describe the 
        President and Secretary of Defense). Exercise planners also 
        assumed that the aircraft would originate from outside the 
        United States, allowing time to identify the target and 
        scramble interceptors. The threat of terrorists hijacking 
        commercial airliners within the United States--and using them 
        as guided missiles--was not recognized by North American Air 
        Defense Command (NORAD) before September 11.''

    Did NORAD conduct exercises or develop scenarios, prior to 
September 11, 2001, to test a military reaction to an aircraft 
hijacking which appeared destined to result in a suicide crash into a 
high-value target? If so, identify the five exercises conducted on, or 
immediately prior to September 11, 2001; include dates, participants, 
scenario, and synopsis of exercise results.
    General Myers. Prior to September 11, 2001, NORAD exercises were 
not designed to exercise or develop procedures to shoot down civilian 
airliners. Pre-September 11 exercises were designed to practice command 
and control procedures, rules of engagement, external agency 
coordination and hijack shadow and/or escort procedures.
    The following five exercise hijack events included a suicide crash 
into a high-value target. Synopses of exercise results are not 
available. They were discarded in accordance with DOD directives.

  Exercise Name: Vigilant Guardian 01-1
  Exercise Date: 23 Oct 00
  Participants: HQ NORAD/Continental U.S. NORAD Region (CONR)/Sectors
  Scenario: Weapons of Mass Destruction directed at the United 
        Nations--an individual steals a Federal Express aircraft and 
        plans a suicide attack on the United Nations Building in New 
        York City.
  Synopsis of actions: Conducted an interception, exercised command and 
        control and coordinated with external agencies.

  Exercise Name: Vigilant Guardian 01-1
  Exercise Date: 16 Oct 00
  Participants: HQ NORAD/Cheyenne Mountain Operations Center/CONR/
        Canadian NORAD Region/Sectors
  Scenario: Due to recent arrests involving illegal drug trafficking in 
        Maine, an individual steals a Federal Express plane and plans a 
        suicide attack into the United Nations Building in New York 
        City.
  Synopsis of actions: Exercised command and control, coordinated with 
        external agencies and followed hijack checklists.

  Exercise Name: Falcon Indian 99-3
  Exercise Dates: 5 Jun 00
  Participants: CONR/Sectors
  Scenario: Learjet hijacked maintaining tight formation with Canadair 
        airliner, loaded with explosives. Learjet planned to crash into 
        the White House.
  Synopsis of actions: Exercised command and control, coordinated with 
        external agencies and followed hijack checklists.

  Exercise Name: Falcon Indian 00-1
  Exercise Dates: 5 Jun 00
  Participants: CONR/Sectors
  Scenario: Communist party faction hijacks aircraft bound from western 
        to eastern United States. High explosives on board. Intends to 
        crash into the Statue of Liberty.
  Synopsis of actions: Cross-sector hand over. Exercised command and 
        control, coordinated with external agencies and followed hijack 
        checklists. Federal Aviation Administration requested 
        assistance.

  Exercise Name: Falcon Indian 00-1
  Exercise Date: 6 Nov 99
  Participants: CONR/Sectors
  Scenario: China Air from Los Angeles to JFK airport hijacked east of 
        Colorado Springs by five terrorists. If not intercepted, 
        intends to crash into United Nations building.
  Synopsis of actions: Cross-sector hand over. Exercised command and 
        control, coordinated with external agencies and followed hijack 
        checklists.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
      questions from the survivors of the victims of september 11
    33. Senator Clinton. Secretary Rumsfeld and General Myers, before 
today's Armed Services Committee hearing, I attended a hearing of the 
Senate Governmental Affairs Committee where representatives of the 
September 11 families testified about the 9/11 Commission report. 
Specifically the Governmental Affairs Committee heard testimony from 
Mary Fetchet, the Founding Director, Voices of September 11 and Member, 
Family Steering Committee; Stephen Push, Co-Founder and Board Member, 
Families of September 11; and Kristen Breitwieser, Founder and Co-
Chairperson, September 11 Advocates Member, Family Steering Committee. 
During that hearing, I asked the family representatives if they wanted 
me to ask you any questions during the hearing. They asked me to convey 
the following questions to you.
    One family member stated it is unacceptable for the Department of 
Defense to claim it cannot both take care of the boots on the ground as 
well as reorganize their departments to be more effective, because al 
Qaeda and other terrorist groups are doing a thousand things at once. 
How would you respond to that concern?
    Secretary Rumsfeld. The DOD has not taken such a position. To the 
contrary, that family member should be reassured that we are doing 
things simultaneously every day. We are deploying military forces to 
fight and win the global war on terrorism, we are transforming 
departmental organizations and capabilities to deal with the threats of 
the 21st century, and we are devoting extraordinary energy and 
resources to support the training, protection, health, welfare, and 
morale of the heroic men and women in uniform that so diligently serve 
their nation. I view these efforts as inseparable and mutually 
supporting. Each is a necessary component of and adjunct to the others.
    General Myers. It is a fundamental responsibility of the Department 
of Defense to take care of servicemembers and their families while 
meeting our security obligations and ensuring we are prepared for the 
future. The Department dedicates the appropriate level of effort to 
every aspect of these responsibilities. This includes improving quality 
of life for families and assisting them in dealing with the demanding 
operational tempo of their servicemembers. It also includes ensuring 
that members of the military receive the best possible training and 
equipment available. At the same time, we are involved in an extensive 
effort to transform departments to be more effective. This effort is 
designed to prepare us to better succeed in the challenges we face 
today while ensuring the U.S. military is ready for the security 
challenges of the future.

    34. Senator Clinton. Secretary Rumsfeld and General Myers, another 
family member asked you to imagine there is a NID as proposed by the 
Commission--what assurances does the Department of Defense need to be 
secure that the existence of a NID won't negatively effect military 
operations?
    Secretary Rumsfeld. DOD must have the authority and capability to 
conduct or task, and to receive all-discipline information (HUMINT, 
SIGINT, GEOINT, etc.) and to return all-source analysis to support 
defense needs, including military operations.
    General Myers. The Department of Defense relies extensively on 
national assets for the planning and execution of military operations. 
In an era with a NID, the Department needs processes and procedures 
that ensure the NID plans and budgets for those assets (material and 
manpower) required for military operations and operates them against 
priorities that support military planning and operations, including 
future threats that U.S. forces might someday face. We have worked hard 
over the years to ensure a mutually supportive relationship between the 
Secretary of Defense and the DCI. We must ensure this rapport is not 
harmed.

    35. Senator Clinton. Secretary Rumsfeld and General Myers, another 
family member asked for an explanation of the protocols for the 
military and NORAD on September 11 with respect to the hijackings. Can 
you provide a description of NORAD's reaction on September 11?
    Secretary Rumsfeld. In accordance with Department Defense 
directives in effect on September 11, NORAD was to monitor and report 
the actions of any hijacked aircraft, as requested by the Federal 
Aviation Administration. We had procedures for potential air 
hijackings, which were based on the premise that a hijacked aircraft 
would be used for ransom or political purposes, not as a weapon.
    General Myers. On the morning of September 11, NORAD was conducting 
a command post exercise and was postured for ``wartime conditions.'' 
Six minutes prior to the first attack on the World Trade Center, the 
Federal Aviation Administration informed NORAD of potential hijack of 
American Airlines Flight 11. Throughout the attacks of September 11, 
NORAD responded by launching fighter aircraft and instituting airspace 
controls. Immediately after the attacks, armed fighters flew around-
the-clock air patrols. Within a 24-hour period, NORAD had over 400 
aircraft airborne and on ground-based alert to prevent additional 
attacks.

                            dod intelligence
    36. Senator Clinton. Secretary Rumsfeld and General Myers, although 
the 9/11 Commission largely focuses on national and strategic 
intelligence, tactical intelligence for military personnel on the 
ground and coordination among agencies to capitalize on that 
intelligence is also critical to winning the global war on terrorism. 
The 9/11 Commission report details the issues surrounding the use of 
the Predator unmanned aircraft to strike Osama bin Laden during the 
March to September 2001 timeframe. What caused the confusion that 
existed among CIA, OSD, and the Air Force regarding the authority to 
strike Osama bin Laden (detailed on pages 210-212 of the 9/11 
Commission report)?
    Secretary Rumsfeld. The 9/11 Commission report cites interviews 
with U.S. Government officials regarding discussions of the Predator 
during the March-September 2001 timeframe. Two main interagency policy 
issues arose regarding use of an armed version of the Predator, then in 
development: (1) whether DOD or CIA was liable for the costs associated 
with the operation, and (2) whether DOD or CIA should operate the 
system and other employment considerations (Was it legal to kill Osama 
bin Laden? Who would authorize strikes? Who would pull the trigger?).
    General Myers. There appears to be a slight factual 
misunderstanding concerning this timeframe, since no armed Predators 
were in Afghanistan during March to September (armed Predators were 
being modified and tested through the summer of 2001). However, the 9/
11 Commission report accurately captures the dynamic environment within 
the National Security Council during spring and summer 2001 as policy 
options were explored to counter the al Qaeda threat. The Air Force was 
already in the early stages of developing an armed Predator and had 
their first missile launch from a Predator in February 2001. As this 
technology was proving to be promising, CIA was considering the 
desirability of deploying this capability as soon as it was viable. 
While the technology was being developed and tested, the policy 
direction was being evaluated and crafted. As Director Tenet stated, 
``this was new ground,'' and there were serious policy and statutory 
issues to reconcile. The open discourse and range of opinions captured 
in the 9/11 Commission report reflect a robust policy development forum 
for use of a new technology rather than confusion. There were no missed 
opportunities by unmanned Predators to strike Osama bin Laden during 
the period of policy resolution as the armed Predators were not yet 
ready for deployment.

    37. Senator Clinton. Secretary Rumsfeld and General Myers, is there 
a clear determination on how this operation would happen if the 
opportunity presented itself again today?
    Secretary Rumsfeld. Yes. By August 2002, a more detailed Concept of 
Operation and Memorandum of Agreement were established between DOD and 
CIA that resolve the lines of authority and implement decisionmaking on 
armed Predator operations.
    General Myers. If the opportunity to strike Osama bin Laden 
presented itself today where we have military forces deployed, we have 
clear authority to act.

    38. Senator Clinton. Secretary Rumsfeld and General Myers, are 
there clear rules of engagement and release authority for striking 
other targets that need immediate approval authority?
    Secretary Rumsfeld. Yes, there are clear rules of engagement and 
release authority for striking other targets that need immediate 
approval authority.
    General Myers. Yes. Combatant commanders (CBTCDRs) have been 
provided clear rules of engagement (ROE) and release authority to 
strike emerging and/or time sensitive targets. In broad terms, ROE 
promulgated to the CBTCDRs:

          1. Clearly establishes the identity of hostile forces.
          2. Identifies what type of force and/or weapons are 
        authorized for use.
          3. Identifies categories of targets and authorizes strikes 
        against those targets.
          4. Identifies areas of operation.
          5. Defines high collateral damage targets and restrictions 
        against those targets (if any).

    [Deleted.] 

    39. Senator Clinton. Secretary Rumsfeld and General Myers, near the 
end of major combat operations in Afghanistan it appeared as if Osama 
bin Laden was restricted to the Tora Bora mountains and possibly within 
our grasp. Did readily available intelligence get to the soldiers on 
the ground quickly to possibly assist them in his capture or were there 
problems with the tactical intelligence provided to our forces that 
helped him escape?
    Secretary Rumsfeld. Joint Task Forces conducting combat operations 
routinely utilize all intelligence data provided by both defense and 
national intelligence entities. These range from tactical 
reconnaissance data gathered by maneuver forces, to DOD airborne ISR 
platforms, to geospatial and other overhead collection capabilities. 
DOD has made significant strides in recent years in ensuring that 
tactically relevant data, from both defense and national sources, is 
pushed to the lowest echelon of military units as rapidly as possible, 
and many of those capabilities were employed in the Tora Bora operation 
(e.g. live overhead video feeds of the tactical engagements were used 
by multiple tactical consumers across the depth of the battlespace). 
While we acknowledge that more work needs to be done to make this 
intelligence sharing and distribution even more robust in the future, 
there is no reliable way for DOD to calculate whether the survival of a 
given combatant is a direct or indirect result of a particular 
intelligence shortfall. Tactical engagements, particular ground combat, 
are far too chaotic and complex for such links to be drawn.
    General Myers. At that point in our Afghanistan operations, all-
source intelligence reports gave us a high level of confidence that 
Osama bin Laden was in the Tora Bora area; however, his presence there 
was never confirmed. Tora Bora quickly became CENTCOM's main 
operational effort and the primary focus of all national, DOD and 
CENTCOM intelligence collection and reporting. From CENTCOM's Tampa 
headquarters, CENTCOM J-2 and J-3 operated a co-located operations and 
intelligence fusion cell that provided direct and continuous support to 
the forces deployed in the Tora Bora area. Intelligence fusion was 
facilitated by interagency, special operations, and other government 
agency representation in the Tampa cell that was reporting directly to 
the commanders on the ground in Tora Bora. Intelligence dissemination 
to U.S. forces was continuous and direct, bypassing other layers of 
command in order to enhance the agility of the warfighter.
                                 ______
                                 
 Questions Submitted by Senators Mark Dayton and Hillary Rodham Clinton
                  norad's performance on september 11
    40. Senator Dayton and Senator Clinton. Secretary Rumsfeld, we have 
a question posed by April Gallop, a September 11 survivor, that we 
would like answered for this hearing's record. Your testimony on August 
17, 2004, indicates the North American Air Defense Command's mission 
structure on September 11, 2001, was designed to defend our country 
from external threats. Was an investigation or after-action review 
conducted regarding NORAD's activities/actions on September 11, 2001? 
If an investigation or after-action review was conducted, identify the 
date of investigation, the investigating/review officer, and provide a 
written copy of the report to the committee for review.
    Secretary Rumsfeld. The Department of Defense did not conduct an 
after-action review regarding NORAD's actions on September 11, 2001. 
However, during the course of the 9/11 Commission's investigation, 
NORAD provided thousands of documents and numerous personal accounts of 
NORAD's response to the terrorist attacks. In the aftermath of 
September 11, NORAD has strengthened its ability to detect, assess, 
warn, and defend against threats to North America. Today, NORAD forces 
remain at a heightened readiness level. Pilots fly irregular air 
patrols over metropolitan areas and critical infrastructure facilities. 
NORAD has partnered with the FAA to enhance its ability to monitor air 
traffic within the interior of the country. We have established a 
system of conference calls to facilitate the sharing of information 
among the White House, DOD, FAA, U.S. Customs, and law enforcement 
agencies. In addition, the President and the Secretary of Defense have 
approved rules of engagement to deal with hostile acts within domestic 
airspace.

    41. Senator Dayton and Senator Clinton. General Myers, who was held 
accountable for NORAD's inability to effectively respond to the airline 
hijackings and FAA response requests?
    General Myers. The military chain of command is accountable for 
NORAD's actions on September 11. However, no disciplinary measures are 
warranted. Prior to September 11, NORAD's aerospace warning and control 
missions were oriented and resourced to detect and identify all air 
traffic entering North American airspace. On the morning of the 
attacks, existing rules of engagement provided no guidance for civilian 
aircraft participating in, or with clear intent to participate in, an 
attack against our Nation. As the September 11 attacks unfolded, NORAD 
responded immediately with fighters and appropriate airspace control 
measures. Unfortunately, due to late notification and the constraints 
of time and distance, they were unable to influence the tragic 
circumstances.

    [Whereupon, at 2:35 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
